d
No. ________
IN THE

Supreme Court of the United States
NIKKO A. JENKINS,

Petitioner,

—v.—

STATE

OF

NEBRASKA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NEBRASKA

PETITION FOR A WRIT OF CERTIORARI

Brian W. Stull
Cassandra Stubbs
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
201 W. Main Street, Suite 402
Durham, NC 27701
Amy A. Miller
ACLU OF NEBRASKA
FOUNDATION
134 S. 13th St. #1010
Lincoln, NE 68508
Thomas C. Riley
DOUGLAS COUNTY PUBLIC
DEFENDER
1819 Farnam Street
H05 Civic Center
Omaha, NE 68183

David D. Cole
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
(212) 549-2500
dcole@aclu.org
Jennesa Calvo-Friedman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

**CAPITAL CASE**
QUESTIONS PRESENTED
Severely mentally ill since the age of eight, Nikko
Jenkins was imprisoned in Nebraska for armed
robbery at age seventeen. He was held in solitary
confinement for nearly five years—including for more
than two years immediately preceding his release.
He exhibited severe mental illness and selfmutilation in solitary confinement, and repeatedly
sought assistance, including requests that he be
civilly committed as a danger to others rather than
released. The State ignored his pleas, and released
him directly from solitary confinement to the
community, without any assistance or transition.
Within three weeks of release, he killed four people.
He was subsequently convicted and sentenced to
death, under a Nebraska law that authorizes a panel
of judges, rather than a jury, to make factual
findings necessary to impose a sentence of death.
The questions presented are:
(1) Whether the sentencing court violated the
requirement of the Eighth and Fourteenth
Amendment that capital sentencers give meaningful
consideration and effect to all mitigating evidence,
when it categorically refused to consider the impact
of prolonged solitary confinement and the State’s
inadequate response, because it concluded that the
solitary confinement was warranted.
(2) Whether a capital sentencing scheme that
requires a jury to find aggravating factors, but
authorizes judges, rather than a jury, to make all
further factual findings necessary to the imposition
of a sentence of death, violates the Sixth and
Fourteenth Amendments to the Constitution.

i

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF AUTHORITIES ....................................... v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ...................................... 1
INTRODUCTION ....................................................... 4
STATEMENT OF THE CASE .................................... 5
REASONS FOR GRANTING THE PETITION ....... 15
I.

THE PANEL’S CATEGORICAL REFUSAL TO
CONSIDER AS MITIGATING EVIDENCE
JENKINS’ FIFTY-EIGHT MONTHS OF
SOLITARY CONFINEMENT AND THE
DELETERIOUS EFFECTS ON HIS MENTAL
STATE VIOLATED THE EIGHTH
AMENDMENT. ................................................. 15
A.

Refusing to Consider the Effects of Solitary
Confinement as Mitigating Evidence Flouts
This Court’s Directives Regarding
Mitigation. .................................................. 15

B.

The Nebraska Courts’ Failure to Consider
the Effects of Prolonged Solitary
Confinement Defies the Widespread
Consensus that Such Treatment Has
Debilitating Effects on Mental Health...... 20

ii

II.

THE COURT SHOULD GRANT CERTIORARI
TO RESOLVE A FULLY MATURE SPLIT
AMONG STATE COURTS OF LAST RESORT
AS TO WHETHER A JURY MUST FIND
ALL FACTS NECESSARY FOR THE
IMPOSITION OF A DEATH SENTENCE, OR
NEED ONLY FIND AGGRAVATING
CIRCUMSTANCES........................................... 25
A.

The State Supreme Courts of Florida,
Delaware, Colorado, and Arizona Hold
that a Jury Must Find All Facts
Necessary for the Imposition of a
Sentence of Death. ..................................... 27

B.

The Court Below and Four Other State
Supreme Courts Have Ruled that the Sixth
Amendment Requires That a Jury Find
Only the Presence of Aggravating Factors,
and Permits Judges to Make Other Factual
Findings Necessary to Impose a Death
Sentence. .................................................... 31

C.

The Decision Below is Incorrect Because
the Sixth Amendment Requires a Jury
to Find All Facts Necessary to the
Imposition of a Death Sentence. ............... 34

III. THIS CASE IS AN EXCELLENT VEHICLE
FOR ADDRESSING TWO IMPORTANT
DEATH PENALTY QUESTIONS. ................... 37
CONCLUSION.......................................................... 39
APPENDIX................................................................ 1a
Opinion, Supreme Court of Nebraska
(July 19, 2019) ..................................................... 1a

iii

Order of Sentence, District Court of Douglas
County, Nebraska (May 31, 2017) .................... 70a
Order, Nebraska Supreme Court
(Aug. 9, 2019) ................................................... 112a
Ombudsman’s Report, State of Nebraska,
Office of the Public Counsel/Ombudsman
(Dec. 9, 2013) ................................................... 113a
Report to the Nebraska State Legislature,
Department of Correctional Services Special
Investigative Committee (Dec. 15, 2014)........ 261a

iv

TABLE OF AUTHORITIES
CASES
Abdul-Kabir v. Quarterman, 550 U.S. 233 (2007) ... 16
Apprendi v. New Jersey, 530 U.S. 466 (2000) .... 34, 36
Buchanan v. Angelone, 522 U.S. 269 (1998) ............ 16
California v. Brown, 479 U.S. 538 (1987) ................ 18
Casey v. Lewis, 834 F. Supp. 1477 (D. Ariz. 1993) .. 22
Coleman v. Wilson,
912 F. Supp. 1282 (E. D. Cal. 1995) ..................... 22
Davis v. Ayala, 135 S. Ct. 2187 (2015) ............... 20. 21
Eddings v. Oklahoma,
455 U.S. 104 (1982) ................................... 16, 17, 18
Ex parte Bohannon, 222 So. 3d 525 (Ala. 2016) ...... 33
Glossip v. Gross, 135 S. Ct. 2726 (2015) .................. 25
Gregg v. Georgia, 428 U.S. 153 (1976) ..................... 37
Hurst v. Florida, 136 S. Ct. 616 (2016) .. 27, 34, 35, 36
Hurst v. State, 202 So. 3d 40 (Fla. 2016) ........... 28, 36
In re Medley, 134 U.S. 160 (1890) ...................... 20, 21
Indiana Prot. & Advocacy Servs. Comm’n v.
Comm’r, Indiana Dep’t of Corr., No. 1:08-cv-01317TWP-MJD, 2012 WL 6738517
(S.D. Ind. Dec. 31, 2012) ....................................... 22
Johnson v. State,
256 So. 3d 684 (Ala. Crim. App. 2017) ................. 33
Johnson v. State, 59 P.3d 450 (Nev. 2002)............... 30
Jones‘El v. Berge,
164 F. Supp. 2d 1096 (W.D. Wis. 2001) ................ 22
v

Kirksey v. State,
243 So. 3d 849 (Ala. Crim. App. 2017) ................. 33
Lockett v. Ohio, 438 U.S. 586 (1978) .................. 16, 17
Nevada v. Jackson, 569 U.S. 505 (2013) ................. 18
Nunnery v. State, 263 P.3d 235 (Nev. 2011) ............ 31
Palakovic v. Wetzel,
854 F.3d 209 (3d Cir. 2017)............................. 21, 22
Parker v. Dugger, 498 U.S. 308 (1991) ............... 17, 18
Payne v. Tennessee, 501 U.S. 808 (1991).................. 16
Penry v. Lynaugh, 492 U.S. 302 (1989) .............. 17, 18
People v. Banks, 934 N.E.2d 435 (Ill. 2010) ............. 34
People v. Davis, 793 N.E.2d 552 (Ill. 2002) .............. 34
Rauf v. State, 145 A.3d 430 (Del. 2016) ............. 29, 32
Ring v. Arizona, 536 U.S. 584 (2002) ........... 30, 35, 36
Roberts v. Warden, San Quentin State Prison,
No. CIV S-93-0254 GEB, 2013 WL 416346,
(E.D. Cal. Jan. 31, 2013) ....................................... 21
Rogers v. State, No. SC18-150,
2019 WL 4197021 (Fla. Sept. 5, 2019).................. 21
Russell v. State,
261 So. 3d 454 (Ala. Crim. App. 2016) ................. 33
Skipper v. South Carolina, 476 U.S. 1 (1986) .......... 16
State v. Barker, 826 N.E.2d 648 (Ind. 2005) ............ 33
State v. Lamar, 115 P.3d 611 (Ariz. 2005) ............... 30
State v. Lotter,
917 N.W.2d 850 (Neb. 2018) ............... 31, 35, 36, 38
State v. Mata, 745 N.W.2d 229 (Neb. 2008) ............. 35
vi

State v. Ring, 65 P.3d 915 (Ariz. 2003) .................... 30
State v. Wood, 580 S.W.3d 566 (Mo. 2019)............... 32
Taylor v. Louisiana, 419 U.S. 522 (1975) ................ 36
Tennard v. Dretke, 542 U.S. 274 (2004) ................... 16
United States v. Fields,
761 F.3d 443 (5th Cir. 2014) ................................. 21
United States v. Jayyousi,
657 F.3d 1085, (11th Cir. 2011) ............................ 21
United States v. Lara,
905 F.2d 599 (2d Cir. 1990)................................... 21
Wimbley v. State,
238 So. 3d 1268 (Ala. Crim. App. 2017) ............... 33
Witherspoon v. Illinois, 391 U.S. 510 (1968) ............ 37
Woldt v. People, 64 P.3d 256 (Colo. 2003) ................ 30
Woodson v. North Carolina, 428 U.S. 280 (1976) .... 17
CONSTITUTION & STATUTES
U.S. Const. amend. VI ....................................... passim
U.S. Const. amend. VII ..................................... passim
18 U.S.C. § 3593 ........................................................ 27
34 U.S.C. § 10132 NOTE .......................................... 22
21 Okla. Stat. Ann. § 701.11 .................................... 26
42 Pa. Stat. and Cons. Stat. Ann. § 9711 ................. 27
Ariz. Rev. Stat. § 13-752 ........................................... 26
Ark. Code Ann. § 5-4-603.......................................... 26
Cal. Penal Code § 190.4(b) ........................................ 26
Colo. Rev. Stat. § 18-1.3-1201................................... 26
vii

Conn. Gen. Stat. Ann. § 18-96b ................................ 22
Del. Code Ann. tit. 11, § 4209 ................................... 29
Fla. Stat. § 921.141 ............................................. 26, 28
Fla. Stat. § 775.082 ................................................... 28
Ga. Code Ann. § 17-10-31 ......................................... 26
Idaho Code Ann. § 19-2515 ....................................... 26
Ind. Code Ann. § 35-50-2-9(f) ................................... 32
Kan. Stat. Ann. § 21-6617(e) .................................... 26
Ken. Rev. Stat. § 532.025 ......................................... 26
La. Code Cr. Proc. Ann. art. 905.8 ........................... 26
Mass. Gen. Laws Ann. ch. 127, § 39......................... 22
Md. Code Ann., Corr. Servs. § 9-614 ........................ 22
Minn. Stat. Ann. § 243.521 ....................................... 22
Miss. Code Ann. § 99-19-101 .................................... 26
Miss. Code Ann. § 99-19-103 .................................... 26
Mo. Ann. Stat. § 565.030.4 ....................................... 32
Mont. Code Ann. § 46-18-301 ................................... 27
Mont. Code Ann. § 53-30-703 ................................... 22
N.C. Gen. Stat. Ann. § 15A-2000(b) ......................... 26
N.H. Rev. Stat. § 630:5 ............................................. 26
N.J. Stat. Ann. § 30:4-82.8 ....................................... 22
Neb. Rev. Stat. § 29-2521 ......................................... 12
Neb. Rev. Stat. § 29-2522 ................................... 13, 35
Neb. Rev. Stat. Ann. § 29-2521 ................................ 12
Neb. Rev. Stat. Ann. § 83-173.03 ............................. 12
viii

Nev. Rev. Stat. § 175.556.......................................... 26
Nev. Rev. Stat. Ann. § 209.369 ................................. 22
Ohio Rev. Code Ann. § 2929.03 ................................ 26
Or. Rev. Stat. Ann. § 163.150 ................................... 27
S.C. Code 1976 § 16-3-20 .......................................... 27
S.D. Codified Laws § 23A-27A-4 .............................. 27
Tenn. Code Ann. § 39-13-204 ................................... 27
Tex. Code Cr. Proc. art. 37.071 ................................ 27
Tex. Gov’t Code Ann. § 501.068 ................................ 22
Utah Code Ann. § 76-3-207 ...................................... 27
Va. Code Ann. § 19.2-264.4....................................... 27
Va. Code Ann. § 53.1-39.1......................................... 22
Wash. Rev. Code § 10.95.080 .................................... 27
Wyo. Stat. Ann. § 6-2-102 ......................................... 27
LEGISLATIVE AND REULATORY MATERIALS
2017 Ala. Laws Act 2017-131 (S.B. 16) .................... 33
72 Neb. Admin. Code Ch. 1–4 .................................. 12
Neb. Leg. 424, 2014 Leg., 103rd Sess. (Neb. 2014) ... 6
OTHER AUTHORITIES
Craig Haney, Restricting the Use of Solitary
Confinement, 1 Ann. Rev. Criminology 285
(2018) ..................................................................... 24
Death Penalty Info. Ctr., Montana,
https://deathpenaltyinfo.org/state-and-federalinfo/ state-by-state/montana
(last visited Oct. 16, 2019) .................................... 27
ix

Death Penalty Info. Ctr., State by State,
https://deathpenalty info.org/states-andwithout-death-penalty
(last visited Oct. 16, 2019) .............................. 27, 34
Eli Hager & Gerald Rich, Shifting Away from
Solitary, The Marshall Project (Dec. 23, 2014) .... 22
Office of the Inspector Gen., U.S. Dep’t of
Justice, Review of the Fed. Bureau of
Prisons’ Use of Restrictive Hous. for
Inmates With Mental Illness (2017)..................... 23
Position Statement on Segregation of Prisoners with
Mental Illness, Am. Psychiatric Ass’n (2012) ....... 24
Stuart Grassian, Psychiatric Effects of Solitary
Confinement, 22 Wash. U.J.L. & Pol’y 325
(2006) ..................................................................... 24
Reassessing Solitary Confinement II: The
Human Rights, Fiscal, & Public Safety
Consequences, Hearing Before the
Subcomm. on Const., Civ. Rights & Human
Rights of the S. Comm. on the Judiciary,
S. Hrg. 113-882, 113th Cong. (2014) .................... 23
Reassessing Solitary Confinement: The
Human Rights, Fiscal, & Public Safety
Consequences, Hearing Before the
Subcomm. on Const., Civ. Rights & Human
Rights of the S. Comm. on the Judiciary,
S. Hrg. 112-879, 112th Cong. (2012) .................... 23

x

PETITION FOR A WRIT OF CERTIORARI
Nikko A. Jenkins respectfully petitions for a writ
of certiorari to review the judgment of the Supreme
Court of Nebraska in this case.
OPINIONS BELOW
The decision of the Nebraska Supreme Court
affirming Jenkins’ death sentence, State v. Jenkins,
931 N.W.2d 851 (Neb. 2019), is reprinted in the
Appendix at 1a–69a. The Nebraska Supreme Court’s
order overruling Jenkins’ motion for rehearing is not
reported and is printed at 112a. The trial court’s
sentencing opinion is not reported, and is printed at
70a–111a.
JURISDICTION
The Supreme Court of Nebraska entered
judgment on July 19, 2019. This Court’s jurisdiction
is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution
The Sixth Amendment, U.S. Const. amend. VI
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defense.
1

The Eighth Amendment, U.S. Const. amend.
VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.
The Fourteenth Amendment (in pertinent part)
“[N]or shall any State deprive any person of life,
liberty, or property, without due process of law.”
Nebraska Statutes
Neb. Rev. Stat. § 29-2519(1)
. . . . The Legislature therefore determines that the
death penalty should be imposed only for crimes set
forth in section 28-303 and, in addition, that it shall
only be imposed in those instances when the
aggravating circumstances existing in connection
with
the
crime
outweigh
the
mitigating
circumstances, as set forth in sections 29- 2520 to 292524.
Neb. Rev. Stat. § 29-2522
The panel of judges for the sentencing determination
proceeding shall either unanimously fix the sentence
at death or, if the sentence of death was not
unanimously agreed upon by the panel, fix the
sentence at life imprisonment. Such sentence
determination shall be based upon the following
considerations:
(1) Whether the aggravating circumstances as
determined to exist justify imposition of a
sentence of death;

2

(2) Whether sufficient mitigating circumstances
exist which approach or exceed the weight given
to the aggravating circumstances; or
(3) Whether the sentence of death is excessive or
disproportionate to the penalty imposed in similar
cases, considering both the crime and the
defendant.
In each case, the determination of the panel of
judges shall be in writing and refer to the
aggravating and mitigating circumstances weighed
in the determination of the panel. . . .

3

INTRODUCTION
This case warrants certiorari for two independent
reasons. First, the panel of judges who imposed a
death sentence on Nikko Jenkins categorically
refused to consider, as a mitigating circumstance, the
fact that the State had held him in solitary
confinement for nearly five years—despite abundant
evidence that solitary confinement had severe
consequences for his already troubled mental
health—and then released him directly from solitary
confinement to the community, notwithstanding his
repeated requests to be civilly committed as a threat
to others. The sentencing panel disregarded these
facts because it concluded—without any fact-finding
on this matter—that his own actions in prison
warranted his solitary confinement. That decision
runs directly contrary to this Court’s clear and
repeated dictate that the Eighth Amendment
requires a sentencer to consider any evidence
relating to the individual or the crime that might
lead the sentencer to choose life over death. Here,
the fact that the State’s actions in imposing
prolonged solitary confinement and ignoring the selfevident deleterious effects on Jenkins’ mental state
are surely relevant to his moral culpability for the
crimes he committed virtually immediately upon
release from solitary. Yet the panel refused to
consider this mitigating evidence.
Second, the Court should grant certiorari to
resolve a fully mature conflict among state courts of
last resort as to whether a jury, rather than a judge,
must make all factual findings necessary to impose a
sentence of death, or must merely find the presence
of an aggravating factor. The Nebraska Supreme
Court and four other state supreme courts have
4

concluded that the jury need only find the presence of
an aggravating factor, and that judges can make all
further factual findings necessary to impose death,
including whether mitigating circumstances exist
and whether the aggravating factors outweigh them.
The state supreme courts of Florida, Delaware,
Colorado, and Arizona, by contrast, have ruled that
the Sixth Amendment requires the jury to make all
factual findings necessary to the imposition of death,
including whether mitigating circumstances exist
and whether the aggravating factors outweigh them.
The conflict is fully mature because the high courts
of every active death penalty state whose capital
sentencing scheme involves judicial fact-finding have
now ruled on whether the Sixth Amendment reserves
such
findings
for
the
jury—with
directly
contradictory results. Only this Court can resolve the
conflict.
STATEMENT OF THE CASE
A.

Factual Background

As a child, Nikko Jenkins’ family home was “ripe
with violence, alcohol and drug abuse and devoid of
the very structure and social/spiritual nourishments
the child needs,” according to a court ordered
evaluation of Jenkins at age eleven.1 He was sexually
abused by his cousin. Pet. App. 96a. He suffered
substantial physical and verbal abuse from his
parents, sisters, uncles, and cousins. Id. As a result,
he was placed in foster care at age seven. Id. By the
age of thirteen, he had lived in seventeen different

Ex. 117 at 71, State v. Jenkins, CR 13-2768, CR 13-2769 (Neb.
Dist. Ct. May 31, 2017).
1

5

out-of-home placements ordered by the State.2 His IQ
is in the “high end of the Mentally Retarded range of
intellectual functioning.” Pet. App. 104a.
Nikko was first admitted to a psychiatric
institution at age eight. On admission, Dr. Jane
Dahlke, M.D., reported that he was suicidal, a
danger to his mother and sister, was hearing voices
and carrying on conversations with himself, reported
audio and visual hallucinations, and suffered
difficulty sleeping and bed wetting. Pet. App. 29a,
100a–01a. Dr. Dahlke testified that he had bipolar
disorder as of age eight, and that “it is quite difficult
for an 8 year old child to be malingering or faking it.”
Tr. at 160, State v. Jenkins, CR 13-2768, CR 13-2769
(Neb. Dist. Ct. May 31, 2017); Pet. App. 29a, 101a,
266a.3

2

Id.

This case caused such a public outcry that both the
Ombudsman of the Nebraska Department of Correctional
Services (NDOC) and a committee of the Nebraska Legislature
issued reports on Jenkins’ life and prolonged solitary
confinement, prompting significant reforms in Nebraska’s use of
solitary confinement, particularly with respect to persons with
mental illness. See Neb. Leg. 424, 2014 Leg., 103rd Sess. (Neb.
2014); infra pp. 11–12. Both the Ombudsman and the
committee heard from crucial witnesses and examined key
documents regarding the treatment of Jenkins. Counsel for
Jenkins submitted the Ombudsman’s Report and repeatedly
cited it and the legislative committee report as mitigating
evidence at sentencing. Br. of Def. at 3–4, 12, 14, 19, State v.
Jenkins, CR 13-2768, CR 13-2769 (Neb. Dist. Ct. May 31, 2017);
See Pet. App. 113a–260a (Ombudsman Report); 261a–369a
(Legislative Committee Report).

3

6

Six psychiatrists unanimously agreed that
Jenkins experienced years of serious mental illness.4
The most common diagnosis was schizoaffective
disorder, bipolar type. Nebraska’s state-employed
clinicians reached different diagnoses, but they also
all agreed that Jenkins had serious mental
disorders.5
Nebraska imprisoned Jenkins in 2003, upon
conviction for armed robbery. Pet. App. 118a. He was
Pet. App. 78a (Dr. Bruce Gutnik) (“schizioaffective disorder,
bipolar type”)); Pet. App. 142a, 224a-25a (Dr. Eugene Oliveto)
(“Schizoaffective Disorder vs. Paranoid Schizophrenia” and
“Anti-Social/Obsessive/Impulsively
dangerous
to
others/
Explosive”); Pet. App. 152a, 271a, 277a (Dr. Natalie Baker)
(“Psychosis NOS [not otherwise specified] , possible Bipolar
Affective Disorder with psychotic features or Delusional
Disorder, Grandiose Type, Probable PTSD, Relational Problems
NOS, Polysubstance dependence (and) Antisocial and
Narcissistic Traits.”); Pet. App. 31a, 169a, 280a (Dr. Martin
Wetzel) (“Bipolar Disorder NOS, Probable PTSD, Probable.
Antisocial and Narcissistic PD Traits, Polysubstance
Dependence in a Controlled Environment”); Ex. 103 at 1, State
v. Jenkins, CR 13-2768, CR 13-2769 (Neb. Dist. Ct. May 31,
2017) (Dr. Tayo Obatusin) (“Schizoaffective Disorder, Bipolar
type, as well as personality disorders”); Pet. App. 29a, 101a, 97,
266a (Dr. Jane Dahlke)(Bipolar Disorder).
Dr. Oliveto
advised that Jenkins “[n]eeds transfer to [Lincoln Regional
Center] before his discharge to stabilize him so he is not
dangerous to others.” Pet. App. 143a, 245a.
4

Pet App. 37a, 53a, 105a (Dr. Cimpl Bohn) (“personality
disorder of narcissistic, antisocial, and borderline”); Pet. App.
153a. (Dr. Mark Weilage) (“Narcissistic and Antisocial
Personality Disorder.” Pet. App. 140a, 224a (Dr. Y. Scott
Moore) (“there is the possibility that Mr. Jenkins does indeed
have a psychotic illness, [but] I don’t think this is a very good
possibility”); Pet. App. 53a (Dr. Cheryl Jack) (“Antisocial
Personality, with narcissistic features vs. Narcissistic
Personal[i]ty with antisocial features”).
5

7

seventeen at the time. Nebraska first placed him in
solitary confinement, in July 2005, at age eighteen.
Pet. App. 119a. At that point, and for varying
periods of time thereafter, totaling nearly five years
he “was locked up alone in a cell for 23 hours per day,
and was, by definition, separated from most normal
human contact with others.” Pet. App. 116a. He was
permitted one hour outside his cell a day for exercise,
in a small fenced-in cage referred to as a “dog run” or
“kennel.” Pet. App. 300a. He received “no meaningful
mental health treatment” while in solitary. Pet. App.
292a, 310a, 317a.
Of the 97 months Jenkins was in state prison, he
spent 58 months or nearly 60% of his time in solitary
confinement. Pet. App. 95a; 282a–70a (timeline of
placement in solitary confinement). He was held in
solitary confinement on nine separate occasions: for
40 days in July 2005; for 5 days in December 2005;
for 15 days in April 2006; for 3 days in May 2006; for
22 days in January 2007; for 545 days from June
2007 to December 2008; for 383 days from January
2009 to February 2010; and for 742 days, or more
than two years, from July 2011 to July 2013. Pet.
App. 269a. From June 2007 until his release in 2013,
he spent 77% of his time in solitary confinement.
This graph from the Nebraska Legislature’s Report
illustrates Jenkins’ time in solitary confinement:

8

Pet. App. 270a.
The investigation by Nebraska’s Legislature
concluded that “[i]t was Jenkins’ long-term
confinement in segregation which exacerbated his
mental health problems, prevented him from
receiving mental health treatment and any form of
rehabilitative programing and, very simply, made
him more angry and disturbed.” Pet. App. 298a.
During his confinement, Jenkins’ serious mental
illness manifested in bizarre behavior, suicide
attempts, and multiple facial, penile, and other selfmutilations, almost all related to delusions about an
Egyptian God who commanded him to hurt himself
and others. Dr. Gutnik “testified that Jenkins’
multiple mutilations of his own penis would be an
indication of severe mental illness . . . a person would
have to be fairly out of touch and psychotic to be able
to not react to that level of pain.” Pet. App. 39a
(internal quotation marks omitted). Among many
other incidents, he “carved . . . wounds into [his] face
with a piece of tile from the gallery floor,” leading a
correctional officer “to spray (him) with pepperspray
to get (him) to stop carving into (his) face,” and
9

requiring 11 stitches. Pet. App. 166a. Prison staff
reported that Jenkins “will drink his own semen for
neuro-stimulators to increase his serotonin levels
and to decrease his emotional rage.” Pet. App. 276a;
see also Pet. App. 279a (“Patient reports he has been
snorting his semen in his left nostril on a daily basis,
and drinking his own urine daily for the last two
weeks as his own method of nutritional
supplementation.”). In 2011, in sentencing Jenkins
for assaulting a prison official in an attempted
escape, the sentencing judge noted his “long and
serious history of mental illness,” and “recommended
. . . that Defendant be assessed and treated for issues
regarding his mental health.” Pet. App. 147a.
Jenkins repeatedly predicted that he would
commit violent acts after he was released from
custody. Pet App. 226a–31a (providing twenty-three
examples). He also repeatedly requested treatment
for his mental condition. Pet. App. 231a. Six months
before his release Jenkins “was requesting
emergency psychiatric treatment on a daily basis”
and “his pleas for mental health treatment [became]
more desperate.” Pet. App. 275a–76a, 298a; see Pet.
App. 281a-91a (timeline of Jenkins’ eighty-seven
requests for mental health care and treatment and
threats to harm others, which is “not exhaustive,”
only “illustrat[ive]”).
Just a few months before his scheduled release,
having been in solitary confinement for more than
two years straight, Jenkins made the “extraordinary”
request to be civilly committed upon release. Pet.
App. 162a. He sent letters to the County Attorney of
Johnson County and Board of Parole, talked to his
prison social worker, and enlisted his mother and
fiancé to help get him placed in emergency protective
10

custody for psychiatric hospitalization. Pet. App.
162a–67a, 159a; see also Pet. App. 234a (notes from
January 16, 2013, “indicate that Jenkins had
‘reported a belief that he should be hospitalized for
psychiatric concerns (particularly being dangerous to
others), as he will be released soon”). The NDOC took
no actions to refer this case to “a county attorney for
a possible mental health commitment proceeding.”
Pet. App. 245a.
The Legislative Committee found that when
NDOC was contacted by the County Attorney
regarding Jenkins’ attempts to have himself civilly
committed, “Dr. Weilage, a psychologist employed by
NDOC,” “deliberately” “withheld” a February 2013
report by Dr. Baker, Pet. App. 276a, 294a, 297a,
which found Jenkins was “mentally ill as well as an
imminent danger to others” and “will possibly
require civil commitment prior to being released to
ensure his safety as well as the safety of others.” Pet.
App. 278a. The committee concluded that “the
decision by Dr. [] Weilage to withhold Dr. [] Baker’s .
. . report resulted directly in the failure of Jenkins to
be civilly committed,” and warranted his
termination. Pet. App. 296a, 364a.
Nebraska released Jenkins “directly from an
isolation cell to our streets” without “any form of
transition” and with only a generic list of community
resources. Pet. App. 209a; see also Pet. App. 174a–
175a. Within three weeks of Jenkins’ release, he had
killed four people. Pet. App. 86a–88a, 175a.
In response to Jenkins’ case, Nebraska strictly
limited the use of solitary confinement, or “restrictive
housing.” Neb. Rev. Stat. Ann. § 83-170. Under the
new rules, “[n]o inmate shall be held in restrictive

11

housing unless done in the least restrictive manner,”
and the “department shall adopt and promulgate
rules and regulations” which “provide for
individualized transition plans . . . for each
confinement level back to the general population or
to society.” Neb. Rev. Stat. Ann. § 83-173.03. In
addition, as of March 1, 2020, “no inmate who is a
member of a vulnerable population—including
diagnosed with a serious mental illness—shall be
placed in restrictive housing. Neb. Rev. Stat. Ann. §
83-173.03(3). Nebraska has adopted detailed
regulations to establish policies restricting the use of
restrictive housing generally, as well as specifically
for people with mental illness. See 72 Neb. Admin.
Code Ch. 1–4.
B.

Procedural History

Jenkins pleaded no contest to four counts of
Murder in the First Degree and related charges, and
the court found him guilty. Pet. App. 71a.
The Nebraska Supreme Court appointed a threejudge sentencing panel (“Panel”). Id. Under
Nebraska law, at sentencing a capital defendant has
a right to have a jury determine only the “existence
of one or more aggravating circumstances.”
Neb. Rev. Stat. Ann. § 29-2521(1). Only the panel of
judges, and not a jury, can “receive evidence of
mitigation
and
sentence
excessiveness
or
disproportionality.” Id. § 29-2521(3). And only the
Panel can “determine an appropriate sentence.” Id.
To reach this determination, the Panel considers
“[w]hether the aggravating circumstances as
determined to exist justify imposition of a sentence
of death” and “[w]hether sufficient mitigating
circumstances exist which approach or exceed the

12

weight given to the aggravating circumstances.” Neb.
Rev. Stat. § 29-2522.
With no dispute as to the existence of aggravating
circumstances, Jenkins waived his right to have a
jury assess aggravating circumstances. Pet. App.
71a. The Panel found six. Pet. App. 72a. It then
received evidence of “mitigating circumstances,” id.,
and sentenced Jenkins to death.
The Panel acknowledged that Jenkins spent fiftyeight months in solitary confinement. Pet. App. 95a.
But it declined to consider this fact or its effects on
Jenkins as mitigation. Although it did not hold a
hearing on the propriety of his solitary confinement,
the Panel concluded that his “solitary confinement
was as a result of his own actions and threats.” Id.
For that reason, the Panel categorically declined to
consider his solitary confinement as mitigation. Id.
By contrast, the Panel considered and gave effect
to other mitigating evidence, including Jenkins’ plea
of no contest, Pet. App. 94a–95a, his difficult
childhood, Pet. App. 104a–105a, and his mental
disorder. Pet. App. 105a. But the Panel declined to
consider what was without doubt the most
significant mitigating circumstance, namely his
prolonged solitary confinement and release
immediately to the community despite overwhelming
evidence of severe mental health deterioration and
explicit warnings that he posed a danger to others.
The Panel found that “there are mitigating
circumstances,
however,
these
mitigating
circumstances do not approach or exceed the weight
given to the six aggravating circumstances.” Pet.
App. 107a. And it concluded that,“[b]ased on the
evidence presented” the death penalty was not
13

“excessive or disproportionate.” Id.
Jenkins made several arguments on appeal,
including that the Panel failed to consider as
mitigation “the debilitating impact of solitary
confinement,” Pet. App. 62a, and that Nebraska’s
death penalty procedure, requiring judges—not a
jury—to consider and weigh mitigating evidence
against aggravating evidence, violated the Sixth and
Fourteenth Amendments. Pet. App. 47a; see, e.g.,
Appellate Br. at 45–46, 68, 87, State v. Jenkins, 931
N.W.2d 851 (Neb. 2019).
The Supreme Court of Nebraska affirmed. Pet.
App. 69a. As to solitary confinement, the court
concluded that the “sentencing [P]anel acted
reasonably in not rewarding his behavior by
considering the resulting confinement as a
mitigating factor.” Id. And it rejected Jenkins’
argument that the Sixth Amendment required a jury
to make all factual findings necessary to impose a
death sentence. Pet. App. 47a–50a.
The court
reasoned that the Sixth Amendment does not
“require the determination of a mitigating
circumstance, the balancing function, or the
proportionality review to be undertaken by a jury.”
Pet. App. 50a.

14

REASONS FOR GRANTING THE PETITION
I.

THE PANEL’S CATEGORICAL REFUSAL
TO
CONSIDER
AS
MITIGATING
EVIDENCE
JENKINS’
FIFTY-EIGHT
MONTHS OF SOLITARY CONFINEMENT
AND THE DELETERIOUS EFFECTS ON
HIS MENTAL STATE VIOLATED THE
EIGHTH AMENDMENT.

The Panel’s refusal even to consider the effects of
nearly five years of solitary confinement on an
obviously mentally ill prisoner released directly to
the community runs contrary to this Court’s clear
dictate that the Eighth Amendment requires
consideration of any evidence relevant to the decision
whether to subject a defendant to life imprisonment
or death. The State subjected Jenkins to prolonged
solitary confinement, failed to provide meaningful
treatment despite overwhelming evidence that
Jenkins’ mental health was precarious and
deteriorating, and then released him directly to the
community despite his pleas to be civilly committed.
The Panel refused to consider this evidence because
it concluded that the solitary confinement was
deserved. In closing its eyes to the mitigation at the
heart of this case, the Panel violated Jenkins’ Eighth
Amendment rights. The constitutional error is so
blatant that it supports summary reversal. In the
alternative, the Court should grant certiorari and set
the case for full briefing and argument.
A.

Refusing to Consider the Effects of
Solitary Confinement as Mitigating
Evidence
Flouts
This
Court’s
Directives Regarding Mitigation.

This Court has repeatedly made clear that in
15

order to ensure individualized justice, the authority
deciding whether to impose a death sentence must
consider “any aspect of a defendant’s character or
record and any of the circumstances of the offense
that the defendant proffers as a basis for a sentence
less than death.” Lockett v. Ohio, 438 U.S. 586, 604
(1978). Accordingly, “virtually no limits are placed on
the relevant mitigating evidence a capital defendant
may introduce concerning his own circumstance.”
Payne v. Tennessee, 501 U.S. 808, 822 (1991). “[T]he
question is simply whether the evidence is of such a
character that it ‘might serve “as a basis for a
sentence less than death.”’” Tennard v. Dretke, 542
U.S. 274, 287 (2004) (quoting Skipper v. South
Carolina, 476 U.S. 1, 5 (1986)).
The sentencer may not “refuse to consider, as a
matter of law, any relevant mitigating evidence.”
Eddings v. Oklahoma, 455 U.S. 104, 114 (1982)
(emphasis in original). While the sentencer may
“determine the weight to be given relevant
mitigating evidence,” the sentencer “may not give it
no weight by excluding such evidence from their
consideration.” Id. at 115 (emphasis added). A
capital sentencer “must be able to give meaningful
consideration and effect to all mitigating evidence
that might provide a basis for refusing to impose the
death penalty on a particular individual,
notwithstanding the severity of his crime or his
potential to commit similar offenses in the future.”
Abdul-Kabir v. Quarterman, 550 U.S. 233, 246
(2007); see also Buchanan v. Angelone, 522 U.S. 269,
276 (1998) (sentencing authority “may not be
precluded from considering, and may not refuse to
consider, any constitutionally relevant mitigating
evidence”); Parker v. Dugger, 498 U.S. 308, 315

16

(1991) (“[T]he trial judge could not refuse to consider
any mitigating evidence.”).
Consideration of mitigating evidence ensures that
punishment is “directly related to the personal
culpability of the criminal defendant.” Penry v.
Lynaugh, 492 U.S. 302, 319 (1989). “Only then can
we be sure that the sentencer has treated the
defendant as a ‘uniquely individual human bein[g].’”
Id. (quoting Woodson v. North Carolina, 428 U.S.
280, 304 (1976)). For these reasons, it is not enough
that a defendant can present evidence as to
mitigating circumstances. “Lockett requires the
sentencer to listen.” Eddings, 455 U.S. at 115 n.10.
The Panel violated this unequivocal dictate when
it refused to consider or give any effect to Jenkins’
evidence that he had been subjected to nearly five
years of solitary confinement, resulting in severe
mental health deterioration, and then released him
directly to the community despite his repeated
requests to be civilly committed rather than released.
As detailed above, Jenkins presented substantial
evidence concerning his time in solitary confinement,
the damage it caused, and the State’s failure to
respond. But the Panel categorically disregarded this
evidence as mitigation because, in its view,
“[d]efendant’s solitary confinement was as a result of
his own actions and threats.” Pet. App. 95a. The
Nebraska Supreme Court affirmed on the same
rationale, concluding that “Jenkins’ own actions led
to his disciplinary segregation” and that it was
therefore reasonable to not “reward[] such behavior
by considering the resulting confinement as a
mitigating factor.” Pet. App. 69a (emphasis added).

17

In effect, the Nebraska courts imposed a rule that
capital sentencers may wholly disregard the effects of
prolonged solitary confinement, even when they are
as extreme as here, unless the sentencer first finds
that
the
solitary
confinement
was
itself
unwarranted. It did so even though a sentencing
hearing is in no sense a forum for litigating the
validity of administrative penal decisions. Cf.
Nevada v. Jackson, 569 U.S. 505, 509–10 (2013)
(upholding evidentiary rule meant to prevent “minitrials” on collateral issues). This approach, if
formulated as an instruction to a jury, would
demonstrably violate Eddings, because it would tell
the sentencer “that as a matter of law [it is] unable
even to consider the evidence” if it finds the solitary
confinement warranted. Eddings, 455 U.S. at 113. It
is equally unconstitutional for the sentencer itself to
disregard the evidence for this reason.
The Panel’s rationale for disregarding Jenkins’
years of solitary confinement cannot be squared with
this Court’s recognition that “evidence about the
defendant’s background and character is relevant
because of the belief, long held by this society, that
defendants who commit criminal acts that are
attributable to a disadvantaged background, or to
emotional and mental problems, may be less culpable
than defendants who have no such excuse.’” Penry,
492 U.S. at 319 (emphasis added) (quoting California
v. Brown, 479 U.S. 538, 545 (1987) (O’Connor, J.,
concurring)).
Moreover, whether the solitary confinement was
justified does not determine its relevance to whether
a life sentence is appropriate. If a defendant had
suffered head trauma as a result of driving while
intoxicated, or undertaking some other inherently
18

dangerous activity, a sentencer could not
categorically disregard the mental health effects of
that trauma as mitigation with respect to a
subsequent crime because the defendant’s own acts
caused the trauma. And the validity of Jenkins’
solitary confinement has nothing to do with whether
the State’s decision to release him directly to the
community over his pleas to be civilly committed as a
danger to others. Even if every day of Jenkins’ fiftyeight months of solitary confinement were warranted
by disciplinary infractions, a finding neither the
Panel nor the Nebraska Supreme Court was
equipped to make, the fact of that confinement, its
dramatic effects on Jenkins’ mental state, and the
State’s wholly indifferent response, would still be
relevant to assessing the extent of Jenkins’ personal
culpability and the case for life over death. As the
Nebraska Legislative committee found, “[i]t was
Jenkins’ long-term confinement in segregation which
exacerbated his mental health problems, prevented
him from receiving mental health treatment and any
form of rehabilitative programing and, very simply,
made him more angry and disturbed.” Pet. App.
298a.
The role of prolonged solitary confinement in
Jenkins’ decomposition does not make Jenkins
innocent. It was not offered as a legal excuse. It was
offered instead in mitigation, because it is certainly
relevant to whether he should live or die for crimes
committed almost immediately upon release from
prolonged solitary confinement, and over his own
requests to be civilly committed. The capital
sentencer had a duty to consider the extent to which
his prolonged solitary confinement and its effects
reduced his moral culpability or warranted the

19

exercise of mercy.
B.

The Nebraska Courts’ Failure to
Consider the Effects of Prolonged
Solitary Confinement Defies the
Widespread Consensus that Such
Treatment Has Debilitating Effects
on Mental Health.

In closing their eyes to the effects of prolonged
solitary confinement on Jenkins, the Nebraska courts
parted company with other courts, state and federal
governments, and an overwhelming scientific
consensus that prolonged solitary confinement has
profoundly negative consequences for mental health.
This Court recognized the adverse mental health
consequences of prolonged solitary confinement more
than a century ago. According to the Court,
“experience demonstrated” that, when placed in
isolation,
[a] considerable number of prisoners
fell, after even a short confinement, into
a semi-fatuous condition, from which it
was next to impossible to arouse them,
and others became violently insane;
others still, committed suicide; while
those who stood the ordeal better were
not generally reformed, and in most
cases did not recover sufficient mental
activity to be of any subsequent service
to the community.
In re Medley, 134 U.S. 160, 168 (1890); see Davis v.
Ayala, 135 S. Ct. 2187, 2210 (2015) (Kennedy, J.,
concurring) (“One hundred and twenty-five years
ago, this Court recognized that, even for prisoners
sentenced to death, solitary confinement bears ‘a
20

further terror and peculiar mark of infamy.’ . . .
[R]esearch still confirms what this Court suggested
over a century ago: Years on end of near-total
isolation exact a terrible price.” (quoting In re
Medley, 134 U.S. at 170)).
Courts outside Nebraska uniformly consider the
effects of solitary confinement as mitigation in death
penalty cases. United States v. Fields, 761 F.3d 443,
456 n.5 (5th Cir. 2014) (noting that jury considered
as a mitigating factor that “[t]he Defendant’s periods
of incarceration have included significant time in
solitary confinement”); Rogers v. State, No. SC18150, 2019 WL 4197021, at *6 (Fla. Sept. 5, 2019)
(noting that jury considered as a mitigating factor
that the defendant “has spent years in solitary
confinement.”); see Roberts v. Warden, San Quentin
State Prison, No. CIV S-93-0254 GEB, 2013 WL
416346, at *74, *77 (E.D. Cal. Jan. 31, 2013) (holding
“petitioner has made a colorable showing that his
trial counsel unreasonably failed to investigate and
present mitigating evidence at the penalty phase of
his trial,” including defendant’s “time in punitive
segregation”); cf. United States v. Jayyousi, 657 F.3d
1085, 1131 (11th Cir. 2011) (considering “evidence
about the impact on one’s mental health of prolonged
isolation and solitary confinement” in sentencing);
United States v. Lara, 905 F.2d 599, 603 (2d Cir.
1990) (affirming downward departure from the
Guidelines was appropriate, in part, because of
defendant’s “placement in solitary confinement”).
A “robust body of legal and scientific authority
recognize[s]
the
devastating
mental
health
consequences caused by long-term isolation in
solitary confinement.” Palakovic v. Wetzel, 854 F.3d
209, 225 (3d Cir. 2017). There is “a growing
21

consensus” that solitary confinement “can cause
severe and traumatic psychological damage,
including anxiety, panic, paranoia, depression, posttraumatic stress disorder, psychosis, and even a
disintegration of the basic sense of self identity.” Id.
(internal citations omitted). Courts have held that
placing individuals with serious mental illness in
solitary confinement can be cruel and unusual
punishment under the Eighth Amendment.6
State legislatures, including Nebraska’s in
response to Jenkins’ case, are increasingly limiting
and regulating the use of solitary confinement
because of its deleterious impact. See Statement,
supra at p. 11–12.7 A subcommittee of the Senate
Judiciary Committee has held two hearings on

6 See, e.g., Indiana Prot. & Advocacy Servs. Comm’n v. Comm’r,
Indiana Dep’t of Corr., No. 1:08-cv-01317-TWP-MJD, 2012 WL
6738517 (S.D. Ind. Dec. 31, 2012); Jones‘El v. Berge, 164 F.
Supp. 2d 1096, 1101–02 (W.D. Wis. 2001); Coleman v. Wilson,
912 F. Supp. 1282, 1320–21 (E. D. Cal. 1995); Casey v. Lewis,
834 F. Supp. 1477, 1549–50 (D. Ariz. 1993).

See, e.g., Conn. Gen. Stat. Ann. § 18-96b (enacted 2017); Mass.
Gen. Laws Ann. ch. 127, § 39 (enacted 2018); Md. Code Ann.,
Corr. Servs. § 9-614 (enacted 2016); Minn. Stat. Ann. § 243.521
(enacted 2019); Mont. Code Ann. § 53-30-703 (enacted 2019);
Nev. Rev. Stat. Ann. § 209.369 (enacted 2017); N.J. Stat. Ann. §
30:4-82.8 (enacted 2019); Tex. Gov’t Code Ann. § 501.068
(enacted 2015); Va. Code Ann. § 53.1-39.1 (enacted 2019); see
also 34 U.S.C. § 10132 NOTE (enacted 2018 and requiring the
National Prisoner Statistics Program to report on “the number
of prisoners who have been placed in solitary confinement at
any time during the previous year”); Eli Hager & Gerald Rich,
Shifting Away from Solitary, The Marshall Project (Dec. 23,
2014), https://www.themarshallproject.org/2014/12/23/shiftingaway-from-solitary (cataloging state reforms between 1998 and
2014).
7

22

solitary confinement and its abuses.8 At a 2014
hearing, Senator Dick Durbin predicted that “[t]he
reality is that the vast majority of prisoners held in
isolation will be released someday. The damaging
impact of their time in solitary—or their release
directly from solitary—can make them a danger to
themselves and their neighbors.”9
The United States Department of Justice has
recognized that “the frequency, duration, and
conditions of confinement of restrictive housing, even
for short periods of time, can cause psychological
harm and significant adverse effects on these
inmates’ mental health.”10 It noted that “isolation
can be psychologically harmful to any prisoner—
psychological effects can include anxiety, depression,
anger, cognitive disturbances, perceptual disorders,
obsessive thoughts, paranoia, and psychosis—some of
which may be long lasting.”11
“The effects of being housed in solitary
confinement are now well understood and
documented in the scientific literature.” Craig
Reassessing Solitary Confinement II: The Human Rights,
Fiscal, & Public Safety Consequences, Hearing Before the
Subcomm. on Const., Civ. Rights & Human Rights of the S.
Comm. on the Judiciary, S. Hrg. 113-882, 113th Cong. (2014);
Reassessing Solitary Confinement: The Human Rights, Fiscal, &
Public Safety Consequences, Hearing Before the Subcomm. on
Const., Civ. Rights & Human Rights of the S. Comm. on the
Judiciary, S. Hrg. 112-879, 112th Cong. (2012).

8

9

S. Hrg. 113-882 at 3.

10 Office of the Inspector Gen., U.S. Dep’t of Justice, Review of
the Fed. Bureau of Prisons’ Use of Restrictive Hous. for Inmates
With Mental Illness 1, 54, 63 (2017).
11

Id. at 1.

23

Haney, Restricting the Use of Solitary Confinement, 1
Ann. Rev. Criminology 285, 286 (2018). Nearly all “of
these studies [have] found that isolated prisoners
experience negative psychological effects and are at a
significant risk of serious harm.” Id.
One such study documented prisoners in solitary
confinement
suffering
multiple
serious
and
debilitating mental effects, including hyperresponsitivity to external stimuli; perceptual
distortions, illusions, and hallucinations; severe
panic attacks; difficulty with thinking, concentration,
and memory; intrusive obsessional (and often violent)
thoughts that prisoners resist but cannot block out;
overt paranoia; and problems with impulse control.
Stuart Grassian, Psychiatric Effects of Solitary
Confinement, 22 Wash. U.J.L. & Pol’y 325, 334–36
(2006). The long-term effects often include not only
“post traumatic stress (such as flashbacks, chronic
hypervigilance,
and
a
pervasive
sense
of
hopelessness), but also lasting personality changes—
especially including a continuing pattern of
intolerance of social interaction, leaving the
individual socially impoverished and withdrawn,
subtly angry and fearful when forced into social
interaction.” Id. at 353.
Solitary confinement particularly harms prisoners
with preexisting mental illness, such as Jenkins.
The American Psychiatric Association has found that
“Prolonged segregation of adult inmates with serious
mental illness, with rare exceptions, should be
avoided due to the potential for harm to such
inmates.”12 Prisoners with preexisting mental illness
12 Position Statement on Segregation of Prisoners with Mental
Illness, Am. Psychiatric Ass’n (2012), http://nrcat.org/storage/

24

“have more difficulty adapting to prison life” and are
“less able to successfully negotiate the complexity of
the prison environment, resulting in an increased
number of rule infractions leading to more time in
segregation and in prison.”13
In short, the courts, the federal government, state
legislatures, and the scientific community have all
recognized what Justice Breyer noted in 2015:
namely, that “it is well documented that such
prolonged solitary confinement produces numerous
deleterious harms.” Glossip v. Gross, 135 S. Ct. 2726,
2765 (2015) (Breyer, J., dissenting). In light of this
overwhelming consensus, the Panel’s categorical
refusal to consider Jenkins’ solitary confinement as
mitigation with any weight violated the Eighth
Amendment. This Court should grant the petition
and summarily reverse the decision of the court
below. In the alternative, the Court should grant the
petition and order full merits review of this
constitutional claim.
II.

THE COURT SHOULD GRANT
CERTIORARI
TO
RESOLVE
A
FULLY MATURE SPLIT AMONG
STATE COURTS OF LAST RESORT
AS TO WHETHER A JURY MUST
FIND ALL FACTS NECESSARY FOR
THE IMPOSITION OF A DEATH
SENTENCE, OR NEED ONLY FIND
AGGRAVATING CIRCUMSTANCES.
Certiorari is also warranted to resolve a fully

documents/apa-statement-on-segregation-of-prisoners-withmental-illness.pdf.
13

Id.

25

mature split among state supreme courts over
whether judges can find facts necessary to the
imposition of the death penalty. The supreme courts
of Missouri, Indiana, Alabama, and Illinois agree
with Nebraska that a jury need only find the
existence of an aggravating circumstance, and that a
judge can find all other facts necessary to impose a
death sentence. The supreme courts of Florida,
Delaware, Colorado, and Arizona disagree, and have
ruled that the Sixth Amendment requires a jury to
make all findings necessary to the imposition of
death, including the existence of mitigating
circumstances and whether the aggravating factors
outweigh the mitigating circumstances. The conflict
is fully mature because every active death penalty
state in which judges make factual findings needed
for a death sentence has ruled on this question.
Even among those states that permit judges to
make factual findings in capital sentencing,
moreover, Nebraska is an outlier. Missouri and
Indiana allow for judge fact-finding only in the rare
circumstance of a jury deadlock. With the exception
of Montana, every other state in the nation that has
the death penalty now requires a jury to make all the
necessary findings for its imposition.14 And while
14 These jurisdictions are: Arizona, Ariz. Rev. Stat. § 13-752;
Arkansas, Ark. Code Ann. § 5-4-603; California, Cal. Penal Code
§ 190.4(b); Colorado, Colo. Rev. Stat. § 18-1.3-1201; Florida, Fla.
Stat. § 921.141; Georgia, Ga. Code Ann. § 17-10-31; Idaho,
Idaho Code Ann. § 19-2515; Kansas, Kan. Stat. Ann. § 216617(e); Kentucky, Ken. Rev. Stat. § 532.025; Louisiana, La.
Code Cr. Proc. Ann. art. 905.8; Mississippi, Miss. Code Ann. §§
99-19-101, 99-19-103; Nevada, Nev. Rev. Stat. § 175.556; New
Hampshire, N.H. Rev. Stat. § 630:5; North Carolina, N.C. Gen.
Stat. Ann. § 15A-2000(b); Ohio, Ohio Rev. Code Ann. § 2929.03;
Oklahoma, 21 Okla. Stat. Ann. § 701.11; Oregon, Or. Rev. Stat.

26

Montana’s capital statute in theory permits judicial
fact-finding, it has not imposed a death sentence in
over two decades, so its procedure has not been
tested.15
The Court should grant certiorari to bring federal
uniformity to this issue, and to make clear that juries
must make all the necessary findings for imposition
of a sentence of death.
A.

The State Supreme Courts of Florida,
Delaware, Colorado, and Arizona Hold
that a Jury Must Find All Facts
Necessary for the Imposition of a
Sentence of Death.

In Hurst v. Florida, 136 S. Ct. 616, 619 (2016) this
Court held that “[t]he Sixth Amendment requires a
jury, not a judge, to find each fact necessary to
impose a sentence of death.” In so holding, the Court
Ann. § 163.150; Pennsylvania, 42 Pa. Stat. and Cons. Stat. Ann.
§ 9711; South Carolina, S.C. Code 1976 § 16-3-20; South
Dakota, S.D. Codified Laws § 23A-27A-4; Tennessee, Tenn.
Code Ann. § 39-13-204; Texas, Tex. Code Cr. Proc. art. 37.071;
Utah, Utah Code Ann. § 76-3-207; Virginia, Va. Code Ann. §
19.2-264.4; Washington, Wash. Rev. Code § 10.95.080;
Wyoming, Wyo. Stat. Ann. § 6-2-102; and the federal
government, 18 U.S.C. § 3593. Capital punishment is prohibited
in twenty-two jurisdictions. See Death Penalty Info. Ctr., State
by State, https://deathpenaltyinfo.org/states-and-without-deathpenalty (last visited Oct. 16, 2019).
15 See Mont. Code Ann. § 46-18-301 (requiring judicial
sentencing, including finding and considering aggravating and
mitigating circumstances). No defendant has been sentenced
to death in Montana since 1996. See Death Penalty Info. Ctr.,
Montana,
https://deathpenaltyinfo.org/state-and-federal-info/
state-by-state/montana (last visited Oct. 16, 2019).

27

noted that, under the Florida statute, a defendant
was not eligible for death until the trial judge made
findings regarding the existence of aggravating and
mitigating circumstances, and the relative weight of
each:
[T]he Florida sentencing statute does
not make a defendant eligible for death
until “findings by the court that such
person shall be punished by death.”
The trial court alone must find “the
facts . . . [t]hat sufficient aggravating
circumstances exist” and “[t]hat there
are insufficient mitigating circumstances to outweigh the aggravating
circumstances.”
Id. at 622 (emphasis in original) (quoting Fla. Stat.
§§ 775.082(1), 921.141(3)). On remand, the Florida
Supreme Court applied that principle to hold that
juries must find all the facts necessary under Florida
law to impose a death sentence. The court held that:
[B]efore the trial judge may consider
imposing a sentence of death, the jury in
a capital case must unanimously and
expressly find all the aggravating
factors that were proven beyond a
reasonable doubt, unanimously find
that the aggravating factors are
sufficient to impose death, unanimously
find that the aggravating factors
outweigh the mitigating circumstances,
and
unanimously
recommend
a
sentence of death.
Hurst v. State, 202 So. 3d 40, 57 (Fla. 2016).

28

In the wake of Hurst, the Delaware Supreme
Court similarly held unconstitutional its capital
sentencing scheme, because it allowed death
sentences upon judicial findings of facts that the
Sixth Amendment reserves for juries. Like
Nebraska’s, the Delaware statute provided that if the
jury finds “at least 1 statutory aggravating
circumstance,” the judge “shall impose a sentence of
death if the Court finds by a preponderance of the
evidence . . . that the aggravating circumstances
found by the Court to exist outweigh the mitigating
circumstances found by the Court to exist.” Del. Code
Ann. tit. 11, § 4209.
The
Delaware
Supreme
Court
held
it
unconstitutional to sentence a defendant to death
upon a judge, not a jury, finding “that the
aggravating circumstances found to exist outweigh
the mitigating circumstances found to exist.” Rauf v.
State, 145 A.3d 430, 434 (Del. 2016) (per curium). A
majority of the court explained, “‘[a] judge cannot
sentence a defendant to death without finding that
the aggravating factors outweigh the mitigating
factors. . . .” and therefore “[t]he relevant ‘maximum’
sentence, for Sixth Amendment purposes, that can be
imposed under Delaware law, in the absence of any
judge-made findings on the relative weights of the
aggravating and mitigating factors, is life
imprisonment. Rauf, 145 A.3d at 485 (Holland, J.,
concurring).
Similarly, the Colorado Supreme Court held
unconstitutional its capital sentencing statute, under
which a “three-judge panel could not sentence a
defendant to death unless it found unanimously that
(A) At least one aggravating factor has been proved;
and (B) There are insufficient mitigating factors to
29

outweigh the aggravating factor or factors that were
proved.” Woldt v. People, 64 P.3d 256, 266 (Colo.
2003) (en banc) (internal quotation marks omitted).
The court concluded that this “statute required the
judges to make factual findings as a prerequisite to
imposition of the death penalty, in violation of
defendants’ Sixth Amendment right to have a jury
make such findings.” Id. at 259.
The Arizona Supreme Court has also ruled that
the Sixth Amendment requires a jury to find both the
aggravating and mitigating facts in order to impose a
death sentence. On remand from this Court’s
decision in Ring v. Arizona, 536 U.S. 584 (2002), the
Arizona Supreme Court expressly rejected the state’s
argument that nothing in this Court’s precedent
prevented a judge from “finding mitigating factors
and balancing them against the aggravator.” State v.
Ring, 65 P.3d 915, 942 (Ariz. 2003) (en banc). The
Arizona court reasoned that “[n]either a judge, under
the superseded statutes, nor the jury, under the new
statutes, can impose the death penalty unless that
entity concludes that the mitigating factors are not
sufficiently substantial to call for leniency.” Id. at
943; see State v. Lamar, 115 P.3d 611, 616 (Ariz.
2005) (requiring resentencing where judge imposed
the death penalty because “[a] different finding of
mitigating circumstances could affect a factfinder’s
determination whether the mitigating circumstances
are sufficiently substantial to call for leniency”
(internal quotation mark omitted)); see also Johnson
v. State, 59 P.3d 450, 460 (Nev. 2002) (striking down
state capital sentencing scheme, and holding that
“finding regarding mitigating circumstances” is a
factual finding that must be made by a jury because
it “is necessary to authorize the death penalty in

30

Nevada”), overruled on other grounds by Nunnery v.
State, 263 P.3d 235 (Nev. 2011).
Thus, four state supreme courts interpret the
Sixth Amendment to require a jury to find—not
merely the existence of an aggravating factor, but—
all facts necessary to impose a death sentence.
B.

The Court Below and Four Other
State Supreme Courts Have Ruled
that the Sixth Amendment Requires
That a Jury Find Only the Presence
of Aggravating Factors, and Permits
Judges to Make Other Factual
Findings Necessary to Impose a
Death Sentence.

In direct conflict with the supreme courts of
Florida, Delaware, Colorado, and Arizona, the
supreme courts of Nebraska, Missouri, Indiana,
Alabama, and Illinois have held that the Sixth
Amendment allows a judge to make some factual
findings necessary to the imposition of a death
sentence.
The Nebraska Supreme Court rejected Jenkins’
Sixth Amendment argument that the jury must find
all facts necessary to the imposition of death. In its
view, the Sixth Amendment requires only that the
jury find the existence of an aggravating
circumstance. Once a jury makes that determination,
judges may make all further factual findings.
Relying on its prior decision in State v. Lotter,
917 N.W.2d 850 (Neb. 2018), cert. denied, 139 S. Ct.
2716 (2019), it reasoned that the Sixth Amendment
does not “require the determination of mitigating
circumstances, the balancing function, or the
proportionality review.” Pet. App. 50a. The court
31

believed that “earlier U.S. Supreme Court
precedent—upon which Hurst was based—did not
require the determination” of these facts to be
“undertaken by a jury” and “[n]othing in Hurst
requires a reexamination of that conclusion.” Id. But
it “acknowledged that [its] view was not universal.”
Id.
Missouri’s death penalty statute provides that if
“the jury deadlocked on punishment, the circuit court
determine[s] the appropriate sentence.” State v.
Wood, 580 S.W.3d 566, 574 (Mo. 2019) (en banc)
(citing Mo. Ann. Stat. § 565.030.4). The Missouri
Supreme Court recently upheld this scheme,
concluding that “the weighing step is not a factual
finding that must be found by the jury beyond a
reasonable doubt.” Id. at 585 (emphasis in original).
In the court’s view, Hurst “stands only for the
proposition that, in a jury tried case, aggravating
circumstances are facts that must be found by the
jury beyond a reasonable doubt.” Id. at 584
(emphasis added). The court acknowledged that its
conclusion conflicts with the supreme courts of
Delaware and Florida. Id. at 585 n.12 (noting the
conflict but asserting that “both [Rauf and Hurst] are
wrongly decided”).
Indiana law similarly provides that “[i]f a jury is
unable to agree on a sentence recommendation after
reasonable deliberations, the court shall discharge
the jury and proceed as if the hearing had been to the
court alone.” Ind. Code Ann. § 35-50-2-9(f). Indiana’s
highest court has upheld the constitutionality of this
provision, explaining “as to occasions when a jury
finds that one or more aggravators are proven
beyond a reasonable doubt but is unable to reach
unanimous agreement on whether any mitigating
32

circumstances are outweighed by the aggravating
circumstances, such weighing is not a ‘fact’ and thus
does not require jury determination.” State v. Barker,
826 N.E.2d 648, 649 (Ind. 2005).
The Supreme Court of Alabama also upheld the
constitutionality of a death penalty scheme that
permitted the trial judge to make factual findings
regarding mitigation and the relative weight of
aggravating and mitigating factors. In Ex parte
Bohannon, 222 So. 3d 525, 532 (Ala. 2016), cert.
denied, 137 S. Ct. 831 (2017), the court held that
“Ring and Hurst require only that the jury find the
existence of the aggravating factor that makes a
defendant eligible for the death penalty. . . .
Moreover, Hurst does not address the process of
weighing
the
aggravating
and
mitigating
circumstances or suggest that the jury must conduct
the weighing process to satisfy the Sixth
Amendment.” In 2017, the Alabama legislature
changed its death penalty statute to eliminate this
provision, see 2017 Ala. Laws Act 2017-131 (S.B. 16),
but the Alabama Supreme Court decision stands.
Using this reasoning, the Supreme Court of Alabama
upheld the constitutionality of death sentences that
this Court had remanded in light of Hurst.16
See Johnson v. State, 256 So. 3d 684, 762 (Ala. Crim. App.
2017), on remand from 136 S. Ct. 1837 (2016) (mem.), cert.
denied, 139 S. Ct. 173 (2018) (Mem); Russell v. State, 261 So. 3d
454, 456 (Ala. Crim. App. 2016), on remand from 137 S. Ct. 158
(2016) (mem.), cert. denied, 138 S. Ct. 1449 (2018) (mem.);
Kirksey v. State, 243 So. 3d 849, 853 (Ala. Crim. App. 2017), on
remand from 136 S. Ct. 2409 (2016) (mem.), cert. denied, 138 S.
Ct. 430 (2017) (Mem); Wimbley v. State, 238 So. 3d 1268, 1276
(Ala. Crim. App. 2017), on remand from 136 S. Ct. 2387 (2016)
(mem.), cert. denied, 138 S. Ct. 385 (2017) (Mem).
16

33

The Illinois Supreme Court has similarly held
that “the rule announced in Apprendi [v. New Jersey,
530 U.S. 466 (2000)] is not applicable in the
mitigation phase of a death penalty sentencing
hearing.” People v. Davis, 793 N.E.2d 552, 568 (Ill.
2002); People v. Banks, 934 N.E.2d 435, 469–70 (Ill.
2010) (declining to reconsider People v. Davis).
This sharply defined conflict is as mature as it
will ever get. No other death penalty state permits a
judge to participate in any fact-finding necessary to
impose the death penalty. Thus, the supreme courts
of all relevant states have spoken, and are in direct
disagreement.17 This Court should step in to resolve
this important question and ensure that all capital
defendants are afforded their full Sixth Amendment
rights.
C.

The Decision Below is Incorrect
Because the Sixth Amendment
Requires a Jury to Find All Facts
Necessary to the Imposition of a
Death Sentence.

The decision below is wrong. This Court’s decision
in Hurst requires that a jury, not a judge, decide all
the factual predicates for the imposition of death
under state law. 136 S. Ct. at 619. Thus, where, as
here (and in nearly every state with a death penalty),
Petitioner notes that Delaware has not reinstated the death
penalty since its supreme court invalidated the statute, and
Illinois abolished the death penalty in 2011. See generally
Death Penalty Info. Ctr., State by State, https://deathpenalty
info.org/states-and-without-death-penalty (last visited Oct. 16,
2019). With the constitutional decisions on this issue in these
states still on the books, however, any reinstatement of the
death penalty would need to honor them.
17

34

a death sentence requires the assessment of
aggravating and mitigating factors, and the weighing
of each, the jury must make these findings. Cf. Ring,
536 U.S. 613–14 (Breyer, J., concurring) (“I concur in
the judgment . . . because I believe that jury
sentencing in capital cases is mandated by the
Eighth Amendment.”).
The Nebraska death penalty statute violates the
Sixth Amendment by requiring a judge, not a jury, to
find facts necessary under the statute to impose a
death sentence. Under Nebraska law, a “panel of
judges” determines whether to “fix the sentence at
death” “based upon the following considerations:”
“[w]hether the aggravating circumstances as
determined to exist justify imposition of a sentence of
death” and “[w]hether sufficient mitigating
circumstances exist which approach or exceed the
weight given to the aggravating circumstances.”
Neb. Rev. Stat. § 29-2522; Lotter, 917 N.W.2d at 855–
56 (same); State v. Mata, 745 N.W.2d 229, 249 (Neb.
2008) (same).
Under Nebraska law, then, a death sentence may
issue only after factual findings regarding the
existence and weight of mitigating circumstances,
whether they are outweighed by aggravating factors,
and whether the aggravating factors are sufficient
for death. Absent these findings, a defendant must
be given a life sentence. The findings are therefore
“necessary to impose a sentence of death.” Hurst, 136
S. Ct. at 619.18
It does not matter that the Nebraska statute refers to these
findings as “considerations” and not explicitly as “facts” because
“the relevant inquiry is one not of form, but of effect—does the
required finding expose the defendant to a greater punishment
18

35

Nebraska’s highest court has incorrectly limited
Hurst to requiring only that the jury “fin[d] an
aggravating circumstance.” Lotter, 917 N.W.2d at
863; see also Pet. App. 50a. In fact, Hurst expressly
rested on the principle that “each fact necessary to
impose a sentence of death” must be found by a jury.
136 S. Ct. at 619 (emphasis added). And under
Nebraska law, as under Florida law, commission of a
murder and the presence of an aggravating factor are
not sufficient to impose death. Rather, the sentencer
must also make factual findings that the aggravating
factors are sufficient for death, and whether they
outweigh those in mitigation. Accordingly, the Sixth
Amendment requires a jury to make those
determinations. See Hurst, 202 So. 3d at 57 (holding
that nearly-identical factual findings required for a
death sentence under Florida law must be made by
the jury).
This Sixth Amendment right is buttressed by
Eighth Amendment considerations in the capital
context. That a jury, not a judge, must find each fact
necessary to impose a sentence of death ensures that
its imposition is linked to contemporary community
values, and is essential to public confidence in the
fairness and reliability of capital sentencing. See
Taylor v. Louisiana, 419 U.S. 522, 530 (1975)
(“Community participation in the administration of
than that authorized by the jury’s guilty verdict?” Apprendi, 530
U.S. at 494. As Justice Scalia explained, “the fundamental
meaning of the jury-trial guarantee of the Sixth Amendment is
that all facts essential to imposition of the level of punishment
that the defendant receives—whether the statute calls them
elements of the offense, sentencing factors, or Mary Jane—must
be found by the jury beyond a reasonable doubt.” Ring, 536 U.S.
at 610 (Scalia, J., concurring).

36

the criminal law . . . is not only consistent with our
democratic heritage but is also critical to public
confidence in the fairness of the criminal justice
system.”). Only a jury can ensure that death
sentences are consistent with the moral views of the
community and evolving standards of decency. See
Gregg v. Georgia, 428 U.S. 153, 173 (1976) (“[A]n
assessment of contemporary values concerning the
infliction of a challenged sanction is relevant to the
application of the Eighth Amendment.”); Witherspoon
v. Illinois, 391 U.S. 510, 519 n.15 (1968) (same); see
also Ring, 536 U.S. at 615 (Breyer, J., concurring)
(Juries are “more attuned to the community’s moral
sensibility, because they reflect more accurately the
composition and experiences of the community as a
whole.” (internal quotation marks and citation
omitted)).
III.

THIS CASE IS AN EXCELLENT VEHICLE
FOR ADDRESSING TWO IMPORTANT
DEATH PENALTY QUESTIONS.

This case provides an ideal vehicle for this Court
to resolve both questions presented. Both were
raised, preserved, and resolved on the merits below.
As this case is on direct appeal, no question
regarding whether the relief would be available
retroactively arises.
Jenkins expressly argued to the sentencing panel
that it should consider as a mitigating circumstance
his prolonged solitary confinement and its effects on
his mental health. The Panel unequivocally declined
to consider that fact. Jenkins raised the issue on
appeal, and the Nebraska Supreme Court
unequivocally affirmed the Panel’s decision to decline
to consider his solitary confinement. Thus, this claim
37

was raised, preserved, and directly addressed by the
courts below.
Jenkins also directly presented and obtained a
ruling below on the question of whether the
Constitution requires a jury to find all facts
necessary for the imposition of a death sentence. Pet.
App. 47a–50a.19 Because this case is on direct appeal,
it poses none of the procedural obstacles that may
have militated against review of this issue in prior
cases. For example, this Court denied certiorari in
Lotter, 139 S. Ct. 2716 (2019), but that case involved
a successor post-conviction petition, filed long after
Ring had become final, and so rested on nonretroactivity grounds. Lotter, 917 N.W.2d at 862–63.
This case, by contrast, presents a clean opportunity
for this Court to resolve a recurring issue on which
all relevant state supreme courts have already ruled.

In dicta, the Nebraska Supreme Court expressed “doubt” as
to whether Jenkins had “standing” to challenge the Nebraska
sentencing procedure because he waived his right to have a jury
find aggravating factors. Pet. App. 49a. But the court went on to
rule on the claim on the merits. Pet. App. 49a–50a. In any
event, Jenkins could not have waived the right he asserts here,
namely, to have a jury determine mitigating circumstances and
whether they outweigh aggravating factors, as that right is
simply unavailable under Nebraska law. One cannot waive a
right that does not exist.
19

38

CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully Submitted,
Brian W. Stull
Cassandra Stubbs
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
201 W. Main Street,
Suite 402
Durham, NC 27701

David D. Cole
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
(212) 549-2500
dcole@aclu.org

Amy A. Miller
ACLU OF NEBRASKA
FOUNDATION
134 S. 13th St .#1010
Lincoln, NE 68508

Jennesa Calvo-Friedman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Thomas C. Riley
DOUGLAS COUNTY PUBLIC
DEFENDER
1819 Farnam Street
H05 Civic Center
Omaha, NE 68183
Date: October 17, 2019

39

APPENDIX

SUPREME COURT OF NEBRASKA
State of Nebraska, Appellee,
v.
Nikko A. Jenkins, Appellant.
OPINION
Filed July 19, 2019.
Nos. S-17-577. S-17-657.
Appeals from the District Court for Douglas
County: PETER C. BATAILLON, Judge. Affirmed.
Thomas C. Riley, Douglas County Public
Defender, for appellant.
Nikko A. Jenkins, pro se.
Douglas J. Peterson, Attorney General, and
James D. Smith for appellee.
Brian William Stull and Amy Fettig, of
American Civil Liberties Union Foundation, and
Amy A. Miller, of American Civil Liberties Union of
Nebraska Foundation, for amici curiae National
Alliance on Mental Illness et al.
1.
Courts: Trial: Mental Competency:
Appeal and Error. The question of competency to
stand trial is one of fact to be determined by the
court, and the means employed in resolving the
question are discretionary with the court. The trial
court’s determination of competency will not be
disturbed unless there is insufficient evidence to
support the finding.

1a

2.
Pleas: Appeal and Error. A trial court
is given discretion as to whether to accept a guilty or
no contest plea, and an appellate court will overturn
that decision only where there is an abuse of
discretion.
3.
Judges: Words and Phrases. A
judicial abuse of discretion exists when the reasons
or rulings of a trial judge are clearly untenable,
unfairly depriving a litigant of a substantial right
and denying just results in matters submitted for
disposition.
4.
Trial: Pleas: Mental Competency. A
person is competent to plead or stand trial if he or
she has the capacity to understand the nature and
object of the proceedings against him or her, to
comprehend his or her own condition in reference to
such proceedings, and to make a rational defense.
5.
Trial: Mental Competency. The
competency standard includes both (1) whether the
defendant has a rational as well as factual
understanding of the proceedings against him or her
and (2) whether the defendant has sufficient present
ability to consult with his or her lawyer with a
reasonable degree of rational understanding.
6.
Pleas. To support a finding that a plea
of guilty or no contest has been entered freely,
intelligently, voluntarily, and understandingly, a
court must inform a defendant concerning (1) the
nature of the charge, (2) the right to assistance of
counsel, (3) the right to confront witnesses against
the defendant, (4) the right to a jury trial, and (5) the
privilege against self-incrimination.
7.
. To support a plea of guilty or no
contest, the record must establish that (1) there is a
2a

factual basis for the plea and (2) the defendant knew
the range of penalties for the crime with which he or
she is charged.
8.
. A sufficient factual basis is a
requirement for finding that a plea was entered into
understandingly and voluntarily.
9.
. A plea of no contest means that
the defendant is not contesting the charge.
10.
Courts: Trial: Mental Competency.
The question of competency to represent oneself at
trial is one of fact to be determined by the court, and
the means employed in resolving the question are
discretionary with the court. The trial court’s
determination of competency will not be disturbed
unless there is insufficient evidence to support the
finding.
11.
Right to Counsel: Waiver: Appeal
and Error. In determining whether a defendant’s
waiver of counsel was voluntary, knowing, and
intelligent, an appellate court applies a “clearly
erroneous” standard of review.
12.
Constitutional
Law:
Right
to
Counsel: Waiver. A criminal defendant has a
constitutional right to waive the assistance of counsel
and conduct his or her own defense under the Sixth
Amendment and Neb. Const. art. I, § 11.
13.
Trial: Right to Counsel: Waiver. The
standard for determining whether a defendant is
competent to waive counsel is the same as the
standard for determining whether a defendant is
competent to stand trial.
14.
Right to Counsel: Waiver. The
competence that is required of a defendant seeking to
3a

waive his or her right to counsel is the competence to
waive the right, not the competence to represent
himself or herself.
15.
Constitutional
Law:
Right
to
Counsel: Waiver. In order to waive the
constitutional right to counsel, the waiver must be
made knowingly, voluntarily, and intelligently.
16.
Right to Counsel: Waiver: Appeal
and Error. When a criminal defendant has waived
the right to counsel, an appellate court reviews the
record to determine whether under the totality of the
circumstances, the defendant was sufficiently aware
of his or her right to counsel and the possible
consequences of his or her decision to forgo the aid of
counsel.
17.
Criminal Law: Right to Counsel:
Waiver. A knowing and intelligent waiver of the
right to counsel can be inferred from conduct, and
consideration may be given to a defendant’s
familiarity with the criminal justice system.
18.
Constitutional
Law:
Statutes:
Appeal and Error. The constitutionality of a
statute presents a question of law, which an
appellate court independently reviews.
19.
Constitutional
Law:
Statutes:
Sentences. An ex post facto law is a law which
purports to apply to events that occurred before the
law’s enactment and which disadvantages a
defendant by creating or enhancing penalties that
did not exist when the offense was committed.
20.
:
:
. There are four types of
ex post facto laws: those which (1) punish as a crime
an act previously committed which was innocent

4a

when done; (2) aggravate a crime, or make it greater
than it was, when committed; (3) change the
punishment and inflict a greater punishment than
was imposed when the crime was committed; and (4)
alter the legal rules of evidence such that less or
different evidence is needed in order to convict the
offender.
21.
:
:
. The Ex Post Facto
Clause bars only application of a law that changes
the punishment, and inflicts a greater punishment,
than the law annexed to the crime, when committed.
22.
Criminal
Law:
Statutes:
Legislature: Sentences. Generally, when the
Legislature amends a criminal statute by mitigating
the punishment after the commission of a prohibited
act but before final judgment, the punishment is that
provided by the amendatory act unless the
Legislature specifically provided otherwise.
23.
Constitutional Law: Initiative and
Referendum. The constitutional provisions with
respect to the right of referendum reserved to the
people should be construed to make effective the
powers reserved.
24.
Statutes:
Initiative
and
Referendum. Upon the filing of a referendum
petition appearing to have a sufficient number of
signatures, operation of the legislative act is
suspended so long as the verification and
certification process ultimately determines that the
petition had the required number of valid signatures.
25.
Constitutional
Law:
Sentences:
Death Penalty: Mental Competency. The Eighth
Amendment forbids executing a prisoner whose
mental illness makes him or her unable to reach a
5a

rational understanding of the reason for his or her
execution.
26.
Constitutional
Law:
Sentences:
Death Penalty. U.S. Supreme Court precedent
forecloses any argument that the death penalty
violates the Constitution under all circumstances.
27.
Sentences: Death Penalty: Appeal
and Error. In a capital sentencing proceeding, the
Nebraska Supreme Court conducts an independent
review of the record to determine if the evidence is
sufficient to support imposition of the death penalty.
28.
Rules of Evidence: Sentences:
Death Penalty. In a capital sentencing proceeding,
the Nebraska Evidence Rules shall apply to evidence
relating to aggravating circumstances.
29.
Pleas: Sentences. A no contest plea
constitutes an admission of all the elements of the
offenses, but not an admission to any aggravating
circumstance for sentencing purposes.
30.
Sentences:
Aggravating
and
Mitigating Circumstances: Appeal and Error. A
sentencing panel’s determination of the existence or
nonexistence of a mitigating circumstance is subject
to de novo review by the Nebraska Supreme Court.
31.
Sentences:
Death
Penalty:
Aggravating and Mitigating Circumstances:
Appeal and Error. In reviewing a sentence of
death, the Nebraska Supreme Court conducts a de
novo review of the record to determine whether the
aggravating and mitigating circumstances support
the imposition of the death penalty.

6a

32.
Sentences:
Death
Penalty:
Aggravating and Mitigating Circumstances. In
a capital sentencing proceeding, a sentencer may
consider as a mitigating factor any aspect of a
defendant’s character or record and any of the
circumstances of the offense that the defendant
proffers as a basis for a sentence less than death.
33.
Sentences:
Aggravating
and
Mitigating Circumstances: Proof. In a capital
sentencing proceeding, the risk of nonproduction and
nonpersuasion as to mitigating circumstances is on
the defendant.
HEAVICAN, C.J., MILLER-LERMAN, CASSEL,
STACY, and FUNKE, JJ., and BISHOP and WELCH,
Judges.
CASSEL, J.
I.

INTRODUCTION

In consolidated appeals, one of which
involved the death penalty, Nikko A. Jenkins
challenges his competency to represent himself,
enter no contest pleas, proceed to sentencing, and
receive the death penalty. He also makes several
challenges to the death penalty. Finding no abuse of
discretion by the district court and no constitutional
infirmity regarding the death penalty, we affirm.
II.

BACKGROUND

We begin by setting forth a brief background.
Additional facts will be discussed, as necessary, in
the analysis section.
In August 2013, Jenkins shot and killed four
individuals in three separate incidents in Omaha,
Nebraska. In October, the State filed two criminal
7a

cases against him. In case No. CR 13-2768, the State
charged Jenkins with four counts each of murder in
the first degree, use of a deadly weapon (firearm) to
commit a felony, and possession of a deadly weapon
by a prohibited person. The information contained a
“Notice of Aggravators” for each count of murder. In
case No. CR 13-2769, the State charged Jenkins with
two counts of possession of a deadly weapon by a
prohibited person. The cases were eventually
consolidated. Because Jenkins remained mute at the
arraignment, the court entered pleas of not guilty to
all counts.
Jenkins’ competency was an issue throughout
the proceedings. The court held a number of hearings
and received extensive evidence. In February 2014,
the court found Jenkins competent to stand trial.
Although psychiatrists disagreed regarding whether
Jenkins was competent to stand trial and whether he
was mentally ill, the court acknowledged the
psychiatrists’ testimony that a person can be
mentally ill and still be competent to stand trial.
In March 2014, the court held a hearing
during which it found that Jenkins voluntarily,
knowingly, and intelligently waived his right to
counsel. It granted Jenkins’ motion to represent
himself and appointed the public defender’s office to
provide an attorney to advise Jenkins. After a
hearing 11 days later, the court accepted Jenkins’
waiver of his right to a jury trial.
In April 2014, Jenkins ultimately entered a
plea of no contest to every count. He did not agree
with the factual basis provided by the State and
stated that “even though [his] physical person may
have been in the act of these things [he] was not in

8a

that moment because of [his] psychosis condition of
psychotic mania.” The court accepted Jenkins’ pleas
of no contest and found him guilty of the charges.
Jenkins waived his right to have a jury determine
whether the aggravating circumstances alleged by
the State were true, stating that he would rather
have a three-judge panel make that determination.
The court accepted the waiver after ascertaining that
it was made freely, voluntarily, and knowingly.
Approximately 1 week later, the court
appointed the public defender’s office to represent
Jenkins in the death penalty phase. Because counsel
believed Jenkins was not competent to proceed with
the sentencing phase, the court held a hearing on the
matter. In July 2014—approximately 4 months after
finding Jenkins to be competent—the court entered
an order finding that Jenkins was not competent to
proceed with the sentencing phase. The court
expressed concern that the two psychiatrists who
believed Jenkins was competent to proceed did not
believe that he had a major mental illness. The court
worried that if the psychiatrists were wrong as to
whether Jenkins had a major mental illness, “it
places doubt as to their other opinion that [Jenkins]
is competent.”
After lengthy evaluation and rehabilitation
efforts, the court held a status hearing in February
2015 regarding Jenkins’ competency. It received a
report authored by two clinical psychologists and a
psychiatrist, who opined that Jenkins was competent
to proceed with sentencing. In March, the court
found that Jenkins was competent to proceed with
the death penalty phase.

9a

The court set the sentencing hearing before a
three-judge panel to commence on July 7, 2015.
However, the court postponed the hearing after the
Nebraska Legislature passed a law repealing the
death penalty. Through a referendum process,
enough votes were gathered to stay the repeal of the
death penalty until the issue was placed on the ballot
for the general election in November 2016.
Meanwhile, a psychiatrist opined in December
2015 that Jenkins was not competent. The court
allowed further evaluation of Jenkins and received
evidence during a June 2016 competency hearing. In
September, the court found that Jenkins was
competent to proceed with the sentencing phase. It
subsequently rejected Jenkins’ challenges to the
death penalty.
In November 2016, the ·death penalty
sentencing phase began. The three-judge panel
unanimously found beyond a reasonable doubt the
existence of six aggravating circumstances. It then
proceeded
with
a
hearing
on
mitigating
circumstances. The panel received comprehensive
evidence regarding, among other things, Jenkins’
mental health and his time in solitary confinement.
In May 2017, the three-judge panel entered a
30-page sentencing order. The panel found no
statutory mitigators existed. The panel found two
nonstatutory mitigators to be considered in the
weighing process: Jenkins’ bad childhood and his
mental health—that he had “a personality disorder
of narcissistic, antisocial, and borderline.”
The panel unanimously determined that the
mitigating circumstances did not approach or exceed
the weight given to the aggravating circumstances.

10a

With regard to proportionality in comparison with
other cases around the state, the panel stated that
Jenkins’ “commission of these four murders over a
ten day period is one of the worst killing sprees in
the history of this state.” Thus, the panel found that
sentences of death were not excessive or
disproportionate to the penalty imposed in similar
cases.
The panel imposed a sentence of death for
each of the four counts of murder in the first degree.
It imposed consecutive sentences of 45 to 50 years’
imprisonment on all other counts. Because the
sentences involved capital punishment, this
automatic appeal followed.1
III.

ASSIGNMENTS OF ERROR

Jenkins claims that the district court erred in
accepting his pleas of no contest for two primary
reasons: (1) He was not competent to enter them and
(2) they lacked a factual basis or affirmative evidence
of a valid waiver of trial rights.
He assigns that the court erred in finding him
to be competent to proceed pro se and that his
convictions and his sentences are constitutionally
infirm, because they were the product of the trial
court’s erroneous determination that he was
competent to proceed to trial and sentencing.
Jenkins makes several challenges concerning
the death penalty. He assigns that the court erred in
denying his motion to preclude the death penalty as
a violation of the ex post facto prohibitions and in
denying his motion to find Nebraska’s statutory
1

See Neb. Rev. Stat. § 29-2525 (Cum. Supp.2018).

11a

death
penalty
sentencing
procedure
is
unconstitutional. Jenkins claims that the death
penalty is cruel and unusual punishment when
imposed upon seriously mentally ill offenders and
individuals with intellectual disability. He further
assigns that the death penalty in all cases violates
the Eighth Amendment to the U.S. Constitution and
Neb. Const. art. I, § 9.
Jenkins also alleges that the sentencing panel
committed error. He assigns that the panel erred by
sentencing him to death based on facts alleged
during the plea proceeding. He also assigns that the
panel erred by failing to give meaningful
consideration to his mental illness, his unfulfilled
requests for commitment before the crime, and the
debilitating impact of solitary confinement.
Additionally, Jenkins filed a pro se brief. He
argued that his counsel was ineffective by failing to
bring Jenkins’ attempted suicide to the attention of
the court when it was contemplating Jenkins’
competency. However, Jenkins failed to assign any
error. An alleged error must be both specifically
assigned and specifically argued in the brief of the
party asserting the error to be considered by an
appellate court2. Although we decline to resolve this
alleged error, we note that during a hearing on
competency, Jenkins’ counsel asked one of the State’s
experts about Jenkins’ suicide attempts and one of
Jenkins’ experts also discussed those attempts.

2

State v. Dill, 300 Neb. 344, 913 N .W.2d 470 (2018).

12a

IV.
1.

ANALYSIS

ACCEPTANCE OF PLEAS

Jenkins contends that the court abused its
discretion in accepting his no contest pleas for a
variety of reasons. He claims that he was not
competent to enter pleas. In the same vein, he
alleges that there was no affirmative evidence of a
knowing, voluntary, and intelligent waiver of trial
rights. Jenkins also argues that no factual basis
existed for the pleas.
(a)

Standard of Review

[1] The question of competency to stand trial is
one of fact to be determined by the court, and the
means employed in resolving the question are
discretionary with the court. The trial court’s
determination of competency will not be disturbed
unless there is insufficient evidence to support the
finding.3
[2, 3] A trial court is given discretion as to
whether to accept a guilty or no contest plea, and an
appellate court will overturn that decision only
where there is an abuse of discretion.4 A judicial
abuse of discretion exists when the reasons or rulings
of a trial judge are clearly untenable, unfairly
depriving a litigant of a substantial right and
denying just results in matters submitted for
disposition.5

3

Slate v. Fox, 282 Neb. 957, 806 N.W.2d 883 (2011 ).

4

See State v. Clemens, 300 Neb . 601, 915 N .W.2d 550 (2018).

5

Id.

13a

(b)

Additional Background
(i)

Competency

During a November 2013 hearing, the court
received Dr. Bruce D. Gutnik’s November 8
psychiatric diagnostic competence evaluation. Gutnik
opined that Jenkins suffered from “Schizophrenia,
Continuous, Severe.” Gutnik noted that Jenkins had
hallucinations and delusions and “blunted affect.”
Gutnik could not rule out “Schizoaffective or Other
Specified Personality Disorder.” Gutnik opined that
Jenkins was not competent to stand trial, but that
Jenkins’ competence could be restored with
appropriate treatment, including antipsychotic
medications. The court ordered that Jenkins be
evaluated for competence to stand trial by staff at
the Lincoln Regional Center.
In February 2014, the court held a competency
hearing. Psychiatrist Y. Scott Moore opined that
Jenkins was competent for trial. He based that
detennination on Jenkins’ ability to understand three
prongs: (1) awareness of the charges against him, (2)
understanding of legal procedures and the functions
of the people in the courtroom, and (3) ability to
make a rational defense. Moore believed that
Jenkins’
primary
diagnosis
was
antisocial
personality disorder, that there was a “very slim”
likelihood of Jenkins’ having any other psychotic
illness, and that Jenkins was mostly malingering.
Other evidence pointed to the contrary. Dr.
Eugnene C. Oliveto performed a mental health
evaluation on Jenkins 2 days prior to the hearing
and arrived at an “Axis I” diagnosis of schizophrenia
and posttraumatic stress disorder. In 2009, Dr.
Natalie Baker had opined that Jenkins had psychosis

14a

not otherwise specified and bipolar disorder—an
opinion which Gutnik noted during the 2014
competency
hearing.
According
to
Gutnik,
hallucinations and delusions are the two primary
signs of psychosis and a review of Jenkins’ records
showed a history of hallucinations dating back to age
8. Thus, Gutnik testified that if Jenkins was
malingering, he had been doing so since he was 8.
On February 20, 2014, the court found Jenkins
competent to stand trial.
(ii)

Plea Hearing

In April 2014, the court held a hearing on
Jenkins’ pro se motion to plead guilty to all felony
counts. Several times during the hearing, Jenkins
changed how he wished to plead. He ultimately
entered no contest pleas to all charges.
Initially, Jenkins entered a guilty plea to each
charge in case No. CR 13-2768 and a not guilty plea
to both charges in case No. CR 13-2769. The court
then advised Jenkins of the litany of constitutional
rights he was giving up by entering guilty pleas.
Jenkins interjected to ask whether the not guilty
pleas would hinder anything, because he did not
want “to be sitting in, you know, Douglas County,
you know, eight months, 23-hour-a-day confinement,
when I ain’t did nothing.” The court advised that a
trial would be held on those charges. Jenkins stated
that he understood the constitutional rights he would
be waiving. He followed that by stating he had
already filed a habeas corpus action in federal court.
The court recited the elements for all of the
charges and advised Jenkins as to the penalties.
Upon Jenkins’ request, the court allowed him to
plead no contest to the weapons charges in both
15a

cases. Before the court accepted those pleas, Jenkins
stated that he wished to submit crime scene
photographs for the record.
When the court asked if the pleas of guilty and
no contest were Jenkins’ free and voluntary acts,
Jenkins answered that they were voluntary but not
free. He believed that judicial officers had been
unethical and had violated his rights and that he saw
“no other choice but to take these matters to another
jurisdiction.” The court then asked, “Are you freely,
knowingly and voluntarily entering these pleas of
guilty and no contest?” Jenkins answered, “Yes.”
Jenkins also stated that he understood he was giving
up constitutional rights and waiving any motions
pending now or in the future.
The court asked for a factual basis for all
charges, and the prosecutor supplied a lengthy
recitation. The prosecutor stated that on August 11,
2013, police were called to a location in Omaha,
Nebraska, and found the bodies of Jorge Cajiga-Ruiz
and Juan Uribe-Pena deceased in a pickup truck
with their pockets “kind of turned inside out in their
pants.” The investigation revealed that the victims
were lured by Jenkins’ sister and cousin under the
premise of performing acts of prostitution. Jenkins
interjected, “I know you were gonna lie like this.” The
prosecutor stated that Jenkins shot the victims in
the head with a shotgun loaded with a “deer slug.”
The victims were robbed with their billfolds taken.
An autopsy showed that Cajiga-Ruiz died of a single
gunshot wound to the head, which first passed
through his right hand, and that Uribe-Pena died of
a single gunshot wound to the head or face.

16a

The prosecutor stated that on August 19, 2013,
the police were called to “18th and Clark Streets”
and observed Curtis Bradford with “obvious gunshot
wounds to the head.” Police found a deer slug,
consistent with the deer slug used at the earlier
homicides. The autopsy showed that Bradford had
two gunshot wounds to the head and that the
entrance was the back of the head. The prosecutor
continued:
In the course of the investigation
by the Omaha Police Department, there
were witnesses. A witness who was in a
vehicle with . . . Jenkins[] and his sister
. . . who had -- was upset with . . .
Bradford, apparently.
MR. JENKINS: He’s lying. Liar.
[Prosecutor]: They set up that
they were going to do -- perform some
sort of another act of either a robbery or
a burglary, some kind of a jacking. They
picked up . . . Bradford. He had gloves
on, was dressed in a dark outfit. They
let him hold a .9 millimeter Hi-Point
Carbine rifle as they went to this
location. Once they got to a location
where
he was murdered, at 1804
North 18th Street, [Jenkins’ sister] shot
him once in the head. And then . . .
Jenkins said, this is how you do it, and
-- and proceeded to use a shotgun with a
deer slug -MR. JENKINS: Liar.
[Prosecutor]: -- and shot . . .
Bradford in the head also.
17a

MR. JENKINS: Fucking liar.
The prosecutor stated that on August 21, 2013,
as Andrea Kruger was driving home from work at
approximately 1:30 or 2 a.m., she was stopped at
“168th and Fort Street” by a vehicle occupied by
Jenkins, his uncle, his sister, and his cousin. Jenkins
got out of his vehicle and pulled Kruger from her
vehicle, because he wanted her sport utility vehicle to
“rob or jack other people.” After Jenkins shot Kruger
several times, he and his uncle took her vehicle. An
autopsy showed that Kruger’s cause of death was
gunshot wounds to the head, neck, and back.
According to the prosecutor, police obtained a
search warrant for a bag that Jenkins carried into an
apartment. The bag contained a “Remington Model
Express Magnum Pump 12-gauge shotgun with a cut
barrel and butt stock and a Hi-Point Carbine Model
995 rifle.” Spent shell casings recovered from the
Kruger murder scene were determined to have been
fired by the Hi-Point carbine that was found in the
bag. That same carbine had Bradford’s DNA on it.
Ballistics evidence showed that the spent rifle slug
from the Bradford crime scene was fired from the
shotgun recovered from the bag. During an interview
with Omaha police officers, Jenkins said he fired the
weapons and killed the four victims. Police also
obtained video from businesses located at 168th and
Fort Streets which showed Jenkins and his uncle in
the area around the time of Kruger’s murder.
Further corroboration came from Jenkins’ cousin,
who was present at the first and last murders, and
from one of Jenkins’ sisters concerning Bradford’s
murder. For purposes of the factual basis, the court
received a certified copy of a felony conviction for
Jenkins.
18a

Jenkins disputed the accuracy of the factual
basis. He explained that while his “physical person
may have been in the act of these things [he] was not
in that moment because of [his] psychosis condition
of psychotic mania . . . and manic episode that [he]
was within.” Jenkins stated that he heard the voice
of “Apophis” prior to the crimes. The court inquired
whether Jenkins understood that entry of a guilty
plea waived the right to enter a plea of not guilty by
reason of insanity. Jenkins responded that he
understood. He asserted that Apophis ordered him to
sacrifice the victims. The court asked if Jenkins
purposely and with deliberate and premeditated
malice killed Cajiga-Ruiz. Jenkins answered: “[T]he
last thing I could remember was I’m in a car. The
next thing I know I’m in front of this truck and I’m in
front of these individuals. It wasn’t premeditated.
The demonic force led me to them just like to the
other victims.” He stated, “I don’t recall in the
moment of shooting them.” Similarly, when asked if
he remembered killing Bradford, Jenkins answered
that he remembered being with Bradford and
hearing Apophis. With regard to Kruger’s murder,
Jenkins recalled seeing a vehicle pull up behind his,
hearing Apophis, and getting out of his vehicle.
The court expressed concern about accepting
the guilty pleas due to Jenkins’ disagreement with
the factual basis. The court stated that it would
accept a no contest plea to all of the charges, to which
Jenkins agreed. After Jenkins entered pleas of no
contest to all counts, he then asked if the court was
going to accept crime scene photographs for purpose
of his appeals. The court advised that it did not need
to receive any evidence at that time. It then accepted
the factual basis by the State and found Jenkins

19a

guilty of the charges.
(c)

Discussion

(i)

Competency

[4, 5] The first hurdle is whether Jenkins was
competent to plead no contest. A person is competent
to plead or stand trial if he or she has the capacity to
understand the nature and object of the proceedings
against him or her, to comprehend his or her own
condition in reference to such proceedings, and to
make a rational defense.6 The competency standard
includes both (1) whether the defendant has a
rational as well as factual understanding of the
proceedings against him or her and (2) whether the
defendant has sufficient present ability to consult
with his or her lawyer with a reasonable degree of
rational understanding.7
In finding Jenkins competent, the court
considered the evidence received at the competency
hearing along with its colloquy with Jenkins during
that hearing. Although the experts disagreed, there
was expert testimony that Jenkins was competent.
The court reasoned that its colloquy with Jenkins
showed that he could “comprehend his rights, convey
his reasons why he believed his rights had and were
being violated, and to follow the request of the Court
as to the timeliness of submitting his grievances.”
The court’s interactions with Jenkins are
important. At the time of the court’s competency
determination, it had observed Jenkins on a number
State v. Haynes, 299 Neb. 249, 908 N.W.2d 40 (20I 8),
disapproved on other grounds, State v. Allen, 301 Neb. 560, 919
N.W.2d 500.

6

7

See State v. Fox, supra note 3.

20a

of occasions. The U.S. Supreme Court has recognized
that “the trial judge, particularly one . . .who
presided over [a defendant’s] competency hearings . .
. , will often prove best able to make more fine-tuned
mental capacity decisions, tailored to the
individualized circumstances of a particular
defendant.”8
Here, the court based its competency
determination on expert testimony and its own
discussion with Jenkins. Sufficient evidence supports
the court’s determination of competency; therefore,
we will not disturb it.
(ii)

Validity of Pleas

[6, 7] In considering the validity of Jenkins’
pleas, we recall well-known principles. A plea of no
contest is equivalent to a plea of guilty.9 To support a
finding that a plea of guilty or no contest has been
entered freely, intelligently, voluntarily, and
understandingly, a court must inform a defendant
concerning (1) the nature of the charge, (2) the right
to assistance of counsel, (3) the right to confront
witnesses against the defendant, (4) the right to a
jury trial, and (5) the privilege against selfincrimination.10 To support a plea of guilty or no
contest, the record must establish that (1) there is a
factual basis for the plea and (2) the defendant knew
the range of penalties for the crime with which he or
she is charged.11
8 Indiana v. Edwards, 554 U.S. 164, 177, 128 S. Ct. 2379, 171 L.
Ed. 2d 345 (2008).
9

State v. Wilkonson, 293 Neb. 876, 881 N.W.2d 850 (2016).

10

See State v. Ortega, 290 Neb. 172, 859 N.W.2d 305 (2015).

11

State v. Wilkinson, supra note 9.

21a

[8, 9] A sufficient factual basis is a
requirement for finding that a plea was entered into
understandingly and voluntarily.12 Jenkins contends
that his pleas lacked a factual basis, because he
disagreed with the prosecutor’s version of the facts.
But a plea of no contest does not admit the
allegations of the charge; instead, it merely declares
that the defendant does not choose to defend.13 Such
a plea means that the defendant is not contesting the
charge.14 We find no requirement that a defendant
agree with the factual basis. If the State presents
sufficient facts to support the elements of the crime
charged and the defendant chooses not to defend the
charge, no more is required. We conclude that the
State supplied a sufficient factual basis.
Jenkins’ other challenges to his pleas are
likewise unpersuasive .He argues that the record
demonstrated he did not make a knowing, voluntary,
and intelligent waiver of his rights. He further
contends that his pleas were the product of
psychologically coercive conditions of solitary
confinement.
The record supports a finding that Jenkins
entered valid pleas. The bill of exceptions shows that
the court informed Jenkins of the rights he would be
waiving by entering a guilty or no contest plea and
that Jenkins responded he understood. We agree
that some of Jenkins’ statements can be read to show
confusion. But the court, having interacted with
12

Id.

13

See 21 Am. Jur. 2d Criminal Law § 645 (2016).

See In re Interest of Verle O., 13 Neb. App. 256, 691 N.W .2d
177 (2005).
14

22a

Jenkins on numerous occasions by the time of the
plea hearing, was in the best position to assess the
validity of his waiver of trial rights. Further, the
court held a competency hearing before accepting
Jenkins’ pleas and, with the benefit of expert
evidence, found Jenkins competent. We cannot say
that the court abused its discretion in accepting
Jenkins’ pleas of no contest.
2.

WAIVER OF COUNSEL

Jenkins claims that the court committed
reversible error when it allowed him to proceed pro
se. He contends that the court failed to adequately
advise him of the pitfalls of pro se representation.
(a)

Standard of Review

[10] The question of competency to represent
oneself at trial is one of fact to be determined by the
court, and the means employed in resolving the
question are discretionary with the court. The trial
court’s determination of competency will not be
disturbed unless there is insufficient evidence to
support the finding.15
[11] In determining whether a defendant’s
waiver of counsel was voluntary, knowing, and
intelligent, an appellate court applies a “clearly
erroneous” standard of review.16
(b)

Additional Background

Less than 1 month after the court found
Jenkins competent to stand trial, it held a hearing on
Jenkins’ request to dismiss his counsel and to
15

State v. Lewis, 280 Neb.246, 785 N.W.2d 834 (2010).

16

State v. Hessler, 274 Neb. 478, 741 N.W.2d 406 (2007).

23a

proceed pro se. The court told Jenkins that the
charges he faced were “extremely serious,” that
representing himself would be “extremely difficult,”
that Jenkins’ counsel was “probably one of the best
defense attorneys in this entire area,” and that
Jenkins was “placing [his] defense at risk” if he did
not want counsel to represent him.
The court found that Jenkins voluntarily,
knowingly, and intelligently waived his right to
counsel. It granted Jenkins’ motion to represent
himself and appointed the public defender’s office
to provide an attorney to advise Jenkins.
(c)

Discussion

[12] A criminal defendant has a constitutional
right to waive the assistance of counsel and conduct
his or her own defense under the Sixth Amendment
and Neb. Const. art. I, § 11.17 However, a criminal
defendant’s right to conduct his or her own defense is
not violated when the court determines that a
defendant competent to stand trial nevertheless
suffers from severe mental illness to the point where
he or she is not competent to conduct trial
proceedings without counsel.18 The two-part inquiry
into whether a court should accept a defendant’s
waiver of counsel is, first, a determination that the
defendant is competent to waive counsel and, second,
a determination that the waiver is knowing,
intelligent, and voluntary.19
17

State v. Ely, 295 Neb. 607, 889 N.W.2d 377 (2017).

18

State v. Lewis, supra note 15.

19

See State v. Hessler, supra note 16.

24a

(i)

Competency

[13] The standard for determining whether a
defendant is competent to waive counsel is the same
as the standard for determining whether a defendant
is competent to stand trial.20 Here, the court accepted
Jenkins’ waiver of counsel less than 1 month after
finding that Jenkins was competent to stand trial—a
determination that we have concluded was supported
by sufficient evidence. And unlike in State v. Lewis,21
where the record showed that the defendant suffered
from severe mental illness, the court here did not
find that Jenkins was impaired by a serious mental
illness or lacked mental competency to conduct trial
proceedings by himself.
[14] We are mindful that the competency
question is not whether a defendant can ably
represent himself or herself. “(T]he competence that
is required of a defendant seeking to waive his right
to counsel is the competence to waive the right, not
the competence to represent himself.”22 Indeed, “a
criminal defendant’s ability to represent himself has
no bearing upon his competence to choose selfrepresentation.”23 The court recognized during the
hearing that it had declared Jenkins competent to
stand trial, and sufficient evidence supports that
finding. Thus, Jenkins was also competent to waive
his right to counsel.

20

Id.

21

State v. Lewis, supra note 15.

22 Godinez v. Moran, 509 U.S. 389, 399, 113 S. Ct. 2680, 125 L.
Ed. 2d 321 (1993) (emphasis in original).
23

Id., 509 U.S. at 400 (emphasis in original).

25a

(ii)

Validity of Waiver

[15, 16] In order to waive the constitutional
right to counsel, the waiver must be made knowingly,
voluntarily, and intelligently.24 When a criminal
defendant has waived the right to counsel, this court
reviews the record to determine whether under the
totality of the circumstances, the defendant was
sufficiently aware of his or her right to counsel and
the possible consequences of his or her decision to
forgo the aid of counsel.25 Formal warnings do not
have to be given by the trial court to establish a
knowing, voluntary, and intelligent waiver of the
right to counsel.26 In other words, a formalistic litany
is not required to show such a waiver was knowingly
and intelligently made.27
Jenkins’ waiver of counsel was voluntary. Like
in State v. Dunster,28 no promises or threats were
made to encourage the waiver of the right to counsel
and the defendant prepared his own written motion
to discharge counsel. Moreover, the decision to
discharge counsel and proceed pro se was not forced
upon Jenkins; rather, Jenkins wished to handle
matters in a particular way and was dissatisfied with
his counsel’s failure to file certain motions that
counsel believed to be frivolous.

24

Stale v. Ely, supra note 17.

25

Stale v. Hessler, supra note 16.

Stale v. Figeroa, 278 Neb. 98, 767 N.W.2d 775 (2009),
overruled in part on other grounds, State v. Thalken, 299
Neb.857, 911 N.W.2d 562 (2018).
26

27

Id.

28

State v. Dunster, 262 Neb. 329, 631 N.W.2d 879 (2001).

26a

[17] The record shows that Jenkins knowingly
and intelligently waived his right to counsel. A
knowing and intelligent waiver can be inferred from
conduct, and consideration may be given to a
defendant’s familiarity with the criminal justice
system.29 Jenkins, as a convicted felon at the time of
the instant charges, had prior involvement with the
criminal justice system. And counsel represented
Jenkins in proceedings leading up to the hearing on
Jenkins’ motion to discharge counsel. The fact that
Jenkins was represented during earlier proceedings
indicates that he was aware of his right to counsel
and that he knew what he would forgo if he waived
counsel.30 The court warned Jenkins that it would be
difficult to represent himself. But a waiver of counsel
need not be prudent, just knowing and intelligent.31
The court’s determination that Jenkins’ waiver
of counsel was voluntary, knowing, and intelligent
was not clearly erroneous. Jenkins knew that he had
the right to legal counsel and that he faced potential
sentences of death. Further, the court appointed
Jenkins’ prior counsel to provide advice.
3.

COMPETENCY TO PROCEED TO
SENTENCING

Jenkins claims that his convictions and
sentences are constitutionally infirm as the product
of the trial court’s erroneous determination that he
was competent to proceed to trial and sentencing.

29

See State v. Wilson, 252 Neb. 637, 564 N.W.2d 241 (1997).

30

See Stale v. Hessler, supra note 16.

31

State v. Ely, supra note 17.

27a

(a)

Standard of Review

The question of competency to stand trial is
one of fact to be determined by the court, and the
means employed in resolving the question are
discretionary with the court. The trial court’s
determination of competency will not be disturbed
unless there is insufficient evidence to support the
finding.32
(b)

Additional Background

Above, we summarized evidence as to Jenkins’
competency prior to entry of his pleas.
The court also held several postplea
competency hearings, which we discuss next.
(i)

July 2014

In July 2014, the court held a hearing on
Jenkins’ competency to proceed with the death
penalty phase. Gutnik, who evaluated Jenkins on
four occasions over a number of years, testified that
he looks at consistency over time in determining
whether a person is accurately relating auditory and
visual hallucinations. Gutnik testified that Jenkins
consistently spoke about seeing various Egyptian
gods and about hearing the voice of an Egyptian god.
Gutnik stated that records from psychiatrists when
Jenkins was 8 years old mentioned auditory and
visual hallucinations. Gutnik noted that symptoms
had been reported on multiple occasions unrelated to
legal issues, and he questioned what a person’s
motivation would be to say he or she was hearing
things when there was no secondary gain involved.
Gutnik observed that Jenkins had a long history of
32

State v. Fox, supra note 3.

28a

self-mutilation, some of it having to do with
delusional beliefs about emissaries from Egyptian
folklore and some of it coming from his mood swings.
Gutnik opined that Jenkins was incompetent
to “stand trial.” Although Jenkins understood that he
had an attorney and that a judge would be present
during the death penalty phase, Gutnik testified that
Jenkins did not understand that he had been
convicted. Gutnik did not believe that Jenkins had
“the ability to meet the stress of a real trial without
his rationality or judgment breaking down.” Gutnik
testified that Jenkins could “probably” be restored to
competency, but that he would need to be in a hospital
and treated with medications.

Dr. Jane Dahlke, a psychiatrist who evaluated
Jenkins when he was 8 years old, testified that he
was hospitalized for 11 days. Jenkins’ mother
brought him to the hospital due to statements of selfharm and increasing aggression toward others.
Dahlke diagnosed him with oppositional defiant
disorder and attention deficit hyperactive disorder.
At that time, the field of psychiatry was not
diagnosing 8-year-old children with bipolar disorder.
But based on the records of her observations, Dahlke
now would have diagnosed Jenkins with some form
of childhood bipolar disorder. She noted in her
records that Jenkins talked about hearing voices that
would tell him to steal and had nightmares about his
father shooting his mother. He reported auditory
hallucinations and seeing “black spirits.” Because
Dahlke did not see any reason for Jenkins to feign
mental illness or to have any secondary gain for
doing so, she felt that Jenkins was experiencing what
he reported.

29a

Moore differed, testifying that he believed
Jenkins was competent to proceed to sentencing. He
had evaluated Jenkins three times, most recently a
month earlier. In Moore’s experience with
schizophrenics, those hearing voices “block off”
and/or “look to the side” and are unable to continue
giving attention to Moore. But Jenkins differed; he
said he heard voices all of the time, and at no point
during the evaluation was Jenkins distracted. Moore
thought that all the symptoms Jenkins reported were
fabricated. Moore believed that Jenkins had been
malingering all along, including when he was 8 years
old, and using fanciful stories to try to explain his
behavior and not be held accountable for it. Moore
opined that a person can be psychotic and competent
at the same time. He explained: “A person who is
psychotic can understand all of the procedures
against him. He may disagree with them, but he
understands them and can work up a defense with
his attorney.”
Baker first encountered Jenkins in 2009 and
last saw him in February 2013. She did not examine
Jenkins for the purpose of determining whether he
was competent. She noted psychotic symptoms, such
as Jenkins’ reports of being paranoid and of auditory
hallucinations where he heard a voice that he called
Apophis. In a December 2009 note, Baker stated that
Jenkins appeared to be attempting to use mental
health symptoms for secondary gain, including to
avoid legal consequences in court for recent
behaviors. Baker opined in February 2013 that
Jenkins appeared to be mentally ill and was an
imminent danger to others.
Dr. Klaus Hartmann, a forensic psychiatrist,
first met Jenkins during a June 2014 evaluation. He
30a

opined that Jenkins was competent to proceed to
sentencing. Hartmann did not believe that Jenkins
had a major mental disorder; rather, Hartmann felt
that Jenkins had a personality disorder which
accounted for his symptoms.
Hartmann also thought that many of Jenkins’
symptoms appeared contrived. He testified that they
were “a caricature of mental illness rather than a
real mental illness,” that Jenkins overelaborated,
and that Jenkins “produces additional symptoms
that just simply are not in keeping with my
experience.” Hartmann found it unusual that
Jenkins “parades his mental illness,” when most
people with mental illness do not come forward to
say they are sick. According to Hartmann, most
people who are psychotic do not understand that they
are psychotic, which is part of having lost touch with
reality. He remarked that although Jenkins would
say he had no memory of events, in further
questioning, Jenkins understood and remembered
clearly some of the matters.
Dr. Martin W. Wetzel saw Jenkins for a
psychiatric consultation in March 2013. According to
his report, Jenkins expressed bizarre auditory
hallucinations that “did not appear to be consistent
with typical symptoms of a psychotic disorder.”
Wetzel’s assessment was “Bipolar Disorder NOS,
Probable”; “PTSD, Probable”; “Antisocial and
Narcissistic PD Traits”; and “Polysubstance
Dependence in a Controlled Environment.” The
report stated: “The patient has an unusual list of
demands, the first of which has been placement in a
psychiatric hospital. This could be related to a
singular motive or a combination of motives,
including malingering and/or a sense of disease.”
31a

Following the July 2014 hearing, the court
found that Jenkins was not competent to proceed
with sentencing.
(ii)

February and March 2015

In February 2015, the court held a status
hearing regarding Jenkins’ competency. Jenkins
informed the court that he had been stable the past 6
months and was competent to proceed.
The court received a 31-page report submitted
by Jennifer Cimpl Bohn, a clinical psychologist;
Rajeev Chaturvedi, a psychiatrist; and Mario J.
Scalora, a consulting clinical psychologist. The report
detailed observations from Lincoln Regional Center
sessions and a discussion of current competencyrelated abilities. They opined that Jenkins was
competent to proceed with sentencing, that he
demonstrated an adequate factual understanding of
the proceedings, and that he demonstrated the
ability to rationally apply such knowledge to his own
case. Their diagnosis was “Other Specified
Personality Disorder (e.g., Mixed Personality
Features-Antisocial, Narcissistic, and Borderline),”
malingering, polysubstance dependence, and a
history of posttraumatic stress disorder.
The report contained extensive background
information. It included a discussion that Jenkins’
hearing voices at a young age may have actually
been the voices of children with Jenkins and that his
sleeping difficulties and nightmares related to
violent events he had witnessed. The report noted
that a February 2012 record from a “Mental Illness
Review Team” indicated that Jenkins “referred to his
presentation of symptoms as a ‘skit’ in conversations
with his mother and girlfriend.” A record 2 months

32a

later revealed that after Jenkins broke a fire
suppression sprinkler and flooded a section of the
unit, staff reported that Jenkins said “‘he would
continue to act insane until he got the mental health
treatment he was entitled to” and that actions such
as breaking sprinkler heads and smearing feces
‘“would get immediate response[s] from mental
health. He stated he was a smart man and knew how
to get the responses from mental health so he could
get the treatment he needed.’“ The report contrasted
letters written by Jenkins on the same day in 2012:
Several of the letters were written in a pyramid
design, with comments about schizophrenia and
Egyptian gods and goddesses, and the need for
emergency hearings; whereas a different letter was
written in typical form with a clear request for a copy
of Jenkins’ records.
The report documented instances in which
Jenkins appeared to use symptoms of mental illness
for secondary gain. In January 2013, Jenkins
obtained access to restricted property after he stated
that Apophis wanted him to harm himself. After
cutting himself, Jenkins refused to have sutures
removed if his restrictive status was not decreased.
According to a mental health contact note, Jenkins
said he “could ignore Apophis if allowed access to ear
buds or paper in his room.” In February, Jenkins
broke another fire suppression sprinkler in his room
and staff reported that Jenkins said he was hearing
voices and would break another sprinkler head if put
back in the same cell.
According to the report, a psychiatrist
indicated in April 2013 that Jenkins “appeared to be
‘performing.’” The psychiatrist mentioned that
Jenkins told his mother he “was ‘going to try to get a
33a

psychiatric diagnosis so he could get paid,’ seemingly
in reference to obtaining disability benefits.” That
psychiatrist diagnosed Jenkins with “‘Antisocial
Personality with narcissistic features vs. Narcissistic
Personality with antisocial features.’”
The report noted that Jenkins had requested
on numerous occasions to be diagnosed with
schizoaffective disorder. When challenged that such
requests suggested that Jenkins was “more
interested in the prescription and diagnosis being
documented, as opposed to actually receiving
treatment for mental health problems,” Jenkins
“generally changed the topic or grinned and
remained silent.” According to the report, Jenkins
had remarked that asking for certain medications in
the past “resulted in him obtaining diagnoses that he
perceives as favorable for his legal strategies.”
The report stated that Jenkins had an
“inflated view of himself consistent with narcissistic
traits.” It elaborated:
Jenkins repeatedly made statements
about
being
a
“mastermind,”
“strategist,”
“chess
player,”
and
engaging in “psychological warfare,” in
reference to the legal proceedings and
his assertions that he will be able to
have governmental agencies held liable
for his actions by stating certain things
(e.g., that he needs treatment in a
different placement), obtaining a
documentation
trail,
and
then
exhibiting certain behaviors (e.g., selfharm). When describing his actions to
have others held liable for his actions,

34a

he
demonstrated
significant
forethought,
outlining
how
he
strategizes to achieve his goals, and
that the fruits of his labor have been
realized by [the Department of
Correctional Services’] being criticized
for their actions.
Jenkins also made repeated comments about
not wanting to be found competent. The report
explained:
He described how it was his intent to be
found competent for trial because he
wanted to enter a guilty plea so he
would have grounds to appeal later on,
but wanted to be found incompetent
after the conviction, and as a result,
behaved in such a way to achieve that
goal. In a similar manner, . . . Jenkins
repeatedly highlighted how being
diagnosed with a mental illness by Drs.
Baker, Oliveto, and Gutnik has
benefitted him, and sought to pressure
[Lincoln Regional Center] personnel
into providing a similar diagnosis by
stating that those were “medical
doctors” with many years of experience.
While he repeatedly asserted suffering
from “severe” mental illness . . . Jenkins
never appeared bothered by the
symptoms. At times, [he] became
confrontational and intimidating. There
was no indication of psychotic process
throughout these discussions, and he
sporadically, almost as an afterthought,
would assert that he heard auditory
35a

hallucinations
and suffered
from
delusions (e.g., reference to returning to
his cell to “bask in [his] insanities,” or
that he would go to his cell to converse
with “the spiritual realm”).
In August 2014, Jenkins was administered a
test to assess his self-report of symptoms. The results
showed “a pattern of markedly elevated sub-scores
that is strongly characteristic of an individual
feigning a mental disorder.” The test contained eight
primary scales, and Jenkins’ scores were in the
“definite feigning range” on four scales, in the
“probable feigning range” on three scales, and in the
“indeterminate range” on one scale.
The report stated that Jenkins had been
inconsistent in his report of psychotic symptoms.
Although records suggested that Jenkins reported
hallucinatory experiences as a child, providers at
the facility where Jenkins was hospitalized
“characterized those symptoms as reactions to
traumatic experiences (i.e., nightmares) or real
experiences (i.e., older boys who instructed him to
steal).” According to the report, “The lack of further
report of such symptoms until over a decade later
provides credence to that initial conceptualization of
those symptoms.” The report stated that Jenkins’
self-report as an adult “has been inconsistent over
time, with the exception of a common theme of
hearing the voices of Apophis and other gods/demons
in the last few years.” The report provided several
reasons, which we do not detail here, why Jenkins’
assertions that he “always” heard those voices since
childhood lacked credibility.

36a

In March 2015, the court found that Jenkins
was competent to proceed with the death penalty
phase.
(iii)

December 2015

In December 2015, shortly after Gutnik
evaluated Jenkins and opined that he was not
competent, the court held a hearing. Gutnik believed
that Jenkins was deteriorating over time due to
being kept in isolation. Upon the State’s motion, the
court stated that it would allow doctors from the
Lincoln Regional Center to evaluate Jenkins.
(iv)

June 2016

The court next held a competency hearing in
June 2016. By that time, Cimpl Bohn, Chaturvedi,
and Scalora had jointly evaluated Jenkins beginning
in January 2016 and continuing until their report
was authored on May 10. The team saw Jenkins once
in January, March, and April.
Cimpl Bohn opined that Jenkins had “a
significant severe personality disorder marked by
antisocial, narcissistic and borderline traits.” She
believed that Jenkins was malingering other
psychiatric symptoms. Cimpl Bohn testified that
Jenkins’ presentation of psychotic symptoms and his
self-report of such symptoms was not validated by
behavioral observations or record review. With
regard to malingering, Cimpl Bohn testified that
Jenkins’ self-harming clearly had a secondary gain
component. And psychological testing helped confirm
the malingering diagnosis. Cimpl Bohn testified that
a person can have a mental illness and still be
malingering, but she felt that Jenkins suffered from
a severe personality disorder and not from a
psychotic disorder or a major affective mood disorder.
37a

Cimpl Bohn testified that in “short bursts,”
Gutnik could have mistaken Jenkins’ bizarre and
dramatic behavior for a type of mental illness. She
felt that the psychiatrist who offered a diagnosis of
schizoaffective disorder in July 2015 “seemed to be
struck by some of the dramatic nature of . . . Jenkins’
statements about auditory hallucinations.” She noted
that the psychiatrist’s record reflected that Jenkins’
thought process was organized and logical, that his
speech was generally normal and understandable,
and that he was coherent. Cimpl Bohn testified that
if the diagnosis was schizoaffective disorder or
schizophrenia, one would expect to see some
disorganization of the thought process and not just
reported hallucinations or delusions. She noted that
the psychiatrist’s notes raised concerns about
malingering or secondary gain and suspicion that
Jenkins was self-harming to get out of segregation.
Cimpl Bohn opined that Jenkins was
competent to proceed. In making that determination,
she considered whether Jenkins possessed a factual
understanding of the legal system and legal
proceedings, an ability to apply that to the
individual’s own case, and a rational ability to
consult with counsel. Cimpl Bohn felt that Jenkins
would struggle with developing rapport with counsel,
because his narcissism was a significant barrier. She
opined that Jenkins’ difficulties in working with
counsel stemmed from a personality disorder. She
explained that Jenkins believed he was “smarter
than anybody in the room” and that any strategy was
going to be flawed if it was not Jenkins’ own.
Gutnik recounted his interactions with
Jenkins. He first saw Jenkins in March 2011. When
he next saw Jenkins in November 2013, Gutnik
38a

concluded that Jenkins was not competent and
diagnosed
him
with
“schizophrenia
versus
schizoaffective disorder, depressed type, and rule out
personality disorder otherwise not specified.” When
Gutnik saw Jenkins in May 2014 and April and
December 2015, Gutnik concluded that Jenkins
remained psychotic with the same diagnoses. Gutnik
saw Jenkins in June 2016 and found that Jenkins
continued to have schizoaffective disorder.
Gutnik testified that Jenkins’ multiple
mutilations of his own penis would be an indication
of severe mental illness. He thought a person would
“have to be fairly out of touch and psychotic to be
able to not react to that level of pain.” Gutnik noted
that four other psychiatrists thought Jenkins was
psychotic and that Jenkins’ delusions about Egyptian
gods dated back to 2009—before the crimes at issue.
Gutnik did not believe that Jenkins was malingering,
because “he has been consistently psychotic every
time that I’ve seen him.”
On September 20, 2016, the court entered an
order on Jenkins’ motion to determine whether he
was competent to proceed with the sentencing phase.
The court recognized the competing opinions of
Gutnik and Cimpl Bohn. It stated that Gutnik saw
Jenkins on a limited basis, whereas Cimpl Bohn and
her staff had regular communication with Jenkins.
The court also found it significant that during
Jenkins’ testimony at the May 2016 competency
hearing, Jenkins ably followed the questions of his
attorney and supplied appropriate answers. The
court accepted the opinion of Cimpl Bohn and found
that Jenkins was competent to proceed with the
sentencing phase.

39a

(c)

Discussion

We begin by addressing what would at first
blush appear to be inconsistent decisions regarding
Jenkins’ competence. In February 2014, the court
found
Jenkins
competent
to
stand
trial.
Subsequently, it allowed Jenkins to waive his right
to counsel, to enter pleas of no contest, and to waive
his right to have a jury determine whether
aggravating circumstances existed. Then, in July, the
court found that Jenkins was not competent to
proceed with sentencing. From the timing of events, it

would appear that the court’s reversal was precipitated by
its reappointment of counsel and counsel’s motion to
determine whether Jenkins was competent.

The court’s order reflects that it found Jenkins
to be not competent only out of an abundance of
caution. Its order contained the following quote: ‘“If
at any time while criminal proceedings are pending
facts are brought to the attention of the court, either
from its own observation or from suggestion of
counsel, which raise a doubt as to the sanity of the
defendant, the question should be settled before
further steps are taken.’”33 The court explained:
“This Court must be satisfied that [Jenkins] is
competent to proceed with the sentencing phase of a
death penalty case. The fact that this is a death
penalty case heightens the concern and consideration
of this Court.” The court prudently allowed a lengthy
evaluation process to occur, and in September 2016,
the court found that Jenkins was competent to
proceed with sentencing.

State v. Campbell, 192 Neb. 629, 631, 223 N.W .2d 662, 663
(1974).
33

40a

The record shows that the court received
conflicting
expert
evidence
throughout
the
proceedings as to Jenkins’ competency. The court
also had abundant opportunities to interact with and
observe Jenkins. Ultimately, the court accepted
Cimpl Bohn’s opinion that Jenkins was competent.
Sufficient evidence in the record supports the court’s
determination; therefore, we will not disturb the
court’s finding of competency.
4.

EX POST FACTO CHALLENGE

Jenkins contends that the court erred by
denying his motion to preclude the death penalty as
a violation of the Ex Post Facto Clauses of the U.S.
and Nebraska Constitutions.34 We disagree.
(a)

Standard of Review

[18] The constitutionality of a statute presents
a question of law, which an appellate court
independently reviews.35
(b)

Additional Background

In May 2015, the Nebraska Legislature passed
2015 Neb. Laws, L.B. 268,-which abolished the death
penalty in Nebraska--and then overrode the
Governor’s veto of the bill. The Legislature adjourned
sine die on May 29. Because L.B. 268 did not contain
an emergency clause, it was to take effect on August
30.36
Following the passage of L.B. 268, opponents
of the bill sponsored a referendum petition to repeal
34

U.S. Const. art. I, § I 0, and Neb. Const. art. I, § 16.

35

State v. Stone, 298 Neb. 53, 902 N.W.2d 197 (2017).

36

See Neb. Const. art. Ill, § 27.

41a

it. On August 26, 2015, the opponents filed with the
Nebraska Secretary of State signatures of
approximately 166,000 Nebraskans in support of the
referendum. On October 16, the Secretary of State
certified the validity of sufficient signatures. Enough
signatures were verified to suspend the operation of
L.B. 268 until the referendum was approved or
rejected by the electors at the upcoming election.
During the November 2016 election, the referendum
passed and L.B. 268 was repealed, that is, in the
language of the constitution, the act of the
Legislature was “reject[ed].”37
(c)

Discussion

Jenkins’ ex post facto argument focuses on his
uncertainty as to whether the repeal of the death
penalty was in effect for a period of time. We first
explain that there is technically no ex post facto
violation for Jenkins, then we resolve the issue
presented by Jenkins under what we sometimes refer
to as the ‘‘Randolph doctrine.”38
[19-21] An ex post facto law is a law which
purports to apply to events that occurred before the
law’s enactment and which disadvantages a
defendant by creating or enhancing penalties that
did not exist when the offense was committed.39
There are four types of ex post facto laws: those
which (1) punish as a crime an act previously
committed which was innocent when done; (2)
aggravate a crime, or make it greater than it was,
when committed; (3) change the punishment and
37

See Neb. Const. art. III, § 3.

38

See State v. Randolph, 186 Neb. 297, 183 N.W .2d 225 (1971).

39

See State v. Amaya, 298 Neb. 70, 902 N.W.2d 675 (2017).

42a

inflict a greater punishment than was imposed when
the crime was committed; and (4) alter the legal
rules of evidence such that less or different evidence
is needed in order to convict the offender.40 The Ex
Post Facto Clause “bars only application of a Jaw
that ‘“changes the punishment, and inflicts a greater
punishment, than the law annexed to the crime,
when committed.”’”41 The clause’s underlying
purpose is to “assure that legislative Acts give fair
warning of their effect and permit individuals to rely
on their meaning until explicitly changed.”42
Here, the death penalty was in effect at the
time of Jenkins’ crimes in 2013. It was also in effect
at the time that Jenkins was sentenced. Because the
repeal of the repeal of the death penalty did not
inflict a greater punishment than that available
when Jenkins committed the crimes, there is no ex
post facto law.
[22] But Jenkins also claims that under State
v. Randolph,43 a defendant is entitled to take

advantage of any reduction in penalties before final
disposition. Under the Randolph doctrine, generally,
when the Legislature amends a criminal statute by
mitigating the punishment after the commission of a
prohibited act but before final judgment, the punishment
is that provided by the amendatory act unless the
Legislature specifically provided otherwise.44
40

Id.

State v. Kantaras, 294 Neb. 960, 972, 885 N.W.2d 558, 567
(2016).
41

Weaver v. Graham, 450 U.S. 24, 28-29, 101 S. Ct. 960, 67 L.
Ed. 2d 17 (1981).
42

43

State v. Randolph. supra note 38.

44

State v. Chacon, 296 Neb.203, 894 N .W.2d 238 (2017).

43a

This contention presupposes that L.B. 268
became operative. Jenkins contends that it took
effect on August 30, 2015, and remained in effect
until October 16, when the Secretary of State
confirmed the validity and number of signatures. On
the other hand, the State argues that the bill never
went into effect, because its operation was suspended
by the referendum petition until approved by
Nebraska voters. We agree with the State.
We pause to discuss the referendum process
provided for in the Nebraska Constitution.45 As
pertinent here, petitions invoking the referendum
must be signed by not less than 5 percent of
Nebraska’s registered voters and filed in the
Secretary of State’s office within 90 days after the
Legislature which passed the bill adjourned sine
die.46 “Upon the receipt of the petitions, the
Secretary of State, with the aid and assistance of the
election commissioner or county clerk, shall
determine the validity and sufficiency of signatures
on the pages of the filed petition.’’47 The Secretary of
State must total the valid signatures and determine
whether constitutional and statutory requirements
have been met.48 With two exceptions not applicable
here, an act is suspended from taking effect prior to a
referendum election when the referendum petition is
signed by at least 10 percent of the state’s registered
voters.49
45

See Neb. Const. art. III, § 3.

46

See id.

47

Neb. Rev. Stat. § 32 1409(1) (Reissue 2016).

48

§ 32 1409(3).

49

See, Neb. Const. art. III, § 3; Pony Lake Sch. Dist. v. State

44a

We reject the notion that signatures must be
verified and certified before the act’s operation will
be suspended. An earlier case implicitly determined
that this notion is not correct.50 That case presented
the following pertinent timeline of events in 1965:
x

July l: The legislative bill at issue
became law.

x

August 17: The Legislature adjourned
sine dine.

x

September 29: A referendum petition
and affidavit as to persons contributing
things of value in connection with the
petition were filed.

x

November 15: Additional certificates
and a supplemental statement were
filed in connection with the petition.

x

December 13: The Secretary of State
certified that valid signatures of more
than 10 percent of electors had been
filed.

Our decision noted that there were sufficient
signatures to suspend the act from taking effect;
there was no suggestion that the act went into effect
on November 17 (3 calendar months after
adjournment) and remained in effect until December
13 (when the Secretary of State certified that the
petition contained signatures of more than the 10percent requirement).

Committee for Reorg., 271 Neb. 173, 710 N.W.2d 609 (2006).
50

Klosterman v. Marsh, 180 Neb. 506, 143 N.W.2d 744 (1966).

45a

[23] Jenkins’ notion conflicts with several
fundamental principles. The power of referendum
must be liberally construed to promote the
democratic process.51 The power is one which the
courts are zealous to preserve to the fullest tenable
measure of spirit as well as letter.52 The
constitutional provisions with respect to the right of
referendum reserved to the people should be
construed to make effective the powers reserved.53
Stated another way, the provisions authorizing the
referendum should be construed in such a manner
that the legislative power reserved in the people is
effectual.54 The right of referendum should not be
circumscribed by narrow and strict interpretation of
the statutes pertaining to its exercise.55
Jenkins’ contention—that suspension cannot
occur until a sufficient number of signatures are
certified—would make ineffectual the people’s power
to suspend an act’s operation. Whether an act went
into effect, and for how long, would depend upon how
quickly the Secretary of State and election officials
counted and verified signatures. Jenkins’ argument
demonstrates the absurdity of such a view. Because
the Secretary of State was unable to confirm that a
sufficient number of voters signed the petitions until
October 16, 2015, Jenkins contends that L.B. 268
See Hargesheimer v. Gale, 294 Neb. 123, 881 N.W .2d 589
(2016).

51

52

See id.

See Pony Lake Sch. Dist. v. State Committee for Reorg., supra
note 49.

53

54

See id.

55

See Hargesheimer v. Gale, supra note 51.

46a

went into effect on August 30, thereby changing all
death sentences to life imprisonment and changing
the status of any defendant facing a potential death
sentence to a defendant facing a maximum sentence
of life imprisonment. Such an interpretation would
defeat the purpose of this referendum--to preserve
the death penalty. Our constitution demands that
the power of referendum not be impaired by
ministerial tasks appurtenant to the process. Having
produced the signatures necessary to suspend the
act’s operation, the people were entitled to
implementation of their will.
[24] We conclude that upon the filing of a
referendum petition appearing to have a sufficient
number of signatures, operation of the legislative act
is suspended so long as the verification and
certification process ultimately determines that the
petition had the required number of valid signatures.
And Jenkins did not dispute either the sufficiency of
the signatures or the outcome of the referendum
election. Accordingly, the filing of petitions on August
26, 2015—prior to the effective date of L.B. 268—
suspended its operation
until
Nebraskans
effectively rejected the bill by voting to repeal it.
Because L.B. 268 never went into effect, the
Randolph doctrine has no application.
5.

CONSTITUTIONALITY OF DEATH
PENALTY PROCEDURE

Jenkins argues that Nebraska’s death penalty
scheme violates the 6th and 14th Amendments to the
U.S. Constitution and Neb. Const. art. I, §§ 3 and 6.
He contends that Nebraska’s statutory procedure is
unconstitutional because, he asserts, it does not
require a jury to find each fact necessary to impose a

47a

sentence of death.
(a)

Standard of Review

The constitutionality of a statute presents a
question of law, which an appellate court
independently reviews.56
(b)

Additional Background

Under Nebraska law, a jury’s participation in
the death penalty sentencing phase, if not waived,57
ceases after the determination of aggravating
circumstances.58 If no aggravating circumstance is
found to exist, the court enters a sentence of life
imprisonment without parole.59 But if the jury finds
that one or more aggravating circumstances exist,
the court convenes a panel of three judges to receive
evidence of mitigation and sentence excessiveness or
disproportionality.60 In determining an appropriate
sentence, the panel considers whether the
aggravating circumstances as determined to exist
justified imposition of a death sentence, whether
mitigating circumstances existed which approached
or exceeded the weight given to the aggravating
circumstances, or whether the sentence of death was
excessive or disproportionate to the penalty imposed
in similar cases.61

56

State v. Stone, supra note 35.

57

See Neb. Rev. Stat. § 29-2520(3) (Cum. Supp. 2018).

58

§ 29-2520(4)(g).

59

§ 29-2520(4)(h).

60

Id.

61

Neb. Rev. Stat. § 29-2522 (Cum. Supp. 2018).

48a

(c)

Discussion

Jenkins argues that Nebraska’s scheme
violates the Sixth Amendment, relying upon the U.S.
Supreme Court’s decision in Hurst v. Florida.62
In that decision, the opinion includes a statement
that “[t]he Sixth Amendment requires a jury, not a
judge, to find each fact necessary to impose a
sentence of death.”63 According to Jenkins,
Nebraska’s law is contrary to Hurst because judges
determine the existence or nonexistence of mitigating
circumstances and perform the weighing process. He
takes the position that the determination of the
existence of mitigating factors, the weighing process
of the aggravating and mitigating circumstances, and
the proportionality review must be performed by a
jury. Because Jenkins waived a jury and expressly
stated he would “rather have the judges” for
sentencing, we doubt he has standing to attack the
constitutionality of Nebraska’s procedure on the
grounds he asserts.64 But, in any event, he is wrong.
We recently discussed Hurst in detail in State
v. Lotter.65 We rejected an argument that Hurst held a

jury must find beyond a reasonable doubt that the
aggravating circumstances outweighed the mitigating
circumstances. In doing so, we cited a number of federal
and state courts reaching the same conclusion, but

Hurst v. Florida, __ U.S. __, 136 S.Ct. 616, 193 L. Ed. 2d 504
(2016).
62

63

Id., 136 S. Ct. at 619.

64

See US. v. Skinner, 25 F.3d 1314 (6th Cir. 1994).

See State v. Lotter, 301 Neb. 125, 917 N.W.2d 850 (2018),
cert. denied No. 18-8415, 2019 WL 1229787 (U.S. June 17,
2019).

65

49a

acknowledged that the view was not universal.66

Further, we recognized our previous decision67
that earlier U.S. Supreme Court precedent—upon
which Hurst was based—did not require the
determination of a mitigating circumstance, the
balancing function, or the proportionality review to
be undertaken by a jury. Nothing in Hurst requires a
reexamination of that conclusion. This assignment of
error lacks merit.
6. WHETHER DEATH PENALTY [S CRUEL
AND UNUSUAL PUNISHMENT WHEN
IMPOSED ON SERIOUSLY MENTALLY ILL
OFFENDERS AND INDIVIDUALS WITH
INTELLECTUAL DISABILITY
Jenkins begins his argument that the death
penalty is cruel and unusual punishment when
imposed on certain offenders by pointing to U.S.
Supreme Court precedent68 declaring that the Eighth
Amendment prohibits the execution of individuals
with mental retardation. And he correctly observes
that the Nebraska Legislature responded by
precluding the imposition of the death penalty on
any person with an intellectual disability.69 We agree
with Jenkins’ general assertions that a person with
an intellectual disability may not be executed.
However, Jenkins does not assert or argue that he
suffers from an intellectual disability. Therefore,
whether Jenkins should be ineligible for the death
66

See id.

67

See State v. Gales, 265 Neb. 598, 658 N.W .2d 604 (2003).

See Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153 L.
Ed. 2d 335 (2002).

68

69

See Neb. Rev. Stat. § 28-105.01 (2) (Cum. Supp. 2018).

50a

penalty on that basis is not before us.
[25] Unlike situations of intellectual disability,
neither the U.S. Supreme Court nor the Nebraska
Legislature has explicitly precluded the death
penalty for an individual with a severe mental
illness. Rather, the Supreme Court has held that the
Eighth Amendment forbids executing a prisoner
whose mental illness makes him or her unable to
“reach a rational understanding of the reason for [his
or her] execution.”70 Whether a prisoner has any
particular mental illness is not determinative;
rather, what matters is whether a prisoner has a
rational understanding of why he or she is to be
executed.71 The Supreme Court explained:
[The]
standard
[of
Panetti
v.
72
Quarterman ] focuses on whether a
mental disorder has had a particular
effect: an inability to rationally
understand why the State is seeking
execution. . . . Conversely, that standard
has no interest in establishing any
precise cause: Psychosis or dementia,
delusions or overall cognitive decline are
all the same under Panetti, so long as
they produce the requisite lack of
comprehension.73

70 Panelli v. Quarterman, 55 l U.S. 930, 958, 127 S. Ct. 2842,
168 L. Ed. 2d 662 (2007).

See Madison v. Alabama, __ U.S. __, 139 S. Ct. 718, 203 L.
Ed. 2d 103 (2019).
71

72

Panelli v. Quarterman, supra note 70.

73

Madison v. Alabama, supra note 71, 139 S. Ct. at 728.

51a

We observe that other courts have determined a
diagnosis
of
schizophrenia
or
paranoid
74
schizophrenia does not preclude a death sentence
where the defendant is competent to be executed.
Jenkins does not argue that he lacks the
requisite understanding of the reason for his
execution. Rather, he argues that the same rationale
for exempting the intellectually disabled from the
death penalty should apply to exempt defendants
who are seriously mentally ill from that punishment.
We decline to vary from the principle articulated in
Panetti.
Moreover, we are not persuaded that, even if
we were to stray beyond Panetti, Jenkins would
qualify for relief. The record reveals a conflict in
expert opinion as to whether Jenkins suffered from a
serious or severe mental illness.
Some professionals had no doubt that Jenkins
was severely mentally ill. Oliveto and Gutnik
diagnosed Jenkins with schizophrenia. A different
psychiatrist diagnosed Jenkins with schizoaffective
disorder, bipolar type. Psychiatrists Baker and
Wetzel expressed that Jenkins could have a severe
mental illness or that he could be malingering.
Other professionals opined that Jenkins was
not severely mentally ill. Dr. Mark Weilage, who met
with Jenkins in 2012, concluded that Jenkins had no
major mental illness. Hartmann did not believe
Jenkins had a major mental disorder. Moore believed
See, Lindsay v. State, No. CR-15-1061, 2019 WL 1105024
(Ala. App. Mar. 8, 2019); Ferguson v. State, 112 So. 3d 1154
(Fla. 2012); Corcoran v. State, 774 N.E.2d 495 (Ind. 2002); Com.
v. Jermyn, 551 Pa.96, 709 A.2d 849 (1998); Berry v. State, 703
So. 2d 269 (Miss. 1997).

74

52a

that Jenkins’ main diagnosis was antisocial
personality disorder. Cimpl Bohn, Chaturvedi, and
Scalora opined that Jenkins suffered from a
significant severe personality disorder marked by
antisocial, narcissistic, and borderline traits and that
he malingered other symptoms. Psychiatrist Dr.
Cheryl Jack met with Jenkins in April 2013, and her
impression was ‘“Axis I: No diagnosis; and Axis II:
Antisocial Personality, with narcissistic features vs.
Narcissistic Personal[i]ty with antisocial features.’”
And in December 2009, Baker concluded that
Jenkins’ symptoms were “‘more behavioral/Axis II in
nature.’”
There is no doubt that Jenkins exhibited
abnormal behaviors. But a number of experts
believed that he was malingering. A test revealed
scores indicative of feigning a mental disorder. In
support of the view that Jenkins was not
malingering, some—Gutnik, in particular—pointed
to Jenkins’ having hallucinations dating back to age
8. But Dahlke’s 1995 psychological report revealed a
misunderstanding as to the reported hallucinations:
A previous report had said [Jenkins]
heard voices telling him to do bad
things. On further inquiry, [Jenkins]
said these are real voices of these older
boys, and he only hears them when the
boys are there with him. There was no
evidence of psychosis or auditory
hallucination in this interview. It may
be that [Jenkins] misunderstood the
question in the previous interview.

53a

A December 1997 medical report—when
Jenkins was age 11—stated that Jenkins denied
auditory and/or visual hallucinations. A psychiatric
assessment from July 1999 likewise stated that
Jenkins denied any auditory or visual hallucinations.
The record contains credible expert testimony
that Jenkins has been feigning mental illness. We
are not persuaded that Jenkins suffers from a serious
mental illness. Thus, we need not determine in this
case whether either the U.S. Constitution or the
Nebraska Constitution would prohibit imposing
capital punishment on an offender who actually
suffers from a serious mental illness. A court decides
real controversies and determines rights actually
controverted, and does not address or dispose of
abstract questions or issues that might arise in a
hypothetical or fictitious situation or setting.75
7.

WHETHER DEATH PENALTY VIOLATES
EIGHTH AMENDMENT AND NEB. CONST.
ART. I, § 9, IN ALL CASES

Jenkins asserts that the death penalty in all
cases violates both the federal and state
Constitutions. He contends this is so “[f]or all of the
reasons set forth by Justice Breyer in Glossip v.
Gross [76] . . . .”77 In Glossip, Justice Breyer authored
a dissenting opinion explaining why he “believe[d] it
highly likely that the death penalty violates the
Eighth Amendment”78 and Justice Scalia offered a
75

Stewart v. Heineman, 296 Neb.262, 892 N.W.2d 542 (2017).

See Glossip v. Gross, __ U.S. __, 135 S. Ct. 2726, 192 L. Ed. 2d
761 (2015) (Breyer, J., dissenting; Ginsburg, J., joins).
76

77
78

Brief for appellant at 139.
Glossip v. Gross, supra note 76, 135 S. Ct. at 2776-77.

54a

persuasive rebuttal in a concurring opinion.79 But
more importantly, the majority of the U.S. Supreme
Court expressly recognized “it is settled that capital
punishment is constitutional.”80
Justice Breyer believed that the death penalty
was unreliable. In Glossip, he pointed to evidence
that innocent people have been convicted, sentenced
to death, and executed. But Justice Scalia reasoned
that “it is convictions, not punishments, that are
unreliable.”81 He asserted, “That same pressure [to
secure a conviction] would exist, and the same risk of
wrongful convictions, if horrendous death-penalty
cases were converted into equally horrendous lifewithout-parole cases.”82
Justice Breyer viewed the death penalty as
being imposed arbitrarily. He cited studies indicating
that comparative egregiousness of the crime often did
not affect application of the death penalty and other
studies showing that circumstances such as race,
gender, or geography often do affect its application.
But “[a]pparent disparities in sentencing are an
inevitable part of our criminal justice system.”83
Justice Scalia described variance in judgments as a
consequence of trial by jury and reasoned that “the
See Glossip v. Gross, supra note 76 (Scalia, J., concurring;
Thomas, J., joins).

79

80 Id., 135 S. Ct. at 2732. See Bucklew v. Precythe, __U.S. __,
139 S. Ct. 1112, 203 L. Ed. 2d 521 (2019).

Glossip v. Gross, supra note 76, 135 S.Ct. at 2747 (Scalia, J.,
concurring; Thomas, J., joins) (emphasis in original).
81

82

Id.

McCleskey v. Kemp, 481 U.S. 279, 312, 107 S. Ct. 1756, 95 L.
Ed. 2d 262 (1987).
83

55a

fact that some defendants receive mercy from their
jury no more renders the underlying punishment
‘cruel’ than does the fact that some guilty individuals
are never apprehended, are never tried, are
acquitted, or are pardoned.”84
Justice Breyer also felt that the death penalty
was cruel due to excessively long delays before
execution. But a majority of the U.S. Supreme Court
stated that “[t]he answer is not . . .to reward those
who interpose delay with a decree ending capital
punishment by judicial fiat.”85
Justice Breyer believed that lengthy delays
undermined the penological justification. A
punishment is unconstitutional if it “makes no
measurable contribution to acceptable goals of
punishment and hence is nothing more than the
purposeless and needless imposition of pain and
suffering.”86 The two punishment goals that the
death penalty is said to serve are deterrence of
capital crimes by prospective offenders and
retribution.87
This record does not refute the
existence of these goals, and the people’s judgment
speaks in support of their continued vitality. Jenkins
also asserted that the death penalty runs against
evolving standards of decency.

84 Glossip v. Gross, supra note 76, 135 S. Ct. at 2748 (Scalia, J.,
concurring; Thomas, J., joins).
85

Bucklew v. Precythe, supra note 80, 139 S. Ct. at 1134.

86 Coker v. Georgia, 433 U.S. 584, 592, 97 S. Ct. 2861, 53 L. Ed.
2d 982 (1977).

See Gregg v. Georgia, 428 U.S. 153, 96 S. Ct. 2909, 49 L. Ed.
2d 859 (1976).
87

56a

He pointed out that it is prohibited by 19
(now 21)88 states and that at least 4 states have
governor-imposed moratoria. But as Justice Scalia
observed:
Time and again, the People have voted
to exact the death penalty as
punishment for the most serious of
crimes. Time and again, this Court has
upheld that decision. And time and
again, a vocal minority of this Court has
insisted that things have “changed
radically,” . . . and has sought to replace
the judgments of the People with their
own standards of decency.89
Less than 3 years ago, Nebraskans had the
opportunity to eliminate the death penalty and 61
percent voted to retain capital punishment.90 This
vote demonstrates that the people of Nebraska do not
view the death penalty as being contrary to
standards of decency. As the majority of the U.S.
Supreme Court recently explained: That the
Constitution allows capital punishment “doesn’t
mean the American people must continue to use the
death penalty. The same Constitution that permits
States to authorize capital punishment also allows
See, State v. Gregory, 192 Wash. 2d 1, 427 P.3d 621 (2018)
(holding that death penalty, as administered in State of
Washington, violated state constitution); N.H. Rev. Stat. Ann.
§ 630:1 (2019).
88

89 Glossip v. Gross, supra note 76, 135 S. Ct. at 2749 (Scalia, J.,
concurring; Thomas, J., joins).

See Legislative Journal, 150th Leg., 1st Sess. 18 (Jan. 4,
2017) (showing 320,719 votes to retain legislation eliminating
death penalty and 494,151 votes to repeal such legislation).
90

57a

them to outlaw it. But it does mean that the judiciary
bears no license to end a debate reserved for the
people and their representatives.”91 In Nebraska, the
people have spoken.
[26] The U.S. Supreme Court has not found
the death penalty to be unconstitutional in all cases.
As the Fifth Circuit determined, “We are bound by
Supreme Court precedent which forecloses any
argument that the death penalty violates the
Constitution under all circumstance[s].”92 Similarly,
we do not find the death penalty to be a violation of
the Nebraska Constitution.93
8.

SENTENCE OF DEATH—FACTS FROM
PLEA

Jenkins assigns that the sentencing panel
erred in sentencing him to death based on facts
alleged during the proceeding on his no contest plea.
We disagree.
(a)

Standard of Review

[27] In a capital sentencing proceeding, this
court conducts an independent review of the record to
determine if the evidence is sufficient to support
imposition of the death penalty.94

91

Bucklew v. Precythe, supra note 80, 139 S. Ct. at 1122-23.

U.S. v. Jones, 132 F.3d 232, 242 (5th Cir. 1998). See, also,
U.S. v. Quinones, 313 F.3d 49 (2d Cir. 2002) (noting that
argument relying upon Eighth Amendment is foreclosed by
Supreme Court’s decision).
92

93

See State v. Mata, 275 Neb. 1, 745 N.W.2d 229 (2008).

94

State v. Ellis, 281 Neb. 571, 799 N.W.2d 267 (2011).

58a

(b)

Additional Background

During the death penalty sentencing phase,
the State offered exhibit 81, the transcript from the
plea hearing. Jenkins’ counsel objected to the use of
the transcript of the plea for any purpose and stated
that the statements of the prosecutor were unsworn
and were hearsay. The State represented that the
purpose of the exhibit was to show that Jenkins was
convicted of those particular crimes. The sentencing
panel received the exhibit for any statements made
by Jenkins against interests and for findings of the
court. The panel stated that it would receive the
statements by the prosecutor, but not for the truth of
the matter asserted.
The sentencing panel’s order specifically states
that the “factual descriptions come from [the] factual
basis given by the State at the time of [Jenkins’]
pleas of no contest to all counts on April 16, 2014,
Exhibit 81.” The order then set forth the same facts
from the plea hearing regarding each murder that we
included in the portion of our analysis addressing the
acceptance of Jenkins’ pleas.
(c)

Discussion

Jenkins’ argument is premised upon a rule of
evidence. He points to the rule stating:
Evidence of a plea of guilty, later
withdrawn, or a plea of nolo contendere,
or of an offer to plead guilty or nolo
contendere to the crime charged or any
other crime, or of statements made in
connection with any of the foregoing
pleas or offers, is not admissible in any
civil or criminal action, case, or
proceeding against the person who
59a

made the plea or offer. This rule shall
not apply to the introduction of
voluntary and reliable statements made
in court on the record in connection with
any of the foregoing pleas or offers when
offered for impeachment purposes or in
a subsequent prosecution of the
declarant
for
perjury
or
false
statement.95
We have stated that this evidentiary rule does not
apply to the sentencing stage.96
For practical purposes, a plea of no contest has
the same effect as a plea of guilty with regard to the
case in which it is entered.97 The difference between
a plea of no contest and a plea of guilty appears
simply to be that while the latter is a confession or
admission of guilt binding the accused in other
proceedings, the former has no effect beyond the
particular case.98 But the facts admitted via a no
contest plea can be used in the proceeding involving
the no contest plea.99 We have recognized that strict
rules of evidence do not apply at the sentencing
phase.

95

Neb. Evid. R. 410, Neb. Rev. Stat. § 27-410 (Reissue 2016).

96

See State v. Klappal, 218 Neb. 374, 355 N.W.2d 221 (1984).

See State v. Wiemer, 15 Neb. App. 260, 725 N.W .2d 416
(2006).

97

98

See id.

See State v. Simnick, 17 Neb. App. 766, 771 N.W.2d 196
(2009), reversed in part on other grounds 279 Neb. 499, 779
N.W.2d 335 (2010).
99

60a

The sentencing phase is separate and apart
from the trial phase, and the traditional rules of
evidence may be relaxed following conviction so that
the sentencing authority can receive all information
pertinent to the imposition of sentence.100 A
sentencing court has broad discretion as to the source
and type of evidence and information which may be
used in determining the kind and extent of the
punishment to be imposed, and evidence may be
presented as to any matter that the court deems
relevant to the sentence.101
[28, 29] But there is a caveat to this general
rule, which Jenkins recognizes. A capital sentencing
statute dictates: “The Nebraska Evidence Rules shall
apply to evidence relating to aggravating
circumstances.”102 And there is authority for the
proposition that a no contest plea constitutes an
admission of all the elements of the offenses, but not
an admission to any aggravating circumstance for
sentencing purposes.103 So while the sentencing
panel could consider Jenkins’ no contest plea and the
factual basis underlying it, it could not use it as an
admission to aggravating circumstances.
Upon our independent review, we conclude
that the sentencing panel’s “Finding as to
Aggravators” is supported by evidence adduced
State v. Bjorklund, 258 Neb. 432, 604 N.W.2d 169 (2000),
abrogated on other grounds, State v. Mata, supra note 93.

100

101

Id.

102

Neb. Rev. Stat. § 29-2521 (2) (Cum. Supp. 2018).

See People v. French, 43 Cal. 4th 36, 178 P.3d 1100, 73 Cal.
Rptr. 3d 605 (2008). See, also, 21 Am. Jur. 2d, supra note 13; 22
C.J.S. Criminal Procedure and Rights of Accused § 238 (2016).

103

61a

during the death penalty sentencing phase.
Testimony of a police officer who investigated the
homicide scenes of all the murder victims and who
interviewed Jenkins in connection with the murders
established that Jenkins murdered Uribe-Pena and
Cajiga-Ruiz at the same time and that based on
those murders, Jenkins had a substantial prior
history of serious assaultive or terrorizing criminal
activity by the time of the murders of Bradford and
Kruger. Additionally, based on certified copies of
convictions and the testimony of two armed robbery
victims of Jenkins, the sentencing panel found that
Jenkins, at the time of all the murders, had
previously been convicted of crimes involving the use
of threats of violence. Although the sentencing panel
stated that it used the factual basis from the no
contest plea hearing, the panel’s findings as to
aggravating circumstances were supported by
evidence adduced during the sentencing hearing.
This assignment of error lacks merit.
9.

SENTENCE OF DEATH—MITIGATING
FACTORS

Jenkins assigns error to the sentencing panel’s
failure “to give meaningful consideration to his
lifelong serious mental illness, his unfulfilled request
for commitment before the crime, and the
debilitating impact of solitary confinement in
violation of Fifth, Eighth, and Fourteenth
amendments to the U.S. Constitution and Article I
Sections 3 and 9 of the Nebraska Constitution.” We
constrain our analysis to the three areas assigned by
Jenkins.

62a

(a)

Standard of Review

[30] The sentencing panel’s determination of
the existence or nonexistence of a mitigating
circumstance is subject to de novo review by this
court.104
[31] In reviewing a sentence of death, the
Nebraska Supreme Court conducts a de novo review
of the record to determine whether the aggravating
and mitigating circumstances support the imposition
of the death penalty.105
(b)
(i)

Additional Background
Lifelong Mental Illness

Jenkins’ records show a history of behavioral
issues. His first interaction with mental health
professionals was in 1995, at age 8, when he was
evaluated at a hospital. A letter in 1998 noted that
“the majority of his difficulties seem to be behavioral
rather than mental health in nature.” In 1999, a
psychiatric assessment stated that Jenkins
“appeared very manipulative . . . and would appear
to take on a victim role” and the diagnosis contained
therein showed “Conduct Disorder” under “Axis I:
Clinical Disorders.” In 2001, a report stated:
“Personality assessment suggests a Conduct
Disorder, adolescent onset type, an Oppositional
Defiant Disorder, and a Developing Antisocial
Personality Disorder. No other problems of anxiety,
depression, or psychosis were indicated.”
The panel received the deposition of a chaplain
at the Douglas County Youth Detention Center while
104

State v. Torres, 283 Neb. 142, 812 N.W .2d 213 (2012).

105

Id.

63a

Jenkins “was kind of a regular” there. The chaplain
testified that he and Jenkins “hung out all the time”
when Jenkins was 15 to 16 years old. Although not a
mental health specialist, the chaplain did not observe
any indications of mental illness in Jenkins. He did
not recall Jenkins ever talking about Egyptian gods.
Baker testified that she had always thought
Jenkins was mentally ill, but that she was not sure if
his behaviors were due to mental illness or
malingering. Weilage informed Jenkins in 2012 that
a mental illness review team believed “‘there was not
an Axis I severe mental illness present’” to justify
transferring Jenkins to an inpatient mental
health unit at the Lincoln Correctional Center. And
we have already detailed the conflicting evidence
concerning whether Jenkins suffered from a serious
mental illness or was malingering.

(ii)

Requests for Commitment

In February 2013—months before Jenkins’
scheduled release from prison—he sent an informal
grievance to the warden requesting emergency
protective custody and psychiatric hospitalization. In
a grievance to the warden sent the next day, Jenkins
advised that his mother was seeking an emergency
protective
custody
order
for
psychiatric
hospitalization. In a March letter to a member of the
Nebraska Board of Parole, Jenkins stated that he
had filed an emergency protective custody petition in
Johnson County, Nebraska, to be submitted to the
county’s mental health board. The Johnson County
Attorney’s office acknowledged receipt of letters
regarding Jenkins’ mental health.

64a

(iii)

Effect of Solitary Confinement

Jenkins spent extensive time on room
restriction and in disciplinary segregation. According
to an ombudsman report, as much as 60 percent of
Jenkins’ time with the Department of Correctional
Services was in segregation. On at least nine
occasions between January 2009 and January 2012,
Jenkins spent periods of at least 45 days in
disciplinary segregation, five of those being 60 days
in length.
The Douglas County Youth Detention Center
chaplain testified that he kept in communication
with Jenkins over the years. In 2009 or 2010,
Jenkins told the chaplain that Jenkins had been in
solitary confinement for 2 years. According to the
chaplain, Jenkins was “different”: “Angry, saying he
wants to hurt people, wants to hurt himself. He was
going crazy, said he’s just sitting in his cell.”
Kirk Newring, Ph.D., testified that extended
periods of time in solitary confinement or segregation
typically exacerbates any existing mental health
diagnoses or condition. He testified that “[i]f
somebody is in segregation and can’t come up with
other solutions, recurrent self-injury would not be
unexpected as a problem-solving approach.” Cimpl
Bohn acknowledged that solitary confinement is
generally not something that helps people become
psychologically healthier, especially for individuals
with a mental illness. Hartmann testified that an
extended period of time in solitary confinement is “an
extremely stressful experience” and that it could be
detrimental to a person’s mental health.
The ombudsman’s report recognized that a
board-certified psychiatrist who evaluated more than

65a

200 prisoners to determine the psychiatric effects of
solitary
confinement
concluded
that
“‘such
confinement may result in prolonged or permanent
psychiatric disability, including impairments which
may seriously reduce the inmate’s capacity to
reintegrate into the broader community upon release
from prison.”‘ (Emphasis omitted.) The report also
acknowledged the research of a professor of
psychology who had studied the psychological effects
of solitary confinement for more than 30 years: ‘“The
psychological consequences of incarceration may
represent significant impediments to post-prison
adjustment.’”
(c)

Discussion

[32, 33] A sentencer may consider as a
mitigating factor any aspect of a defendant’s
character or record and any of the circumstances of
the offense that the defendant proffers as a basis for
a sentence less than death.106 As noted, we review de
novo the sentencing panel’s determination of the
existence or nonexistence of a mitigating
circumstance.107 We look to whether the sentencer
“fairly
considered
the
defendant’s
proposed
mitigating circumstances prior to rendering its
decision.”108 The risk of nonproduction and
nonpersuasion as to mitigating circumstances is on
the defendant.109
See Lockett v. Ohio, 438 U.S. 586, 98 S. Ct. 2954, 57 L. Ed.
2d 973 (1978).

106

107

State v. Torres, supra note 104.

See State v. Ryan, 233 Neb. 74, 147, 444 N.W.2d 610, 654
(1989).

108

109

See State v. Torres, supra note 104.

66a

Jenkins assigns that the sentencing panel
failed to give “meaningful consideration” to his
lifelong history of mental illness. The sentencing
panel recognized “significant divergence of opinion
offered by mental health professionals as to whether
Jenkins suffers from a mental illness, or if he is
feigning mental illness.” It accepted the opinions of
Cimpl Bohn and her team and found that no
statutory mitigating circumstance was proved.
Nonetheless, the sentencing panel found that
Jenkins’ bad childhood was a nonstatutory mitigator
to be considered in the weighing process as was his
mental health. The panel’s seven-page analysis of the
bad childhood circumstance included discussion of
mental health records from Jenkins’ childhood and
adolescent years. The panel adequately considered
Jenkins’ mental health issues, and we agree with its
conclusion.
Jenkins also contends that the sentencing
panel erred by failing to consider that the killings
would have been prevented if his request to be
committed had been fulfilled. But we do not find
anywhere on the record where Jenkins advised the
panel that he wished for such requests to be
considered as a nonstatutory mitigating factor. The
absence of such request likely explains why the
panel’s order did not discuss such requests. While
there was evidence that Jenkins requested to be
committed, we will not fault the panel for failing to
discuss a nonstatutory mitigating circumstance that
it was not specifically asked to consider. And
although we review the sentencing panel’s
determination of the existence or nonexistence of
mitigating circumstances de novo, we do so only on
the record. To the extent the record contains evidence

67a

of Jenkins’ requests for commitment, his argument
now relies only on speculation and conjecture. We
have considered it and find it to be without merit.
Finally, Jenkins asserts that his extensive
time in solitary confinemet should have been
considered a mitigating circumstance. Our review of
the record shows that contrary to Jenkins’ assertion,
the sentencing panel considered the impact of
solitary confinement. The sentencing panel
recognized Jenkins’ “extensive history of misconduct
in the State Penitentiary”; however, it found
insufficient evidence to support solitary confinement
as a nonstatutory mitigator. We see no error.
Unfortunately, solitary confinement can be a
“necessary evil.” Justice Kennedy stated:
Of course, prison officials must have
discretion to decide that in some
instances
temporary,
solitary
confinement is a useful or necessary
means to impose discipline and to
protect prison employees and other
inmates. But research still confirms
what this Court suggested over a
century ago: Years on end of near-total
isolation exact a terrible price.110
Here, Jenkins’ own actions led to his disciplinary
segregation. The Department of Correctional
Services must have some recourse to deal with an
inmate who does such things as manufacture a
weapon from a toilet brush, threaten to assault staff,
assault staff, attempt to escape, and interfere with or
Davis v. Ayala, __ U .S. __, 135 S. Ct. 2187, 2210, 192 L. Ed.
2d 323 (2015) (Kennedy, J., concurring).

110

68a

refuse to submit to a search. The sentencing panel
acted reasonably in not rewarding such behavior by
considering the resulting confinement as a
mitigating factor. Upon our de novo review, we reach
the same conclusion.
We affirm Jenkins’ death sentences.
V.

CONCLUSION

Many of the issues in this death penalty
appeal turn on Jenkins’ competency and mental
health. Evidence touching on these matters was
abundant and highly conflicting. The trial court and
the sentencing panel, like the members of this court,
are not medical experts. In light of the conflicting
evidence, they gave weight to the expert evidence
reflecting that Jenkins suffered from a personality
disorder and was feigning mental illness. We find no
error in that regard.
We cannot say that the district court abused
its discretion in finding Jenkins to be competent to
waive counsel, to enter no contest pleas, to proceed to
sentencing, and to be sentenced to death. We reject
Jenkins’ constitutional challenges to the death
penalty and affirm his convictions and sentences.
AFFIRMED.
PAPIK and FREUDENBERG, JJ.,
not participating.

69a

DISTRICT COURT
DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA,
Plaintiff,
vs.

CR 13-2768
CR 13-2769
ORDER OF
SENTENCE

NIKKO A. JENKINS,
Defendant.

This matter came before this Court for the
determination of the death sentence pursuant to
Neb. Rev. Stat. § 29-2521. Defendant was present
with his attorneys, Thomas C. Riley, Scott C. Sladek,
and Thomas M. Wakeley. The State of Nebraska was
represented by Donald W. Kleine, Brenda D. Beadle,
and Nissa M. Jones. This hearing was held on
November 14, 15, and 16, 2016. The Court also
received additional evidence from the Defendant on
January 17, 2017. A briefing schedule was set and
the last brief was received on May 9, 2017. This
matter was taken under advisement. This Court
being advised in the premises, hereinafter sets forth
its findings and sentence.
I.

BACKGROUND

The Informations charging the Defendant
were filed on October 1, 2013. At CR 13-2768, the
charges were four counts of Murder in the First
Degree, four counts of Use of a Deadly Weapon
(Firearm) to Commit a Felony, and four counts of
Possession of a Deadly Weapon by a Prohibited
Person. In this case, the State requested the death
penalty. At CR 13-2769, the charges were two counts
of Possession of a Deadly Weapon by a Prohibited
70a

Person.
On April 16, 2014, the Defendant waived his
right to a jury trial, and pleaded no contest to all
charges in both cases and was found guilty of all
charges. During this time the Defendant was
representing himself and had advisory counsel. His
self-representation was his demand and the Court
appointed advisory counsel to assist him, if
necessary. Once the Court found the Defendant
guilty of these charges, the Court then appointed
Defendant’s advisory counsel as his representative
counsel due to the uniqueness and complicated
nature of the death penalty phase. This appointment
was over the objection of the Defendant. Thereafter,
the Sentencing Determination Proceeding (“death
penalty determination”) pursuant to Neb. Rev. Stat.
§ 29-2521 was set to commence on August 11, 2014.
At that time, the Defendant waived his right to a
jury
trial
to
determine
the
aggravating
circumstances for this death penalty determination.
Prior to the commencement of the death
penalty determination, there were a number of
hearings as to the competency of the Defendant, and
delays as a result of the death penalty being repealed
by the Nebraska Legislature, and subsequently
reinstated by the referendum vote in November of
2016. This matter eventually came on for the death
penalty determination hearing on November 14,
2016. The first step was to determine the
aggravating circumstances pursuant to Neb. Rev.
Stat. § 29-2520. Because the Defendant had waived
his right to a jury as to the determination of
aggravating circumstances, the evidence was
presented to the three judge panel (“Panel”), which
was appointed by the Nebraska Supreme Court.
71a

At the conclusion of the evidence and
arguments, and after due consideration and
deliberation, the Panel unanimously found beyond a
reasonable doubt six aggravating circumstances,
which are set forth later in this Order.
After the six aggravating circumstances were
determined, the Panel proceeded with the hearing on
the mitigating circumstances pursuant to Neb. Rev.
Stat. § 29-2523. Evidence was adduced on November
15 and 16, 2016. At the conclusion of the evidence a
briefing schedule was set. Before briefs were
received, the Defendant requested leave to reopen his
case as to the mitigating circumstances. This was
granted, and the Panel received into evidence on
January 17, 2017, the deposition of Robert Betzold.
This matter was then taken under advisement
pending the briefs of the parties. The last brief was
received on May 9, 2017.
The Panel met on May 11 and 12, 2017, for
deliberations in this matter. Set forth hereafter is the
law as it relates to the death penalty and the Panel’s
findings and analysis.
II.

LAW

LEGISLATIVE GUIDELINES FOR THE THREE
JUDGE PANEL
Neb. Rev. Stat. § 29-2519(1)
. . . . The Legislature therefore
determines that the death penalty
should be imposed only for crimes set
forth in 28-303 and, in addition, that it
shall only be imposed in those instances
when the aggravating circumstances

72a

existing in connection with the crime
outweigh the mitigating circumstances,
as set forth in Secs. 29-2520 to 29-2524.
Neb. Rev. Stat. § 29-2521(2)
In
the
sentencing
determination
proceeding before a panel of judges
when the right to a jury determination
of
the
alleged
aggravating
circumstances has been waived, the
panel shall, as soon as practicable after
receipt of the written report resulting
from the presentence investigation
ordered as provided in section 29-2261,
hold a hearing. At such hearing,
evidence may be presented as to any
matter that the presiding judge deems
relevant to sentence and shall include
matters relating to the aggravating
circumstances
alleged
in
the
information, to any of the mitigating
circumstances set forth in section 292523, and to sentence excessiveness or
disproportionality.
The
Nebraska
Evidence Rules shall apply to evidence
relating to aggravating circumstances.
Each aggravating circumstance shall be
proved beyond a reasonable doubt. . . .
Neb. Rev. Stat. § 29-2522
The panel of judges for the sentencing
determination proceeding shall either
unanimously fix the sentence at death
or, if the sentence of death was not
unanimously agreed upon by the panel,
fix the sentence at life imprisonment.

73a

Such sentence determination shall be
based upon the following considerations:
(1)
Whether
the
aggravating
circumstances as determined to exist
justify imposition of a sentence of death;
(2)
Whether sufficient mitigating
circumstances exist which approach or
exceed the weight given to the
aggravating circumstances; or
(3)
Whether the sentence of death is
excessive or disproportionate
to the
penalty imposed in similar cases,
considering both the
crime and the
defendant.
In each case, the determination of the
panel of judges shall be in writing and
refer to the aggravating and mitigating
circumstances
weighed
in
the
determination of the panel.
If an order is entered sentencing the
defendant to death, a date for execution
shall not be fixed until after the
conclusion of the appeal provided for by
section 29-2525.
Neb. Rev. Stat. § 29-2923
The
aggravating
and
mitigating
circumstances referred to in sections 292519 to 29-2524 shall be as follows:
(1)

Aggravating Circumstances:

(a)

The offender was previously
convicted of another murder or a
crime involving the use or threat
74a

of violence to the person, or has a
substantial prior history of
serious assaultive or terrorizing
criminal activity;
(b)

The murder was committed in an
effort to conceal the commission
of a crime, or to conceal the
identity of the perpetrator of such
crime;

(c)

The murder was committed
hire, or for pecuniary gain, or
defendant hired another
commit the murder for
defendant;

(d)

The murder was especially
heinous, atrocious, cruel, or
manifested exceptional depravity
by
ordinary
standards
of
morality and intelligence;

(e)

At the time the murder was
committed, the offender also
committed another murder;

(f)

The offender knowingly created a
great risk of death to at least
several persons;

(g)

The victim was a public servant
having lawful custody of the
offender or another in the lawful
performance of his or her official
duties and the offender knew or
should have known that the
victim was a public servant
performing his or her official

75a

for
the
to
the

duties;
(h)

The murder was committed
knowingly to disrupt or hinder
the
lawful exercise of any
governmental function or the
enforcement of the laws; or

(i)

The victim was a law enforcement
officer engaged in the lawful
performance of his or her official
duties as a law enforcement
officer and the offender knew or
reasonably should have known
that the victim was a law
enforcement officer.

(2)

Mitigating Circumstances:

(a)

The offender has no significant
history of prior criminal activity;

(b)

The offender acted under unusual
pressures or influences or under
the domination of another person;

(c)

The crime was committed while
the offender was under the
influence of extreme mental or
emotional disturbance;

(d)

The age of the defendant at the
time of the crime;

(e)

The offender was an accomplice
in the crime committed
by
another person and his or her
participation
was
relatively
minor;

76a

(f)

The victim was a participant in
the defendant’s conduct; or

(g)

At the time of the crime, the
capacity of the defendant to
appreciate the wrongfulness of
his or her conduct or to conform
his or her conduct to the
requirements
of
law
was
impaired as a result of mental
illness,
mental
defect,
or
intoxication.
III.

CASE BACKGROUND

As noted, after the Defendant was found guilty
of all charges on April 16, 2014, the Defendant was
appointed counsel to represent him in the death
penalty determination phase as set forth at Neb.
Rev. Stat. §§ 25-2919, “Special Procedure in Cases of
Homicide.” Shortly thereafter, the Defendant filed
his motion to determine competency.
Competency hearing of July 10, 2014.
Evaluations were performed on the Defendant,
and extensive evidence was adduced at the hearing.
The Court took the matter under advisement. The
following sets forth the pertinent evidence at that
hearing.
Dr. Gutnik, the psychiatrist for the Defendant,
testified that, among other things, that the
Defendant was unable to cooperate with his
attorneys. This has been an ongoing concern by Dr.
Gutnik in all the competency hearings. Dr. Gutnik
noted in his report of November 8, 2013 (Exhibit 1):

77a

However, Mr. Jenkins has not
established rapport with his attorney,
I seriously question his ability to meek
stresses with his rationality or
judgment breaking down. I seriously
question whether he can confer
coherently with some appreciation of
the proceedings. I do not believe he
could both give and receive advice from
his attorney.
Dr. Gutnik testified that Defendant was more
manic when he saw him in May than when he saw
him in February of 2014. The manic he observed in
May was more than “hypo manic” but a strong
manic.
Dr. Gutnik went on to note that Mr. Jenkins
did not believe that he has been found guilty and,
even though he pled no contest, he anticipates the
trial in this matter will commence on July 30, 2014.
Dr. Gutnik continued to opine that the
Defendant has an Axis I mental illness, which is
schizoaffective disorder, bipolar type. Dr. Gutnik
noted that the Defendant was hypomanic during his
interview in May. Defendant continued to have
hallucinations and delusions and has hypomanic
symptoms which the Defendant reports get better or
worse over the course of the day. Defendant
continues to have conversations with the Egyptian
god Apophis. Dr. Gutnik further noted that the
Defendant rambled, showed pressured speech,
expansive and happy expressions, sadness, loose
association, and was difficult to interrupt him.
Defendant stated that Apophis continued to tell him
to kill and destroy and believes that Cuban

78a

diplomats will demand his release. Defendant also
reports of visions of the future. Defendant continues
to not trust people and continues to respond to
Apophis. In summary, it was Dr. Gutnik’s opinion
that the Defendant had digressed and was not
competent to stand trial or to proceed with the
sentencing phase.
Dr. Moore saw the Defendant for the third
time at the Lincoln Correctional Center along with
Dr. Klaus Hartmann. Both are employed by the
Lincoln Regional Center. They saw him for only one
hour. This was the first time that Dr. Hartmann had
met the Defendant.
Both Dr. Moore and Dr. Hartmann were of the
opinion that the Defendant is competent to proceed
with the sentencing phase and is competent to stand
trial. The both opined that he is malingering, faking
his condition, and is manipulative. Neither believes
that he has a major mental illness- Axis I under the
DSM 5, such as bipolar or symptoms of
schizophrenia, however, they do believe he has a
personality disorder.
Dr. Moore believes that the Defendant is lying
at all times in a general sense. He also testified that
he takes what the Defendant says with a “grain of
salt”. He further testified that he believes that the
Defendant has been malingering since the age of 8
when he first received psychiatric treatment. As
noted, Dr. Moore does not believe that the Defendant
has a major mental illness (Axis I), however, he does
have a personality disorder.
Standard for Competency.
A person has a constitutional right not to be
put to trial when lacking “mental competency.”
79a

Indiana v. Edwards, 554 U.S. 164, 177 (2008). In
Indiana v. Edwards, the United States Supreme
Court reiterated the standard to determine if a
Defendant is competent to stand trial, which includes
whether the Defendant has a rational as well as
factual understanding of the proceedings against
him, and whether the Defendant has sufficient
present ability to consult with his lawyer with a
reasonable degree of rational understanding. As the
Court noted in its prior decision of Godinez v. Moran,
509 U.S. 389 (1993), requiring a criminal Defendant
to be competent “has a modest aim: It seeks to
ensure that he has the capacity to understand the
proceedings and to assist counsel.” Godinez v. Moran,
at 402.
The Nebraska Supreme Court in State v.
Guatney, 207 Neb. 501, 299 N.W.2d 538 (1980),
reiterated the three prong test in Nebraska to
determine competency. The test of mental
competency to stand trial is: 1) whether the
defendant now has the capacity to understand the
nature and object of the proceedings against him, 2)
to comprehend his own condition in reference to such
proceedings, and 3) to make a rational defense.
The Court further stated in State v. Guatney,
at 509:
Competency is, to some extent, a
relevant matter arrived at by taking
into account the average level of ability
of criminal defendants. We cannot,
however, exclude from trial all persons
who lack the intelligence or legal
sophistication to participate actively in
their own defense. This is not the

80a

standard by which we measure
competency. Should we do so, we would
preclude the trial of a number of people
who are, indeed, competent to stand
trial as understood in the law. The
accused need not understand every legal
nuance in order to be competent. He
need only meet the standards as
established by us in Crenshaw and
Klatt and set out above.
In the concurring opinion of State v. Guatney,
Chief Judge Norman Krivosha set forth twenty
factors, which could be of aid to court arriving at
appropriate conclusions. The Nebraska Supreme
Court has refused to adopt these factors, however,
they can be useful in assisting a court in arriving at
the opinion of competency and are regularly used to
determine competency. These twenty factors are as
follows: 1) the defendant has sufficient mental
capacity to appreciate his presence in relation to
time, place, and things; 2) that his elementary
mental processes are such that he understands that
he is in a court of law charged with a criminal
offense; 3) that he realizes there is a judge the bench;
4) that he understands that there is a prosecutor
present who will try to convict him of a criminal
charge; 5) that he has a lawyer who will undertake to
defend against the charge; 6) that he knows that he
will be expected to tell his lawyer all he knows or
remembers about the events involved in the alleged
crime; 7) that he understands that there will be a
jury present to pass upon evidence in determining
his guilt or innocence; 8) that he has sufficient
memory to relate answers to questions posed to him;
9) that he has established rapport with his lawyer;

81a

10) that he can follow the testimony reasonably well;
11) that he has the ability to meet stresses without
his rationality or judgment breaking down; 12) that
he at least minimal contact with reality, 13) that he
has the minimum intelligence necessary to grasp the
events taking place; 14) that he can confer coherently
with some appreciation of proceedings; 15) that he
can both give and receive advice from his attorneys;
16) that he can divulge facts without paranoid
distress; 17) that he can decide upon a plea; 18) that
he can testify if necessary; 19) that he can make
simple decisions; and 20) that he has a desire for
justice rather than undeserved punishment.
Judge Krivosha further noted that “. . . in
order to establish competency, it is not necessary
that an accused meet all of the above factors but only
that, considering the various factors as a whole, one
is compelled to conclude the accused has the capacity
to understand the nature and object of the
proceedings against him, to comprehend his own
condition in reference to such proceedings, and to
make a rational defense.” Id. at 513.
Finding as to Competency.
The Court noted that it was quite mindful that
a person can have a major mental illness and still be
competent to proceed to trial, or in this case, to the
sentencing phase for a death penalty case. The Court
was quite mindful that Dr. Moore and Dr. Hartmann
could be accurate in their opinions of the Defendant.
Especially concerning to the Court, was the little
amount of time that the State’s witnesses took to
evaluate the Defendant. This Court further noted
that it must be satisfied that the Defendant is
competent to proceed with the sentencing phase of a

82a

death penalty case. The fact that this is a death
penalty case heightens the concern and consideration
of this Court. As such, this Court found that the
Defendant was not competent to proceed further and
ordered that attempts be made to restore him to
competency, which Dr. Gutnick opined that
Defendant could be restored to competency. The
Defendant was then housed at the Lincoln
Correctional facility for attempts to restore the
Defendant to competency.
Hearing of February 17, 2015.
Hearing was held on February 17, 2015, and
again extensive evidence was adduced as to the
competency of the Defendant. This time the State
had taken extensive time to evaluate, view, and
attempt to treat the Defendant. The Court received a
31 page report from Jennifer Cimpl Bohn, Psy.D.,
Rajeev Chaturvedi, MBBS, and Mario J. Scalora,
Ph.D., and Dr. Cimply Bohn’s testimony in which she
opined that the Defendant was competent to proceed
with the death penalty phase of this matter. In the
conclusion of their report, they stated:
To conclude, it is the opinion of the
undersigned that Mr. Jenkins is
currently competent to proceed with
sentencing.
The
defendant
has
demonstrated an adequate factual
understanding of the proceedings.
Additionally,
Mr.
Jenkins
has
demonstrated the ability to rationally
apply such knowledge to his own case.
He can coherently discuss previous
proceedings in detail and is able to
extensively describe the purpose of

83a

upcoming hearings and potential legal
strategies. Lastly, if he desires to do so,
he has the ability to consult with
counsel with a reasonable degree of
rational understanding. While Mr.
Jenkins’ may behave in ways that
disrupt
the
proceedings
and
ineffectively communicate with counsel,
these behaviors are largely volitional
and
related
to
personality
characteristics, as opposed to a major
mental illness.
The Court was satisfied that ample time was
taken to evaluate and attempt to treat the
Defendant, which time was over six months. The
Court accepted the opinions of Dr. Cimpl Bohn and
found that the Defendant was competent to proceed.
This matter was then set for the death penalty
determination hearings to commence on July 7, 2015.
Repeal of the Death Penalty.
Before this hearing could be held, the
Nebraska Legislature repealed the death penalty and
this repeal was to go into effect on August 29, 2015.
As a result of this action by the Nebraska
Legislature, the death penalty determination hearing
was continued. Soon thereafter, a Referendum
Petition was initiated to repeal the action of the
Nebraska Legislature to restore the death penalty.
Prior to August 29, 2015, the Referendum Petition
obtain enough verified signatures to stay the
implementation of the legislative action repealing the
death penalty. Thus, the death penalty remained the
law. The Referendum action required the vote of the
citizens of Nebraska at the next general election,

84a

which was November 8, 2016. The death penalty
determination hearing was then scheduled to
commence in November, 2015.
Competency hearing of December 11,
2015.
Prior to this commencement of the death
penalty determination hearing in November of 2015,
the Defendant again filed a Motion to determine
competency as his psychiatrist opined that he had
significantly deteriorated since the last hearing.
Competency hearing was then held on December 11,
2015. Evidence was adduced and Dr. Cimpl Bohn
again testified for the State and Dr. Gutnik testified
for the Defendant. The Court found that the
Defendant was competent to proceed with the1 death
penalty determination phase.
Competency hearing of June 7, 2016.
Before the death penalty phase could begin,
another hearing was held on June 7, 2016, as to the
Defendant’s competency. Again, Dr. Cimpl Bohn and
Dr. Gutnik testified. Court again found that the
Defendant was competent to proceed with the death
penalty determination phase.
This matter was then set for hearing for the
death penalty determination hearing on November
14, 2016. On November 8, 2016, the citizens of
Nebraska supported the Referendum, and the
legislative action repealing the death penalty was
repealed and the death penalty remained.
Intellectually
Disability
November 14, 2016.

hearing

of

Before the death penalty phase could proceed
on November 14, 2016, there was a hearing to
85a

determine if the Defendant was intellectually
disabled so as to prevent the death penalty. Hearing
was held, evidence adduced, and the Court found
that the Defendant was not intellectually disabled.
The Panel then proceeded with the death penalty
determination hearing. The first step was the
determination of the aggravating circumstances
pursuant to Neb. Rev. Stat. § 29-2520.
IV.

AGGRAVATION HEARING.

The hearing to determining the aggravating
circumstances was held on November 14, 2016.
Evidence was adduced and the following are the facts
of each of the four murders for which the Defendant
was found guilty. These factual descriptions come
from factual basis given by the State at the time of
the Defendant’s pleas of no contest to all counts on
April 16, 2014, Exhibit 81.
A.

Facts.

As to the murders of Jorge Cajiga-Ruiz and
Juan Uribe-Pena, on the Sunday morning of August
11, 2013, police were called to a pickup truck with
the doors open in an entrance road to Spring Lake
Swimming Pool at or about 17th and F Streets in
Omaha, Douglas County, Nebraska. When the police
arrived, they found the deceased bodies of Jorge
Cajiga-Ruiz and Juan Uribe-Pena in the pickup
truck. These two individuals had been at a bar in
South Omaha the night before, where they met a
Christine Bordeaux and Erica Jenkins, the cousin
and sister, respectively, of the Defendant. The
Defendant wanted to get money so he planned a
robbery with the assistance of Ms. Bordeaux and Ms.
Jenkins. Ms. Bordeaux and Ms. Jenkins were to get
some men to go to a private area where the
86a

Defendant could rob them.
The four of them drove in one of the victim’s
pickup truck to the area of 17th and F Streets, which
is somewhat of a dark road that goes to Spring Lake
Park Pool. As they were there in the pickup truck,
the Defendant arrived with a shotgun. Ms. Bordeaux
and Ms. Jenkins exited the truck and then the
Defendant shot Mr. Cojiga-Ruiz and Mr. Uribe-Pena
in the head with a shotgun. It appeared that money
was taken from them as they had no billfolds and the
pockets of one of the victims were turned inside out.
Mr. Jorge Cajiga-Ruiz was killed with a single
gunshot wound involving the head, neck, chest, and
right hand. The projectile was consistent with a deer
slug, which passed through his right hand, which
must have been raised in a defensive manner.
Mr. Juan Uribe-Pena was killed with a single
gunshot wound consistent with a deer slug, which
entered his right eye.
As to the murder of Curtis Bradford, on
Monday, August 19, 2013, police were called to 1804
North 18th Street in Omaha, Douglas County,
Nebraska. They observed the body of the victim,
Curtis Bradford, at this location. Mr. Bradford had
suffered two gunshot wounds to the head. One being
a deer slug consistent with the deer slug that was
used at the homicides of Mr. Cajiga-Ruiz and Mr.
Uriba-Pena, and a small caliber gunshot wound to
the head. The shotgun wound entered the back of his
head and exited through his forehead. There was also
a second gunshot wound to the back of his head.
The Defendant and Ms. Jenkins had a plan
with Mr. Bradford to either rob or burglarize
someone that night. Unbeknownst to Mr. Bradford,
87a

Ms. Jenkins did not like him and planned with the
Defendant to kill him that night.
When they picked up Mr. Bradford, they gave
him a .9 millimeter rifle, which, unknown to him,
was empty. Once they got to the location of 1804
North 18th Street, Erica Jenkins shot him once in the
back of the head and then the Defendant shot him in
the back of the head with the deer slug from the
shotgun after he fell to the ground.
As to the murder of Andrea Kruger, on August
21, 2013, Ms. Kruger was coming home from work at
approximately 1:30 to 2:00 o’clock in the morning.
She was stopped at 168th and Fort Street by a
vehicle, which included the Defendant; his uncle,
Warren Levering; his sister, Erica Jenkins; and his
cousin, Christine Bordeaux. Defendant got out of his
vehicle and went to Ms. Kruger’s vehicle. Ms. Kruger
was pulled from the car and shot several times by the
Defendant. She was killed by two gunshot wounds to
her head, and gunshot wounds to her neck and back.
The purpose for the murder of Ms. Kruger was
to obtain her vehicle. The Defendant spotted Ms.
Kruger in her vehicle at the McDonalds’ drive-thru.
When she left, he followed her and stopped her at
168th and Fort. There was a Lil Wayne concert in
the next few days, during which the Defendant
wanted to use a newer vehicle to rob people. Ms.
Kruger just happened to be driving the vehicle that
the Defendant wanted.
B.

Finding as to Aggravators.

As noted above, the Panel found the following
six aggravating circumstances:

88a

With regard to the murders of Jorge CajigaRuiz and Juan Uribe-Pena, the aggravating
circumstances under Neb. Rev. Stat. § 29-2523(l)(e)
applies, that at the same time of the murder of Jorge
Cajigia-Ruiz, Defendant also murdered Juan UribePena; and at the same time of the murder of Juan
Uribe-Pena, Defendant also murdered Jorge CajigaRuiz.
With regard to the all the murders, Jorge
Cajiga-Ruiz, Juan Uribe-Pena, Curtis Bradford, and
Andrea Kruger, aggravating circumstances under
Neb. Rev. Stat. § 29-2523(l)(a) applies, that
Defendant was previously convicted of crimes
involving the use of threat of violence to the person,
those being the convictions of armed robbery of
Charles Price, Jr. on June 24, 2002, and Kathryn
Bright on August 26, 2002.
Additionally, with regard to the murder of
Curtis Bradford, Defendant had a substantial prior
history of serious assaultive or terrorizing criminal
activity, that being the murders of Jorge Cajiga-Ruiz
and Juan Uribe-Pena.
Further, with regard to the murder of Andrea
Kruger, Defendant had a substantial prior history of
serious assaultive or terrorizing criminal activity,
that being the murders of Jorge Cajiga-Ruiz, Juan
Uribe-Pena, and Curtis Bradford.
All of these homicides occurred within a
relatively short time span of ten days. Since the
Nebraska Supreme Court’s opinion in State v Moore,
316 N.W.2d 33, 210 Neb. 457 (1982), the term
“substantial history” in aggravating circumstance
(l)(a) has been interpreted to include any previous
homicide that predates the homicide that is the

89a

subject of the sentencing. In Moore, the Defendant
was convicted of two homicides that occurred four
days apart and the court applied aggravator (l)(a) to
the second homicide. The Panel in this case has
taken the same approach on the Bradford and
Krueger homicides, which approach is supported by
Nebraska case law.
The Panel determined that the convictions for
the armed robberies of Charles Price and Kathryn
Bright satisfy that portion of aggravating
circumstance (l)(a) that pertains to “previous
convictions of crimes involving the use or threat of
violence to the person.” The Panel determined that
those convictions apply to all four homicides.
V.

MITIGATION HEARING

After the Court’s findings as to the six
aggravating circumstances, the Court then proceeded
with the hearing on the mitigating circumstances.
Evidence was adduced, each party rested, and a
briefing scheduled was set.
In making its decision as to the mitigating
circumstances, Neb. Rev. Stat. § 29-2521 requires the
sentencing panel to consider “any relevant mitigating
circumstance.” The Supreme Court of the United
States has concluded that the court in a capital case
must consider as a mitigating factor “any aspect of
the defendant’s character or record and any of the
circumstances of the offense that the defendant
proffers as a basis for a sentence less than death.”
Lockett v. Ohio, 438 U.S. 586, 604 (1978). See also
Kansas v. Marsh, 548 U.S. 163, 174 (2006). Thus,
when a defendant is faced with imposition of the
death penalty, he or she “may offer any evidence on
the issue of mitigation, even though the mitigating
90a

factor is not specifically listed.” State v. Reynolds,
235 Neb. 662, 696, 457 N.W. 2d 405, 425 (1990).
Aggravating and mitigating circumstances
are, to a large extent, prescribed by statute, but the
three judge panel is required to consider any
evidence in mitigation. Neb. Rev. Stat. § 29-2522.
State v. Joubert, 224 Neb. 411, 423-24, 399 N.W.2d
237, 247 (1986). In order for something to be
considered a mitigating factor it must be probative of
any aspect of the defendant's character or record or
any of the circumstances of offense that could be
proffered as a basis for sentence less than death.
Neb. Rev. Stat. § 29-2522. State v. Rust, 208 Neb.
320, 326, 303 N.W.2d 490, 494 (1981). For example,
in State v. Sandoval, the sentencing panel concluded
no statutory mitigating circumstances existed, but
found that one non-statutory mitigating factor
existed — that the defendant suffered from a bad
childhood resulting from being raised in a
dysfunctional family. See also State v. Galindo, 269
Neb. 443, 450-51, 694 N.W.2d 124, 140 (2005)
(sentencing panel found no statutory mitigating
circumstances but considered two nonstatutory
mitigating circumstances: the defendant’s strong
relationship with members of his family and his
ability to adapt to life in prison); State v. Ellis, 281
Neb. 571, 610, 799 N.W.2d 267, 300 (2011)
(sentencing panel did not find any statutory
mitigating circumstances to exist, but considered the
nonstatutory mitigators of the defendant’s history of
mental health problems); State v. Mata, 266 Neb.
668, 676, 668 N.W.2d 448, 462 (2003) (sentencing
panel found no statutory mitigating circumstances to
exist, but considered four nonstatutory mitigating
circumstances, the defendant's ability to adapt to

91a

prison conditions, the defendant’s IQ of 85, the
defendant’s history of substance abuse, and the
defendant’s relationship with his parents).
The Defendant presented substantial evidence
of the Defendant’s personal and mental health
history from the time he was eight years old, through
his years of incarceration, to the present. This
evidence included information concerning the
Defendant’s family history and his upbringing that
included him being physically assaulted and sexually
assaulted. This evidence also revealed how the
Defendant was bounced from foster home to foster
home with virtually no stability or positive familial
interaction.
The Defendant submits that there is sufficient
evidence to support the presence of statutory
mitigating circumstances at Neb. Rev. Stat. § 292523(2)(c): “The crime was committed while the
offender was under the influence of extreme mental
or emotional disturbance” and (2)(g): “At the time of
the crime, the capacity of the defendant to appreciate
the wrongfulness of his or her conduct or to conform
his or her conduct to the requirements of law was
impaired as a result of mental illness, mental defect,
or intoxication.” In addition to these factors, the
Defense contended that the Defendant’s current
mental health and how it has been effected by his
treatment (or lack thereof) during his incarceration,
is a powerful non-statutory mitigating circumstance.
Additionally, the Defendant’s pleas of no contest and
his admission of his participation in these crimes to
the police investigating these cases, are also nonstatutory mitigating circumstances that the
Defendant contends should be included in the
weighing process.
92a

The Defense reminded this Court that the
United States Supreme Court, and Nebraska
statutes provide that the government shall not
impose capital punishment on a person who becomes
seriously mentally ill after conviction of a capital
offense. The Defense asserts that there is
overwhelming evidence that the Defendant is
severely mentally ill, that his illness is of
longstanding duration, and that his mental health
has deteriorated due in large part to his being
subjected to long term solitary confinement by the
State of Nebraska.
VI.

DISCUSSION

Statutory Mitigating Circumstances.
It is the Defense’s position that the Defendant
has a severe mental illness that gives rise to the
applicability of statutory mitigating circumstances
set forth in Neb. Rev. Stat. §29-2523 (2)(c) and (2)(g)
and also is a non-statutory mitigating circumstance
that the Panel must consider.
Neb. Rev. Stat. § 29-2523(2)(c) and Neb. Rev.
Stat. § 29-2523(2)(g).
Mitigator (2)(c) states: The crime was
committed while the offender was under the
influence of extreme mental or emotional
disturbance.”
Mitigator (2)(g) states: “At the time of the
crime the capacity of the defendant to appreciate the
wrongfulness of his or her conduct or to conform his
or her conduct to the requirements of law was
impaired as a result of mental illness, mental defect,
or intoxication.”

93a

The Panel finds that there is insufficient
evidence to support these statutory mitigating
factors. Each one of these murders was a deliberate
and planned act. The victims were pre-selected and
the murders were purposeful. In each case, the
Defendant developed a specific plan, carried through
with that plan, and only the intended victims were
harmed.
The trial court in this case has been
continuously confronted with issues concerning the
Defendant’s mental health and his self-mutilation.
The record of this case illustrates significant
divergence of opinion offered by mental health
professionals as to whether Jenkins suffers from a
mental illness, or if he is feigning mental illness. In
essence, the Panel had to determine which group of
experts is more credible. This Panel agrees with the
experts of the State, in particular, Dr. Cimpl Bohn
and her team were given great weight as they had
spent considerable time with the Defendant to
support their opinions and these opinions were
accepted by this Panel. Therefore, this Panel finds no
statutory mitigators exist.
Non-Statutory Mitigators.
Plea of no contest.
The Defense contends that the Defendant’s
pleas of no contest are nonstatutory mitigator. The
pleas of guilty or no contest are non-statutory
mitigating factors. State v Joubert, 224 Neb. 411, 399
N.W.2d 237 (1986). This Panel acknowledges that a
plea of guilty or no contest is a non-statutory
mitigating factor. The question is how much weight
it should be afforded. Typically, sentencing courts in
94a

all criminal cases, both homicide and nonhomicide
cases, consider a guilty or no contest plea as a
mitigating factor to be weighed in arriving at an
appropriate sentence. The thinking is that such pleas
save the State the cost of a lengthy trial and also
spare victims or their relatives from undergoing the
stress accompanying a trial.
This Panel finds that this non-statutory
mitigating circumstance is tempered by the
Defendant’s lack of remorse and his actions and
behavior since his arrest. As such, little weight is
given this Mitigator.
Solitary Confinement.
The report of the Ombudsman’s Office
indicates that from October 17, 2003 through July
30, 2013, when he was serving his sentence, of the 97
months Nikko Jenkins was in the physical custody of
the Nebraska Department of corrections, he spent 58
months or nearly 60% of his time in “segregation” i.e.
solitary confinement.
The evidence before this Panel was that the
Defendant was placed in solitary confinement for the
protection of others and himself. Defendant’s solitary
confinement was as a result of his own actions and
threats. Exhibit 123 sets for his extensive history of
misconduct in the State Penitentiary. As a result,
this Panel finds that there is insufficient evidence to
support this non-statutory mitigator.
Bad Childhood.
The childhood history of the Defendant was
important for this Panel as it could be a nonstatutory mitigating circumstance. The following
describes the Defendant’s childhood history as best

95a

can be determined. This history is from the report of
the State’s expert, Dr. Jennifer Cimpl Bohn’s report
of February 11, 2015 (Exhibit 51). In pertinent part
this report stated:
Mr. Jenkins reported witnessing and
experiencing traumatic life events
throughout his childhood. He recalled
cleaning blood from the floor of his
family home at age 4 after conflicts
between his parents. Methodist Richard
Young records indicate that his mother
acknowledged that Mr. Jenkins once
separated a marital fight by hitting his
father in the head with a rock or brick.
During LRC sessions, Mr. Jenkins
volunteered that he called police and
ran away from home during incidents
when his mother was assaultive
towards his stepfather. Mr. Jenkins
reported being verbally and physically
abused by several family members and
sexually abused by his cousin.
Methodist Richard Young records
indicate that the content of his
nightmares was associated with some of
those traumatic family experiences.
Mr. Jenkins' tumultuous home
environment and conduct problems as a
child
have
been
consistently
documented. According to available
records, he was removed from home and
placed in emergency foster care at age 7
after bringing a handgun to school. He
was expelled from school on numerous
occasions
for
fighting,
breaking
96a

windows, and going home without
permission, Mr. Jenkins reported that
he stopped attending school in 7th grade
due to legal troubles, but later obtained
a GED while incarcerated. Methodist
Richard Young records indicate that he
was in special education classes, and his
IQ was assessed to be in the LowAverage range at age 8. NDCS records
indicate that he reported that he began
to carry a weapon and became involved
in gang activity at age 11. According to
NDCS records, Mr. Jenkins obtained
five charges related to theft, one charge
related to arson, one weapon charge,
and two charges related to criminal
mischief prior to age 12. The earliest
available documentation of Mr. Jenkins’
mental health treatment involved an
inpatient psychiatric evaluation and
treatment at Methodist Richard Young
Hospital at age 8. Those hospital
records indicate that Mr. Jenkins'
admission was primarily due to
aggressive behavior at school and
towards family members as well as due
to suicidal statements. According to a
02/03/1995 Methodist Initial Clinical
Assessment, he discussed having prior
thoughts of stabbing himself and acts of
self-harm (i.e., intentionally jumped off
a tire swing to injure himself, attempted
to choke himself), and he expressed
intentions to shoot his peers and kill
people that caused him difficulty.

97a

Records
note
that
while
hospitalized, he was verbally aggressive
toward his mother and hospital staff. At
Richard Young, Dr. Jane Dahlke
diagnosed him with Oppositional
Defiant Disorder; Attention-Deficit/
Hyperactive Disorder (ADHD); and
Functional Enuresis, Nocturnal (i.e.,
02/27/1995 Discharge Summary).
In
a
02/10/1995
Methodist
Psychological Report, Mr. Jenkins was
noted to have a “value system that
varies” due to him being rewarded for
misbehavior by family members and
peers, while conversely being punished
for similar behaviors by legal and school
authorities. During I-JRC sessions, Mr.
Jenkins
confirmed
that
others
reinforced his antisocial behaviors. He
discussed his father and uncles teaching
him
fighting
and
firearm
use
techniques. He indicated being shown
how to make a Molotov cocktail and
burning several buildings in his
neighborhood. In addition, he reported
shooting animals and carrying their
remains in a plastic bag to present to
family members. Mr. Jenkins described
being spoiled by his mother and further
commented about his ability to
manipulate her.
While his conduct problems are
consistently documented in collateral

98a

records, Mr. Jenkins’ description of
other mental health problems as a
youth have been inconsistent. During
LRC sessions, Mr. Jenkins reported that
he first experienced auditory hallucinations at age 5 and heard voices daily
since that age. He indicated originally
believing the hallucinatory voices were
his conscience acting in an “advisory”
manner. He expressed that the voices
encouraged wrongdoing, threatened to
“kill [or] possess me if I didn't do bad
things,” and were responsible for his
childhood misconduct, such as bringing
a gun to school and vandalizing
property. He reported his mother
admitted him to the hospital at age 8
due to her concerns about the voices.
Methodist Richard Young Hospital
records provide some corroboration to
that statement, although do not convey
the same severity as his self-report.
Those records indicate that upon
admission, Mr. Jenkins reported that he
heard “voices” telling him to steal.
However,
later
during
that
hospitalization he clarified that the
voices instructing him to steal were
from actual older boys, “and he only
hears them when the boys are there
with him” (i.e., 02/09/1995 Psychological
Report). In fact, Mr. Jenkins was
described as displaying “no evidence of
psychosis or auditory hallucination” in a
psychological assessment, and it was
documented that he may have
99a

misunderstood the question about
auditory hallucinations in a previous
interview (i.e., 02/10/1995 Psychological
Report).
Regarding
mood
problems,
Methodist Richard Young Hospital
records indicate that Mr. Jenkins
displayed
labile
moods
during
assessments and that his mother
expressed concerns about his mood.
However, over the course of that
hospitalization, his mood fluctuations
were conceptualized as distractibility
and
impulsivity,
which
were
exacerbated by a high level of anxiety.
Upon discharge from Richard Young,
Mr. Jenkins’ mood problems were
attributed to anxiety, maladaptive
coping techniques, and personality
characteristics that made him inclined
to seek “emotional stimulation” (i.e.,
02/21/1995 Discharge Summary).
Methodist Richard Young records
also indicate that his mother was
concerned about Mr. Jenkins wetting
his bed, trouble sleeping, and “carrying
on a conversation with someone...
saying stuff like leave me alone” (i.e.,
02/04/1995
Psychiatric
Admission
Assessment). While hospitalized at
Richard Young, Mr. Jenkins reported
seeing black spirits in his room at night.
Records indicate that his sleeping
difficulties and violent events he had
witnessed. While at Richard Young, he
100a

was prescribed Tofranil for enuresis, but
no other psychotropic prescriptions were
provided. Treatment recommendations
included therapy and psychosocial
interventions to address trauma, anger
management, anxiety, and self esteem.
During LRC sessions, Mr. Jenkins
reported that he agreed with Dr, Jane
Dahlke’s opinion, as provided in
testimony during a 2014 hearing, in
which she reported that, in hindsight,
she believed he suffered from Bipolar
Disorder as a child.
Mr. Jenkins’ report about his
childhood mental health treatment has
varied over time, ranging from:
x

Denial of any childhood mental
health problems (12/04/2003 NDCS
Initial Psychological Evaluation;
02/07/2007,
06/08/2007
NDCS
Behavioral Observations and Suicide
Assessments)

x

Attribution of the hospitalization at
age 8 to behavioral problems and
ADHD
(02/27/2006
NDCS
Behavioral Observations and Suicide
Assessments;
07/30/2009
NDCS
Psychiatric Evaluation)

x

Reporting that childhood mental
health problems were limited to
being abused and exposed to
traumatic events (i.e., 03/03/2010
Douglas County Corrections Note)

101a

x

Assertion
that
auditory
hallucinations
precipitated
his
hospitalization at age 8 (LRC
sessions;
03/14/2013
NDCS
psychiatric Consultation).

Adolescence
During IRC sessions, Mr. Jenkins
discussed being removed from home
often as an adolescent. He reported
living with his aunt for a period of time,
with whom he described having a strong
relationship. He noted that he struggled
with her absence after her death, which
occurred while he was incarcerated.
NDCS records indicate that he was
placed in several group homes and
detention centers from ages 11-17. He
received substance abuse treatment at a
residential facility at approximately age
13. According to a 12/07/2003 NDCS
Classification Study, he received seven
charges between the ages of 12 and 17,
including charges for arson, assault,
theft, unlawful absence, and missing
juvenile. He did not successfully
complete juvenile probation, was
described as a “continuous runaway for
months at a time,” and spent time at the
Youth Rehabilitation and Treatment
Center — Kearney. At age 17, Mr.
Jenkins was convicted and sentenced as
an adult for Robbery and Use of a
Deadly Weapon to Commit a Felony
after forcing owners from their cars at
gunpoint in two separate incidents. He
102a

began
serving
his
sentence
on
11/17/2003 at a youth correctional
facility.
Mr. Jenkins’ antisocial behaviors
continued while he was detained, and
he obtained 13 misconduct reports at
the youth correctional facility, two of
which were related to violent incidents.
He was involved in a riot situation on
07/04/2005 and evaded staff for
approximately ten minutes to reengage
in attacks on other inmates. Mr.
Jenkins described his involvement as
defending a friend, stating “[he] was like
a brother to me...I couldn't let the other
guy win” (i.e., 08/16/2005 NDCS Mental
Health Contact Note). Additionally,
according to 01/05/2006 and 02/10/2006
NDCS Mental Health Contact Notes,
Mr. Jenkins informed mental health
professionals about his intentions to act
upon his anger and be “remember[ed]”
by correctional personnel once out of
prison.
During
LRC
sessions,
Mr.
Jenkins indicated having “racing
thoughts ... all the time,” except when
using substances or taking Depakote
and hearing voices “all the time” since
age 5. However, collateral records do not
support these assertions. Available
records indicate Mr. Jenkins denied
experiencing major mental health
symptoms during his 11/17/2003 —
02/25/2006 imprisonment at .the youth
103a

facility, despite regular participation in
individual and group therapy sessions
aimed at reducing criminal thinking
and developing future plans. In the
month prior to his transfer from the
youth facility to an adult facility, Mr.
Jenkins described feeling stressed and
having difficulty sleeping on two
occasions, but those were isolated
reports. There is no indication that he
expressed mental health difficulties in
his remaining individual sessions at the
youth facility, and he denied mental
health concerns upon transfer to an
adult facility in February 2006.
While at the youth correctional
facility, Mr. Jenkins received an IQ
score in the “high end of the Mentally
Retarded
range
of
intellectual
functioning” (i.e., a 69 WAIS-R
equivalent score on the Shipley
Institute of Living Scale), but there
were concerns about the validity of the
obtained score due to Mr. Jenkins
completing the test extremely fast
(i.e.,
12/04/2003
NDCS
Initial
Psychological Evaluation). According to
that same psychological evaluation, Mr.
Jenkins completed the Minnesota
Multiphasic
Personality
InventoryAdolescent, but the results were invalid
“due to his attempt to present himself in
an unrealistically positive light.”
As to the bad childhood mitigator, the Panel
finds that it is a non-statutory mitigator to be
104a

considered in the weighing process.
Mental health.
The Panel accepts and adopts the opinions of
Dr. Cimpl Bohn and her team (see Exhibit 51) that
the Defendant has a personality disorder of
narcissistic, antisocial, and borderline. The Panel
finds that this is a nonstatutory mitigator to be
considered in the weighing process.
VII.

Aggravators are sufficient for Death
penalty.

After this Panel made its findings as to the
aggravating and mitigating circumstances, the
Panel, pursuant to Neb. Rev. Stat. § 29-2522(1), had
to determine Whether the aggravating circumstances
as determined to exist justify imposition of a
sentence of death.” After considering the evidence of
the
aggravating
circumstances,
this
Panel
unanimously determined that the aggravating
circumstances, as determined to exist by this Panel,
justify the imposition of a sentence of death.
VIII. Comparison of Mitigators with
Aggravators.
The next requirement of the Panel is pursuant
to Neb. Rev. Stat § 29-2522(2), “Whether sufficient
mitigating circumstances exist which approach or
exceed the weight given to the aggravating
circumstances.”
Under the statutory scheme governing the
death penalty, if sufficient mitigating circumstances
exist which approach or exceed the weight given to
aggravating circumstances, the death penalty cannot
be imposed. Neb. Rev. Stat. §§ 29-2519, 29-2522.
105a

State v. Sandoval, 280 Neb. 309, 373, 788 N.W.2d
172, 224 (2010).
For purposes of imposing the death penalty,
balancing of aggravating circumstances against
mitigating circumstances is not merely a matter of
number counting but, rather, requires careful
weighing and examination of the various factors.
Neb. Rev. Stat. § 29-2522. State v. Victor, 235 Neb.
770, 794, 457 N.W.2d 431, 447 (1990). In the
balancing of the aggravating and mitigating
circumstances, the death penalty will not be imposed
simply
because
aggravating
circumstances
outnumber mitigating circumstances. The test is
whether aggravating circumstances in comparison
outweigh mitigating circumstances. Neb. Rev. Stat.
§§ 29-2522, 29-2523. State v. Simants, 197 Neb. 549,
250 N.W.2d 881 (1977).
Nebraska’s
death
penalty
statutes
contemplate the weighing of the aggravating and
mitigating factors and a decision on the death
penalty according to which type carries the most
weight. This is unavoidably a matter of judgment to
be determined by the sentencing panel subject to
review. Absolute certainty in such matters is
unattainable but the provision in Nebraska law for
mandatory review in capital cases is a positive
safeguard and insures against error. State v. Holtan,
197 Neb. 544, 546, 250 N.W.2d 876, 879 (1977)
disapproved of on other grounds by State v. Palmer,
224 Neb. 282, 399 N.W.2d 706 (1986).
The Panel notes that it received statements
from family members of some of the victims. This
Panel did not consider these statement for
sentencing purposes.

106a

After due deliberations in light of the evidence
and the law, the Panel finds that there are
mitigating circumstances, however, these mitigating
circumstances do not approach or exceed the weight
given to the six aggravating circumstances.
IX.

Proportionality

The Defense has submitted a compilation of
cases from around the state for comparison (Ex. 116)
pursuant to Neb. Rev. Stat. § 29-2522(3).
The sentencing panel is faced with the
daunting task of determining “whether the sentence
of death is excessive or disproportionate to the
penalty imposed in similar cases considering both
the crime and the defendant.” Neb. Rev. Stat. § 292522(3). As noted by Defense counsel, this requires
the ghoulish exercise of comparing homicides to
determine if there are equivalently appalling, or even
more appalling cases where the sentence was less
than death.
The Defendant’s commission of these four
murders over a ten day period is one of the worst
killing sprees in the history of this state. Based on
the evidence presented and the law, this Panel finds
that the sentences of death are not excessive or
disproportionate to the penalty imposed in similar
cases, considering the crimes and the Defendant.
CONCLUSION
In summary, this Panel finds that the
aggravating circumstances as determined to exist,
justify the imposition of a sentence of death for each
murder. That there are mitigating circumstances,
however, these mitigating circumstances do not

107a

approach or exceed the weight given to the six
aggravating circumstances. That the sentence of
death is not excessive or disproportionate to the
penalty imposed in similar cases, considering the
crimes and the Defendant.
Therefore, this Panel finds that the death
penalty is appropriate, should be, and is hereby
given for each of the four murders by the Defendant.
It is therefore, the sentence of this Court as follows:
At CR 13-2768,
Count I. Murder First Degree, a Class I
Felony, death;
Count II. Use of a Deadly Weapon (Firearm)
to Commit a-Felony, a Class IC Felony,
45 to 50 years to run consecutive to
all murder convictions at Counts I, IV,
VII, and X;
Count III. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony, 45
to 50 years, to run consecutive to all
murder convictions at Counts I, IV, VII,
and X, and Count II;
Count IV. Murder First Degree, a Class I
Felony, death, to run consecutive to
murder conviction at Count I;
Count V. Use of a Deadly Weapon (Firearm)
to Commit a Felony, a Class IC Felony,
45 to 50 years to run consecutive to all
murder convictions at Counts I, IV, VII,
and X, and Counts II and III;

108a

Count VI. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony,
45 to 50 years, to run consecutive to all
murder convictions at Counts I, IV, VII,
and X, and Counts II, III, and V;
Count VII. Murder First Degree, a Class I
Felony, death, to run consecutive to
murder convictions at Counts I and IV;
Count VIII. Use of a Deadly Weapon
(Firearm) to Commit a Felony, a Class
IC Felony, 45 to 50 years to run
consecutive to all murder convictions at
Counts I, IV, VII, and X, and Counts II,
III, V, and VI;
Count IX. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony, 45
to 50 years, to run consecutive to all
murder convictions at Counts I, IV, VII,
and X, and Counts II, III, V, VI, and
VIII;
Count X. Murder First Degree, a Class I
Felony, death, to run consecutive to all
murder convictions at Counts I, IV, and
VII;
Count XI. Use of a Deadly Weapon (Firearm)
to Commit a Felony, a Class IC Felony,
45 to 50 years to run consecutive to all
murder convictions at Counts I, IV, VII,
and X; and Counts II, III, V, VI, VIII,
and IX;
Count XII. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony, 45
to 50 years, to run consecutive to all

109a

murder convictions at Counts I, IV, VII,
and X, and Counts II, III, V, VI, VIII,
IX, and XI;
At CR 13-2769,
COUNT I. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony, 45
to 50 years, to be served consecutive to
all other counts at CR 13-2768, and
COUNT II. Possession of Deadly Weapon by
Prohibited Person; Class ID Felony, 45
to 50 years, to be served consecutive to
all other counts at CR 13-2768 and
Count I at CR 13-2769.
Commitment ordered accordingly. Credit for
time served of 1,370 days is given against this
sentence imposed. Mittimus signed.
It is further ordered that pursuant to Neb.
Rev. Stat. § 29-4106 (Reissue 2008), as amended by
L.B. 190, 2010 Nebraska Laws, the defendant shall
submit to a DNA test and shall pay to the Nebraska
Department of Correctional Services twenty-five
dollars ($25.00). Such amount may be taken by the
Department of Correctional Services from funds held
by the defendant in the trust account maintained by
the Department of Correctional Services on behalf of
the Defendant, until the full amount in the order has
been remitted.
IT IS SO ORDERED.
Dated this 30th day of May, 2017.
BY THE COURT:

110a

cc:

Donald Kleine, Esq., Brenda Beadle, Esq., Nissa Jones, Esq.
Thomas Riley, Esq., Scott Sladek, Esq., Thomas Wakeley,
Esq.

111a

CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS

August 9, 2019
IN CASE OF:

S-17-000577, State v. Nikko A.
Jenkins
S-17-000657, State v. Nikko A.
Jenkins
TRIAL COURT ID:
Douglas County District Court
CR13-2768
Douglas County District Court
CR13-2769
The following filing: Motion Appellant for Rehearing
Filed on 7/24/19
Filed by appellant Nikko A. Jenkins #5880
Has been reviewed by the court and the following
order entered:
Motion of appellant for rehearing overruled for
failure to comply with Neb. Ct. R. App. P. § 2113(A).
Respectfully,
Clerk of the Supreme
Court and Court of
Appeals

112a

STATE OF NEBRASKA
OFFICE OF THE PUBLIC COUNSEL/OMBUDSMAN
December 9, 2013
OMBUDSMAN’S REPORT
Performance
of the
Mental Health Component
of the
Nebraska Department of
Correctional Services
As Represented By
the Case of
Inmate Nikko Jenkins
Introduction
The situation involving former correctional
inmate Nikko Jenkins, and the serious allegations
that have been filed against Mr. Jenkins, have
commanded public attention ever since he was first
singled out for multiple murder charges on
September 4, 2013. Of course, Mr. Jenkins is
innocent until proven guilty, and is entitled to assert
appropriate affirmative defenses to the charges
against him. However, given the extent of our
information about Mr. Jenkins’ long, long history of
odd, troubling, and sometimes antisocial, behavior,
together with the serious questions that have been
raised about his mental health, I believe that it is
useful to examine his case to determine whether that
history has any lessons to teach us about how our
criminal justice system works, and about how the
system might be changed to better manage those
troubled/dangerous individuals who represent the
113a

system’s “most difficult cases.”
Nikko Jenkins has a history of involvement in
the criminal/juvenile justice system that goes back at
least to when he was seven years old, and was first
placed in foster care by the State. In fact, even before
he was first sent to prison in 2003, Nikko Jenkins
had been incarcerated in the Douglas County
Juvenile Detention Center multiple times. As a
juvenile, Mr. Jenkins had multiple placements in
group homes, and was also placed in the Youth
Rehabilitation and Treatment Center in Kearney for
about six months beginning in August of 2001, when
he was fourteen years old. It goes without saying
that Mr. Jenkins must take personal responsibility
for his most recent criminal actions, if any, but even
if he is not guilty of the allegations against him, his
extensive history of troubling behavior and
involvement in the criminal and juvenile justice
systems is likely to be a deep and productive resource
for those of us who are seeking insights into how
those systems work…and into how those systems can
sometimes fail.
Mr. Jenkins first entered the Nebraska
correctional system in November of 2003, and the
Ombudsman’s Office has had a history of contact and
involvement with Mr. Jenkins going back to May of
2007, when he initially contacted us to complain
about his continued placement in Administrative
Confinement, a classification that confined him to a
segregation cell for 23 hours every day. Our
involvement with Mr. Jenkins and his situation
continued over the years right up to the time that he
was discharged from the Nebraska State
Penitentiary on July 30, 2013, and was thus no
longer in the custody or control of any agency of
114a

State government. Over the years, our work in
investigating Mr. Jenkins’ complaints, and (in some
instances) advocating on his behalf, covered three
general areas:
1.
Whether (and/or when) Mr. Jenkins
should be released from Administrative Confinement
(i.e., segregation);
2.
Whether Mr. Jenkins was receiving
proper and necessary services to address his mental
health and/or behavioral health issues; and
3.
Whether it would be desirable for the
Nebraska Department of Correctional Services to
develop and execute a comprehensive transition plan
for Mr. Jenkins, so that he could receive all needed
programming, and be gradually moved out of his
solitary confinement in a segregation cell, and
returned to the institution’s general population
before he was finally discharged and reintegrated
into the larger community.
During our work on Mr. Jenkins’ complaints,
Ombudsman’s Office had an opportunity to examine
his situation in some detail, and to collect a large
number of documents relating to his situation. Based
upon this information, the goal of this report is to
offer a narrative of our long involvement with Mr.
Jenkins.
Needless to say, our prisons are occupied by
many desperate, volatile, and sometimes very
dangerous people, many of whom have significant
mental health issues, and some of whom suffer from
a serious mental illnesses. Mental health
practitioners could, and did, differ over the question
of whether Nikko Jenkins was mentally ill in the
strict, clinical sense, but it seems to have been clear
115a

to nearly all mental health specialists who came into
contact with Mr. Jenkins that he, at the very least,
had some serious behavioral issues, with the
potential for dangerous behavior. Throughout his
career as an inmate in our correctional system Mr.
Jenkins exhibited violent behaviors that repeatedly
got him into trouble, and that resulted in his being
placed in a segregation cell for a high percentage of
his time in the system. During these periods of
segregation Mr. Jenkins was locked up alone in a cell
for 23 hours per day, and was, by definition,
separated from most normal human contact with
others for many months at a time. He was also
isolated from all but the most rudimentary
programming that might otherwise have been made
available to him. Programming (for example the
Department’s violence reduction program) is
generally available to inmates in the Nebraska
correctional system, but those inmates in segregation
are not allowed to have access to this programming,
even though they often are some of the most troubled
and dangerous inmates in the entire system. All of
this might have mattered only to Mr. Jenkins and his
family, if Mr. Jenkins had been destined to serve a
long sentence in the Nebraska correctional system,
but the cold, hard reality was that Mr. Jenkins was
an inmate - an often antisocial, deeply troubled, and
potentially psychotic inmate - who was likely to be
released from State custody in mid-2013.
One of the most important issues involved in
the analysis of Mr. Jenkins’ case boils down to the
basic question of whether he truly suffers from a
mental illness, or whether his issues are merely
behavioral in nature. Obviously, all of this matters
very little to Mr. Jenkins’ victims, and to their
116a

families, but the whole question of Mr. Jenkins’
mental health, and whether he, in fact, has a
“serious mental illness,” is extremely important in
analyzing how he was treated and managed in the
criminal justice system. Of course, whether Nikko
Jenkins in fact has a serious mental illness is a
question that the Ombudsman’s Office does not have
the expertise or capacity to answer. As the reader of
this report will see, however, there were a number of
well qualified experts who have offered an opinion on
this question (although those experts tended to
arrive at sharply differing opinions on the subject).
Our purpose in writing this report is not to weigh in
on any side in the argument over whether Mr.
Jenkins is mentally ill. Instead, insofar as that
subject is concerned, we will simply provide an
account of the basic facts that we have access to, and
do so in the most straightforward and matter-of-fact
way possible, to allow the reader decide for
himself/herself what those facts disclose.
Our intent in writing this report is not to
depict Nikko Jenkins as either the victim or the
victimizer, or to demonize or dignify the actions of
the Department of Correctional Services. Instead,
our purpose is to simply state the facts as we know
them to be, and let those facts speak for themselves.
We are in a position to do this because we have
extensive files of copies of Mr. Jenkins’ mental health
records that were provided to us while he was
incarcerated in the correctional system. We are also
able to do this because we have a release signed by
Mr. Jenkins that authorizes us to collect additional
medical/mental health records, if needed, and to
disclose the content of those records. (Please see
Attachment #1) We will begin with a summation of
117a

the history of Mr. Jenkins’ placements within the
Nebraska correctional system, and will end with a
narrative of various interventions that the
Ombudsman’s Office had made in response to Mr.
Jenkins’ many complaints. We would, of course,
recommend that those interested in this subject read
the entire length of the report. However, those
looking for a “shortcut” can get a good sense of the
realities of the case by reading the report’s final
section, which is entitled “Impressions and
Observations.”
History of Mr. Jenkins’ Placement in the
Correctional System
Nikko Jenkins was introduced into the
Nebraska correctional system on November 11, 2003,
when he was placed in the Nebraska Correctional
Youth Facility following his conviction on multiple
offenses which included two counts of Robbery, and
one count of Use of a Weapon to Commit a Felony.
Mr. Jenkins’ sentence at this point was for an
indeterminate term of fourteen to fifteen years. Later
on, he was also sentenced to two years for one count
of Assault in the Second Degree, which related to an
assault that he committed while at NCYF. Mr.
Jenkins’ sentences for all of these four offenses were
to be served consecutively, and, in the aggregate,
provided for imprisonment for an indeterminate term
consisting of a minimum of sixteen years and a
maximum of seventeen years. It should be noted that
when he received his first sentence (fourteen to
fifteen years) Mr. Jenkins was given credit for 268
days of jail time, for months that he was held in
custody prior to his sentencing. According to
Nebraska’s laws pertaining to good time and
sentencing, this meant that Mr. Jenkins would be
118a

required to serve a minimum of eight years before he
would be eligible for parole, and a minimum of eight
and one-half years before he would be subject to
discharge. However, in 2011 Mr. Jenkins was given
an additional consecutive sentence of two to four
years for Assault on a Correctional Employee, Third
Degree, which extended his basic sentence to a term
of from eighteen to twenty-one years. Of course, the
calculation of this term would have to be adjusted to
consider jail time credits, and also good time taken
away from Mr. Jenkins by the Department of
Correctional Services for acts of misconduct while
incarcerated.
Mr. Jenkins would have been seventeen years
old at the time of his commitment, which explains
why he was first placed at NCYF. After being an
inmate at NCYF for more than a year and one-half,
on July 4, 2005, Mr. Jenkins was involved in
aggressive actions in the yard of NCYF that the staff
later characterized as being a “riot,” or “near-riot”
situation. One staff to witness this event described
Mr. Jenkins as having hit another inmate in the
head with his fists “more than ten times.” The
reports on this incident indicate that when the NCYF
staff tried to intervene Mr. Jenkins ignored
directives, and evaded staff for up to ten minutes,
while he was engaging in physical attacks on other
NCYF inmates. In all, as many as nine NCYF
inmates were involved in this altercation. After this
incident, Mr. Jenkins was placed in the segregation
unit of NCYF, where he remained for 40 days. In
addition, Mr. Jenkins was also processed through the
DCS institutional disciplinary procedure, and lost 30
days of good time as a result of this event. Finally, a
felony charge for Assault in the Second Degree was
119a

filed against Mr. Jenkins in Douglas County in
connection with his having hit and kicked another
inmate in the head, and he was ultimately sentenced
to serve an additional consecutive term of two years
for that offense.
Mr. Jenkins was placed in segregation at
NCYF for an additional five days from December 15,
2005, through December 20, 2005, although he was
destined to soon be transferred from NCYF to a
different facility. This happened on February 20,
2006, when Mr. Jenkins was transferred from NCYF
to the Lincoln Correctional Center (he was
approximately nineteen and one-half years old at the
time). On April 9, 2006, while still at LCC, Mr.
Jenkins was placed in segregation, where he
remained until he had to be transferred to Douglas
County Jail for court proceedings. He remained in
Douglas County from April 24, 2006, until May 9,
2006, when he was returned to LCC, where he was
placed back in a segregation cell until May 11, 2006.
Mr. Jenkins was back in Douglas County again from
June 15, 2006, until August 31, 2006, when he was
again returned to LCC. Mr. Jenkins received a
misconduct report, and lost 30 days of good time for
“tattoo activities” on October 20, 2006, and records
indicate that on October 26, 2006 he was transferred
from LCC, which is a maximum custody facility, to
the Omaha Correctional Center, which is a minimum
custody facility.
On January 4, 2007, Mr. Jenkins was
allegedly involved in the assault of another inmate at
OCC, with the other inmate being injured to the
point that he required nine stitches to his upper lip.
Mr. Jenkins was then placed in segregation at OCC,
where he remained from January 4, 2007, through
120a

January 26, 2007. Mr. Jenkins was later charged
with an act of misconduct under the DCS disciplinary
system in connection with this alleged assault,
however, when Mr. Jenkins’ case was finally heard
by the OCC Disciplinary Committee Mr. Jenkins was
found not guilty of the assault, and the charge of
misconduct was dismissed by the Committee. As a
result, Mr. Jenkins did not lose any good time in
relation to the alleged assault at OCC. (Please see
Attachment #2)
On February 7, 2007, Mr. Jenkins was
transferred back to LCC. However, a mere ten days
later, on February 17, 2007, Mr. Jenkins was
involved, along with two other inmates, in the
assault of a Native American inmate. Because the
target of this attack was supposed to be a leader of
one of the gangs that were operating underground at
LCC, and because Mr. Jenkins was understood to be
a member of the Crips gang, it was assumed that the
assault was gang-related. Mr. Jenkins allegedly
struck the other inmate several times in the head,
and one of the other assailants supposedly used a
heavy padlock to bludgeon the Native American
inmate. In fact, there were numerous fights at LCC
on February 16 and 17, 2007, and it was assumed
that they all might be gang-related. Following the
assault on the Native American inmate on February
17, 2007, Mr. Jenkins was placed in the segregation
unit at LCC. He was charged with misconduct
through the institutional disciplinary process, and
lost 45 days of good time in connection with the
assault at LCC. Mr. Jenkins was later transferred to
the Tecumseh State Correctional Institution on June
8, 2007. After his arrival at TSCI, Mr. Jenkins was
immediately placed in TSCI’s segregation unit as a
121a

classification action (Administrative Confinement),
with the expectation that he would remain there
indefinitely.
After more than a year in segregation at TSCI,
Mr. Jenkins had progressed to the point that by
August of 2008 he was included on the waiting list
for placement in the Transition Program at the
Nebraska State Penitentiary. The NSP Transition
Program was the idea of former Director of
Corrections Robert Houston, and was specifically
designed to facilitate the gradual transition of
inmates in Administrative Confinement (i.e., those in
segregation) back into the institution’s general
population. However, it was during this period that
Mr. Jenkins was heard articulating certain
“homicidal ideations” and “threats to hurt others
once he is released from incarceration,” and so his
name was ultimately removed from the waiting list
for the Transition Program based on the
recommendations of unit staff and TSCI’s mental
health staff.
Mr. Jenkins remained in segregation at TSCI
from June 8, 2007, until December 4, 2008, when he
was moved into a different unit at TSCI. On January
26, 2009, Mr. Jenkins approached staff in the TSCI
yard and was taken inside for a search, which
disclosed a homemade weapon (a toilet brush
sharpened to a point) concealed in his waistband. At
that point, Mr. Jenkins was returned to segregation
and went through the TSCI disciplinary process
resulting in the loss of 90 days of good time. Mr.
Jenkins was disciplined two other times in 2009, on
March 16 for Use of Threatening Language, and on
May 8 for and on again for Use of Threatening
Language. On each of these occasions, Mr. Jenkins
122a

went through the institutional disciplinary process
and lost 45 days of good time.
Mr. Jenkins remained in the segregation unit
at TSCI until December 17, 2009, when he was given
a temporary Travel Order that allowed him to be
taken to Omaha under escort to attend the funeral of
a relative. While he was at the church to attend this
funeral, Mr. Jenkins attempted to escape from the
DCS staff, struck the escort in the face, and
attempted to bite the staff person, as he was being
secured in restraints. After Mr. Jenkins was secured,
he was immediately transported back to TSCI, and
was returned to segregation. Mr. Jenkins again went
through the institutional disciplinary process, and
lost 90 days of good time in connection with the
incident in Omaha. Mr. Jenkins would also remain in
segregation at TSCI until February 13, 2010, when
he was transferred to the Douglas County Jail in
connection with the adjudication of the criminal
charges filed as a result of his aborted escape
attempt.
Mr. Jenkins remained at the Douglas County
Jail for approximately seventeen months, from
February 13, 2010, to July 19, 2011. Although the
Jail has its own version of segregation, it is our
understanding that Mr. Jenkins remained in the
Jail’s general population through most of his stay
there. Mr. Jenkins was ultimately convicted on the
charge of Assault of a Correctional Employee in the
Third Degree, and had an additional consecutive
sentence of from two to four years added to his
sentence. On July 19, 2011, he was returned to TSCI
where he was immediately placed in segregation.
While he was back at TSCI Mr. Jenkins lost more
good time, including 90 days in October of 2011 for
123a

the Refusal to Submit to a Search, 45 days in
January of 2012 for the Use of Threatening
Language, and another 45 days in May of 2012. Mr.
Jenkins would remain in segregation at TSCI for
approximately twenty months until he was
transferred from TSCI to the Nebraska State
Penitentiary on March 15, 2013. The transfer to the
Penitentiary would supposedly allow Mr. Jenkins to
participate in the Transition Program at NSP. In
reality, Mr. Jenkins never received the transition
programming, and was kept in segregation status in
Unit 4D while at NSP, until he was finally
discharged from custody on July 30, 2013.
Altogether, Mr. Jenkins served a sentence that
lasted from October 17, 2003, through July 30, 2013,
a total of roughly 1161⁄2 months. However, because a
significant portion of his sentence was served while
in the Douglas County Jail, Mr. Jenkins was actually
in the custody of the Department of Correctional
Services for a total of about 97 months. Of that 97
months, approximately 58 months were spent in a
segregation cell. In other words, Mr. Jenkins was
being held in a segregation cell for nearly 60% of his
time in the Department’s custody. For the most part,
that time served in segregation was the result of
violent actions by Mr. Jenkins, including his
involvement in a near-riot at NCYF on July 4, 2005,
his alleged assault on another inmate on January 4,
2007, while at OCC, his involvement in an attack on
an inmate at LCC on February 17, 2007, and his
assault on a correctional employee on December 17,
2009, when he was in Omaha on a travel order.
While he was serving his sentences in the
correctional system, Mr. Jenkins lost a total of 555
days of good time in connection with his acts of
124a

misconduct as͒an inmate. However, a block of 30
days of good time was restored to Mr. Jenkins in
November of 2007, while he was at TSCI.
History of Mr. Jenkins’ Psychological and
Behavioral Treatment in the Nebraska
Correctional System Prior to February
13, 2010
Throughout his stay as an inmate in the
Nebraska correctional system Mr. Jenkins exhibited
a proclivity toward violent/assaultive behavior, most
of it directed at other inmates. However, Mr. Jenkins
assault of a correctional employee on December 17,
2009, was definitely a watershed event in his history
with corrections. Mr. Jenkins also exhibited a
tendency at times to injure himself, including on
August 17, 2009, when a DCS Sergeant reported that
Mr. Jenkins threatened to choke himself, saying “I
have a evil half and I’m going to kill it.” This incident
resulted in Mr. Jenkins being placed in an
observation cell. On April 8, 2012, Mr. Jenkins had to
be placed in therapeutic restraints after he made
threats to harm himself, and then on May 10, 2012,
Mr. Jenkins was observed as having two large cuts
on his face and forehead, which staff suspected had
been self-inflicted by banging his head against a
metal shelf in his cell. Photographs of Mr. Jenkins
show a man with heavy tattooing on his neck and on
the left side of his face, with additional facial
scarring that appears to be the result of self-inflicted
wounds.
Mr. Jenkins also had a significant history of
verbalizing threats of violence against others while
he was incarcerated in the correctional system. On
August 25, 2008, Mr. Jason Hurt, a Unit Manager at
125a

TSCI, reported on two conversations that he had
with Mr. Jenkins. According to Mr. Hurt, he spoke
with Mr. Jenkins on July 22, 2008, at which time Mr.
Jenkins said “he’s just going to randomly go to
suburban houses and start killing people outside of
North Omaha, maybe go to Tecumseh or Syracuse
with his gang members and start killing people.” Mr.
Hurt also reported that he had spoken with Mr.
Jenkins on July 31, 2008, at which time Mr. Jenkins
“expressed the same desire to kill the administration
and other people when he gets out of prison.” In
addition, Mr. Hurt indicated in his Incident Report
that he had reported both of these two conversations
to the TSCI Mental Health staff, and that one of
those Mental Health professionals,Connie Boerner,
had stated that “she has had similar conversations
with Jenkins and...that he is a very dangerous
individual.” In fact, Ms. Boerner has recorded her
observations of Mr. Jenkins in a memorandum sent
to Mr. Hurt, and dated August 11, 2008. That
memorandum included the following language:
Inmate Jenkins has expressed having
ongoing homicidal ideations and has
made threats to hurt others once he is
released from incarceration. He went
into detail as to how he would kill
others, similar to the recent Von Maur
shootings. Inmate Jenkins appears
sadistical and potentially harmful, due
to homicidal ideations and ongoing
verbal intentions to hurt others upon
release.
Ms. Boerner indicated that she was providing this
information to Mr. Hurt “to assist in determining
Inmate Jenkins’s suitability for the Transition
126a

Program.”
Mr. Jenkins’ odd behavior continued in 2009,
although for a time it appeared that he might be
making progress. In fact, Mr. Jenkins was released
from segregation from December 4, 2008, until
January 26, 2009, a situation which probably put
him less “under the microscope” in the sense of being
audited by staff at TSCI. However, on January 15,
2009, Heidi Widner, a Mental Health Practitioner at
TSCI, had a conversation with Mr. Jenkins in which
Mr. Jenkins complained to her about what he
characterized as “institutional wrongdoing.” The
TSCI Mental Health Contact Notes from that
meeting relate that:
(Mr.
Jenkins)
denied
difficulty
adjusting to (general population), but
said the two years he did in segregation
had ruined him for life and made him
very mentally ill due to the abuse he
suffered at the hands of staff. (Mr.
Jenkins) said that he was unjustly held
in segregation as he had gone two years
MR free. (Mr. Jenkins) said that this is
a breeding ground for the criminally
insane and that staff intentionally
berate and abuse inmates because staff
want inmates to go kill their own kind
when they get out...(Mr. Jenkins) spoke
about the life of crime that awaits him
once he is out...that his crimes and
killing will not be limited to just his own
kind...and that it was the worst thing
possible for him to have been thrown in
the hole for two years. (Mr. Jenkins)
also talked about how dismissed he felt
127a

and that he had been in the system for a
long time and that no one has provided
him with the skills or tools to make his
life different.
The Mental Health Contact Notes for January 15,
2009, further indicate that Mr. Jenkins “talked about
being sexually abused when he was younger, and
being exposed to violence at a very young age,” and
that he said that “it was helpful to come and vent
and get everything off of his chest.”
After he had been returned to segregation in
late January of 2009, Mr. Jenkins was again in
contact with TSCI Mental Health staff, in this case
with Ms. Boerner. On February 23, 2009, Mr.
Jenkins spoke with Ms. Boerner and expressed his
frustration with “the isolation in seg that he feels is
making him ‘homicidal.’” Mr. Jenkins indicated that
he “fantasizes of ‘killing’ others once he is released.”
Mr. Jenkins also stated that “he sees himself
‘destined’ to be a ‘homicidal maniac.’” In the Mental
Health Contact Notes relating to the interview, Ms.
Boerner said:
No specific person identified by inmate,
but MHP is concerned about inmate’s
intention to act upon HI (presumably
“homicidal ideations”), once released.
Inmate denies any intention to harm
anyone while incarcerated. MHP will
consult with Dr. White/Weilage for
further guidance. (Note: Dr. Cameron
White is the Department’s Behavioral
Health Administrator, and Dr. Mark
Weilage is the Assistant Administrator
for Mental Health.)

128a

Following this interview, Ms. Boerner decided that it
would be advisable to “refer (Mr. Jenkins) to Dr.
Weilage for further evaluation and assessment,” and
also to prepare an Incident Report on the interview
“to warn staff to be careful given (Mr. Jenkins’)
comments.”
Following the referral discussed in the
February 23 Contact Notes, Dr. Mark Weilage, the
Department’s Assistant Administrator for Mental
Health, interviewed Mr. Jenkins in the TSCI
Segregation Unit on March 27, 2009. Dr. Weilage’s
Notes from that interview include the following:
He discussed his belief that he is
schizophrenic and multiple personalities. His personalities are a serial
killer, an (?) gangster, and Nikko...He is
interested in “rehab” and the MHU
(Mental Health Unit) at LCC.
With respect to the idea of sending Mr. Jenkins to
the DCS Inpatient Mental Health Unit at LCC for
treatment, Dr. Weilage noted that it was “not clear if
he would be appropriate.” Dr. Weilage said that he
would “follow up in 2 weeks.” As a matter of fact, Mr.
Jenkins was never transferred to the Inpatient
Mental Health Unit at LCC at any point before his
eventual discharge on July 30, 2013.
On May 13, 2009, TSCI Unit Manager Shawn
Sherman submitted a Mental Health Referral
reporting that Mr. Jenkins “claims to be hearing the
voice of an Egyptian god...telling him to massacre
children.” Two days later, another Mental Health
Practitioner, Stacy Simonson, met with Mr. Jenkins
in response to this referral. After speaking with Mr.
Jenkins, Ms. Simonson reported that Mr. Jenkins
129a

“does not appear to be psychotic,” and suggested that
his statements were “attention seeking” in nature. In
the Mental Health Contact Notes, Ms. Simonson also
observed that Mr. Jenkins was “highly narcissistic,
anti-social,” and that he had a “personality disorder.”
She also mentioned that Mr. Jenkins “refuses
consideration of any intervention.” On July 17, 2009,
another mental health professional reported a
discussion with Mr. Jenkins at his cell door. The
Mental Health Contact Notes relating to that event
mentions that it was “the opinion of long-term
custody staff that (Mr. Jenkins) is basically afraid of
everyone and is a ‘coward.’” However, the Mental
Health Contact Notes also include the remark that
Mr. Jenkins “appears to be at considerable risk for
reoffending and for interpersonal violence.”
As previously noted, on August 17, 2009, Mr.
Jenkins threatened to choke himself, and was placed
in an observation cell with a directive for unit staff to
conduct checks of his status every 15 minutes. On
August 27, 2009, the psychiatrist at TSCI, Dr.
Norma Baker, visited with Mr. Jenkins and found
that he reported that he was “feeling better.” Dr.
Baker summarized her observations of Mr. Jenkins
by using terms like “cooperative with good eye
contact,” “less agitated, remains intense,” “speech
spontaneous,” and “talkative with rapid speech.” Dr.
Baker also related that Mr. Jenkins’ was “extremely
narcissistic” although his “thoughts appear fairly
well managed.” It is notable that, in fact, this was a
period during which Mr. Jenkins was actually
receiving medication for his mental health/behavioral
health issues, in particular Risperidone and
Depakote. Although Risperidone is characterized as
being an “antipsychotic drug,” it is our
130a

understanding that Risperidone and Depakote will
typically be prescribed not only for patients with a
“serious mental illnesses” like schizophrenia, but also
for patients who have other kinds of mental health
issues, including major depressive disorders, bipolar
disorders, PTSD, self-injury, and panic disorders,
among others. In other words, the simple fact that
Mr. Jenkins had been receiving these two drugs
would not necessarily be inconsistent with the
diagnosis that Mr. Jenkins’ problems were not, in
fact, a case of schizophrenia or of a schizoaffective
disorder. On the other hand, this also demonstrates
that a patient, like Mr. Jenkins, would not need to
suffer from schizophrenia in order to be prescribed,
and benefit from, these medications. Dr. Baker
related that during the August 17 meeting with Mr.
Jenkins she discussed with him “coping skills, anger
issues,” and also “the importance of med compliance.”
Finally, in her notes from that meeting, Dr. Baker
discussed her plans to continue, and to adjust, the
Risperidone and Depakote being prescribed for Mr.
Jenkins.
Dr. Baker next saw Mr. Jenkins on October 8,
2009. In her notes from that meeting, Dr. Baker
reported that Mr. Jenkins was “compliant and
tolerating medications.” Dr. Baker reported that he
denied that he was having any “difficulty with
energy or concentration.” Dr. Baker also observed
that Mr. Jenkins’ “thoughts appear fairly well
organized,” and were “less paranoid overall.” In
addition, she observed that Mr. Jenkins was “a little
calmer...remains somewhat intense and narcissistic,”
with “less paranoia overall,” and less difficulty with
“anger/aggressive behaviors.” Once again Dr. Baker
discussed her plans to continue the medication
131a

regimen, and to eventually make adjustments to the
Risperidone and Depakote dosages that were being
prescribed for Mr. Jenkins.
These relatively positive reports on Mr.
Jenkins started to change when Dr. Baker next saw
him on December 3, 2009. Dr. Baker’s notes reflect
that Mr. Jenkins told her that he had discontinued
taking his medications three days earlier “as he
doesn’t feel they help him and he does not want to
take them.” She reported that Mr. Jenkins had
denied “feeling depressed or anxious,” or any “feeling
of anger/rage towards society in general.” However,
Mr. Jenkins again mentioned hearing the voice of an
“Egyptian god” who wanted him “to harm others,”
and although Dr. Baker’s notes used terms like “less
paranoid overall,” and “fairly stable,” she also noted
that
Mr.
Jenkins
appeared
“more
hypomanic/agitated.” Dr. Baker’s notes further
indicate that Mr. Jenkins said that he was willing to
continue to work with Mental Health staff, and that
he “feels ‘counseling’ is most beneficial for him.”
Because Mr. Jenkins stopped taking the medications,
Dr. Baker said that she intended to discontinue the
Risperidone and Depakote scripts due to his
“refusal.” Dr. Baker’s notes for December 3 concluded
with the statement that Mr. Jenkins “appears to be
meeting his basic needs at this time,” and that he “is
not an imminent danger to himself or others at this
time.” Dr. Baker said she intended to see Mr.
Jenkins again in two months, or “sooner if needed,”
but circumstances with Mr. Jenkins’ case were
dramatically altered just two weeks later, on
December 17, 2009, when Mr. Jenkins had his travel
order to Omaha, and attempted an escape which
resulted in the assault of a correctional staff person.
132a

Immediately after his escape attempt and
assault of the corrections employee on December 17,
2009, Mr. Jenkins was returned to TSCI, and placed
in segregation. The next day, December 18, 2009, Mr.
Jenkins spoke with Katherine Stranberg, another
Mental Health Practitioner working at TSCI. The
notes from that meeting indicate that Mr. Jenkins
“seemed upset and regretful over the events” of the
previous day, but that he “did not take responsibility
for his actions, choosing instead to blame the evil
Opophus who dwells in him.” According to the notes,
Stranberg suggested that Mr. Jenkins “should
consider taking medications to weaken the voice of
Opophus,” and the notes reflect that Mr. Jenkins
“seemed willing to consider the possibility, and
stated he would send a medical request to Dr.
Baker.” The notes from the December 18 meeting
also reflect that Mr. Jenkins “reported that he
wanted to go to the Inpatient Mental Health Unit (at
LCC) because there he would be able to get the
ongoing treatment he needed.” In fact, this
request/statement by Mr. Jenkins was but one of
many such requests that he would make in which he
was asking, in essence, to be hospitalized for his
mental health issues. As a matter of fact, however,
Mr. Jenkins would never be hospitalized for
treatment of mental health issues.
On December 28, 2009, Mr. Jenkins sent a
Health Services Request Form to Dr. Baker reporting
that the “voice” in his mind was telling him to “hurt
guards,” and to “start war between good and evil,”
and that he would “take the pills,” because he did not
want to “feel this way.” Dr. Baker responded the next
day, December 29, 2009, by re-initiating the
prescriptions for Risperidone and Depakote, which
133a

the doctor said “should help stabilize (Mr. Jenkins’)
symptoms.” Dr. Baker’s next notation that concerned
Mr. Jenkins is dated December 31, 2009, just two
days after she had represcribed the Risperidone and
Depakote. In that December 31 note, Dr. Baker
reported that after a discussion of Mr. Jenkins’
“mental status” with the TSCI Mental Health staff,
she concluded that Mr. Jenkins’ symptoms “are
inconsistent and more behavioral/Axis II (i.e.,
personality disorder) in nature.” (emphasis added)
In addition, Dr. Baker’s notes also suggest that Mr.
Jenkins was actually attempting to use his mental
health symptoms “for secondary gain, including to
avoid legal consequences in court for (his) recent
behaviors.”
As a matter of fact, while this December 31,
2009, diagnosis by Dr. Baker might seem
inconsequential to the layperson, the reference to Mr,
Jenkins having “Axis II” disorders is significant in
terms of the kind of treatments that TSCI staff might
be offer to Mr. Jenkins in terms of helping him to
manage his thoughts and his actions. Also, an Axis II
diagnosis for Mr. Jenkins is not something that was
clearly reflected in earlier mental health notes that
we have seen relating to Mr. Jenkins’ problems, and
how those problems might be correctly categorized. It
should also be noted that the TSCI Mental Health
records further indicate that on the same day that
this Axis II diagnosis was made, the prescription for
Mr. Jenkins to receive Risperidone was ordered to be
discontinued, even though that medication had just
been represcribed by Dr. Baker a mere two days
earlier.

134a

Mr. Jenkins’ behavior in early 2010 is notable.
On January 9, 2010, Mr. Jenkins sent a Health
Services Request Form to Dr. Baker asking to know
“the reason I was taken off Risperidal,” saying that “I
need that medication it helped my symptoms of the
voice of Opophis and remaining stable in reality.” On
January 10, 2010, TSCI Caseworker Howell reported
in a Mental Health Referral that Mr. Jenkins had
“exhibited increasingly aggressive behavior in the
past week...claiming to hear voices telling him to
injure staff.” On January 11, 2010, Mr. Jenkins’
prescription for Depakote was discontinued, with the
notation of “due to refusing.” The answer to the
Caseworker’s referral from the TSCI Mental Health
staff was, “Thank you for the information, Mental
Health will follow up.”
History of Mr. Jenkins’ Psychological and
Behavioral Treatment in the Douglas
County Jail from February 13, 2010
Through July 19, 2011
On February 13, 2010, Mr Jenkins was
transferred from TSCI to the Douglas County Jail in
connection with the adjudication of the new criminal
charges against him relating to the incident on
December 17, 2009, when he assaulted a correctional
employee while he was in Omaha on a travel order.
Mr. Jenkins was to remain in the Douglas County
Jail until July 19, 2011, which was about one week
after he had been sentenced for that offense by
District Judge Gary B. Randall. Throughout his time
at the Douglas County Jail, Mr. Jenkins was in
frequent contact with the Mental Health staff at the
Jail. To understand the treatment that our criminal
justice system provided for Mr. Jenkins in connection
with his mental health/behavioral health issues, it is
135a

important to provide an account of how his case was
handled by the mental health professionals at the
Douglas County Jail.
On the same day of his arrival at the Douglas
County Jail, Mr. Jenkins was seen by the Jail’s
medical staff. Mr. Jenkins told the medical staff that
he
had
a
“diagnosis
(of)
Bipolar
and
Schizophrenia...and was on Risperdal and Depakote.”
He also told the medical staff that he was “hearing
voices all the time.” As a result, he was immediately
referred to the Jail’s mental health staff via a Staff
Referral Form including the notation “inmate states
Tecumseh prison was holding medication, no meds
since December 2009.” It should be emphasized that
Correct Care Solutions, which is a private medical
care provider, had been retained to provide medical
and mental health services at both the Douglas
County Jail, and at the Tecumseh State Correctional
Institution.
Throughout his stay at the Douglas County
Jail, Nikko Jenkins’ condition was closely monitored
by a Licensed Mental Health Practitioner, Denise
Gaines. It appears that Ms. Gaines first saw Mr.
Jenkins on February 16, 2010, three days after he
had arrived at the Jail. At that time, Mr. Jenkins
informed Ms. Gaines that “he was on meds at
Tecumseh until December ‘09,” which Ms. Gaines
recorded, along with the notation that Mr. Jenkins
had said that he “began refusing his meds.” Ms.
Gaines met with Mr. Jenkins again on February 19,
2010, and the Mental Health Progress Notes from
that meeting reflect that:
Patient provided an extensive history of
abuse (physical/sexual) and history of

136a

drug, alcohol abuse as well. Patient
indicated he has been institutionalized
starting at age 11.
Ms. Gaines’ notes from February 19 further indicate
that Mr. Jenkins “spoke openly about (his) anger
issues...(and) spoke about having other personalities
that he fights to control.” Ms. Gaines also noted that
Mr. Jenkins said that he “was on Depakote and
Risperdal at Tecumseh and would like to resume
taking these meds.” In offering her own observations
of Mr. Jenkins, Ms. Gaines said that:
inmate is or appears to (be)
intense...Patient reported hearing voices
in his head. Patient may benefit from
medications as it appears he may have
problems with intermittent explosiveness...Patient was calm, cooperative,
grandiose at times, no suicidal
/homicidal ideations, delusional (?).
Ms. Gains’ notes conclude with the statement that a
follow up visit would be scheduled, and that she
would “refer to psych for evaluation.”
Mr. Jenkins’ situation was first addressed by
the psychiatrist at Douglas County Jail, Dr. Eugene
Oliveto, on February 22, 2010. On that day, Dr.
Oliveto wrote orders reflecting a need to “reorder
medications prescribed at Tecumseh.” Dr. Oliveto’s
orders also note the need to obtain the “records from
Tecumseh prison to order medications - need doses of
Risperdone and Depakote.” Ms. Gaines next saw Mr.
Jenkins five days later on February 27, 2010, and
visited with him in greater depth about his condition.
Ms. Gaines’ notes on that meeting include the
following entry:
137a

Patient also talked about the horrific
acts that the Egyptian god Opophus
(sp.) wants him to inflict on Catholics,
whites, and children...Patient stated he
knows these things are wrong, but the
god-Opophus tells him to do these
things.
Significantly, the notes of the February 27
meeting included the notation “mental health will
continue to meet with inmate weekly or more if
needed.”
Ms. Gaines next saw Mr. Jenkins on March 1,
2010, when she spoke to him briefly “in Mod 20,” at
which time Mr. Jenkins “went on a rant about
getting his meds before he becomes more violent.”
The Physician’s Orders relating to the time that Mr.
Jenkins was at the Douglas County Jail indicate that
he was seen by the psychiatrist, Dr. Oliveto, on
March 3, 2010, and that Mr. Jenkins was eventually
given a prescription for Risperdal - 1 mg., and
Depakote - 500 mg. Also, on March 4, 2010, Dr.
Oliveto added a notation to the Physician’s Orders to
the effect that Mr. Jenkins “needs a forensic
psychiatric evaluation at Lincoln Regional Center.” It
would appear that medications were actually
commenced on or about March 10, 2010. However, in
a note that is dated March 15, 2010, Dr. Oliveto
indicated that he was going to discontinue the
Risperdone and Depakote due to the fact that the
“patient refused after asking for them.”
The next notation of a visit by Ms. Gaines with
Mr. Jenkins is dated April 8, 2010. The notes of that
meeting reflect that Mr. Jenkins talked about
personal issues, and about how “different

138a

relationships affect him.” Ms. Gaines reported that
she advised Mr. Jenkins that “Mental Health and
patient need to create a treatment plan.” Ms. Gaines
said that she observed that Mr. Jenkins was
“cooperative,
(with)
good
eye
contact,
no
suicidal/homicidal ideations, pleasant.” However, Dr.
Oliveto again remarked in the Physician’s Orders,
dated April 23, 2010, that Mr. Jenkins “needs
forensic psychiatric evaluation at Lincoln Regional
Center.” There is also a document from April 23,
2010, that appears to reflect Dr. Oliveto’s own
diagnosis of Mr. Jenkins’ condition, which reads as
follows:
Axis I – Schitzoaffective disorder vs.
bipolar I (emphasis added)
Axis II– Anti-social/Impulsive/Obsessive
(Please compare this diagnosis to Dr. Baker’s note of
dated December 31, 2009, indicating that Mr.
Jenkins’ symptoms were “inconsistent and more
behavioral/Axis II in nature.”) The April 23, 2010,
document signed by Dr. Oliveto also includes, once
again, the notation that Mr. Jenkins “needs to be
evaluated at LRC.”
Part of the adjudication of the pending
criminal charges against Mr. Jenkins involved an
evaluation to determine whether he was mentally
competent to stand trial on those charges. This
evaluation was to be done by psychiatrist Dr. Y. Scott
Moore. Dr. Moore had familiarized himself with the
police report on the allegations against Mr. Jenkins,
and also met with and interviewed Mr. Jenkins at
the Douglas County Jail on July 20, 2010, at which
time Mr. Jenkins described his psychiatric
symptoms,
including
hearing
“voices.”
In
139a

summarizing his impressions of Mr. Jenkins’
condition in a July 20, 2010, letter to Judge Randall,
Dr. Moore said:
I think that the possibility of a
psychotic illness is present, but I do
not think that it is a very good
possibility. The descriptions that
Mr. Jenkins gives me of his
psychotic symptoms appear to me to
be thought out and probably
acquired from someone else. They
don’t really follow the usual path of
auditory
hallucinations.
It
also
appeared to me that when I did not
instantly accept his description of the
symptoms, he began to add to them and
sort of “played it by ear” adding more
and more symptoms to the mix that he
had. I believe his major diagnosis is
Antisocial Personality Disorder,
and I doubt the presence of
psychosis. (emphasis added)͒
Dr. Moore concluded that Mr. Jenkins was
competent to stand trial, and that Mr. Jenkins did
not have a condition that would qualify him to raise
an insanity defense to the criminal charges pending
against him. Dr. Moore’s fundamental conclusion
with regard to Mr. Jenkins’ condition was that while
“there is the possibility that Mr. Jenkins does indeed
have a psychotic illness, I don’t think this is a very
good possibility.”
Records reflect that Ms. Gaines again saw Mr.
Jenkins on August 7, 2010. Ms. Gaines’ notes on that
meeting include the following entry:
140a

Patient stated that he continued to feel
as though he is losing grip and
“Opophus” is taking over...Patient
stated that he is trying to get help but
the system is not listening. He said that
Opophus is telling him that the day is
coming soon that “they will see.” “When
Opophus takes over that’s it.” Patient
spoke of how he is fighting the voice in
his mind (Opophus) to destroy Catholics
and
Christians...continued
with
homicidal rant about Opophus taking
him over and him killing others once
released from prison if he doesn’t get
some help.
Ms. Gaines followed up with a meeting with
Mr. Jenkins on August 12, 2010. At that meeting Ms.
Gaines observed that Mr. Jenkins was “cooperative,
good eye contact, calm, still appears delusional (i.e.,
Opophus).” In her notes Ms. Gaines said that Mr.
Jenkins “continued to state that he wants help
fighting his ‘mental illness’ because he wants to be
there for his family,” and that Mr. Jenkins had also
acknowledged that it was “helpful to speak with the
Mental Health Professional weekly.”
Ms. Gaines had a routine follow-up session
with Mr. Jenkins on September 14, 2010. On that
occasion, Mr. Jenkins “stated that he feels more and
more that ‘the evil is overwhelming the good in him.’”
Ms. Gaines reported that at this meeting Mr. Jenkins
also continued to “express his desire to get the proper
mental health care before leaving NDOC.” Ms.
Gaines added the personal observation that she was
“concerned that this client is going to act on the
delusion of Opophus once released from prison.” One
141a

week later, on September 21, 2010, Ms. Gaines again
met with Mr. Jenkins because he had requested “to
be on his meds again.” Ms. Gaines’ notes from this
session indicate that Mr. Jenkins “stated he is losing
his grip and doesn’t know how much longer he can
maintain,” and that “Opophus is taking over and
nobody believes him or wants to give him the proper
treatment needed.” She also noted that Mr. Jenkins
was “mad at ‘the system’ including this MHP because
he feels as though he is not getting the proper
psychiatric mental health care.” Ms. Gaines referred
Mr. Jenkins to the psychiatrist, presumably because
of his interest in reinstating the medications.
Dr. Oliveto saw Mr. Jenkins on the following
day, September 22, 2010. Dr. Oliveto’s Follow-up
Notes include these remarks:
Still psychotically obsessed with plot to
kill him or set him up to kill others here
like in Tecumseh. He is psychotic,
delusional, but has refused meds. Was
evaluated by LRC psychiatrist, but no
transfer done. Appears intense with
dramatic behavior that can evoke fear
in others...Has refused medications but
wants them now if I can guarantee no
one will tamper with them.
On this occasion, Dr. Oliveto’s diagnosis of Mr.
Jenkins’ condition was summarized as follows:
Axis I – Schitzoaffective disorder vs.
paranoid schizophrenia (emphasis
added)
Axis II – Anti-Social/Obsessive/Impulsively
dangerous to others/Explosive

142a

Dr. Oliveto’s September 22, 2010, Follow-up
Notes on Mr. Jenkins conclude with the statement
“needs transfer to LRC.” In conjunction with his
observations, as reflected in his Follow-up Notes, Dr.
Oliveto wrote an order that included a prescription
for Risperdone - 2 mg., and Depakote - 500 mg. (It
should be noted that the prescription for the
Risperdone was double the dosage that had been
prescribed by Dr. Oliveto on March 3, 2010.) Dr.
Oliveto’s Order also included the following
statement: “Needs transfer to LRC before his
discharge to stabilize him so he is not
dangerous to others.” (emphasis added)
Ms. Gaines had a regular follow-up session
with Mr. Jenkins on October 8, 2010. Ms. Gaines’
Progress Notes from that session state:
Client discussed that he is trying to get
help for his mental disorder. Client
states “he doesn’t want to kill
Christians and Catholics.” Client
expressed sadness about being mentally
ill, but was adamant that he needs
help...Client continued to complain that
the system does not believe that he will
follow through on killing people when
he gets out of prison.
Ms. Gaines concluded her October 8, 2010,
Progress Notes with the following observation - “This
writer sincerely believes that this client wants help,
but is giving up on anyone (the system) providing
him with help.”
Ms. Gaines’ had another follow-up session
with Mr. Jenkins on November 13, 2010. The records
of that session reflect that Mr. Jenkins returned to
143a

the recurring theme of his odd delusions. In her
notes, Ms. Gaines said that Mr. Jenkins “continues to
talk about the destruction that Opophus wants him
to inflict on Caucasians, Christians, and Jews.” She
said that he had denied “wanting to follow on this,
but continued to ask for ‘the proper help.’”
All that had gone on up to this point in terms
of the sessions that Ms. Gaines and Dr. Oliveto had
with Mr. Jenkins led up to the production of a
document which summarized their professional
opinions, and their profound concerns, in regard to
Mr. Jenkins, his condition, and the implications for
society. The document in question is a December 1,
2010, letter addressed to the Nebraska Board of
Parole, a letter signed by Ms. Gaines. (It is our
understanding that the Department of Correctional
Services received a copy of this letter and/or that
DCS staff had access to it in Mr. Jenkins’ mental
health records.) In this letter Ms. Gaines said the
following:
I have worked with Mr. Jenkins since
he arrived at our facility in February,
2010. He has been evaluated by Dr.
Eugene Oliveto, the attending
psychiatrist at Douglas County
Corrections. He was diagnosed by
Dr. Oliveto with Schitzoaffective
disorder vs. paranoid schizophrenia
and in his last evaluation, it was
recommended by the psychiatrist
that he be transferred to Lincoln
Regional Center for treatment
before being discharged (from the
correctional
system)
for
“stabilization so he is not dangerous
144a

to others.”
During the time that I have worked
with Mr. Jenkins, he has been
compliant and has not acted out
behaviorally since coming to Douglas
County Corrections. He has been on and
off psychotropic medications since being
detained here; however, he refused to
take them because of how he felt on the
medication.
Based on his history, current
psychiatric state (i.e., fixation with
Apophis - Egyptian god of war) and
recommendations by Dr. Oliveto, it
is requested that Mr. Jenkins
continue to receive mental health
treatment at a facility (if possible)
and if paroled, mental health
treatment to be a condition of
parole. He has expressed to this writer
that he desires to “get well” and would
like to get the treatment he needs in
order to work through issues such as
grief and getting rid of “Apophis.”
(emphasis added)
Obviously, it is possible for reasonable mental
health professionals to differ in their diagnosis of the
condition of the same patient, but in Mr. Jenkins’
case there was a rather surprising convergence of
different opinions, from Dr. Baker’s conclusion that
Mr. Jenkins’ symptoms were “inconsistent and more
behavioral/Axis II in nature,” to Dr. Moore’s opinion
that “there is the possibility that Mr. Jenkins does
indeed have a psychotic illness, (but) I don’t think

145a

this is a very good possibility,” to Dr. Oliveto’s
diagnosis of “Schitzoaffective disorder vs. paranoid
schizo-phrenia,” with a recommendation that Mr.
Jenkins would need to be transferred to the Lincoln
Regional Center “before his discharge to stabilize
him so he is not dangerous to others.” (Please see
Attachment #3)
Shortly after writing this letter, Ms. Gaines
again saw Mr. Jenkins for a routine follow-up on
December 11, 2010. Ms. Gaines Progress Notes from
that session include the following:
Met with client in the medical clinic. He
was very open and expressive during
this session. Client seems scared about
being released because of the violence
that he is (through Apophis) inflict on
people and police. Client expressed fear
about losing control and does not want
to.
Mr. Jenkins expressed a similar concern to
Ms. Gaines at a routine session on March 25, 2011.
In that instance, Ms. Gaines’ Progress Notes
recorded that Mr. Jenkins “continued to express
thoughts about doing murderous acts on society (i.e.,
killing/torturing nuns, children, etc.).” She also
recorded that Mr. Jenkins “continues to struggle
with thoughts and indicates that he doesn’t want to
do these things, but feels the destructive acts at his
hand are inevitable.”
On July 11, 2011, Mr. Jenkins was sentenced
by the District Court of Douglas County in
connection with the Assault on an Officer, Third
Degree, charge connected with the escape attempt
and assault at the funeral on December 17, 2009. Mr.
146a

Jenkins had entered a plea of No Contest to the
charge, and was sentenced to a term of from two to
four years, which sentence was to run consecutively
to his other sentences. The sentencing Order, signed
by sentencing Judge Gary B. Randall, is remarkable
for the inclusion of the following paragraph:
The Court notes for the benefit of the
Department of Corrections that at the
sentencing the Defendant requested
treatment for his mental health
issues. The record in this case would
support the Defendant’s request,
although competent to stand trial, and
not mentally incapacitated at the time
of committing this crime, the
Defendant has a long and serious
history of mental illness which
inhibits his ability to be rehabilitated.
The Court therefore recommends
to the Department of Correctional
Services
that
Defendant
be
assessed and treated for issues
regarding his mental health.
(emphasis added)
We should particularly note that when Judge
Randall included this language in his sentencing
Order he had presumably already seen Dr. Y. Scott
Moore’s assessment of Mr. Jenkins, and nevertheless
made his recommendation for Mr. Jenkins to receive
an assessment and treatment “for issues regarding
his mental health” based upon an acknowledgment
by the Judge that Mr. Jenkins had a “long and
serious history of mental illness.” (Please see
Attachment #4) Of course, while the Department of
Correctional Services Mental Health staff might have
147a

followed up on Judge Randall’s recommendation,
presumably their action or inaction in that regard
would have been partly influenced by the fact that
Dr. Baker had already determined, on December 31,
2009, that Mr. Jenkins’ symptoms were actually
“inconsistent and more behavioral/Axis II in nature.”
Management of Mr. Jenkins’ After His
Return to TSCI on July 19, 2011
On July 19, 2011, with the adjudication of his
criminal charges in Douglas County having finally
been completed, Mr. Jenkins was returned to the
Tecumseh State Correctional Institution. During the
time that he was held at the Douglas County Jail,
Mr. Jenkins had received more or less regular
counseling sessions with Ms. Gaines, a Licensed
Mental Health Practitioner, and had also received,
off and on, medications to address his perceived
mental health issues. It is our understanding that
Mr. Jenkins had been able to function with a relative
degree of success in the general population of
inmates during the roughly seventeen months that
he was at the Douglas County Jail. However, upon
his return to TSCI Mr. Jenkins was immediately
returned to a segregation cell, where he was to
remain for almost all of the remaining two years of
his incarceration in the Nebraska correctional
system.
Notwithstanding
the
unusual
recommendation from Judge Randall to the effect
that the Department of Corrections should see to it
that Mr. Jenkins was “treated for issues regarding
his mental health,” the involvement of DCS Mental
Health staff with Mr. Jenkins after his return from
the Douglas County Jail was, for the most part,
limited to evaluation and occasional visits at Mr.
Jenkins’ cell door. Mr. Jenkins did not receive any
148a

psychotropic drugs after his return to the custody of
DCS in July of 2011, although arguably that was due
to the fact that he had stopped taking those drugs
when they were prescribed for him in the past. On
some occasions, Mr. Jenkins described this refusal as
being motivated by a lack of trust for the DCS
Mental Health staff.
Although Mr. Jenkins received somewhat
limited mental health treatment while in the custody
of DCS after July 19, 2011, he made it very clear that
he was asking for more. In fact, Mr. Jenkins
repeatedly asked to be provide with therapy to
address his mental condition. In addition, he
repeatedly requested to be transferred to the
Inpatient Mental Health Unit at LCC. In addition,
Mr. Jenkins even lobbied to be committed to the
Lincoln Regional Center in order to receive
treatment there. For example, when Mr. Jenkins was
interviewed by DCS Mental Health staff on August
31, 2011, he said that he wanted to “parole” to the
Lincoln Regional Center, and he reported that he
“steps in and out of reality and that he was
repeatedly being awakened by “terrors” every night
when he was trying to sleep. In addition, Mr. Jenkins
expressed “concern about his release...managing
symptoms when nor in SMU...what would happen
(revenge) without treatment including medications
and intense therapy..” The notes from this meeting
state that “treatment options were discussed.”
On September 26, 2011, Mr. Jenkins was seen
by Dr. Baker (apparently at his cell door). Dr. Baker
observed that Mr. Jenkins had “complained about
auditory hallucinations relating to harming others.”
Dr. Baker’s notes state that she had observed
“questionable delusions of grandiose type,” and that
149a

Mr. Jenkins was “angry/verbally aggressive,” with
“significant narcissistic/antisocial traits/behaviors.”
In addition, Dr. Baker recorded that Mr. Jenkins told
her that he had discontinued taking the Risperdal
and Depakote prescribed by Dr. Oliveto at the
Douglas County Jail, and that he was refusing to
take those medications again, but that he was
requesting “daily psychotherapy to help him cope.”
Dr. Baker also reported that Mr. Jenkins was “very
focused on wanting to be transferred to LRC (the
Lincoln Regional Center) and states he will only take
meds if recommended if he is at LRC.” The notes of
Mental Health staff from when Mr. Jenkins was seen
by two days later (September 28, 2011) reflect that
he stated that the “Douglas County Mental Health
had recommended psychotherapy and that TSCI
Mental Health and the Department of Corrections
was refusing him treatment.” Those notes also reflect
the opinion that Mr. Jenkins “did not present in a
manner consistent with someone experiencing
hallucinations or other psychotic symptoms,” and
that there were “no observable signs of mental
illness.”
It appears that Dr. Baker next saw Mr.
Jenkins on December 23, 2011, while he was on the
“yard” at TSCI. In her notes from that meeting, Dr.
Baker stated that Mr. Jenkins continued to refuse to
take psychotropic medications outside of the Lincoln
Regional Center. The notes further reflect that Mr.
Jenkins had reported that “he does have violent
thoughts due to his traumatic past,” and that, while
he “denies he will harm anyone while incarcerated,”
Mr. Jenkins “feels he will hurt others when released
back into the community.” Mr. Jenkins was
continuing to complain about his “intermittent
150a

auditory hallucinations,” but Dr. Baker’s impressions
of Mr. Jenkins from this meeting included the
observation that he was “easily agitated,
manipulative, (and) argumentative,” and that Mr.
Jenkins presented with “questionable delusions of
grandiose type.” Dr. Baker was interested in having
further testing of Mr. Jenkins, but she noted he had
not been “cooperative with testing so far.” Dr. Baker
also mentioned the idea of discussing psychotropics
and treatment options with Mr. Jenkins in the
future, after “testing is completed and reviewed.”
Two days later, on December 28, 2011, Mr. Jenkins
had an encounter with Elizabeth Geiger, a DCS
Clinical Psychologist. She reported that while Mr.
Jenkins “reported going ‘in and out of psychotic
states all day every day,’” he displayed “no signs of
psychosis or anger/agitation,” and that “no overt
threats or aggression (were) noted.” She observed
that while Mr. Jenkins “stated his belief that others
do not take his mental illness seriously,” in this case
“no signs of major mental illness (were) noted.”
On February 1, 2012, Mr. Jenkins had a
meeting with Dr. Mark Weilage, the Department’s
Mental Health Director (presumably this was
preparatory to a Mental Illness Review Team
evaluation of Mr. Jenkins). During this meeting, Mr.
Jenkins “specifically requested daily psychotherapy...stated (that) daily psychotherapy would
help with his hypomania, stabilize his psychosis, and
help him deal with the grief of confinement,” and
said that “he would comply with medications,
therapy, if transferred to LCC and comply with MHU
expectations.” The notes from the meeting also record
that Mr. Jenkins stated that “he wants help and if he
does not get it from us then his first thought when he
151a

gets out is that he needs to ‘get some weapons.’” Dr.
Weilage’s summary of the meeting with Mr. Jenkins
included the observation that in all of his
interactions with Mr. Jenkins, “his statements and
behavior appeared well planned, purposeful and
deliberate.” (It should be noted here that in the
MIRT Referral/Review Form relating to this meeting
with Mr. Jenkins, Dr. Weilage did acknowledge that
he had access to, and had reviewed, “Psychiatric
Provider Follow-up Notes written by E. Oliveto,
M.D., received from Douglas County Corrections
Mental Health Department.”)
A document that reflects the results of Dr.
Weilage’s examination of Mr. Jenkins and his
condition for the purpose of the Mental Illness
Review Team’s evaluation of Mr. Jenkins (dated
February 8, 2012) includes the following:
Since returning to Tecumseh State
Correctional Institution, inmate Jenkins
has been seen by licensed Mental Health
staff for evaluation and/or monitoring on
10 occasions. It is the professional opinion
of the evaluators that noted signs, and
reported symptoms, do not indicate, or
support, a diagnosis of Dissociative
Identity
Disorder
(AKA
Multiple
Personality Disorder), Bipolar Disorder,
Schizoaffective Disorder or any Psychotic
Disorder. Nor does he meet the criteria
for a diagnosis of Post Traumatic Stress
Disorder (PTSD), at this time.
The MIRT document indicates that the “most
recent diagnosis per Dr. Baker includes Psychosis
NOS (“not otherwise specified”), possible Bipolar

152a

Affective Disorder with psychotic features or
Delusional Disorder, Grandiose Type, Probable
PTSD, Relational Problems NOS, Polysubstance
dependence (and) Antisocial and Narcissistic Traits.”
(The reference “NOS” is a category which would
include psychotic symptoms, for instance, delusions
or hallucinations, about which there is not adequate
information to make a specific diagnosis, or about
which there is contradictory information indicating
symptoms that do not meet the criteria for any
specific psychotic disorder.) Dr. Weilage reported
having watched over three hours of video visits that
Mr. Jenkins had with his mother and girlfriend, and
observed that:
His presentation in video visits is of a
person very clear minded and goal
directed. He repeatedly instructs his mom
and girlfriend to do all sorts of things
related to monitoring staff, calling
attorneys,
filing
appeals,
making
complaints, sending him money. He is
very demanding and berates and belittles
them.
In light of his review of documentation,
including the review of the “records received from
Douglas County,” the clinical interview of Mr.
Jenkins, and his observation of the video visits, Dr.
Weilage’s report to the MIRT team indicated that
Mr. Jenkins’ “self-reported symptoms seem more
consistent with Axis II diagnosis of Narcissistic and
Antisocial Personality Disorder and some posttrauma experiences that have not developed into any
Axis I disorder but instead have fostered the
development and solidification of the Axis II
disorders.” Having determined that “no acute mental
153a

health issues (were) noted,” and that the
“predominant feature is a personality disorder,” the
MIRT team concluded that a “transfer to the (Mental
Health Unit) is not indicated or recommended at this
time,” although the Team did suggest that Mr.
Jenkins be “considered for the transition program at
NSP to allow time in GP (general population) prior to
discharge next year.”
On February 15, 2012, Dr. Weilage met with
Mr. Jenkins at TSCI to “give him feedback about the
MIRT review.” Dr. Weilage informed Mr. Jenkins
that the team did not find him to be appropriate for a
transfer to the Inpatient Mental Health Unit at LCC,
and that, in fact, “the evidence seemed to point that
there was not an Axis I severe mental illness
present” to justify such a transfer. Dr. Weilage also
said that he “discussed with (Mr. Jenkins) that there
was still treatment that could be made available to
him,” and that they “could look at individual therapy
and working to get him to transition to general
population and back to the community.” According to
Dr. Weilage’s notes of the interview, Mr. Jenkins said
“that he was not interested in any Mental Health
services from (DCS) based on what (Dr. Weilage) had
just told him.” Dr. Weilage also reported that, as
security staff were escorting Mr. Jenkins back to his
cell, Mr. Jenkins yelled back to him, “Remember Dr.
Weilage, Tik Tok!”
At a meeting with TSCI Mental Health staff
on March 23, 2012, for regular follow-up, Mr. Jenkins
again reported problems sleeping, and mentioned
“visions,” and that he was being “spoken to by the
demonic forces.” In addition, Mr. Jenkins “insisted
that he needed ‘intense psychotherapy’ before he was
released,” and that the Mental Health staff should
154a

recommend that he “be placed in a psychiatric
hospital immediately due to the high level of distress
he was experiencing.” Instead, he was offered
“materials in regard to distress management.”
Dr. Baker saw Mr. Jenkins again at his cell
door on April 19, 2012. On this occasion, Dr. Baker
said that Mr. Jenkins was “fairly cooperative,” but
that Mr. Jenkins was “easily agitated/irritable,” and
that he was, as before, having “questionable
delusions of grandiose type,” with “significant
narcissistic/anti-social traits/behaviors.” Dr. Baker
reported that Mr. Jenkins expressed “concerns about
what he will do once he is released from DOC,” and
that he again said that he would like to be
transferred to LCC or LRC for mental health
treatment. Dr. Baker also made note that Mr.
Jenkins “continues to refuse all psychotropics
including Risperdal and/or Depakote until he can be
transferred to LRC/LCC.”
On April 28, 2012, Mr. Jenkins made threats
toward TSCI staff and threatened to harm himself,
which resulted in his being placed in “therapeutic
restraints.” On the following day, TSCI Mental
Health staff interviewed Mr. Jenkins and
recommended that he be returned to his cell, with
“limited property,” and checks by staff every fifteen
minutes. Apparently, on the same day Mr. Jenkins
was again placed in therapeutic restraints after he
broke the fire suppression head in his cell, and
caused the cell to flood. Dr. Pearson saw Mr. Jenkins
on the segregation unit on April 30, 2012. Dr.
Pearson expressed that her own “psychological
assessment” did not “show any basis for diagnosis
(of) mental illness,” with the notation that the “risk
for harm to others remains relatively stable to his
155a

baseline,” Dr. Pearson also noted that Mr. Jenkins
“denies plans, intent or ideation for imminent
threat.”
Mr. Jenkins was next seen by Mental Health
staff on May 2, 2012, after he was found with two
large cuts on his “face and forehead.” Blood in his cell
suggested that Mr. Jenkins had used a metal shelf in
his cell to inflict the wounds to his face. It was
reported that at this meeting Mr. Jenkins “expressed
the belief that his ‘psychosis’ is changing and getting
worse.” In addition, it was noted that Mr. Jenkins
had also “expressed frustration regarding the
response to his reported mental health issues by
Mental Health and Unit staff.” When Mr. Jenkins
was again seen by TSCI Mental Health staff on May
15, 2012, Mr. Jenkins “insisted that he was not
receiving proper psychological/psychiatric/mental
health treatment for his mental illness.” Of course,
back in February the Department’s MIRT team had
concluded that Mr. Jenkins’ condition supported a
diagnosis of no serious mental illness, and that Mr.
Jenkins did not need to receive residential mental
health services, and so at that point it was explained
to Mr. Jenkins that he “had been assessed on more
than one occasion by Dr. Weilage and it was
determined that he did not suffer from major mental
illness which required the type of treatment Mr.
Jenkins was describing.”
In early May of 2012, Mr. Jenkins addressed
an Informal Grievance form to DCS Director Robert
Houston stating that he had an “emergency need of
medical treatment psychologically,” and that the
“mental health department has very unprofessionally
handled (his) case.” Mr. Jenkins’ grievance also
explained that he had been evaluated while in the
156a

Douglas County Jail, and that “their findings were
very serious,” and that they had made a
recommendation to Judge Gary Randall to the effect
that Mr. Jenkins “suffer from severe psychological
disability of mental illness.” Mr. Jenkins stated that
he was still held in segregation at TSCI, and said
that he continued “to be rapidly deteriorating
mentally.” Mr. Jenkins complained that he was “not
receiving psychotherapy sessions,” or medication,
and added that he wanted to be approved to receive
treatment at the “LCC mental health mod for (the)
mentally ill.” It appears that in this instance Mr.
Jenkins’ grievance was ultimately routed to DCS
Deputy Director for Institutions Frank Hopkins for a
response.
On July 2, 2012, Dr. Baker again visited Mr.
Jenkins at the door of his segregation cell. As before,
Dr. Baker reported her observations of Mr. Jenkins’
condition, stating that his “thoughts appear fairly
well organized with grandiosity about his abilities/
intelligence.” The doctor again noted that Mr.
Jenkins “continues to refuse all psychotropics
including Risperdol, Depakote, or sleep aids.” Dr.
Baker also noted that Mr. Jenkins had “met with Dr.
Weilage in February of 2012 and presented with
significant Axis II issues and no major mental
illness.” Of course, this opinion was consistent with
what Dr. Baker herself had determined back in
December of 2009, when she concluded that Mr.
Jenkins’ symptoms “are inconsistent and more
behavioral/Axis II in nature.”
On September 21, 2012, Dr. Pearson had an
unusual telephone conversation with a medical
doctor from Omaha (not a psychiatrist) who reported
having recently received a letter from Mr. Jenkins.
157a

The doctor described the contents of this letter as
being “very psychotic and disorganized,” and “very
disturbing,” enough so, in fact, that the doctor spoke
with a friend who worked for the Omaha Police
Department who recommended that the doctor
contact the DCS Mental Health Department. During
the course of this tele-phone conversation the doctor
expressed distress over the fact that Mr. Jenkins’
tentative release date was less than one year away,
and also “asked about procedures regarding release
of inmates with Mental Illness who are dangerous to
the community.” Citing confidentiality, Dr. Pearson
said that she “could not release information specific
to the inmate,” but assured the doctor “that NDCS
follows up with Mental Health Board Commitment
procedures for inmates with Mental Illness and high
risk for danger to self or others.”
On January 10, 2013, Mr. Jenkins was seen by
Dr. Pearson at his cell door to address “staff reports
of suicidal statements.” During this interview, Mr.
Jenkins complained about the “perceived refusal of
necessary mental health care.” Mr. Jenkins also
stated “that he was ‘psychotic’ and needed
transferred to the Lincoln Regional Center for care.”
Mr. Jenkins once again referred to hearing the voice
of an Egyptian god (Apophis), and said that he was
“scared for his safety as he believed that ‘Apophis’
would harm him.” On the following day, January 11,
2013, Mr. Jenkins was interviewed by Licensed
Mental Health Practitioner Larry Murphy, again at
his cell door. Mr. Jenkins related to Mr. Murphy
“that he had Schizophrenia, that he was not being
treated, that being in segregation was harming his
mental illness, and that he had previously cut his
face because he had been told to do so by an Egyptian
158a

god.” Several days later on January 15, 2013, Mr.
Jenkins was seen (again at his cell door) in this case
by Dr. Gibson, a psychologist. Notes of the meeting
reflect that Mr. Jenkins related that he had been
“having a ‘bad morning’ because he was reportedly
considering the idea of going to be with his family
with psychosis,” and that he “indicated he did not
want to do this.” The notes also reflect that Mr.
Jenkins had said “he views everyone as ‘prey’ and
followed-up with a number of violent images,” and
that he expressed that he “needs to be hospitalized
and observed to the aforementioned issue.” Dr.
Gibson met with Mr. Jenkins again at his cell door
on January 16, 2013. The notes from this meeting
indicate that Mr. Jenkins had “reported a belief that
he should be hospitalized for psychiatric concerns
(particularly being dangerous to others), as he will be
released soon.” It was noted that Mr. Jenkins
“acknowledged that he has refused care from NDCS
employees in the past and reported that he will do so
in the future unless he was hospitalized.” Dr. Gibson
said that “Mr. Jenkins presented themes of isolation,
anger, and violence toward others,” with a
“presentation of content (that) seemed grandiose and
disorganized at times.” On the night of January 18,
2013, Mr. Jenkins again inflicted significant wounds
to his face using a loose floor tile that he had
obtained. The following morning, Dr. Gibson received
a call from the TSCI medical staff. The nurse
reported to Dr. Gibson that Mr. Jenkins had been
“screaming about wanting psychiatric treatment, as
he is reportedly afraid he will get out and ‘rip
someone’s heart out.’” The medical staff made a
similar call to Dr. Gibson on the following day,
reporting that Mr. Jenkins was continuing to claim
that he need psychiatric care.
159a

Mr. Jenkins was returned from medical to his
cell in the segregation unit on January 22, 2013. He
was placed on a regimen of staff checks every fifteen
minutes, and was restricted from having certain
items of personal property, including his glasses and
“ear-buds.” On each of the following three days,
LMHP Murphy spoke to Mr. Jenkins outside of his
segregation cell door. After consultation with Dr.
Pearson, it was recommended that the restrictions on
Mr. Jenkins be continued on January 22, and 23, and
the same recommendation was made after
consultation with Dr. Gibson on January 24. Mr.
Jenkins was next seen on January 25, 2013. The
notes from that interview relate that Mr. Jenkins:
requests hospitalization so that he does
not harm other people. When asked what
he would gain from hospitalization, he
was only able to elaborate that he would
receive therapy, but did not identify any
benefits of therapy. Inmate stated that,
when released, he would give in to
“apophis” who wanted him to kill “man,
woman and child” of “every age group.”
After talking with Mr. Jenkins outside of his
cell door on January 28, 2013, and after consulting
with Dr. Pearson, Mr. Murphy recommended that
Mr. Jenkins be removed from the every-15-minute
watch list. This was ordered to be done, however, Mr.
Jenkins was returned to 15-minute watch and
limited property status on February 2, 2013, when he
again damaged a sprinkler head and reported to
security staff that he was hearing voices.
On February 4, 2013, Mr. Jenkins was
interviewed in regard to his continued status on

160a

fifteen minute checks by Licensed Mental Health
Practitioner Brandy Logston. The notes of this
meeting indicate that Mr. Jenkins reported that he
had “numerous mental health issues making
statements such as ‘I am a psychotic powerful
warrior at the mercy of Aphophis’ and ‘I am
preparing for what is to come.’” Mr. Jenkins also
claimed he had been having “difficulty with sleep due
to constant hypervigilence and the ‘current torture of
these deplorable conditions’ referring to his limited
property status.” Ms. Logsdon reported that Mr.
Jenkins was “highly agitated and he endorses high
levels anxiety and paranoia,” and that he “continues
to refuse any psychotropic medications stating he
will not take these because he does not trust staff.”
As a result of this interview, it was recommended
that Mr. Jenkins continue on fifteen minute checks,
and limited property status. There were additional
interviews of Mr. Jenkins regarding the 15-minute
watch issue conducted by Mr. Murphy at Jenkins’
cell door on February the 5th, 6th, 7th, 8th, and 11th,
and each time it was recommended that he continue
on 15-minute watch and limited property status. The
15-minute watch status was finally discontinued by
Dr. Pearson on February 12, 2013. Ms. Logston next
saw Mr. Jenkins on February 19, 2013. Ms. Logston
reported that Mr. Jenkins told her “he ‘wanted it
documented’ that he was in need of ‘emergency
psychiatric treatment,’” and also that Mr. Jenkins
“expressed that he was ‘psychologically deteriorating’
as a result of his current living conditions and
limited property status.” The notes from this meeting
further reflect that Mr. Jenkins “expressed that he
was fearful of taking any medications at TSCI
because ‘they are going to kill me,’” and that Mr.
Jenkins “stated he would take medications if housed
161a

at a different institution.” Ms. Logston added her
own observation that during this interview Mr.
Jenkins had “presented all this information...in a
logical and calm manner.”
It is notable that Mr. Jenkins sent an Informal
Grievance to TSCI Warden Fred Britten on February
17, 2013, just a few months before Mr. Jenkins was
scheduled to be released from custody. In the case of
that grievance, Mr. Jenkins stated that he was
“requesting emergency protective custody and
removal from SMU (segregation).” Mr. Jenkins also
said
that
he
was
“requesting
psychiatric
hospitalization for severe psychosis conditions of
enragement episodes of my schizophrenia disease.”
Mr. Jenkins also claimed that he was “suffering
psychological and emotional trauma in (his) current
confinement,” and specifically referenced the
Nebraska Mental Health Commitment Act (Neb.
Rev. Stat. §§71-901 thru 71-963) in connection with
his appeal. The response to this rather extraordinary
grievance, in which an inmate who was soon to be
released from custody was, in effect, asking that he
be sent instead to the Lincoln Regional Center, was
disappointing. In place of a response from the
Warden, the grievance was answered by a Sergeant
Bernard, who replied that the grievance “does not
meet the criteria which governs emergency
grievances, as you are in no immediate danger of
being subject to a substantial risk of personal injury
or serious or irreparable harm.” In other words,
instead of being given a substantive answer, Mr.
Jenkins’ grievance was simply dismissed on
technical/procedural grounds. Meanwhile, the clock
was ticking, and Mr. Jenkins’ discharge date was less
than six months away.
162a

Mr. Jenkins sent another grievance to TSCI
Warden Britten on February 18, 2013. In that
grievance, Mr. Jenkins was complaining that his
mother had been told that her visiting privileges at
TSCI were being suspended for 30 days. (The
explanation for this sanction, as stated in a February
14, 2013, letter from TSCI Unit Administrator
Shawn Sherman, was that Mr. Jenkins’ mother had
“taken 2 pieces of paper and the pen from the
Gatehouse desk and were taking notes during your
visit.”) In his February 18 grievance, Mr. Jenkins
explained that his mother “was writing down a
petition of notification under Nebraska State Law
Mental Health Act...to be submitted to the County
Attorney of Johnson County for direct forwarding to
the Mental Health Board.” Mr. Jenkins mentioned in
his grievance that he was “set to be released July 30,
2013,” and that his mother was “seeking the
emergency protective custody order for psychiatric
hospitalization.” Once again, Mr. Jenkins’ grievance
to the Warden was answered by a Sergeant who
replied that the grievance “does not meet the criteria
which governs emergency grievances, as you are in
no immediate danger of being subject to a substantial
risk of personal injury or serious or irreparable
harm.”
In what is perhaps an extremely important
event in this case, Dr. Baker, the psychiatrist, met
with Dr. Pearson, the TSCI psychologist, on March 4,
2013, to discuss Mr. Jenkins. The note on that
meeting states (in full) as follows:
Discussed inmate with Dr. Baker on this
date. Dr. Baker requested inmate be
added to list of inmates to be seen by Dr.
Wetzel for a second opinion. Her
163a

expressed concerns are verification of
absence or presence of mental illness due
to his previous history of major mental
illness diagnosis by other psychiatric
providers. Her primary concern is his
dangerousness to the community upon
release and that he appears to be laying
the groundwork for insanity defense if he
harms someone in the community. Is
requesting that Dr. Wetzel assess him
for dangerousness risk. Will relay
request to TSCI MIRT representative.
M. Pearson, PsyD.
Dr. Wetzel would, in fact, interview Mr.
Jenkins for the purposes of this evaluation on March
14, 2013 (Dr. Martin Wetzel is a psychiatrist
associated with the Inpatient Mental Health Unit at
LCC).
Mr. Jenkins was next seen by Mental Health
staff at his cell door on March 5, 2013, at which time
Mr. Jenkins was told about the intended evaluation
to be conducted by Dr. Wetzel. During that interview,
Mr. Jenkins stated “that he is mentally ill and
disabled and we made him that way.” When asked
why he refused to take medications for his condition,
Mr. Jenkins replied that “he won’t take them here.”
In addition, on March 5 Mr. Jenkins was taken by
the security staff to attend a meeting for a review of
his classification The security staff reported that Mr.
Jenkins “spoke as if apophis was in control of him,”
however, the security staff also said that “it appeared
that Mr. Jenkins was cognizant, aware, and fully in
control of the things he was saying during both
transport and at his cell.”

164a

Beginning on March 7, 2013, Kathy Foster, a
Department of Correctional Services social worker
met with Mr. Jenkins to begin planning for his
release. This planning was supposed to cover matters
like where Mr. Jenkins would reside after his
release, and what community services might be
available to him after release. (At the time, Mr.
Jenkins’ tentative release date was set at July 30,
2013.) Ms. Foster made extensive notes of her visits
with Mr. Jenkins to help him prepare a discharge
plan, and her notes from March 7 include the
statement that Mr. Jenkins said that he “does not
want to discharge to the community because he will
kill people and cannibalize them and drink their
blood.” He also made a statement to her “of intended
violence that he will commit if he is discharged to the
community,” and told her that he was seeking a
Mental Health Board commitment. Ms. Foster’s
notes indicate that she intended to “look into
potential community services for discharge followup,” and that she would be contacting Mr. Jenkins’
mother. Ms. Foster did contact Mr. Jenkins’ mother,
Lori Jenkins, by telephone on March 15, and talked
with her about issues relating to her son’s eventual
place of residence (either Lincoln or Omaha), about
treatment resources, about securing identification
docu-mentation for Mr. Jenkins, and about helping
Mr. Jenkins to apply for Social Security and
Medicaid.
In a letter written by Mr. Jenkins and
addressed to Ms. Ester Casmer of the Nebraska
Board of Parole on March 10, 2013, Mr. Jenkins
stated that he was “now in a very seriously severe
emergency need,” because he was “set to be released
July 30th 2013.” (It should be mentioned that this
165a

communication had nothing to do with a parole, since
by this point in his sentence it was clear that Mr.
Jenkins was not going to be paroled.) In this letter,
Mr. Jenkins explained that he was in “isolation 23
hour lockdown (with) no medication,” and with no
“therapeutic sessions of psychological treatment for
the very severe psychosis condition of (his)
schizophrenia disease as well as bipolar disorder and
PTSD.” Mr. Jenkins claimed that he was
“deteriorating daily physically psychologically and
emotionally,” and that he had experienced “another
self-harming psychotic episode of self-mutilation that
resulted in 11 more stitches in (his) face.” Mr.
Jenkins stated that he had “carved...facial wounds
into my face with a piece of tile from the gallery
floor,” and that a correctional officer “had to spray
(him) with pepperspray to get (him) to stop carving
into (his) face.” In this letter, Mr. Jenkins also stated
that he had filed an “emergency protective custody
petition in Johnson County to...be submitted to the
Mental Health Board,” under the Nebraska statutes
dealing with “dangerous persons of mental illness,”
in order to have a “hearing on grounds of release to
the psychiatric hospital for mental health
treatment.”
In connection with his campaign to have
himself committed to hospitalization at the Lincoln
Regional Center, Mr. Jenkins had also contacted the
Johnson County Attorney (Johnson County was Mr.
Jenkins’ “residence” at the time because he was at
TSCI). On March 11, 2013, Mr. Richard Smith, the
Deputy Johnson County Attorney, wrote a letter to
Mr. Jenkins acknowledging the receipt of letters
from Mr. Jenkins “as well as materials provided by
(his) mother and (his) fiancée” regarding Mr.
166a

Jenkins’ mental health. Mr. Smith’s letter included
the following explanation:
Please rest assured that I am not taking
your situation lightly. In order to file a
mental health board petition, however, I
need to hear from a mental health expert
who can testify as to mental illness and
dangerousness. I have been in contact
with the psychologists with the
Department of Corrections and have
explained your concerns. They have
assured me that they will continue to
evaluate, monitor, and treat your mental
health.
Mr. Smith added that prior to Mr. Jenkins’
release, “the Department will evaluate whether you
are fit to be released or whether to seek further
inpatient commitment to treat your mental illness,”
and that DCS would “forward copies of its
recommendation to (the Johnson County Attorney’s
Office) as well as to the County Attorney in the
County from which you are incarcerated,” at which
point “a determination will be made about whether a
mental health petition is appropriate.” (Please see
Attachment #5) It should be noted that this letter,
sent on March 11, 2013, was dated just a few days
before Dr. Martin Wetzel was scheduled to meet with
Mr. Jenkins for his “second opinion” evaluation.
Interestingly, Mr. Jenkins was transferred from
TSCI to the Nebraska State Penitentiary on March
15, 2013. Since Mr. Jenkins was no longer located
in Johnson County, the question of whether Mr.
Jenkins’ case should be referred to a Board of Mental
Health for a possible civil commitment was no longer
a question within the jurisdiction of the Johnson
167a

County Attorney.
Dr. Wetzel’s interview with Mr. Jenkins was
on March 14, 2013, while he was still at TSCI.
According to Dr. Wetzel’s report, an “ongoing theme
throughout the interview” was Mr. Jenkins’ assertion
that “he was severely mentally ill and in need of
immediate transfer to a psychiatric hospital.” Mr.
Jenkins also informed Dr. Wetzel that he was “seen
by Dr. Oliveto and diagnosed with PTSD, Bipolar
Disorder and Schizophrenia.” Mr. Jenkins reported
that “he has nightmares every night,” and
maintained that he was “deteriorating physically and
(was) severely paranoid.” Mr. Jenkins told Dr. Wetzel
that he had been physically abused repeatedly as a
child, that he was “allowed to run the streets and
was constantly in trouble beginning at a very early
age,” that he “began setting fires and engaging in
fights” at the age of seven or eight, and also that “at
age 9 he was hospitalized at Richard Young for
hearing voices.” Mr. Jenkins also said that as a child
he had been “placed on Ritalin which made him even
more ‘hyper and psychotic.’” Mr. Jenkins also
admitted that he began using street drugs at a very
early age, starting with tobacco, marijuana, and
alcohol at the age of seven, and using “PCP and
embalming fluid” at the age of fourteen. Mr. Jenkins
told Dr. Wetzel about having had auditory
hallucinations, and that he had been “on medications
for 3 - 1⁄2 months, which softened the voices and
made them ‘lower and slower.’” Mr. Jenkins informed
Dr. Wetzel that he was due to be released from
prison in July, and that he “wants to be placed in a
psychiatric hospital to stabilize for ‘modern times.’”
In summarizing Mr. Jenkins’ “mental status,”
Dr. Wetzel reported that he observed that Mr.
168a

Jenkins was, at times, “extremely over activated and
restless,” and at other times “generally calm.” Dr.
Wetzel further reported that Mr. Jenkins “did
express repeated thoughts of harming other people in
the form of cannibalism and ‘waging war,’’ but Dr.
Wetzel added that it was “unclear if he is exhibiting
psychotic symptoms.” Dr. Wetzel said that he also
observed that Mr. Jenkins “was expressing bizarre,
and very unusual auditory hallucinations and
delusions, but these did not appear to be consistent
with typical symptoms of a psychotic disorder.” Dr.
Wetzel summarized his assessment of Mr. Jenkins as
follows:
Bipolar Disorder NOS, Probable
PTSD,
Probable͒Antisocial
and
Narcissistic PD (personality disorder)
Traits Polysubstance Dependence in a
Controlled
Environment
(emphasis
added)
In addition, Dr. Wetzel’s report includes the
following observations and assessment:
This patient presents with a dramatic
flair, yet there is enough objective
evidence of disruption in sleep cycle,
mood and behavior to suggest an
element of major mood disorder
influencing the clinical picture. The
patient has an unusual list of demands,
the first of which has been placement in
a psychiatric hospital. This could be
related to a singular motive or a
combination of motives, including
malingering and/or a sense of disease...
Long-term strategies recommended for
169a

this patient include development of a
rapport
and
trust
to
enhance
participation in psychiatric care, ongoing
development of objective evidence
supporting - - or not supporting - - the
presence of major mental illness and the
possibility of further psychological
formal testing to help clarify diagnostic
picture.
By the time that Dr. Wetzel’s report on Mr.
Jenkins was written and delivered, Mr. Jenkins had
already been transferred from TSCI to the
Penitentiary. Dr. Baker now had her second opinion,
but Dr. Baker no longer had Mr. Jenkins as her
patient, although he certainly continued to be a
responsibility of the DCS Mental Health Department
in general terms.
On March 19, 2013, shortly after his transfer
to the Penitentiary, Mr. Jenkins was seen by
Licensed Mental Health Practitioner Jeremy
Simonsen during a meeting dealing with Mr.
Jenkins’ classification. The notes relating to that
meeting indicate that Mr. Jenkins was hoping “to
return to general population (and) to transition to
the community,” something that was scheduled to
happen in about less than six months. According to
the notes, Mr. Jenkins “had difficulty taking
feedback that the chance for this may be limited, and
that he should be open to the Transition Program,
which still could afford him contact with others and
some programming as he nears discharge.” Mr.
Simonsen’s notes indicate that Mr. Jenkins stated
“that he would consider moving to the program.” Mr.
Simonsen next interviewed Mr. Jenkins on April 10,
2013. He described Mr. Jenkins as having “grandiose
170a

and highly narcissistic ideas about his own abilities,
intelligence, and knowledge” and that Mr. Jenkins
wanted to argue with him “about the definition of
schizophrenia, and that he has it,” although Mr.
Simonsen said that “there is no evidence of current
thought disorder or other psychotic symptoms.” Mr.
Simonsen interviewed Mr. Jenkins for a third time
on April 16, 2013. As had been the case so many
times before, he found that Mr. Jenkins was
demanding” psychiatric treatment,” even though he
did not “appear to understand that would primarily
consist of psychotropic intervention, which does not
interest him.” Mr. Simonsen also recorded that Mr.
Jenkins had expressed that he was willing to
participate in behavioral program as part of
transition, and that Mr. Jenkins had made
“grandiose statements about the damage he will
cause when he gets out, and his ability to inflict
harm.” Mr. Simonsen said that they “discussed
symptoms displayed today as indicative (that) a
mood stabilizer may assist him with Bipolar
characteristics..” Mr. Simonsen also recorded that
“evidence of thought disorder was not apparent,
though delusional beliefs were present regarding his
own abilities.” Mr. Simonsen further stated that
“stronger evidence persists for Cluster B personality
traits” (i.e., antisocial, histrionic, and narcissistic
personality disorders), and that he would need to
consult with Dr. Weilage and Dr. Cheryl Jack, the
psychiatrist at the Penitentiary, regarding Mr.
Jenkins’ discharge plans.
On April 5, 2013, the social worker, Ms.
Foster, again met with Mr. Jenkins. Her notes on
that meeting indicate that she told Mr. Jenkins that
she had talked to his mother, and that he would need
171a

to make a decision on a place of residence after his
release. During this meeting, Ms. Foster made
arrangements for a telephone interview so that Mr.
Jenkins could apply for Social Security. She also told
Mr. Jenkins that arrangements could be made later
for him to receive mental health services in the
community after his release. Mr. Jenkins asked Ms.
Foster whether he could talk to the Mental Health
Center “today,” but Ms. Foster told him that it would
premature to do that now. Ms. Foster’s notes from
that meeting also reflect that Mr. Jenkins “stated a
couple of times that he is ‘not kidding,’ it will be bad’
when he gets out.” Ms. Foster had yet another
meeting with Mr. Jenkins on April 30, 2013, at which
point Mr. Jenkins engaged in his telephone interview
with Social Security. He was informed that he would
not be eligible to receive SSDI because of his status
as a felon, but he was allowed to apply for SSI. They
again discussed the Community Mental Health
Center and Mr. Jenkins told Ms. Foster that “he
would be open to being evaluated for medication and
is ‘more inclined to take them on the outside.’” The
notes also reflect that on this occasion Mr. Jenkins
told Ms. Foster “that when he gets out ‘it will begin’
and he made allusions to killing ‘without prejudice.’”
Mr. Jenkins was interviewed by Dr. Jack on
April 25, 2013. Mr. Jenkins told Dr. Jack that he did
not want medications, but that he “wants to engage
in therapy.” In her notes from the interview, Dr. Jack
stated Mr. Jenkins “appeared to be ‘on stage’ and
performing for” her. Dr. Jack described Mr. Jenkins
as being self-aggrandizing, self-absorbed, and
flagrantly narcissistic in his presentation and
verbiage. Dr. Jack’s notes reflect that her
“impression” of Mr. Jenkins was - “Axis I: No
172a

diagnosis; and Axis II: Antisocial Personality, with
narcissistic features vs. Narcissistic Personality with
antisocial features.”
An interesting document in our collection is a
copy of an email sent by Ms. Trudy Clark to Mr.
Wayne Chandler on May 20, 2013. Ms. Clark is an
Administrative Assistant with the Nebraska Board of
Parole, and Mr. Chandler is in charge of the
Department’s Inpatient Mental Health Unit at the
Lincoln Correctional Center. In this email, Ms. Clark
indicated that the Board of Parole had received more
than one odd letter from Mr. Jenkins. Specifically,
the email said:
This e-mail is written from a personal
level only. Why isn’t Nikko Jenkins
#59478 in the mental health unit? The
Board is getting letters from him that he
is going to eat people, specifically
Christians and Catholics. This is only
one of many bizarre letters the Board
has gotten from him. Is he being
evaluated
for
a
mental
health
commitment? As a taxpayer, this guy
scares me to death!!
It is our understanding that Mr. Chandler
forwarded this email to Dr. Weilage, the
Department’s Mental Health Director. Our records
do not include any answer that Ms. Clark may have
received in response to her inquiry. Of course, we
know that Mr. Jenkins’ case had been evaluated by
the DCS MIRT team in February of 2012, and that
the team had concluded at that time that Mr.
Jenkins’ condition supported a diagnosis of no
serious mental illness, and that Mr. Jenkins thus did

173a

not need to receive residential mental health
services.
Licensed Mental Health Practitioner Stacy
Simonsen saw Mr. Jenkins on June 6, 2013. She
described Mr. Jenkins as displaying “grandiose and
highly narcissistic ideas about his own abilities,
intelligence, and knowledge.” She also noted that
while “delusional beliefs were present, his ability to
communicate and articulate his thought process was
not impaired.” Ms. Simonsen added that, although
Mr. Jenkins referred to himself as being “psychotic,”
there was “minimal evidence of thought disturbance,”
and
“while
hallucinations
were
reported,
nevertheless there was no evidence that he was
responding to internal stimuli.” Ms. Simonsen again
saw Mr. Jenkins On July 2, 2013, less than one
month from his discharge date. Her notes from that
meeting reflect that Mr. Jenkins “continues to
present as grandiose and has highly narcissistic
ideas about his abilities, intelligence, and knowledge,
but he articulates himself well.” She also said that
Mr. Jenkins “spoke at length about his plans for
release as he will be discharged later this month.”
On July 25, 2013, the social worker, Ms.
Foster, had her last meeting with Mr. Jenkins to see
“if any further assistance regarding discharge
planning was needed.” During this meeting, Mr.
Jenkins told Ms. Foster that he was “schizophrenic,”
and said that “he needed therapy while he was
incarcerated because medications would...address his
mental illness satisfactorily.” Ms. Foster’s notes from
this meeting reflect that Mr. Jenkins “was less
dramatic in his statements of the threat he poses to
society.” She said that she gave Mr. Jenkins a
document listing “various resources (clothing, food,
174a

mental health, etc.) for both Omaha and Lincoln,”
but that Mr. Jenkins “did not look at them and left
them in the table as we left the room.” At this point,
Nikko Jenkins was five days away from being
discharged.
Mr. Jenkins was discharged from the
Nebraska correctional system on July 30, 2013.
Because he was discharged and not paroled, Mr.
Jenkins was not under parole supervision, or any
other kind of special supervision. After his release,
Mr. Jenkins took up residence in Omaha. It is
alleged that on August 11, 2013, Mr. Jenkins
murdered Mr. Juan Uribe-Pina and Mr. Jorge
Cajiga-Ruiz, that on or about August 19, 2013, he
murdered Mr. Curtis Bradford, and that on August
21, 2013, he murdered Ms. Andrea Kruger. Criminal
charges have been filed in those cases, and Mr.
Jenkins case is awaiting disposition in the courts.
Narrative of Interventions by the
Ombudsman’s Office in Mr. Jenkins’ Case
The Ombudsman’s Office has a long history of
involvement with Nikko Jenkins that stretches back
to May of 2007, when Mr. Jenkins initially contacted
our office to complain about his ongoing placement in
segregation. At the time, Mr. Jenkins was an inmate
at LCC, but he was soon thereafter moved to TSCI,
where Mr. Jenkins continued to be classified to
Administrative Confinement, and to be held in
segregation. (Over the years, our contacts in relation
to Mr. Jenkins’ complaints have included some
discussions with Ms. Laurie Jenkins, who is Nikko
Jenkins’ mother, and who at times was active in
advocating on her son’s behalf.) Because at that point
Mr. Jenkins had only been in segregation for a few

175a

(approximately three) months, the decision was made
to continue to monitor Mr. Jenkins case, and to wait
to see whether there might later be an opportunity to
suggest to the TSCI administration that he might be
transitioned out of segregation, and back into general
population at the facility.
In August and September of 2008, Deputy
Ombudsman for Corrections James Davis again
worked on the issue of Mr. Jenkins’ confinement to
segregation. At that time, the subject of Mr. Jenkins’
mental health status was raised with Mr. Davis by
1Jenkins’ name placed on the list of inmates to be
reviewed for possible mental health services, but that
the mental health professionals at TSCI had
expressed the opinion that Mr. Jenkins did not have
a serious mental illness, but was only a case of
“behavioral problems.” Nevertheless, in September of
2008 Mr. Davis helped to make arrangements for a
review of Mr. Jenkins’ situation to determine
whether he might be suitable for a transfer to the
Department’s Inpatient Mental Health Unit located
at the Lincoln Correctional Center. On that occasion,
Mr. Wayne Chandler, the supervisor of the Mental
Health Unit, and Dr. Mark Lukin, a licensed
psychologist employed by the Department, reviewed
Mr. Jenkins’ case, and concluded that Mr. Jenkins
did not exhibit any indication of a serious mental
illness, and that Mr. Jenkins would not be an
appropriate individual to be admitted to the DCS
Inpatient Mental Health Unit at LCC. On September
26, 2008, Mr. Davis wrote a letter to Mr. Jenkins
explaining to him that he had been very close to
being sent to the Transition Program at NSP to help
prepare him to be released from segregation, but that
this idea had been discarded when Mr. Jenkins had
176a

threatened staff at TSCI. Mr. Davis advised Mr.
Jenkins that the Ombudsman’s Office would not be
able to advocate for him to be released from
segregation unless he acted appropriately, and did
not threaten staff or other inmates. As Mr. Davis
explained it, the Ombudsman’s Office would not be
able to “take (Mr. Jenkins’) complaint seriously,
because of (his own) negative behavior.”
Over the years, Mr. Davis has worked on
many cases of inmates who were being held in
segregation for prolonged periods of time. In most of
these cases, Mr. Davis has tried to advocate for the
inmate to be given a fresh consideration of how his
behavior may have changed, and whether the inmate
might finally be a suitable candidate for
reintegration into the prison’s general population. In
this work, it has not been an unusual event to find
that the inmate in question is someone who had, or
appeared to have, serious mental health issues that
could not be adequately addressed in a segregation
cell. Although the Ombudsman’s Office is not
qualified to arrive at a medical diagnosis of Mr.
Jenkins’ condition, we can say that Mr. Jenkins’ case
certainly appeared to be one of these instances.
Obviously, this condition issue complicated any effort
to help to build Mr. Jenkins up as a prospect for
transition back into the general population, because
Jenkins’ own unpredictable behavior would tend to
torpedo
those
efforts.
Nevertheless,
the
Ombudsman’s Office wanted to continue to monitor
Mr. Jenkins’ situation so that he would not be “lost
in the system,” as can happen when reviews of
segregation cases by the institution’s staff become
“too routine,” and cannot identify any new reason to
change the inmate’s classification.
177a

Our next contact with Mr. Jenkins’ situation
happened in late 2009, when Mr. Jenkins’ sister,
Melony Jenkins, wrote to the Ombudsman’s Office
saying that she had received a letter from her
brother in which he told her that he was “very ill
mentally,” and that he was not receiving his
medications at TSCI. In her letter, Ms. Jenkins
reported that her brother “claims he has different
personalities and is crying out to me in his letter,
that he wants to change and take his medications.”
Ms. Jenkins also said that her brother had told her
that “its hard for him to stay grounded in reality
without his medication.” Of course, this was shortly
after Mr. Jenkins’ aborted escape attempt, and his
assault on a correctional staff person on December
17, 2009. It was also shortly before Mr. Jenkins was
to be transferred to the Douglas County Jail on
February 13, 2010. Assistant Ombudsman Jerall
Moreland followed-up on the matter by contacting
Dr. Melinda Pearson, a psychologist at TSCI. Dr.
Pearson told Mr. Moreland that there was a
“provisional diagnosis” on Mr. Jenkins that included
a possible “psychotic disorder,” and that he had been
on Risperidone, but that she understood that the
medication had been discontinued due to Mr.
Jenkins’ noncompliance in taking the medication. In
fact, as we now know from the records, on December
28, 2009, Mr. Jenkins had sent a note to Dr. Baker
asking to restart his medications. Dr. Baker had
ordered the medications to be discontinued after a
December 3, 2009, meeting she had with Mr. Jenkins
at which time he reported to the doctor that he had
stopped taking the medications three days earlier.
Dr. Baker responded to the December 28, 2009,
request by re-initiating prescriptions of Risperidone
and Depakote for Mr. Jenkins on the following day,
178a

December 29, 2009. A notation made by the doctor at
the time said that this was a step that “should help
stabilize (Mr. Jenkins’) symptoms.” However, two
days later Dr. Baker discontinued the prescription
for Risperidone, and made a notation Mr. Jenkins’
chart that she had concluded that Mr. Jenkins’
symptoms were actually “inconsistent and more
behavioral/Axis II in nature.” In any case, by the
time that Mr. Moreland had an opportunity to ask
about the medications issue Mr. Jenkins had already
been transferred to the Douglas County Jail, where
the mental health staff eventually renewed the
medications. Mr. Moreland did, however, speak later
with Melony Jenkins, and asked her to urge her
brother to be compliant in taking his meds.
On March 12, 2010, former Senator Brenda
Council sent a letter to the Ombudsman’s Office
requesting a review of the possible “medical
mismanagement” of Mr. Jenkins’ case while in the
Douglas County Jail. Senator Council’s inquiry had
been occasioned by a contact which her office had
received from a friend of the Jenkins family, and
once again Assistant Ombudsman Jerall Moreland
followed-up on the case. After checking into the
matter, Mr. Moreland sent a Memorandum to
Senator Council on March 28, 2010. In that memo,
Mr. Moreland explained that while at the Douglas
County Jail Mr. Jenkins had asked for and received a
renewal of his earlier prescriptions beginning on
March 10, 2010, although the prescriptions were
discontinued on March 15, 2010, because Mr.
Jenkins had refused to take the meds. Mr. Moreland
reported in the memo that he had spoken with Mr.
Jenkins, and that Mr. Jenkins “seems to realize that
he needs some sort of treatment to control the voices
179a

in his head.” Mr. Moreland also reported that had
“emphasized to Nikko how important it is that he
tries to stay medically compliant to his treatment
program.” Mr. Moreland also reported his findings on
Mr. Jenkins to Senator Council, including the
background relating to Mr. Jenkins’ transfer to the
Douglas County Jail, and the fact that Mr. Jenkins
had asked for, but later stopped taking, medications
that he had been receiving at TSCI. Mr. Moreland
also advised Senator Council that while there “does
not appear to be anything else that this office can do
for Nikko Jenkins at this time, I have emphasized to
Nikko how important it is that he try to stay
medically compliant with his treatment program.”
In November of 2011, the Ombudsman’s Office
was contacted by Ms. Sherry Floyd, who is a friend of
Mr. Jenkins. Ms. Floyd related that she had visited
with Mr. Jenkins at TSCI, and that “he is not Nikko
any more.” Ms. Floyd said that she was concerned
that Mr. Jenkins was not receiving needed mental
health services at TSCI. As follow-up to this contact,
Mr. Moreland sent an email to Dr. Pearson which
specifically advised her that the Ombudsman’s Office
had a new case relating to Mr. Jenkins involving͒a
complaint that he was not receiving needed mental
health services. Mr. Moreland related that Mr.
Jenkins was claiming that he had recently been
diagnosed, while at the Douglas County Jail, as
being Bi-polar, with both PSTD, and schizophrenia.
Mr. Moreland also stated that he had learned of the
court order for Mr. Jenkins latest conviction wherein
Judge Randall had indicated that he believed that
Mr. Jenkins “has a long and serious history of mental
illness,” and that, according to Judge Randall, the
record in Mr. Jenkins’ case would support his request
180a

for “treatment for his mental health issues.” Mr.
Moreland also pointed out that Judge Randall had
recommended that the Department of Correctional
Services see to it that Mr. Jenkins was “assessed and
treated for issues regarding his mental health.” In
the email to Dr. Pearson, Mr. Moreland also related
that Mr. Jenkins was continuing to “claim that he
would like to begin treatment for his mental illness
and have an opportunity to discuss the recent loss of
family members.” Also, Mr. Moreland emphasized
that “it appears that Mr. Jenkins will be available for
release in 2013.” Mr. Moreland asked Dr. Pearson
whether the “multidisciplinary team” might try͒to
“put in place a plan for Mr. Jenkins to return to
general population,” pointing out that he had
recently contacted Douglas County staff, and was
told that “Mr. Jenkins was able to maintain himself
in general population for approximately 17 months,
while receiving weekly mental health sessions,”
when he was in the jail in Douglas County. Mr.
Moreland also inquired after “any MIRT committee
evaluation of Mr. Jenkins for the Mental Health Unit
at LCC,” and specifically asked Dr. Pearson for her
own input as to whether Mr. Jenkins could be placed
in the “LCC mental health program.” Mr. Moreland
added that during a recent conversation with Nikko,
“Mr. Jenkins shared that he is hearing voices and
believes he has experienced deterioration while at
DCS based on his ability to function at Douglas
County.”
Dr. Pearson responded to Mr. Moreland’s
inquiry as follows:
Nikko Jenkins #59478 is monitored by
Mental Health on a monthly basis due to
his segregated status. He does not
181a

present with signs of major mental illness
and has refused psychological assessment
for clarification of reported symptoms on
February 12, 2010 and October 31, 2011.
He was seen by the psychiatrist on
September
26,
2011
after
self
discontinuing
his
DCC-prescribed
medications upon return to NDCS. At
that time, he refused re-initiation of
psychotropic medications unless he was
transferred to the Lincoln Regional
Center. There has been no evidence of
decline in mental status since his return
to NDCS. Mr. Jenkins presents with
significant psychopathic traits and does
not appear to be mentally ill at this time.
Mental Health will continue monitoring
him and provide assessment and
treatment as clinically indicated.
Mr. Moreland responded to this message from
Dr. Pearson with an email telling her, in regard to
the psychological assessment, that “Mr. Jenkins
claims to not have refused the assessment,” and that
he had “indicated to me that he would like to take
the assessment.” Under the circumstances, Mr.
Moreland suggested that the Department should
move forward with an assessment of Mr. Jenkins’
condition.
In early February of 2012, the MIRT team
reviewed Mr. Jenkins’ situation and reported on its
findings. Mr. Moreland spoke with Dr. Weilage later
that month to obtain some sense of what the MIRT
team had concluded. Dr. Weilage replied that it was
the team’s opinion that Mr. Jenkins was not
mentally ill, and that there was no indication of
182a

PTSD, or other Axis I disorders. Dr. Weilage said
that he disagreed with Dr. Oliveto’s assessment, and
that it was his opinion that Mr. Jenkins was, in fact,
purposefully making up his apparent mental
dysfunction.
Although in the following months Mr. Jenkins
repeatedly contacted the Ombudsman’s Office about
his mental health condition, and his desire to be
transferred to LRC or to the Inpatient Mental Health
Unit at LCC, it appeared that the Ombudsman’s
Office had essentially reached a dead end, in terms of
our ability to advocate for different mental health
treatment for Mr. Jenkins, in light of the outcome of
the MIRT review completed in February of 2012.
However, as months passed, and as Mr. Jenkins’
custody status (segregation) continued unaltered, the
Ombudsman’s Office became more and more
concerned about the fact that Mr. Jenkins’ discharge
date, scheduled for July of 2013, was approaching.
We were acutely aware that, if circumstances did not
change significantly, then Mr. Jenkins would be
discharged from a segregation cell directly into the
community, with no opportunity to have access to the
kind of counseling and transition opportunities that
would have been desirable even to make him suitable
to live in the general population of a correctional
facility. With this in mind, the Ombudsman’s Office
opened discussions with DCS to try to find a way to
“ease Mr. Jenkins back” from the isolation of a
segregation cell and into the community, where it
was hoped that he would be able to survive, and
manage to remain within the limits of the law
notwithstanding his apparent mental health
difficulties.

183a

Because it was clear that Mr. Jenkins would
not be paroled, and thus would not have the
opportunity to gradually reintegrate into society
through any arrangement which was supervised, the
sense within the Ombudsman’s Office was that it
was even more important that Mr. Jenkins at least
be reintegrated into the general population of a
corrections facility. We also were of the view that it
would be desirable for Mr. Jenkins to go through the
Transition Program at NSP, which was specifically
designed to help those inmates who had spent long
months, and sometimes years, in segregation to deal
with reintegrating into a larger community, like a
prison’s general population. In our opinion, this was
far from being an ideal arrangement, but it was, as
we viewed it, something that DCS could do that
might have some hope of making a difference in
terms of Mr. Jenkins ability to cope with release into
the community. It should be emphasized, however,
that the Ombudsman’s Office staff continued to be
very concerned about the potential threat that Mr.
Jenkins might present to the community after his
release. Thus, on February 25, 2013, Deputy
Ombudsman for Corrections James Davis sent an
email to Dr. Randy Kohl, the DCS Deputy Director
for Health Services, requesting a meeting with Dr.
Kohl, Frank Hopkins, DCS Deputy Director for
Institutions, and Dr. Cameron White, the
Department’s Behavioral Health Administrator. In
that email, Mr. Davis, having noted that “Mr.
Jenkins has a tentative release date of July 2013,”
went on to express “concerns” that Mr. Jenkins “may
pose a safety risk to the community,” if he were to be
released “without providing him with the necessary
tools to succeed in the community.” In fact, Mr.
Jenkins had also written to Senator Ernie Chambers,
184a

who also expressed concern about the “treatment
plans” that DCS might make “for Mr. Jenkins to
return to the community, instead of being released
directly
from
Administrative
Confinement
(segregation) to the community.” Later that day
(February 25), Mr. Houston, who had received a copy
of Mr. Davis’ email, responded with an email saying
that “Dr. Kohl will be in touch with you.”
Our next effort along these lines was to send a
letter to Dr. Kohl on March 5, 2013, to make one last
proposal for treatment for Mr. Jenkins. In that letter,
signed by Assistant Ombudsman Moreland, the
Ombudsman’s Office pointed out again that Mr.
Jenkins had spent a considerable amount of time in
segregation at TSCI, and was due to be discharged
soon. Noting that “it appears that the Courts and
(the mental health staff at the jail in) Douglas
County would agree to the presence of psychosis,”
while the Department “has doubts in that regard,”
Mr. Moreland reminded Dr. Kohl that “all parties
identify a behavioral issue in Mr. Jenkins.” However,
Mr. Jenkins himself was “resistant to any
explanation other than a major mental illness.” With
all of this in mind, Mr. Moreland made the following
proposal:
I wonder if any consideration has been
given to moving Mr. Jenkins to a
different environment that might make
it possible for the barrier of resistance to
treatment to be cracked or completely
broken down.
I note that at one time
Mr. Jenkins was being treated with
psychotropic
medications
by
the
Department. I believe this was as
recently as January 2010. However, his
185a

medications were discontinued due to his
refusal and the issue of whether there is
a major mental illness, it does definitely
appear that something is happening with
Mr. Jenkins, in terms of his mental
condition, and that is standing in the͒
way of his getting the needed mental
health treatment prior to his discharge.
With the expressed belief that “we all want to
help Mr. Jenkins get better before he is released into
the community,” and with the understanding that
Mr. Jenkins was soon to be released, Mr. Moreland
said that he was hopeful that there would be an
“attempt to persuade Mr. Jenkins to recognize and
address his problems.” In that connection, Mr.
Moreland wrote:
In the interest of what is best for the
community, and for Mr. Jenkins, I would
like to suggest that Mr. Jenkins be told
during his assessment by Dr. Weilage
(actually by Dr. Wetzel) that the
Department is considering transferring
him to LCC segregation for the purposes
of receiving needed behavioral therapy.
If Mr. Jenkins would agree to this
treatment, and if he shows progress,
then he could be considered for a
transfer to OCC͒in the month of May,
shortly before his discharge in June
(actually in July).
This letter was sent to Dr. Kohl via email,
with an electronic copy going to Director Houston.
(Please see Attachment #6) Later, Mr. Houston sent
a response stating that he was “redirecting this issue
186a

to Larry Wayne (DCS Deputy Director for Programs)
as this is a classification issue based on a behavioral
health assessment,” adding the assurance that “we
are all working to have as good an outcome possible
for Mr. Jenkins and the Nebraska community.”
On March 7, 2013, Mr. Moreland followed-up
with an email to Mr. Wayne reinforcing the point
that the Ombudsman’s Office continued to have
“concerns” relating to Mr. Jenkins, and the prospect
of his “being released directly into the community
after spending such a long duration in a segregated
status at a high security unit, without a
comprehensive discharge plan.” Mr. Moreland said
that it would be a good idea “to sit down to discuss
possible discharge strategies when dealing with this
segment of your population,” and suggested the
scheduling of a meeting the following week to
address those concerns. Mr. Moreland sent another
email to Mr. Wayne on March 15, 2013, thanking
him for “moving forward with the transfer
consideration for Mr. Jenkins” (in fact, Mr. Jenkins
was transferred from TSCI to NSP on that date), and
for his willingness to have “further discussion on
strategies pertaining to his discharge plan.” Mr.
Moreland explained that he believed that “a system
to facilitate the return to lower levels of custody (of)
those housed in long- term segregation is important,”
and that, unless there were clear and compelling
reasons not to, “a person serving a long sentence who
would otherwise be released directly to the
community from long-term segregated housing,
should be placed in a less restrictive setting for the
final months of confinement.”
On March 20, 2013, there was a meeting at the
central offices of DCS involving staff from DCS (Mr.
187a

Wayne, Dr. Weilage, Kathy Foster, and Sharon
Lindgren), and staff from the Ombudsman’s Office
(Mr. Davis, Mr. Moreland, and Mr. Sean Schmeits) to
discuss Mr. Jenkins’ case. According to our notes of
that meeting, the following “discharge plan” for Mr.
Jenkins was discussed and agreed to:
1.

Moved from TSCI to NSP Control Unit
(segregation) Friday, March 15, 2013; ͒

2.

After 30 days, he will transition to NSP
Transition Unit baring any compelling
reasons; ͒

3.

Mental Health with treatment (for) Mr.
Jenkins every 15 days; ͒

4.

After 30 days of being in transition Mr.
Jenkins will be reviewed for general
population; and ͒

5.

Kathy Foster Social Worker, will meet
with Mr. Jenkins to assist with the 5
risk factors of ͒discharging.

However, when Mr. Moreland contacted NSP
Warden Diane Sabatka-Rine to inquire about Mr.
Jenkins on April 12, 2013, he was advised that while
Mr. Jenkins had been approved for the transition
program, it would take an additional two to four
weeks to actually transfer him to that program. On
April 23, Mr. Moreland sent an email to Mr. Wayne
complaining that the situation with Mr. Jenkins still
being in the segregation unit at NSP was not
consistent with his understanding of what had been
agreed upon at the March 20 meeting. Mr. Moreland
recalled that at the meeting “we were told that after
30 more days on (segregation), Mr. Jenkins would
transition to (the) NSP Transition Unit,” and that
188a

this had not, in fact, happened. In addition, Mr.
Moreland reminded Mr. Wayne that “during the
meeting, we were told that Mr. Jenkins would be
seen by Mental Health every 15 days,” and that it
was now his “understanding that these actions were
not carried out.” Mr. Wayne responded to this with
an email message saying that he understood from
Warden Sabatka-Rine that Mr. Jenkins “has been
doing well,” but that he had told the Warden that
any changes in Mr. Jenkins’ classification, and any
resulting movements within the system “should
occur in line with institutional resources for time and
space along with trying to situate Mr. Jenkins to
have the best chance of success now and after his
upcoming release.” Mr. Moreland’s response to this
message was to say, via email, that it “does not
capture the meeting we had on March 20, 2013...we
discussed time lines and action items to assure Mr.
Jenkins moved through the system...to make sure
(that) issues such as institutional resources, time and
any other reason outside of Mr. Jenkins being
uncooperative wouldn’t negatively affect the
transitional plan.”
On April 24, Mr. Wayne sent Mr. Moreland a
copy of a message from Warden Sabatka-Rine stating
that Mr. Jenkins would be “moved from the Control
Unit to (the Transition Unit) no later than April 30th
as a part of his ‘transition plan.’” However, a month
later, on May 29, 2013, Warden Sabatka-Rine sent
an email to Mr. Moreland informing him that since
the “current Transition Confinement Group” would
not complete its programming until June 3, and
because the next Transition Confinement Group
would not start its programming until June 10, Mr.
Jenkins would not be able to go to the Transition
189a

Unit to start programing until June 10. Given that
Mr. Jenkins’ discharge date was on July 30, this
meant that Mr. Jenkins would only “have the
opportunity to progress through Week #7 (of the
Program) before his discharge from NDCS.” In fact,
Mr. Jenkins never went through any part of the
Transition Program, and he was eventually released
from custody in segregation to the community
without any meaningful programming.
Impressions and Observations
Those of us who work in the Ombudsman’s
Office have the greatest sympathy for the victims,
and the families of the victims, of the murders that
Mr. Jenkins is accused of having committed – in fact,
even more so after sifting through records from Mr.
Jenkins’ incarceration in the Nebraska criminal
justice system. Clearly, nothing that happened to Mr.
Jenkins while he was incarcerated could possibly
justify, excuse, or explain the brutal murder of four
innocent human beings. All of those victims were
valued and valuable members of our society, and we
are all diminished by their loss.
Although the name Nikko Jenkins is
prominently featured in this report, in fact, the
report is not about Mr. Jenkins, but is actually about
the Department of Correctional Services and how it
managed the care and treatment of an inmate who
was clearly troubled and troubling. The fact that we
possess so much information on this subject gives us
a rare opportunity to examine in great detail how
“the system,” particularly the Department’s mental/
behavioral health system, functioned on an ongoing
basis in its efforts to address Mr. Jenkins’ needs, not
to mention his frequent antisocial behavior. We are

190a

acutely aware of the fact that this report is unusual,
in terms of the extent of the detail that it presents
from the mental health records of the individual
concerned. Certainly, this report could have been
shorter, and less detailed, but much of the detail that
we have included in the report is there in order to be
fair to the mental health professionals involved, and
to provide a meaningful representation of what they
did, and what their opinions were. Of course, we
could have written a shorter report that was limited
simply to the expression of our impressions based
upon what we had observed in the record, but that
would have been, to a large extent, a “hollow report,”
rendered much less meaningful without the critical
context that the detail from the records can provide.
As it is, a great deal of time and effort has gone into
the preparation of this report. We might have done
otherwise - indeed, we might have done nothing - but
given what we know about the situation, and given
the potentially dire consequences of some of the
decisions made in the case, we could not have, in
good conscience, done less than we have here.
In writing this report, our intention is to draw
back the curtain so that the reader can observe how
the mental health professionals working for the
Department of Correctional Services acted and
reacted in the ongoing management of Mr. Jenkins’
case. For the most part, we can do this by simply
allowing the facts to “speak for themselves.”
However, in order to give this effort some greater
focus, we will need to add an accounting of some of
our own impressions and observations.

191a

The Segregation Question
While he was an inmate being held in the
Nebraska correctional system Mr. Jenkins spent
much of his time in segregation, in fact, perhaps as
much as 60% of his time with the Department. His
placement in segregation was supposedly less a
punitive matter than a matter of classification, and
in technical terms Mr. Jenkins was in a segregation
cell because he was classified to a status known as
“Administrative Confinement.” In essence, an inmate
will be classified to Administrative Confinement
(segregation) because he/she is viewed as being an
unacceptable risk to the safety and good order of the
institution. In Mr. Jenkins’ case, there was some
reason to believe that he was in a gang, or was a
“security threat group” member. But more
significantly Mr. Jenkins had repeatedly exhibited
violent behaviors toward other inmates and staff that
resulted in his being placed in a segregation cell for
much of his stay in the State’s correctional system.
During the periods when he was in segregation, Mr.
Jenkins was locked up alone in a cell for twentythree hours per day, every day. This not only meant
that for months at a time Mr. Jenkins was separated
from what most of us would consider to be “normal
human contact,” but it also meant that he was
isolated from all but the most rudimentary
programming that is supposed to be made available
to the inmate population. Thus, Mr. Jenkins’
Administrative Confinement classification, and his
placement in segregation for much of his term of
incarceration, was a measure that would have
broader implications for his progress in terms of his
rehabilitation, and potentially his “condition.”

192a

The programming available in the Nebraska
correctional system falls into three general
categories: (1) anger management/violence reduction
programming; (2) sex offender programming; and (3)
substance abuse programming. Although he also had
a history of substance abuse, the kind of
programming that would clearly have been most
applicable to Mr. Jenkins’ case would be the anger
management/violence reduction programming. The
Department’s Anger Management Program involves
participation in what amounts to a twelve session
regimen that consists of group therapy. Obviously, an
inmate who has to be locked in a segregation cell for
safety’s sake cannot attend group sessions, or at least
not as a group session is normally done. On a couple
of occasions over the years, Mr. Houston mentioned
the idea of bringing programming to the inmates in
the segregation units by providing the programming
through television in the inmates’ cells, but that has
not been accomplished thus far. The other
programming that might have been desirable in Mr.
Jenkins’ case was the Department’s Violence
Reduction Program, which is designed to be an
intensive, inpatient program, with more than one
hundred clinical sessions over the period of twelve
months. The Violence Reduction Program is
supposedly reserved for the Department’s most
violent inmates and, until very recently, had a
capacity that was limited to twelve inmates per year.
Because the Violence Reduction Program is an
inpatient arrangement, and because it is offered only
at the Penitentiary and nowhere else in the system,
it would be quite impossible for Mr. Jenkins, or any
other inmate living in segregation, to participate in
that program, no matter how much the inmate might
need it. Furthermore, even if Mr. Jenkins had not
193a

been in segregation he would have needed to be
transferred to the Penitentiary to receive the
Violence Reduction Programming because it is made
available only there.
Clearly, the programming provided by the
Department of Correctional Services addresses many
of the most significant areas where our prison
population may need treatment and rehabilitation,
but for the inmates in segregation programming is
simply not available, even though the segregated
inmates are often some of the most troubled and
dangerous inmates in the entire system. The
Ombudsman’s Office has long advocated that the
Department find a way to bring meaningful
programming to the inmates in the segregation
units, but thus far those suggestions have not had
positive results. As for a somewhat larger issue, we
are also beginning to question whether DCS is short
of programming resources across the board.
Statistics from DCS for late September of 2013
indicate that only 619 of the Department’s total
inmate population were in some form of
programming. If this is the case, then that would
equal only about 13% of the Nebraska correctional
population. Furthermore, it appears that about 450
of those 619 inmates are participating in the
Department’s substance abuse programs, which
means that only about 3.5% of the total DCS
population is in something other than substance
abuse programming. One of the more positive things
that the Department has done over the last several
years is to increase its substance abuse programming
resources. We are, however, not aware of there being
any similar resourcing enhancements in the other
DCS programming areas. As the Nebraska prison
194a

population now stands, we have reached a point
where the Nebraska prisons and community centers
are filled to about 150% of their design capacity.
Obviously, more inmates necessarily means more
programming demands, and over the years, as the
prison population has gone up, the Nebraska
corrections system may not have adequately
supplemented its programming resources to deal
with the increased demand. In fact, we know that
over the last decade or so the Nebraska prison
population has gone up by about 20%, while the
correctional budget has been increased by only 7%.
At the very least, we would like to suggest that this
is a situation that needs to be examined in detail, to
see if the current programming resources are
sufficient to meet the current needs, including the
need to provide programming for the segregation
inmates (and for the inmates in protective custody,
who are also isolated from access to programing).
When we consider how troubled and potentially
dangerous some of these inmates can be, and when
we consider that most of them will eventually be
discharged back into our communities, it would seem
that the dollars that would be spent on programming
segregation inmates while they are under the control
of DCS would be dollars well spent.
The campaign (if we can call it that) by Mr.
Jenkins to be transferred from TSCI to the Inpatient
Mental Health Unit at LCC so that he could receive
mental health therapy there raises yet another
interesting question as it relates to Mr. Jenkins’
segregation status. In fact, if we are searching for a
continuum of access to, and quality of, the mental
health services being provided to the inmates in our
correctional system, then the segregation units, on
195a

the one hand, and the LCC Inpatient Mental Health
Unit, on the other hand, would be at the opposite
ends of that spectrum. The segregation inmates are
supposed to be seen/interviewed by mental health
professionals once per month to make sure that they
are maintaining their grip on reality, and are not
suffering a “breakdown” due to their being locked up
alone in a cell for 23 hours per day, or due to any
other reasons. An inmate in segregation will also
receive visits from the institution’s mental health
professionals after situations where the inmate had
injured himself/herself, or had to be put into
therapeutic restraints, or had threatened to commit
suicide. However, these contacts are typically done at
the door of the inmate’s segregation cell, and are
often completed in a relatively short period of time,
perhaps only a matter of minutes. And, although
these contacts can develop into longer conversations
between the mental health professional and the
inmate, standing in the gallery and speaking to the
inmate through a cell door is hardly a setting that is
conducive to anything that would be characterized as
“therapeutic,” not to mention “confidential.” It should
also be kept in mind that the inmates in segregation
are often some of the most troubled and dangerous
inmates in the entire system, and therefore are apt
to be inmates who could use therapeutic
intervention/counseling, even when they do not have
a serious mental illness. All of this makes us wonder
whether the fact that an inmate like Mr. Jenkins is
in segregation might actually create as much of a
barrier
to
his
receiving
needed
mental
health/behavioral health therapy, as it does for his
receiving needed programming in important areas
like substance abuse and violence reduction. Clearly,
our correctional system has its share of troubled and
196a

dangerous inmates, but the critical, unavoidable
truth is that most of those inmates will eventually
return to our communities, even if they are not
paroled. If providing these inmates mental health
and behavioral health counseling while they are
in prison will improve their chances of being
successful, law abiding citizens when they are
released, then we would suggest that this be done,
even if it means adding more resources to the DCS
budget, and even if it means finding a new way to
provide direct counseling to those inmates while they
are in segregation.
We would also like to particularly emphasize
the point that what we are talking about here is
providing
counseling/therapy
to
inmates
in
segregation, and doing so without regard to
whether those inmates are diagnosed with a
major mental illness, or merely a behavioral
issue. We know, of course, that the offices of our
Licensed Mental Health Practitioners in the
community are filled with people who do not have a
serious mental illness, but who nevertheless need to
have ongoing counseling/therapy for what would be
characterized as “behavioral health issues.” So, as we
see it, neither one’s confinement to a segregation cell,
nor one’s diagnosis as not having a serious mental
illness, should act as a barrier to their receiving
useful therapy. And we would simply add the obvious
point that this is something that should be done in
some more functional, confidential way than by
talking to the inmate through his/her cell door, a
practice which is demeaning to the mental health
professional, as well as to the inmate.
There is an ongoing debate among correctional
authorities and the advocates of reform as to
197a

whether, in fact, confinement in segregation for
prolonged periods of time can actually lead to
symptoms of mental illness, or aggravate the mental
illness of individuals who were already suffering
from a mental illness when they were sent into
segregation. There are many experts who argue that
the sensory deprivation and isolation from normal
human contact that are the essence of solitary
confinement can make a real difference, in terms of
exacerbating the condition of those inmates who are
already mentally ill. The United States District
Court for the Southern District of Texas, in the case
of Ruiz v. Johnson, 37 F. Supp.2d 855 (1999), has
summarized this perspective in looking at the
situation in Texas, by saying:
the administrative segregation units of
the Texas prison system deprive
inmates of the minimal necessities of
civilized life. While the court recognizes
and appreciates the formidable task of
those public servants saddled with the
task of dealing with problematic, violent
inmates, even those inmates who must
be segregated from general population
for their own or others’ safety retain
some constitutional rights. Texas’
administrative segregation units violate
those
rights
through
extreme
deprivations which cause profound and
obvious
psychological
pain
and
suffering.
Texas’
administrative
segregation
units
are
virtual
incubators of psychoses - seeding
illness in otherwise healthy inmates
and exacerbating illness in those
198a

already suffering from mental
infirmities. (emphasis added) Ruiz v.
Johnson, 37 F. Supp.2d 855, at 861.
The idea that inmates who spend long periods
in solitary confinement can deteriorate in terms of
their mental health is supported by the findings of a
significant body of experts who have looked at the
issue and determined that mentally ill inmates can,
and often do, get worse in segregation. For instance,
the
American
Association
of
Community
Psychiatrists has stated in a position paper that, in
general terms, “conditions in jails and prisons
exacerbate mental illness,” and has also said:
Because of vulnerability to other
inmates, or inability to comply with
regulations, mentally ill inmates are
frequently housed in protective or
punitive
segregation,
where
the
isolation and enforced idleness lead to
further deterioration in their condition.
Mentally
ill
inmates
are
disproportionately sent to “supermaximum
security units”,
where
isolation and sensory deprivation make
decompensation the rule. It is not
surprising that the rate of suicide in
prisons is twice that in the general
population. In jails the rate is 9 times
higher. (This publication can be found
online at http://psychnews.org/pnews/
99-02-05/prison.html.)
This conclusion was supported by the findings
of Dr. Stuart Grassian, a board-certified psychiatrist
and former faculty member of the Harvard Medical

199a

School, who evaluated the psychiatric effects of
solitary confinement in more than two hundred
prisoners in various state and federal correctional
facilities. Dr. Grassian reported in an article
published in the Journal of Law and Policy that he
saw inmates who had hyperresponsivity to external
stimuli, difficulties with thinking, concentration, and
memory, perceptual distortions, illusions, and
hallucinations, panic attacks, overt paranoia,
problems with impulse control, and “primitive
aggressive fantasies of revenge, torture, and
mutilation of the prison guards.” Based on what he
had observed, Dr. Grassian made the conclusion that
“the harm caused by such confinement may
result in prolonged or permanent psychiatric
disability, including impairments which may
seriously reduce the inmate’s capacity to
reintegrate into the broader community upon
release from prison.” (emphasis added) [Please see
Journal of Law and Policy, Vol. 22, p. 325
(2006); online at http://law.wustl.edu/journal/22/p325
grassian.pdf.]
Yet another expert who has looked at this
issue extensively is Dr. Craig Haney, who is a
professor of psychology at the University of
California at Santa Cruz. Dr. Haney was a
professional adviser in the Ruiz v. Johnson case, and
has studied the psychological effects of solitary
confinement for more than 30 years. In 2001, Dr.
Haney authored a paper published by the United
States Department of Health and Human Services
(Assistant Secretary for Planning and Evaluation)
dealing with the psychological impact of long-term
incarceration. In that document, Dr. Haney said that:

200a

The psychological consequences of
incarceration may represent significant
impediments to post-prison adjustment
...The range of effects includes the
sometimes subtle but nonetheless
broad-based and potentially disabling
effects
of
institutionalization
prisonization, the persistent effects of
untreated or exacerbated mental illness,
the long-term legacies of developmental
disabilities that were improperly
addressed,
or
the
pathological
consequences of supermax confinement
experienced by a small but growing
number of prisoners who are released
directly from long-term isolation into
freeworld communities...Over the next
decade, the impact of unprecedented
levels of incarceration will be felt in
communities that will be expected to
receive massive numbers of ex-convicts
who will complete their sentences and
return home...(and) the high level of
psychological trauma and disorder that
many will bring with them. (See the
complete text of Dr. Haney’s paper
online at https://aspe.hhs.gov/basicreport/psychological-impactincarceration-implications-post-prisonadjustment#IV.)
As Dr. Haney has characterized it, “the
residual effects of the post-traumatic stress of
imprisonment
and
the
retraumatization
experiences that the nature of prison life may
incur can jeopardize the mental health of
201a

persons attempting to reintegrate back into the
freeworld communities from which they came.”
(Also, please see Dr. Haney’s testimony before the
United States Senate’s Judiciary Subcommittee on
the Constitution, Civil Rights, and Human Rights June 19, 2012, Hearing on Solitary Confinement;
online at http://www.judiciary.senate.gov/pdf/12-619Haney Testimony.pdf.) And, in the same context, it
is worthwhile to emphasize that, in a policy
statement issued in 2012, the American Psychiatric
Association itself has concluded that:
Prolonged segregation of adult inmates
with serious mental illnesses, with rare
exceptions, should be avoided due to the
potential for harm to such inmates. If
an inmate with serious mental illness is
placed
in
segregation,
out-of-cell
structured therapeutic activities (i.e.,
mental health/psychiatric treatment) in
appropriate programming space and
adequate unstructured out-of-cell time
should be permitted. Correctional
mental health authorities should work
closely with administrative custody staff
to maximize access to clinically
indicated programming and recreation
for these individuals.
The American Psychiatric Association added
the recommendation that “inmates with a serious
mental illness who are a high suicide risk or
demonstrating active psychotic symptoms should not
be placed in segregation housing...and instead be
transferred to an acute psychiatric setting for
stabilization.”

202a

It must be noted that this perspective on the
harmful effects of solitary confinement has been
openly questioned by a study completed in
cooperation with the Colorado Department of
Corrections in 2010. (See One Year Longitudinal
Study of the Psychological Effects of Administrative
Segregation;
online
at
https://www.ncjrs.gov/
pdffiles1/nij/grants/232973.pdf) That study concluded
that solitary confinement does not, in fact, cause
mentally ill prisoners to get worse. However, the
Colorado study has itself been heavily criticized by
many experts, including by Dr. Grassian. [For a very
recent article discussing the case of Sam Mandez, a
Colorado corrections inmate who was apparently
normal in mental health terms when he was first
incarcerated, but who, after nearly sixteen years in
segregation, is now “profoundly, indisputably
mentally ill,” see Half a Life in Solitary: How
Colorado Made a Young Man Insane, by Andrew
Cohen, Atlantic Monthly, November 13, 2013, found
online at http://www.theatlantic.com/national/archive
/2013/11/ half-a-life-in-solitary-how-colorado-made-ayoung-man-insane/281306/.]
Dr. Haney’s point about “the residual effects of
the post-traumatic stress of imprisonment” helps to
put the whole issue of the mental health implications
of solitary confinement into a very different, and yet
valid, frame of reference. If, in fact, prolonged
confinement in segregation does lead to posttraumatic stress disorder that might “jeopardize the
mental health of persons attempting to reintegrate
back into the freeworld communities from which they
came,” then it is probably essential for our
Department of Corrections system to provide even
more attention to its long-term segregation inmates,
203a

first to identify those inmates who are, or may be,
experiencing this post-traumatic stress disorder, and
then to address the effects of this post-traumatic
stress disorder before releasing these potentially
dangerous inmates into our unsuspecting and
vulnerable communities. In fact, if treating these
cases can reduce the risk that these inmates
represent to society after their release, then that
alone is well worth the commitment of resources
involved.
Leaving aside the technical debate among the
mental health experts, we would suggest that so
long as Nebraska’s correctional officials
continue to rely heavily on administrative
segregation, and so long as there is even the
remotest possibility that the highly dangerous
inmates who are placed in segregation might
decompensate and become more mentally ill,
and perhaps even more dangerous, the State
should certainly make those inmates a focal
point of mental/behavioral health attention
and treatment, which is not exactly what we
see happening in Nebraska’s correctional
facilities today. The legitimate security goals of
the Department of Correctional Services are
achieved by the act of separating these
dangerous inmates from others, and securing
them in segregation cells. But having thereby
separated those high risk inmates from the
general population, surely the leadership of
DCS would agree that there is no reason why
those inmates should be treated as if they were
lepers or outcasts, and left without total access
to
the
range
of
programming
and
mental/behavioral health services that are
204a

made available to other inmates. On the
contrary, if anything the inmates in segregation
probably should be receiving far more in the way of
mental and behavioral health services than most
other inmates. To reiterate the key recommendation
of the American Psychiatric Association, “if an
inmate with serious mental illness is placed in
segregation, out-of-cell structured therapeutic
activities
(i.e.,
mental
health/psychiatric
treatment) in appropriate programming space
and adequate unstructured out-of- cell time
should be permitted.”
In summary, the Ombudsman’s Office would
offer the following:
x

It is probable that the Department of
Correctional Services needs much more
in the way of programming resources, if
it is going to make serious progress in
“rehabilitating” its inmate population,
particularly those inmates who are most
troubled and most dangerous. This
would be particularly true in regard to
adding programming resources in the
areas of violence reduction and sex
offender treatment. As for deciding
what the need is, and what resources
should be added, it is suggested that the
most sensible approach to this would be
to ask an independent expert to survey
the situation in Nebraska’s correctional
system, and make recommendations as
to the needs of our system. It is possible
that the Department of Correctional
Services may be able to obtain a grant
to help pay for such a study, but it is
205a

recommended that the Legislature
insist upon having a role in vetting the
specific expert/analyst.
x

With regard to the programming that is
offered in Nebraska’s correctional
facilities, it is suggested that the
Department look into the possibility of
developing therapy/counseling that is
directly
aimed
at
“gang
deprogramming.” In fact, the Nebraska
corrections system may need to begin
treating this “deprogramming-program”
in much the same way that it treats
existing drug abuse treatment efforts,
that is, as a priory program that is
based on giving participants new ways
to think about how they live their lives,
and new skills that will help them cope
with the temptation to fall back into old
“bad habits.” This program: (1) should
not compel the former gang member to
be “debriefed,” in the sense of his/her
being required or expected to disclose
facts about the gang that he/she had
formerly been affiliated with; and (2)
should include practical enhancements
(educational and vocational training, for
example) in the programming resources
of the correctional system that might be
necessary to allow this anti-gang
program to provide the former gang
members with meaningful opportunities
of the kind that will help to lift up the
self-esteem of those who might
otherwise seek “status” through gang206a

involvement.
x

Because the segregation units in
Nebraska’s correctional facilities often
contain some of the system’s most
troubled and dangerous inmates, it is
suggested that the Department of
Correctional Services take steps to
immediately provide programming of all
types to its segregation inmates. The
Department should also develop a
process for the identification of longterm segregation inmates who are, or
may be, experiencing post-traumatic
stress disorder, and to address the
effects of this post-traumatic stress
disorder before they are released from
custody.

x

The
Department
of
Correctional
Services
needs
to
provide
comprehensive ongoing mental health/
behavioral health therapy/counseling to
the inmates in its segregation units.
It is emphasized that this therapy/
counseling should be available not only
to inmates who are identified as having
a “serious mental illness,” but also to
those segregation inmates who are
identified as having “behavioral”
problems.

x

Although there are differences of
opinion on whether mentally ill inmates
in segregation will “decompensate” due
to the nature of their segregated
environment,
the
Department
of

207a

Correctional Services should take the
“conservative approach,” by confronting
this risk directly, rather than simply
hoping that decompensation will not
occur. With this concern in mind,
Nebraska’s Department of Corrections
should move forward to implement the
recommendation of the American
Psychiatric Association, and require its
mental health staff to work closely with
the agency’s administrative custody
staff to maximize access to clinically
indicated programming and recreation
for these individuals.
The Transition Question
Over the years, the Ombudsman’s Office has,
in its contacts with corrections leadership, repeatedly
advocated for the idea that it is desirable to arrange
for inmates, particularly for long-term inmates, to
“transition” from institutional confinement to the
community at large. The idea is that inmates will be
more likely to be successfully reintroduced into the
community outside of the prison walls, if they are
gradually assimilated into that setting in a
controlled, closely supervised way. In most cases, this
can be done by moving the inmate in gradual steps
first to minimum custody, then to community
custody (work detail/work release), and then to
parole. We believe that this strategy is not only
advantageous for the inmate in question, but it is
also desirable from the standpoint of the community,
since it is one way that we can make it more likely
that the inmate will be a law-abiding citizen after
his/her release. And transition is a strategy that is,
in fact, implicit in the structure of the corrections
208a

system itself, with its obvious “step-downs” from
maximum custody, to medium custody, to minimum
custody, with its community corrections (work
release) facilities, and ultimately with its availability
(for some inmates) of a release on parole, where the
inmate is actually reintroduced into the community,
but subject to very close supervision.
If this idea of “transition” is a desirable
strategy in general terms, then we believe that it is
even more essential when dealing with cases (like
that of Mr. Jenkins) where the inmate in question
has been held in close and isolated confinement in a
segregation cell for an extended period of time. In
fact, by our calculations Nikko Jenkins spent
approximately 58 months of his sentence in a DCS
segregation cell, a period of time which, in the
aggregate, amounted to nearly five years in
segregation/isolation. Before the end of his sentence,
Mr. Jenkins was in segregation continuously from
July 19, 2011, until July 30, 2013, a period of just
over two years. And, in fact, we know that there are
DCS inmates other than Mr. Jenkins who have spent
even longer periods of time in the extreme isolation
of a segregation cell, and who would be likely to have
a high degree of difficulty adjusting to life in the
general population of a prison, let alone in adjusting
to life in the community at large. In addition, as we
have indicated, the inmates who are kept in
segregation are not only isolated in terms of their
being separated from other people, but also in terms
of their being separated from access to needed
programing. So, without any form of transition from
segregation to a “normal life,” these inmates are
going through the shock of being released directly
from an isolation cell to our streets, very often with
209a

nothing having been done for them in the way of
programming/rehabilitation.
This “transition issue” was discussed by Dr.
Craig Haney in his 2001 paper published by the
United States Department of Health and Human
Services. In that document, Dr. Haney stressed the
point that “no significant amount of progress can be
made in easing the transition from prison to home
until and unless significant changes are made in the
way prisoners are prepared to leave prison and reenter the freeworld communities from which they
came.” Dr. Haney urged that prison systems should
“provide all prisoners with effective decompression
programs in which they are re-acclimated to the
nature and norms of the freeworld,” and emphasized
that “prisoners who have manifested signs or
symptoms of mental illness or developmental
disability while incarcerated will need specialized
transitional services to facilitate their reintegration
into the freeworld,” programming which should
include “pre-release outpatient treatment and
habilitation plans.” Dr. Haney also stressed that this
process “must begin well in advance of a prisoner’s
release,” and that “no prisoner should be released
directly out of supermax or solitary confinement
back into the freeworld.” (See online at
http://aspe.hhs.gov/hsp/prison2home02/Haney.htm#
IV.)
While he was the Director of the Department
of Correctional Services, Robert Houston took a very
important step in this area. Mr. Houston supported
the usage of segregation as a tool for maintaining
order in the institutions, but he also recognized that
it would be desirable at some point to transition longterm segregation inmates back into the prison’s
210a

general population in the hope that they would͒be
able to succeed in that environment, without causing
the problems that had gotten them sent to a
segregation cell in the first place. The solution was to
create a Transition Unit at the Penitentiary to
provide a “neutral setting” where long-term
segregation inmates could gradually become
acclimatized to living among larger and larger
groupings of people, and could receive transition
programming to help them learn to cope with the
pressures and difficulties of life in the prison’s
general population. We believe that it is highly
desirable for long-term segregation inmates to go
through this programming, although unfortunately
that does not always happen, even though the
Transition Unit was created for that very purpose.
Mr. Jenkins’ situation is an example of a case
where an inmate did not have the advantage of
receiving either rehabilitative programming or
transition programming before he was released to
the community. As I have indicated, the
Ombudsman’s Office was struggling to have Mr.
Jenkins promoted from his segregation cell and into
the prison’s general population, almost right up to
the very point when he was finally discharged from
custody on July 30, 2013. Based on our discussions
with DCS officials, it was our understanding that Mr.
Jenkins would first be moved from segregation at
TSCI to segregation at the Penitentiary’s Control
Unit on March 15, 2013, and then, after 30 days, Mr.
Jenkins was to be moved into the Penitentiary’s
Transition Unit for preparation to be released into
the prison’s general population. Of course, this idea
was less than ideal, given the likelihood that Mr.
Jenkins would be released in July, but it was the
211a

best that we could hope for, given the short time that
was left. It should be remembered, however, that
back in February of 2012, the Department’s own
MIRT team had recommended that Mr. Jenkins be
“considered for the transition program at NSP to
allow time in GP (general population) prior to
discharge next year.” If this recommendation had
been followed (which it was not), then Mr. Jenkins
might have been able to receive some meaningful
transition programming, and have a real opportunity
to acclimate himself to life in a larger (if prison)
society before his eventual release. As it is, we will
never know whether that programming and
transitioning from a segregation cell would have
made a difference with Mr. Jenkins, but then that is
the problem...we will never know.
Only about 350 inmates out of all the inmates
in Nebraska’s correctional system are serving some
form of Life sentence. All of the rest of our inmates, a
number that is somewhere in excess of 4,000
inmates, will eventually be released from
confinement, where they will ultimately surface as
our neighbors, our friends, our fellow employees, etc.
Clearly, this implies that it will be in everyone’s
interest for all of our inmates to have the best
possible chance to succeed after their release, which
we know can best be achieved through following a
“policy
of
transition,”
and
by
providing
comprehensive, evidence-based programming (both
during incarceration, and while on parole after
release). And if this principle is true generally, then
it is even more valid in the cases of segregation
inmates who have spent vast quantities of time in
isolation from virtually all social contact. With this in
mind, consideration should be given to tracking
212a

the fate of those inmates who are released from
long-term segregation to measure their
recidivism rate (which is apt to be high), and to
see whether programming and a transition
strategy makes a difference in the success of
those inmates after their release. And, in any
event, the Ombudsman’s Office continues to
believe that it is desirable for the Department
to require the development of a detailed,
individualized, and comprehensive transition
plans/programming for all inmates who have
spent prolonged periods of time in segregation.
The Sentencing/Good Time Question
In the wake of the charges brought against
him, some issues have been raised about the
sentencing of Mr. Jenkins and how his good time was
handled while he was in the Nebraska correctional
system. In fact, Mr. Jenkins was sentenced on three
successive occasions, and each of the last two
sentences was made to run consecutively, and added
years to his term of incarceration. Mr. Jenkins’
original sentence was in 2003 for two counts of
Robbery, and one count of Use of a Weapon to
Commit a Felony, and in that instance Mr. Jenkins’
sentence was for an indeterminate term of from
fourteen to fifteen years. In August of 2006, Mr.
Jenkins was sentenced to a term of two additional
years for one count of Assault in the Second Degree,
a sentence which related to the assault that he had
committed while an inmate at NCYF. In 2011 Mr.
Jenkins was given an additional consecutive
sentence of from two to four years for Assault on a
Correctional Employee - Third Degree, a sentence
which related to the instance where he assaulted his
escort when he was in Douglas County on a Travel
213a

Order to attend a funeral on December 17, 2009. In
the aggregate, these sentences made Mr. Jenkins’
total sentence a term of from eighteen to twenty-one
years. In my experience, none of these sentences look
unusual or extraordinary to me, in the sense of being
either too lenient, or too harsh. Some judges might
have given a more lengthy term, some less, but these
sentences are within what I would consider the
normal range, based upon what I have seen in
looking at sentencing orders in the past (if anything,
the first sentence of 14 to 15 years might seem to be
somewhat long, given the youth of Mr. Jenkins at the
time).
It is worth noting that there was at least one
more instance during Mr. Jenkins’ history in the
Nebraska correctional system where Mr. Jenkins
might have been given one additional sentence, but
was not. On February 17, 2007, Mr. Jenkins and two
other LCC inmates were involved in the assault upon
a Native American inmate. In that case, it was
alleged that Mr. Jenkins had struck the other inmate
several times in the head, while one of the other
assailants supposedly used a heavy padlock to
bludgeon the victim. Unlike the situation in Omaha
in 2006, Mr. Jenkins was not, to the best of our
knowledge, charged with felonious assault in the
2007 case at LCC. In addition, it does not appear
that Mr. Jenkins forfeited any good time in
connection with that February 17, 2007, incident.
(Mr. Jenkins did forfeit 45 days of good time on
February 23, 2007, but records indicate that in that
instance he was being punished for “tattoo
activities.”) To the extent that Mr. Jenkins was ever
“punished” in connection with the February 17, 2007,
incident, it would appear that the “punishment” for
214a

that event was limited to his being classified to
Administrative Confinement status, and placed
indefinitely in segregation.
Like nearly all of the inmates in the Nebraska
correctional system, Mr. Jenkins was given “good
time” credits which substantially reduced his
sentence as pronounced by the courts. (In addition,
his term of confinement was also reduced by his
being given credit for time served in jail prior to
sentencing, as is allowable under Nebraska law.)
Given the ultimate length of his sentence, if he had
received all of his possible good time credits, it
appears that Mr. Jenkins would have been able to
discharge from custody perhaps as early as January
of 2012. If all of his good time had been forfeited,
then Mr. Jenkins would not have been subject to
discharge until the end of his full maximum term
(less jail credit), or sometime in 2024 (although an
inmate that loses all of his/her good time is an
extremely rare occurrence).
Nebraska’s sentencing and good time laws
have a long, and rather circuitous, history. The
“modern era” of Nebraska’s sentencing and good time
laws goes back to 1969, and LB 1307 of that year.
Even then, the sentencing laws in this state
contemplated that most inmates would receive
“indeterminate sentences,” that is, sentences with a
range that provided for a minimum term and a
maximum term, as pronounced by the sentencing
court. Good time credits are typically deducted from
both the minimum and the maximum. LB 1307
(effective in August of 1969) was unusual in that it
implemented an idea referred to as “mandatory
parole.” Typically, an inmate’s sentences will provide
for a parole eligibility date, that is, a date when the
215a

Board of Parole may, in its discretion, choose to grant
the inmate a parole. However, this was a decision
that would always be within the Parole Board’s
discretion, and there are often situations where the
Board of Parole will choose not to grant a parole to
an inmate who is eligible (which is what happened in
Mr. Jenkins’ case). Consistently, throughout the
decades, inmates’ parole eligibility dates have been
determined by subtracting good time credits from the
inmates’ minimum sentence. And that is how parole
eligibility was set under LB 1307 of 1969. However,
LB 1307 also provided for a “mandatory parole,”
which was a situation where the inmate had to be
released into the community before the end of his/her
sentence, but would be subject to parole supervision
until he/she was finally discharged. The big
advantage of a mandatory parole system is that it
guarantees that all inmates who are released will
have an opportunity to live in the community under
supervision – that is, no one would be simply
released into society cold, without supervision, as
had happened in the case of Mr. Jenkins. (Of course,
if the inmate on mandatory parole misbehaved while
on parole status, then the parole could be revoked by
the Board of Parole, in which case the inmate would
be returned to custody, typically until the end of
his/her maximum sentence.) Under LB 1307, the
mandatory parole date of an inmate’s sentence was
set by subtracting good time from his/her maximum
term, and the inmate would then finally be
discharged at the point when he/she reached the end
of his/her maximum term as set by the judge. The
amount of good time allowed under LB 1307 was five
days per month plus:

216a

2 months per year for year-one of the
sentence;͒
2 months per year for year-two of the
sentence;͒
3 months per year for year-three of the
sentence; and͒
4 months per year for year-four of the
sentence, and for every year thereafter.
So, an inmate would receive what amounted to
four months of good time credit on his/her sentence
in the first year, and would eventually receive as
many as six months per year after completing the
third year of his/her sentence.
From the beginning there was always the
understanding that the inmate could lose good time,
if he/she was found to have violated the rules
relating to behavior within the institution. Thus,
good time credits were not irrevocable rights, in the
sense that the credits could not be forfeited. On the
contrary, many inmates could very well expect to lose
a part, even a significant part, of their good time
credits during the course of their stay in the
corrections system, if they engaged in prohibited
behavior. However, in 1974 the United States
Supreme Court in the case of Wolff v. McDonnell, 418
U.S. 539, held that good time credits could be taken
away from an inmate by the state’s correctional
authorities only after the state had provided certain
minimal forms of Due Process, including notice of the
charges being made, and an administrative hearing
with a right for the inmate to be heard in his/her own
defense.

217a

The good time laws in Nebraska were changed
effective August 24, 1975, by the adoption of LB 567
of that year. Under LB 567 the statutory amounts of
good time allowed were unchanged, but the idea of
mandatory parole was eliminated. As was the case
with LB 1307, inmates’ parole eligibility dates were
to be determined by subtracting good time credits
from the inmates’ minimum sentence. However, LB
567 provided that henceforth good time reductions
from the inmates’ maximum sentence would be used
to determine when the inmate would be discharged
from custody. After 1975 and LB 567, Nebraska’s
good time and sentencing laws remained unchanged
for nearly two decades, until the adoption of LB 816
in 1992. What LB 816 actually changed was the rate
of good time credits – now inmates would earn good
time credit at a rate of six months per year for all
years of their sentence. The sentencing and good time
laws were next changed by LB 371 of 1995. First of
all, LB 371 created a new category of sentences, the
“mandatory minimum” sentence, which in the case of
certain offenses required the inmate to serve the full
minimum sentence, without receiving any good time
credits on the minimum. It also created the so-called
“positive time” system for awarding good time to
inmates in the Nebraska correctional system. Under
LB 371, non-mandatory minimum inmates would
still receive good time credits of six months per year
in order to determine their parole eligibility date.
However, instead of automatically receiving six
months of good time for every year of their sentence
for the purpose of setting their discharge date, the
inmates were required to earn half of their good time
for discharge-date purposes by actively participating
in a “personalized program,” which was to be
developed for each inmate by the Department. There
218a

were several problems with this system, however.
For one thing, there were potentially concerns about
fairness, and possible biases that might be involved
in judging which inmates had done enough to earn
their good time. In practice, there were also concerns
about whether inmates with intellectual disabilities,
including reading disabilities, would be able to meet
the expectations of their personalized program. And,
a system that requires meeting the expectations of a
personalized program implies that there will be
adequate programming resources in the correctional
system to make that possible. However, as the
population of the Nebraska correctional system went
up, it was not at all clear that the system’s
programming resources were truly keeping up with
the rapidly increasing demand, creating a shortage,
and putting inmates in a Kafkaesque situation where
they were expected to expose themselves to
programming opportunities that did not exist.
The Nebraska good time laws were changed
again in 1997 with the adoption of LB 364. What LB
364 (effective July 1, 1998) did, in effect, was return
the system to one where good time was again
awarded at a flat rate of six months per year of
sentence, not only for parole eligibility purposes, but
also for the purpose of setting the inmates’ discharge
dates. In other words, LB 364 dropped the LB 371
concept of “earning” good time, and went back to the
old system of awarding good time “automatically,”
with the understanding that the inmate could lose
his/her good time for breaking the rules of the
institution, or if he/she intentionally failed to comply
with the personalized plan, in which case the inmate
could have disciplinary action taken, and might lose
three months of good time per year. The most recent
219a

change to Nebraska’s good time laws came in 2011 in
the form of LB 191. According to LB 191, an
additional three days per month could be deducted
from an inmate’s maximum term, to determine the
date when discharge from the custody of the state
becomes mandatory, but only if certain conditions
were met by the inmate. Specifically, an inmate’s
maximum term is to be reduced “by three days on the
first day of each month following a twelve-month
period of incarceration within the department during
which the offender has not been found guilty of
(serious acts of misconduct).” In addition, LB 191
good time is not subject to being forfeited by the
inmate, or taken away by the Department.
When it comes to the practicalities of recording
good time credits, it has always been the practice of
the Department of Correctional Services to credit the
inmates with their good time months “up front,” and
then subtract the inmates’ forfeited good time
piecemeal, as the misconduct cases are adjudicated
over the years. The handling of the good time is done
this way for a couple of reasons. First of all, it helps
to give the inmates a set of clear numbers, that is,
dates of parole eligibility and tentative discharge, so
that they will know with some clarity what they have
to lose, if they misbehave. And, if the good time is
added in to the sentence calculation “up front,” then
the the inmate will have a sense that he/she has a lot
to lose by not following the rules. Second, crediting
the good time up front also helps the system to plan,
with the Board of Parole, for example, having a sense
of when it will have to be seriously looking at the
offender because he/she is nearing parole eligibility.
And so, while as a bookkeeping matter, the
Department could have a process of adding the good
220a

time credits in month-to-month increments, that
would be a significant departure from the current
system, and would diminish the advantages that I
have just described.
With the arguable exception of the three days
of good time added to the system via LB 191, the
inmates are not expected to “earn” their good time by
good behavior, however that might be defined.
Instead, the system assumes that the inmate’s good
time is “vested” when he/she begins the sentence,
although it is time that can be taken away from an
inmate who misbehaves (except, of course, in the case
of the LB 191 good time). As the Nebraska good time
system has been handled by corrections officials over
the years, it certainly was not about being lenient
with inmates. Instead, it is all about giving
corrections officials a way to try to manage inmates’
behavior, mostly by giving them a powerful
disincentive to misbehave. Basically, what the good
time system is intended to do is to allow corrections
officials to discourage their inmates from
misbehaving by making it possible for the
Department of Correctional Services to lengthen an
inmate’s sentence, if he/she breaks the rules. So the
State’s good time system, as the system functions
today, is not about being lenient with inmates. On
the contrary, it is all about empowering our
corrections officials to maintain order in our prisons
by giving them the discretion to add time to inmates’
sentences.
When a judge in Nebraska sentences a
defendant to an indeterminate sentence, for example,
a term of from ten to twenty years, presumably he or
she knows that through the application of Nebraska’s
good time statutes the sentence will translate in to
221a

something nearer to a term of from five to ten years.
But the sentence pronounced by the judge is both
setting the absolute maximum of the sentence, and
what, in effect, amounts to the absolute minimum of
the sentence’s perimeters, with the understanding
that he or she is giving the Department of
Corrections broad discretion to lengthen the inmate’s
sentence (at least, within a certain range), if the
Department feels that doing so is justified because of
the inmate’s behavior. It is my sense that the
Department places great value on having this
authority, even though, since 1974 and Wolff v.
McDonnell, they have had to provide minimal Due
Process before taking the inmate’s good time.
As the reader can see from this account,
Nebraska’s good time laws have been amended
frequently over the years. What we have learned
from all this is that, when contemplating further
changes in the good time laws, two major points
must be considered. First, laws amending the
Nebraska statutes on how good time is credited
cannot be made͒to apply retroactively. See Boston v.
Black, 215 Neb. 701, 340 N.W.2d 401 (1983). Thus,
all changes in the good time statutes are prospective
only. The effect of this is that our corrections system
now has what are, in effect, cohorts of inmates
marching through their sentences, while serving
their time under very different laws. All of this has
made the system for accurately calculating our
inmates’ sentences into a somewhat complicated
process. Second, it is very important to keep in mind
that changes in our good time laws can have very
significant effects (some of them foreseen, some
unforeseen) on the size of the Nebraska prison
population. This means that it is advisable to first
222a

carefully calculate what the projected population
impact will be with respect to any proposed change in
our good time laws, particularly those changes that
will reduce good time credits, and thereby lengthen
sentences.
The Mental Health Services Question
Our access to Mr. Jenkins’ files has given us a
rare, if not unprecedented, opportunity to observe, in
minute detail, how a correctional mental health
system interacts with a deeply troubled inmate. In a
2006 report, the U.S. Bureau of Justice Statistics
estimated that 56% of state corrections inmates had
a mental health problem of some nature. The same
report further indicated that as many as 15% of all
state prisoners reported symptoms that met the
(DSM-IV) criteria for a psychotic disorder, including
signs of delusions “characterized by the offenders’
belief that other people were controlling their brain
or thoughts, could read their mind, or were spying on
them,” and/or hallucinations, including “reports of
seeing things others said they did not see or hearing
voices others did not hear.” Clearly, Mr. Jenkins
would have to be included in that 15% of prison
inmates who reported symptoms that meet the
criteria for a psychotic disorder (for instance, he has
reported “hearing voices”). However, as to whether
Mr. Jenkins, in fact, suffers from a serious mental
illness, that seems to be less a matter of conjecture
than a question of which expert you choose to agree
with on the issue.
The record in this case clearly depicts a level of
uncertainty, or dissonance, over the correct diagnosis
of Mr. Jenkins’ condition, and particularly over the
issue of whether he has a serious mental illness. If

223a

we look at the opinions expressed by the four
psychiatrists who had the most comprehensive
exposure to the question of Mr. Jenkins’ diagnosis,
we see a situation where different experts arrived at
nuanced, but still very different, conclusions. Dr.
Baker expressed the opinion that Mr. Jenkins’
symptoms
were
“inconsistent
and
more
behavioral/Axis II in nature,” and that Mr. Jenkins
was attempting to use his mental health symptoms
“for secondary gain, including to avoid legal
consequences in court for (his) recent behaviors.” Dr.
Moore said that it was his opinion that “there is the
possibility that Mr. Jenkins does indeed have a
psychotic illness, (but) I don’t think this is a very
good possibility,” and that Mr. Jenkins’ “major
diagnosis is Antisocial Personality Disorder,” with
“doubt” concerning “the presence of psychosis.” When
Dr. Wetzel examined Mr. Jenkins, he said that his
diagnosis was “Bipolar Disorder NOS, Probable;
PTSD, Probable; Antisocial and Narcissistic PD
(personality disorder) Traits; and Polysubstance
Dependence in a Controlled Environment.” Dr.
Wetzel also said that when he examined Mr. Jenkins,
there was “enough objective evidence of disruption in
sleep cycle, mood and behavior to suggest an element
of major mood disorder influencing the clinical
picture.” When Dr. Oliveto saw Mr. Jenkins on April
23, 2010, his diagnosis of Mr. Jenkins’ condition was
“Axis I-Schitzoaffective disorder vs. bipolar I; Axis
II–Anti-social/Impulsive/ Obsessive.” Later, on
September 22, 2010, Dr. Oliveto gave a diagnosis of
Mr. Jenkins’ condition as being “Axis ISchitzoaffective disorder vs. paranoid schizophrenia;
Axis II-Antisocial/Obsessive/Impulsively dangerous
to others/Explosive,” and his Follow-up Notes
described Mr. Jenkins as being “psychotically
224a

obsessed with plot to kill him or set him up to kill
others,” and as being “psychotic, delusional.” (Of
course, it was also Dr. Oliveto who recommended
that Mr. Jenkins should be transferred to the Lincoln
Regional Center “before his discharge to stabilize
him so he is not dangerous to others.”)
As we have remarked earlier, it is possible for
reasonable mental health professionals to differ in
their diagnosis of the condition of the same patient.
However, as we can see from the opinions expressed
in Mr. Jenkins’ case, the development of a firm
psychiatric diagnosis for some individuals can
sometimes be very difficult, as the doctors try to use
their training and insights to penetrate the clouds
and develop a clear picture of the patient’s condition,
and categorize that condition. And when multiple
experts are involved, it is even possible to see an
array of differing diagnoses falling on a “diagnostic
spectrum,” with a range that extends from – No
Serious Mental Illness, to...May Have a Serious
Mental Illness, but Probably Not, to...May Not Have a
Serious Mental Illness, but Probably Does, to...Has a
Serious Mental Illness. In fact, to a certain extent, we
can see this “spectrum” developing in the diagnosis of
Mr. Jenkins as proposed by Dr. Baker, Dr. Moore,
Dr. Wetzel, and Dr. Oliveto. It would, I believe, be
too dismissive of the skills and professionalism of the
psychiatrists involved to say that the business of
making a psychiatric diagnosis is “more art than
science,” but certainly the impression that a
layperson gets from reading the various diagnoses of
Nikko Jenkins is that our psychiatrists must be
given a great deal of latitude when it comes to
drawing their diagnostic conclusions, at least in some
cases.
225a

If a firm diagnosis of Mr. Jenkins’ condition is
elusive, there are certain elements of his case that
are true beyond any dispute. The indisputable facts
of Mr. Jenkins’ case include the following:
1.
Mr. Jenkins has a history of violence,
including the crimes that got him sent to prison in
the first place, and the violent acts that he engaged
in after his incarceration, (a) his role in a “near riot”
in the yard of NCYF on July 4, 2005; (b) his
involvement with two other inmates in the assault of
a Native American inmate at LCC on February 17,
2007; and (c) his assault on a DCS staff person who
escorted him to a funeral in Omaha on a temporary
Travel Order on December 17, 2009. In addition, it
must also be noted that Mr. Jenkins was found to be
in possession of a homemade weapon (a toilet brush
sharpened to a point) concealed in his waistband at
TSCI on January 26, 2009.
2.
Mr. Jenkins consistently reported
having psychotic symptoms, in particular, his often
repeated statements about hearing the voice of an
“Egyptian god” who wanted him “to harm others.”
3.
Mr. Jenkins repeatedly threatened/
warned/predicted that he would commit violent acts
after he was released from DCS custody, including:
On July 22, 2008, when Mr. Jenkins
told Unit Manager Jason Hurt that
“he’s just going to randomly go to
suburban houses and start killing
people outside of North Omaha, maybe
go to Tecumseh or Syracuse with his
gang members and start killing people.”

226a

On July 31, 2008, when Mr. Jenkins
spoke to Mr. Hurt about a “desire to kill
the administration and other people
when he gets out of prison.”
On August 11, 2008, when Mental
Health Practitioner Connie Boerner
reported that Mr. Jenkins had
“expressed having ongoing homicidal
ideations and has made threats to hurt
others once he is released from
incarceration (and) went into detail as
to how he would kill others, similar to
the recent Von Maur shootings.”
On January 15, 2009, when Mr. Jenkins
spoke
to
TSCI
Mental
Health
Practitioner Heidi Widner about “the
life of crime that awaits him once he is
out...(and) that his crimes and killing
will not be limited to just his own kind.”
On February 23, 2009, when Mr.
Jenkins spoke with Ms. Boerner, and
indicated that he “fantasizes of ‘killing’
others once he is released,” and had
stated that “he sees himself ‘destined’ to
be a ‘homicidal maniac.’”
On May 13, 2009, when TSCI Unit
Manager Shawn Sherman submitted a
Mental Health Referral reporting that
Mr. Jenkins “claims to be hearing the
voice of an Egyptian god... telling him to
massacre children.”

227a

On December 3, 2009, when Mr.
Jenkins reported to Dr. Baker that he
was “hearing the voice of an Egyptian
god who wanted him to harm others”
(Dr. Baker added the observation that
that Mr. Jenkins “is not an imminent
danger to himself or others at this
time,” although just two weeks later he
would assault a Corrections employee).
On December 28, 2009, when Mr.
Jenkins sent a Health Services Request
Form to Dr. Baker reporting that the
“voice” in his mind was telling him to
“hurt guards,” and to “start war
between good and evil.”
On January 10, 2010, when Caseworker
Howell reported in a Mental Health
Referral that Mr. Jenkins had
“exhibited
increasingly
aggressive
behavior in the past week... claiming to
hear voices telling him to injure staff.”
On February 27, 2010, at the Douglas
County Jail, when Licensed Mental
Health Practitioner Denise Gaines
spoke with Mr. Jenkins, and later
reported that he had talked about the
“horrific acts that the Egyptian god
Opophus (sp.) wants him to inflict on
Catholics, whites, and children.”
On August 7, 2010, when Ms. Gaines
again spoke with Mr. Jenkins and
reported that he said that “Opophus is
telling him that the day is coming soon
that ‘they will see,’ (and)... Opophus
228a

taking him over and him killing others
once released from prison if he doesn’t
get some help.”
On December 11, 2010, when Ms.
Gaines reported that Mr. Jenkins
seemed “scared about being released
because of the violence that he is
(through Apophis) inflict on people and
police.”
On March 25, 2011, when Ms. Gaines
recorded that Mr. Jenkins “continued to
express
thoughts
about
doing
murderous acts on society (i.e.,
killing/torturing nuns, children, etc.).”
On December 23, 2011, when Mr.
Jenkins told Dr. Baker that he “feels he
will hurt others when released back into
the community.”
On February 1, 2012, when Mr. Jenkins
told Dr. Weilage that “he wants help
and if he does not get it from us then his
first thought when he gets out is that he
needs to ‘get some weapons.’”
On April 19, 2012, when Dr. Baker
reported that Mr. Jenkins expressed
“concerns about what he will do once he
is released from DOC.”
On January 15, 2013, when Mr. Jenkins
said to Dr. Gibson that “he views
everyone as ‘prey’ and followed-up with
a number of violent images.”

229a

On January 19, 2013, when a nurse at
TSCI reported having heard Mr.
Jenkins saying that he was “afraid he
will get out and ‘rip someone’s heart
out.’”
On January 25, 2013, when Mr. Jenkins
said to Dr. Gibson that, when he was
released, he would “give in to ‘apophis’
who wanted him to kill ‘man, woman
and child’ of ‘every age group.’”
On March 7, 2013, when Mr. Jenkins
made a statement to DCS social worker
Kathy Foster in regard to the “intended
violence that he will commit if he is
discharged to the community,” and told
her that he “does not want to discharge
to the community because he will kill
people and cannibalize them and drink
their blood.” (Please note that Ms.
Foster’s notes from her meetings with
Mr. Jenkins are incorporated in the
Department’s Mental Health Contact
Notes.)
On March 14, 2013, when Mr. Jenkins
met with Dr. Wetzel and expressed
“repeated thoughts of harming other
people in the form of cannibalism and
‘waging war.’’’
On April 5, 2013, when Ms. Foster, the
social worker, met with Mr. Jenkins,
and Mr. Jenkins “stated a couple of
times that he is ‘not kidding,’ it will be
bad’ when he gets out.”

230a

On April 30, 2013, when Ms. Foster had
yet another meeting with Mr. Jenkins,
andMr. Jenkins told her “that when he
gets out ‘it will begin’ and...made
allusions to killing ‘without prejudice.’”
4.
Mr. Jenkins had repeatedly asked
for/demanded that he be given treatment for his
mental condition, including, if possible, through a
transfer to the DCS Inpatient Mental Health Unit at
LCC, or through a civil commitment to the Lincoln
Regional Center.
Those of us who work in the Ombudsman’s
Office do not have the training to express an opinion
on the mental health status of Nikko Jenkins, or of
anyone else, for that matter. All that we can do,
insofar as Mr. Jenkins’ mental state is concerned, is
to note that the diagnoses offered by the different
psychiatrists in this case sound somewhat (perhaps
even considerably) different, so much so, in fact, that
we could say that there was “a difference of
professional opinion” on the subject of Mr. Jenkins’
mental health, and whether he suffers from a
“serious mental illness.” It also appears to us that
the whole question of what Mr. Jenkins’ correct
diagnosis might be was something that, in an odd
way, became a barrier to his getting treatment for
his condition, whatever it might be. The record, in
fact, suggests that a great deal of time was spent by
the DCS Mental Health staff in arguing/
disputing/debating with Mr. Jenkins over the issue of
whether he had a serious mental illness that justified
his being sent to the Inpatient Mental Health Unit at
LCC, or to the Lincoln Regional Center, when it
might have made more sense to try to engage him in
some kind of therapy beyond just prescribing
231a

medications (which he typically would stop taking
after a brief period of time), or to at least develop a
long-term plan for trying to “reach” Mr. Jenkins.
The strict question of his diagnosis aside, we
know that Mr. Jenkins repeatedly asked the DCS
Mental Health staff to provide him with ongoing
therapy to address his troubled condition. He
requested to be transferred to the Inpatient Mental
Health Unit at LCC, and even lobbied to be civilly
committed to the Lincoln Regional Center. Examples
of this are reflected in the following contacts:
On March 27, 2009, Dr. Weilage visited
with Mr. Jenkins, and reported that “he
is interested in ‘rehab’ and the MHU
(Mental Health Unit) at LCC.”
On December 18, 2009, in a
conversation with Katherine Stranberg,
a Mental Health Practitioner working at
TSCI, Mr. Jenkins “reported that he
wanted to go to the Inpatient Mental
Health Unit (at LCC) because there he
would be able to get the ongoing
treatment he needed.”
On September 26, 2011, Dr. Baker
reported that Mr. Jenkins was
requesting “daily psychotherapy to help
him cope,” and was “very focused on
wanting to be transferred to LRC and
states he will only take meds if
recommended if he is at LRC.”
On February 1, 2012, in a meeting with
Dr. Weilage, Mr. Jenkins “specifically
requested daily psychotherapy...stated
(that) daily psychotherapy would help
232a

with his hypomania, stabilize his
psychosis, and help him deal with the
grief of confinement,” and said that “he
would
comply
with
medications,
therapy, if transferred to LCC and
comply with MHU expectations.”
On March 23, 2012, Mr. Jenkins spoke
with Mental Health staff at TSCI and
“insisted that he needed ‘intense
psychotherapy’ before he was released,”
and that the Mental Health staff should
recommend that he “be placed in a
psychiatric hospital immediately due to
the high level of dis- tress he was
experiencing.”
On April 19, 2012, Dr. Baker spoke with
Mr. Jenkins, and reported that Mr.
Jenkins expressed “concerns about what
he will do once he is released from
DOC,” and that he again said that he
would like to be transferred to LCC or
LRC for mental health treatment, and
continued to “refuse all psychotropics
including...until he can be transferred to
LRC/LCC.”
On May 15, 2012, Mr. Jenkins spoke
with Mental Health staff at TSCI and
“insisted that he was not receiving
proper psychological/psychiatric/mental
health treatment for his mental illness.”
In early May of 2012, Mr. Jenkins
addressed an Informal Grievance to
DCS Director Robert Houston stating
that he had an “emergency need of
233a

medical treatment psychologically,” and
that he wanted to be approved to receive
treatment at the “LCC mental health
mod for (the) mentally ill.” (It appears
that Mr. Jenkins’ grievance was
ultimately routed to DCS Deputy
Director for Institutions Frank Hopkins
for a response.)
On January 10, 2013, Dr. Pearson spoke
with Mr. Jenkins, and reported that he
had stated “that he was ‘psychotic’ and
needed transferred to the Lincoln
Regional Center for care.”
On January 16, 2013, Dr. Gibson met
with Mr. Jenkins, and reported that Mr.
Jenkins had ex- pressed “a belief that he
should be hospitalized for psychiatric
concerns (particularly being dangerous
to others), as he will be released soon.”
After Mr. Jenkins inflicted significant
wounds to his face on January 18, 2013,
a nurse at TSCI reported to Dr. Gibson
that Mr. Jenkins had been “screaming
about wanting psychiatric treatment, as
he is reportedly afraid he will get out
and ‘rip someone’s heart out.’”
On January 25, 2013, Mr. Jenkins spoke
with Mental Health staff at TSCI and
requested “hospitalization so that he
does not harm other people.”

234a

On February 17, 2013, Mr. Jenkins sent
an Informal Grievance to TSCI Warden
Fred Britten in which he said that he
was “requesting psychiatric hospitalization for severe psychosis conditions of
enragement episodes of my schizophrenia disease,” and specifically
referenced the Nebraska Mental Health
Commitment Act.
On February 19, 2013, Licensed Mental
Health Practitioner Brandy Logston
spoke with Mr. Jenkins, and reported
that Mr. Jenkins told her that “he
‘wanted it documented’ that he was in
need
of
‘emergency
psychiatric
treatment.’”
On March 14, 2013, Mr. Jenkins told
Dr. Wetzel that he was due to be
released from prison in July, and that
he “wants to be placed in a psychiatric
hospital to stabilize for ‘modern times.’”
In short, Mr. Jenkins was asking for help, and
although there might perhaps be some doubts about
his sincerity in that regard, there can be little
reasonable doubt about the fact that he did have a
dangerous history, and was expressing dire and
dangerous ideas to the DCS Mental Health
professionals...over, and over, and over. [When it
comes to the question of Mr. Jenkins’ sincerity, we
should keep in mind Ms. Gaines October 8, 2010,
Progress Notes, which include the observation that
she “sincerely believes that this client wants help,
but is giving up on anyone (the system) providing
him with help.”] With all of this in mind, it is difficult

235a

to look at this case (indeed, very difficult to look at
this case) and not feel that it might have made more
sense to deemphasize the whole question of
diagnosis, and concentrate instead on the verifiable
facts – the inmate’s actions, the inmate’s history, the
inmate’s statements; in short, the inmate’s
dangerousness. And, having considered the obvious
potential that Mr. Jenkins had for dangerous
behavior, it would also have made better sense to
have formulated a strategy of therapy that might
have made a difference in regard to his future
behavior, or that, at least, might have given the
Mental Health staff a better sense of where he
needed to go after he was discharged from DCS
custody.
There can be little doubt that some of the
mental health professionals who were aware of Mr.
Jenkins knew, or should have known, that he was
potentially dangerous. Even as early as July of 2008,
Connie Boerner, part of the TSCI mental health
staff, stated that Mr. Jenkins “is a very dangerous
individual.” On July 17, 2009, another TSCI mental
health professional, in reporting on a conversation
with Mr. Jenkins, expressed the opinion that Mr.
Jenkins “appears to be at considerable risk for
reoffending and for interpersonal violence.” And, of
course, both Dr. Oliveto and Ms. Gaines at the
Douglas County Jail were not only very concerned
about Mr. Jenkins’ dangerousness, but were also
very clear in their attempts to warn others about
how dangerous Mr. Jenkins might be after release.
On September 22, 2010, after he had examined Mr.
Jenkins, Dr. Oliveto not only recorded his opinion
that Mr. Jenkins’ diagnosis included “schitzoaffective
disorder vs. paranoid schizophrenia,” but also said
236a

Mr. Jenkins needed “transfer to LRC before his
discharge to stabilize him so he is not dangerous to
others.” These observations, together with Ms.
Gaines’ own observations of Mr. Jenkins while in her
care, resulted in the December 1, 2010, letter that
Ms. Gaines addressed to the Nebraska Board of
Parole in which she advised the Board that Mr.
Jenkins had been evaluated by Dr. Oliveto, who was
recommending that Mr. Jenkins should be
“transferred to Lincoln Regional Center for
treatment before being discharged (from the
correctional system) for ‘stabilization so he is not
dangerous to others.’” Later on in Mr. Jenkins’ period
of incarceration, on March 4, 2013, Dr. Baker met
with TSCI psychologist Dr. Pearson to propose that
Mr. Jenkins “be seen by Dr. Wetzel for a second
opinion,” so that Dr. Wetzel could “assess (Mr.
Jenkins) for dangerousness risk,” due to her concerns
about “his dangerousness to the community upon
release.”
In a sense, many of these issues - Mr. Jenkins’
mental health, his history of asking for treatment of
his mental health condition, and the fact that his
“serious history of mental illness...inhibits his ability
to be rehabilitated” - were pulled together in the
sentencing Order signed by Douglas County District
Judge Gary B. Randall on July 11, 2011. Noting that
Mr. Jenkins had “requested treatment for his mental
health issues,” and that “the record...would support
the Defendant’s request,” the Order signed by Judge
Randall included what was an extremely unusual
statement: “The Court therefore recommends to the
Department of Correctional Services that Defendant
be assessed and treated for issues regarding his
mental health.” Of course, this was only a
237a

recommendation, subject to the informed judgment of
the Department’s Mental Health staff as to whether
it was to be implemented, or not. In fact, we know
that Mr. Jenkins was subsequently evaluated by the
DCS Mental Illness Review Team (although that did
not happen until February of 2012). And Mr. Jenkins
was evaluated by Dr. Wetzel at Dr. Baker’s
suggestion, but that did not happen until March of
2013. We would also note that Mr. Jenkins was
returned to TSCI on July 19, 2011, and that on
February 1, 2012, Dr. Weilage recorded that Mr.
Jenkins had been “seen by licensed Mental Health
staff for evaluation and/or monitoring on 10
occasions” since having returned to TSCI. It is
probably best left to the reader to decide whether
this history of “10 occasions” reflected a meaningful
execution of Judge Randall’s recommend-dation
regarding assessment and treatment of Mr. Jenkins.
As we have sifted through the deep drifts of
records and documents relating to this case, one of
the most insightful and impressive remarks/
recommendations concerning Mr. Jenkins’ situation
that we have seen was the following note written by
Dr. Wetzel:
Long-term strategies recommended for
this patient include development of a
rapport
and
trust
to
enhance
participation in psychiatric care, ongoing
development
of
objective
evidence
supporting - - or not supporting - - the
presence of major mental illness and the
possibility of further psychological formal
testing to help clarify (the) diagnostic
picture.

238a

While others in DCS seemed to be invested in
the idea that Mr. Jenkins did not have a serious
mental illness, Dr. Wetzel obviously kept an open
mind on the subject. Dr. Wetzel also offered a
practical plan for how the Department’s Mental
Health staff might approach Mr. Jenkins’ situation
in the future. The key word in Dr. Wetzel’s
recommendation, in our opinion, is the word “trust.”
When we read many of Mr. Jenkins’ comments, as
recorded in the documents discussed in this report,
we get the sense that the DCS Mental Health staff
were distrusted by Mr. Jenkins and were seen by
him as being an extension of the TSCI security staff.
(There is much less of this to be found in the records
of Mr. Jenkins’ stay at the Douglas County Jail.) In
its 2012 Position Statement on Segregation of
Prisoners with Mental Illness, the American
Psychiatric Association noted that “(p)hysicians who
work in U. S. Correctional facilities face challenging
working conditions, dual loyalties to patients and
employers, and a tension between reasonable
medical practices and prison rules and culture.”
Certainly, we can appreciate how powerful and
challenging this “tension” can be, and clearly we
would agree with the idea that it is important that
the DCS Mental Health staff be trained and
counseled to struggle against succumbing to this
“tension,” so that the Department’s mental health
professionals can accomplish both the image, and the
reality, of being separate and independent of the
agency’s security staff. It should go without saying
that the DCS Mental Health staff are not employed
in the system for the purpose of advancing/validating
the agenda of the agency’s security staff. On the
contrary, they are there to serve the inmates who are
their patients and, by serving those patients, to
239a

advance the larger interests of the community in
having more stable, law abiding, and “civilized” men
and women released into society, when the day of an
inmate’s release finally arrives. All of this comes
down, in our estimation, to having good leadership
and, as we see it, the quality of the current
leadership of the DCS Mental Health component
should be evaluated through the prism of this case,
no matter how painful that might be.
In summary, the Ombudsman’s Office would
offering the following:
x

In evaluating the inmates who come
into contact with the DCS Mental
Health component, the Department’s
Mental Health staff should place a high
priority on identifying inmates who are,
or may be, dangerous, so that those
inmates can: (1) be given special
attention in terms of providing them
with treatment/therapy; and (2) be
reevaluated for presence of a serious
mental illness as their discharge date
approaches, so that informed decisions
can made as to whether those inmates
should be referred to the civil
commitment process.

x

The DCS Mental Health component
should place a high priority on finding
effective ways to develop a positive
rapport and sense of trust with the
patients that it serves, in order to
enhance the inmates’ participation in
their own mental health/behavioral
health care.

240a

x

In light of the American Psychiatric
Association’s
observation
that
physicians who work in correctional
facilities face “dual loyalties to patients
and employers, and a tension between
reasonable medical practices and prison
rules and culture,” the Nebraska
Department of Correctional Services
should seriously consider whether it
would be desirable, as a way of
protecting/guaranteeing the independence of its mental health professionals,
to privatize the Department’s entire
mental health component.
The Civil Commitment Question

As indicated at a previous point in this report,
in early 2013 Mr. Jenkins contacted the Johnson
County Attorney requesting a civil commitment
proceeding to have himself committed to
hospitalization under the Nebraska Mental Health
Commitment Act (Neb. Rev. Stat. §§71-901 thru 71963). On March 11, 2013, Mr. Richard Smith, the
Deputy Johnson County Attorney, wrote to Mr.
Jenkins acknowledging the receipt of letters from
Mr. Jenkins, “as well as materials provided by (his)
mother and (his) fiancée” regarding Mr. Jenkins’
mental health. Mr. Smith’s letter explained that in
order to file a mental health board petition the
County Attorney would “need to hear from a mental
health expert who can testify as to mental illness and
dangerousness.” Mr. Smith’s letter indicated that he
expected the Department to evaluate whether Mr.
Jenkins was “fit to be released,” or whether “further
inpatient commitment to treat (his) mental illness”
was needed. Mr. Smith also related that when DCS
241a

provided
“copies
of
its
recommendation...a
determination will be made about whether a mental
health petition is appropriate.” Of course, as we now
know, by the time that a mental health commitment
proceeding might have been pursued by the Johnson
County Attorney in Mr. Jenkins’ case, Mr. Jenkins
had already been moved out of Johnson County to
NSP.
Under Neb. Rev. Stat. §71-921(1), “any person
who believes that another person is mentally ill and
dangerous may communicate such belief to the
county attorney,” and “if the county attorney concurs
that such person is mentally ill and dangerous...he or
she shall file a petition,” as provided in Neb. Rev.
Stat. §71-921(3), including a “statement that the
beliefs of the county attorney are based on specific
behavior, acts, attempts, or threats which shall be
specified and described.” Following the filing of that
petition by the county attorney, Neb. Rev. Stat. §71924 provides that “a hearing shall be held by the
mental health board to determine whether there is
clear and convincing evidence that the subject is
mentally ill and dangerous as alleged in the
petition.” According to Neb. Rev. Stat. §71-925(1),
“the state has the burden to prove by clear and
convincing evidence that (a) the subject is mentally
ill and dangerous and (b) neither voluntary
hospitalization nor other treatment alternatives less
restrictive of the subject’s liberty than inpatient or
outpatient
treatment...would
suffice
to
prevent...harm.” Since the clear standard for a civil
commitment is that the person in question is both
mentally ill and dangerous, the Nebraska Mental
Health Commitment Act includes specific definitions
of those two concepts. In that regard, Neb. Rev. Stat.
242a

§71-907 provides that “mentally ill” means “having a
psychiatric disorder that involves a severe or
substantial impairment of a person’s thought
processes, sensory input, mood balance, memory, or
ability to reason which substantially interferes with
such person’s ability to meet the ordinary demands of
living or interferes with the safety or well-being of
others.” And according to Neb. Rev. Stat. §71-908
“mentally ill and dangerous person” means “a person
who is mentally ill...and because of such mental
illness...presents: (1) A substantial risk of serious
harm to another person or persons within the near
future as manifested by evidence of recent violent
acts or threats of violence or by placing others in
reasonable fear of such harm; or (2) A substantial
risk of serious harm to himself or herself within the
near future as manifested by evidence of recent
attempts at, or threats of, suicide or serious bodily
harm or evidence of inability to provide for his or her
basic human needs.” The burden of proof in civil
commitment proceedings is on the county attorney
who has filed the petition and, as indicated above,
requires clear and convincing evidence that the
person in question is both mentally ill and
dangerous. However, the standard for the county
attorney in deciding to go forward with a civil
commitment proceeding is “probable cause to believe
that the subject of the petition is mentally ill and
dangerous.”
As we have indicated, the Ombudsman’s Office
is not qualified to determine whether Mr. Jenkins, or
anyone else, has a mental illness. The same, of
course, can be said of a county attorney. This is why
the standard for the county attorney is “probable
cause,” that is, a reasonable belief “that the subject of
243a

the petition is mentally ill and dangerous.” What we
are left with then, insofar as Mr. Jenkins’ case is
concerned, is this question: Could a reasonable
person (i.e., the county attorney), after looking at the
records in this case, conclude that Nikko Jenkins
could be proven to be mentally ill and dangerous by
clear and convincing evidence? We believe that the
answer to that question is...Yes, a county attorney
could so conclude. In that regard, we would
emphasize the following points:
1.
Mr. Jenkins has a history of violence,
including the crimes that got him sent to prison in
the first place, as well as a series of violent actions
that he engaged in after his incarceration.
2.
Mr. Jenkins has an extensive history of
dangerous/homicidal ideations communicated to DCS
staff - beginning in 2008, at the very latest, and
continuing up until April of 2013, there were
numerous
times
when
he
repeatedly
threatened/warned/predicted that he would commit
violent acts following his release from DCS custody.
3.
The record shows that that in addition
to his contacts with the Johnson County Attorney’s
office, Mr. Jenkins also repeatedly told DCS staff
that he wanted to be civilly committed to the Lincoln
Regional Center, and that he did so at a point in his
sentence when his ultimate discharge from DCS
custody was only a few months away, which is hardly
“normal” behavior for an inmate who is hungering for
freedom after many years of incarceration.
4.
While some psychiatrists expressed
skepticism that Mr. Jenkins was “mentally ill,” Dr.
Eugene Oliveto diagnosed Mr. Jenkins on September
22, 2010, and concluded that his condition was
244a

“Schitzoaffective
disorder
vs.
paranoid
schizophrenia,” and it was based upon this diagnosis
that Dr. Oliveto made the recommendation that Mr.
Jenkins needed to be transferred to “LRC before his
discharge to stabilize him so he is not dangerous to
others.”
In fact, when we stand back and consider
everything that we have seen in the large volume of
records relating to this case, the one sentence that
we repeatedly return to is in Dr. Oliveto’s Physician’s
Orders of September 22, 2010 – “Needs transfer to
LRC before his discharge to stabilize him so he
is not dangerous to others.”
We do not have the ability to decide whether
Mr. Jenkins suffers from a mental illness, but then
we do not need to do that - our question here is
whether the Department of Corrections’ mental
health staff should have referred Mr. Jenkins’ case to
a county attorney for a possible mental health
commitment proceeding. We believe that the
Department should have done so. And we believe
that the Department should have done so regardless
of whether its own doctors had doubts about whether
Mr. Jenkins’ was, in fact, mentally ill. The case, as
outlined above, was enough to take the matter to the
county attorney. It is possible, of course, that the
county attorney could have decided against filing
civil commitment proceedings, but then at least the
Department would have done its duty by bringing
the matter to the proper authorities to allow them
decide whether to go ahead with a civil commitment
or not, as the case may be. It is possible that, even if
the county attorney decided to file civil commitment
proceedings, the board of mental health might have
decided against commitment. We would point out,
245a

however, that §71-924 of the Mental Health
Commitment Act provides that the board of mental
health “shall inquire of the subject whether he or she
admits or denies the allegations of the petition,” and
that “if the subject admits the allegations, the board
shall proceed to enter a treatment order pursuant to
section 71-925.” In other words, if there had been a
civil commitment proceeding filed in Mr. Jenkins’
case, and if he persisted in asking to be committed to
the Regional Center, then that alone could have been
sufficient for the board to order him to be committed.
We would add that it is by no means unusual
for the Department of Correctional Services to
present cases like this one to the county attorney for
possible civil commitment proceedings. In fact, we
have recently been informed that in the last year the
Department of Corrections has referred eleven
inmates to the county attorneys for consideration as
possibly mentally ill and dangerous individuals.
(Please note that these numbers would not include
individuals who were referred under LB 1199 as
possible Dangerous Sex Offenders.) And so we are
left with the disturbing image of eleven other
inmates being referred to a county attorney for
possible civil commitment...but not Nikko Jenkins.
With all of this in mind, we would strongly
recommend
that
the
Department
of
Correctional
Services
establish
a
comprehensive process for identifying those
inmates who should be referred for a possible
civil commitment, with the final decision being
placed in the hands of a high-ranking
layperson in the Department (i.e., not a mental
health professional), so that the final referral
decision can be made based upon: (1) the
246a

evaluations of the mental health professionals;
and (2) the practicalities of the case, including,
in particular, an evaluation of the potential
“dangerousness” of the individual involved.
Conclusion
Sadly, I am well aware that there is nothing in
this report for the families of the victims of Mr.
Jenkins’ alleged crimes. There are no answers here
that can give them comfort, or that can ease their
pain, or that can explain in cool, rational terms why
their loved ones were lost. As investigators and
systems analysts, all that we can do is investigate
and analyze, and the truly big questions - about fate
and bad fortune, the unpredictability of life, grief,
loss, gratuitous violence, the shadowy depths of the
human psyche, and the sometimes all-too-thin veneer
over human nature that we refer to as “civilization,”are all matters that are far beyond our reach and
scope. As far as this report is concerned, in the end,
all that we really have to offer is the truth, at least
as truth is reflected in the records of Mr. Jenkins’
adult incarceration. In the second half of this report
we have offered our own impressions and
observations from our review of the records, but
fundamentally we respect the abilities of the the
readers themselves to arrive at their own
conclusions, and that is why we have gone to such
great lengths to include so much minute detail in
this report – to allow the reader to reach his/her own
conclusions.
Obviously, one of the most important
questions that we are confronted with in this case is
the issue of what diagnostic label should be put on
the condition of Nikko Jenkins. As we have said

247a

earlier, the Ombudsman’s Office is not qualified to
make diagnoses of the mental condition of inmates.
But that does not mean that we simply “defer to the
experts.” Over the years, we have been involved in
cases of DCS inmates (often inmates who had been
held in segregation for long periods of time) who had,
or appeared to have, serious mental health issues
that could not be adequately addressed in the
isolation of a segregation cell. Although the
Ombudsman’s Office is not qualified to arrive at a
medical diagnosis of the condition of these inmates,
we nevertheless have always felt that it was better to
err, if at all, on the side of getting these inmates into
treatment, or to at least ask that the inmates in
question be fully evaluated by the DCS professionals
for possible mental health treatment. Mr. Jenkins’
situation was one of these cases.
On occasions in the past, when the
Ombudsman’s Office has criticized the Department of
Correctional Services, we have been accused by the
Department of “Monday morning quarterbacking ”
But that is not the case here – in this case we had
repeatedly told the Department what we thought
should be done, urging that Mr. Jenkins be
transferred to (or be given a review preparatory to a
transfer to) the Inpatient Mental Health Unit at the
Lincoln Correctional Center. And, as he steadily
neared his discharge date, we also urged that Mr.
Jenkins receive some transition programming at
NSP. But the results were that Mr. Jenkins spent
the last two years of his sentence locked up in a
segregation cell, receiving nothing in the way of
mental health/behavioral health therapy, treatment,
or programming. Of course, these were not decisions
that the Ombudsman’s Office could make. In the end,
248a

all that we are legally allowed to do is to make our
recommendations, and to be persistent when we see
something that we feel needs to be addressed. In this
case, we were very persistent.
As early as September of 2008, Deputy
Ombudsman for Corrections James Davis advocated
for a review of Mr. Jenkins’ condition, which resulted
in arrangements being made (through Dr. Mark
Lukin and Mr. Wayne Chandler) for an evaluation to
determine whether Mr. Jenkins might be suitable for
a transfer to the DCS Inpatient Mental Health Unit
at the Lincoln Correctional Center...but a transfer to
LCC never happened. Then, in November of 2011,
Sherry Floyd, a friend of Mr. Jenkins, contacted the
Ombudsman’s Office with concerns that Mr. Jenkins
was not receiving mental health services that he
needed at TSCI. In follow-up, Assistant Ombudsman
Jerall Moreland sent an email to Dr. Pearson which
emphasized that Mr. Jenkins had been diagnosed
while at the Douglas County Jail as being Bi- polar,
with both PSTD and schizophrenia. Mr. Moreland
also told Dr. Pearson that he had seen a court order,
signed by District Judge Randall, that indicated that
the Judge believed that Mr. Jenkins “has a long and
serious history of mental illness,” and that Judge
Randall was recommending that Mr. Jenkins receive
“treatment for his mental health issues.” The email
from Mr. Moreland pointed out that “Mr. Jenkins
will be available for release in 2013,” and again
suggested that there be an evaluation of Mr. Jenkins
to determine whether it might now be appropriate for
him to be transferred in order to receive mental
health services at the Mental Health Unit at LCC.
This evaluation, as we know, was carried out in
February of 2012...but a transfer to LCC never
249a

happened.
Although these first two evaluations did not
result in Mr. Jenkins being transferred to the LCC
Inpatient Mental Health Unit, the Ombudsman’s
Office made one last attempt along those lines
through a letter sent to Dr. Randy Kohl on March 4,
2013. In that letter, Assistant Ombudsman Moreland
pointed out again that Mr. Jenkins had spent a great
deal of time in segregation, and was due to be
discharged soon. Noting that “it appears that the
Courts and (the mental health staff at the jail in)
Douglas County would agree to the presence of
psychosis,” although the DCS staff had “doubts in
that regard,” Mr. Moreland pointed out that there
was at least a consensus that Mr. Jenkins had
behavioral issues, and that “we all want to help Mr.
Jenkins get better before he is released into the
community.” With this in mind, Mr. Moreland
suggested that Mr. Jenkins be considered for transfer
to LCC segregation “for the purposes of receiving
needed behavioral therapy,” with a goal of later
transferring Mr. Jenkins to OCC, if he should
improve. What in fact happened was that Mr.
Jenkins was transferred from TSCI into segregation
at the Penitentiary’s Control Unit and, although he
was later moved into the Penitentiary’s Transition
Unit, Mr. Jenkins never actually received even the
transition programming that had been proposed.
Clearly, one of the most prominent issues
raised by this case is concerned with how the
Department of Corrections should handle cases
where it may be necessary for an inmate who is
about to be discharged from custody to be referred to
the county attorney for possible civil commitment
proceedings. This is not an unusual step for the
250a

Department to take - in fact, we are told that DCS
has referred eleven such cases to county attorneys for
possible civil commitment in recent months.
However, in Mr. Jenkins’ case this was not done,
presumably because several of the Department’s
“experts” had concluded that Mr. Jenkins was not
really a case of mental illness. Nevertheless,
considering the clear signs that Mr. Jenkins was
“dangerous,” and that he was likely to continue to be
dangerous following his release from custody, we
believe that his case should have been designated for
a civil- commitment referral. This is true particularly
when we realize that, in fact, there was one
psychiatrist, Dr. Eugene Oliveto, who had concluded
that Mr. Jenkins was a case of “schizoaffective
disorder vs. paranoid schizophrenia.”
There are no real heroes in this story, but
there are some individuals who should be
acknowledged for being perhaps more insightful, and
certainly more circumspect, than others might have
been. The list, as we see it, of those who must be
acknowledged in a positive light include:
x

Dr. Eugene Oliveto, who diagnosed of
Mr.
Jenkins’
condition
as
“Schitzoaffective disorder vs. paranoid
schizophrenia,” and who also made the
recommendation that Mr. Jenkins
needed to be transferred to “LRC before
his discharge to stabilize him so he is not
dangerous to others.” It is regrettable, to
say the least, that this recommendation
was not followed.

251a

x

Denise
Gaines,
who
worked
conscientiously with Mr. Jenkins during
the many months while he was at the
Douglas County Jail, and who was so
deeply concerned about the potential
that Mr. Jenkins might be dangerous
that she wrote a letter to the Nebraska
Board of Parole to alert the Board to the
fact that Dr. Eugene Oliveto had made
the recommendation that Mr. Jenkins be
“transferred to the Lincoln Regional
Center for treatment before being
discharged
(from
the
correctional
system) for ‘stabilization so he is not
dangerous to others.’”

x

Judge Gary Randall, who was concerned
enough about Mr Jenkins that he took
the unusual step of including a
paragraph in Mr. Jenkins’ sentencing
order that acknowledged that Mr.
Jenkins had been asking for “treatment
for his mental health issues,” and had “a
long and serious history of mental illness
which inhibits his ability to be
rehabilitated,”
and
who
therefore
recommended that the Department of
Correctional Services see to it that Mr.
Jenkins “be assessed and treated for
issues regarding his mental health.”

x

Dr. Martin Wetzel, who evaluated Mr.
Jenkins on March 14, 2013, and then
recommended the implementation of
some “long-term strategies” for the
management of Mr. Jenkins’ case, to
include the “development of a rapport
252a

and trust to enhance participation in
psychiatric care, ongoing development of
objective evidence supporting - - or not
supporting - - the presence of major
mental illness and the possibility of
further psychological formal testing to
help clarify (the) diagnostic picture.”
x

Johnson County Attorney Julie Smith,
and Deputy Johnson County Attorney
Richard Smith, who, in response to
letters from Mr. Jenkins asking that he
be civilly committed, took the issue
seriously, contacted the “psychologists
with the Department of Corrections,”
and indicated they were waiting for more
in the way of psychological evaluations
before finally deciding whether to move
forward
with
civil
commitment
proceedings. Unfortunately, Mr. Jenkins
was removed from the Johnson County
Attorney’s jurisdiction before this
situation could be taken forward to
fruition.

x

Dr. Norma Baker, who, while she had
earlier concluded that Mr. Jenkins’
condition was “more behavioral/Axis II in
nature,” nevertheless was concerned
enough about the case to recommend the
securing a second opinion on Mr. Jenkins
case for “verification of absence or
presence of mental illness due to his
previous history of major mental illness
diagnosis by other psychiatric providers,”
with her primary concern being her
ongoing worries about Mr. Jenkins’
253a

potential
“dangerousness
to
the
community upon release.” It was this
concern that would eventually prompt
Dr. Wetzel’s evaluation of Mr. Jenkins in
March of 2013.
x

DCS Social Worker Kathy Foster, who
did a very capable, conscientious job
during the last few months of Mr.
Jenkins incarceration in trying to get
him to focus on his impending transition
into the community, and who attempted
to connect Mr. Jenkins with needed
Social Security and community mental
health resources.

If there are others who are conspicuous for
being excluded from this list, for instance, the
leadership of the DCS Mental/Behavioral Health
Services component, then their exclusion should not
be interpreted as an oversight.
It is not our role in this matter to adjudicate
issues of “fault” in this case. We can never know with
any degree of certainty what might have happened
with Mr. Jenkins, if he and his case had been
managed differently by the Department of
Corrections. We cannot know whether he would
actually have been committed to the Lincoln
Regional Center, if his case had been taken before a
Board of Mental Health. We cannot know whether he
would have acted differently, had he received more in
the way of mental health and/or behavioral health
treatment and therapy. We cannot know whether his
condition might ultimately have been different, if he
had not spent so many long months in segregation.
Questions like those are imponderables, and we do

254a

not now have the power to negotiate that labyrinth of
“what if’s.” All that we do know is that the many
crimes that Mr. Jenkins is now being accused of are
bone-chilling, and that the result, if he is, in fact,
guilty of those crimes, is not a situation where we
can look at the Department’s mental health system,
and say that the Department did everything that
they might have done, in terms of their handling of
Mr. Jenkins, particularly with regard to the
treatment of his mental health and/or behavioral
health situation. And, in fact, we would not say that
even if Mr. Jenkins had done nothing wrong after his
release, because we believe that his was a case where
the circumstances clearly called for the inmate in
question to receive meaningful therapy, treatment,
and/or programming, something that would have cost
the State very little in comparison to the potential
benefits that might have been returned, if Mr.
Jenkins had succeeded in living a law abiding life in
the community after his release.
As we look at the multiple lessons of this case,
and consider the operation of the DCS mental health
system on the fundamental level, the one thing that
we continue to come back to is the warning of the
American Psychiatric Association (stated in its 2012
Position Statement on Segregation of Prisoners with
Mental Illness) that those “physicians who work in
U.S. Correctional facilities face challenging working
conditions, dual loyalties to patients and employers,
and a tension between reasonable medical practices
and prison rules and culture.” What the Association
is, in effect, saying here is that the mental health
professionals who work in prison settings are apt to
face some significant challenges, in terms of
maintaining their high standards of professionalism
255a

in settings where their patients are “objectified,” by
security staff, and are sometimes treated more as
“risk-factors” than as individual human beings, with
unique personalities, and (often severe) mental
disabilities that need to be addressed. Our prisons
are not run by mental health professionals; they are
run by wardens and security staff who will often
have agendas that are not wholly consistent with the
values that we would normally associate with mental
health professionals - values like compassion,
service, and resourcefulness. The challenge then is to
sustain those values, and maintain high standards of
professionalism, in a setting where they may be seen
by those in charge as being inconsistent with, or even
inimical to, the basic operational goals of the
institution. Aside from our suggesting that
consideration
be
given to
privatizing
the
Department’s mental health component as a way of
guaranteeing the independence of its mental health
professionals, we are not able to offer much in the
way of addressing this issue. What we can say,
however, is that much of this will come down to the
quality of the leadership of the DCS Mental Health
component, and its ability to insist upon the need for
having standards of professionalism that are not
compromised just because the mental health practice
in question happens to be going on in a prison.
One of the more disturbing impressions
created by a review of the records in this case is the
definite opinion that the attention to Mr. Jenkins’
mental health/behavioral health issues provided at
the Douglas County Jail was better, and perhaps
even much better, than that provided to Mr. Jenkins
while he was at TSCI. Dr. Oliveto not only diagnosed
Mr. Jenkins’ condition, but also had the foresight to,
256a

very early on, emphasize the issue of Mr. Jenkins’
dangerousness, ultimately recommending that Mr.
Jenkins be transferred “to LRC before his discharge
to stabilize him so he is not dangerous to others.” In
addition, we note that Licensed Mental Health
Practitioner Denise Gaines worked with Mr. Jenkins
during the nearly seventeen months that he was at
the Douglas County Jail, and closely monitored his
condition until he was finally returned to TSCI on
July 19, 2011. Ms. Gaines was enough concerned
about Mr. Jenkins’ condition that she authored a
letter addressed to the Nebraska Board of Parole in
which she informed the Board that Dr. Oliveto had
made the recommendation that Mr. Jenkins be
transferred to the Lincoln Regional Center for
treatment before being discharged by the State. We
understand that Ms. Gaines’ involvement in Mr.
Jenkins’ case included many instances when she
talked one-on-one with Mr. Jenkins about his
condition. This, we believe, is how it should be when
institutional mental health staff is dealing with an
inmate as troubled as Mr. Jenkins, but we see very
little of this when we look at the records of his stay
at TSCI. There, intervention by the mental health
staff seems to have too often consisted of brief visits
with Mr. Jenkins at his cell door to make sure that
he was still oriented to reality, and was not suicidal,
etc. It is hard to imagine that these cell-door-visits,
some of which might be justifiably described as
“perfunctory,” were of any real value in treatment
terms. The mental health staff at TSCI should have
been doing more than this with Mr. Jenkins (and
perhaps with a number of other inmates at the
facility, as well), and the fact that more along these
lines did not happen probably has to be put down to a
lack of good leadership within the DCS mental
257a

health component. In short, someone in a position of
authority should have insisted on a better
performance by the staff at TSCI, but failed to do so.
For a number of years, Dr. Randy Kohl has
been the DCS Deputy Director for Health Services,
and in our opinion he has done an excellent job in
moving the Department’s health services system
forward, and making it one of the best around – far
better than it was before he took over the job. But Dr.
Kohl is neither a psychiatrist, nor a psychologist, and
when it comes to matters of DCS behavioral health
and mental health services, Dr. Kohl must rely upon
his subordinates to see that the DCS system meets
its goals of providing the best possible care and
treatment to the estimated 56% of DCS’s inmate who
have a mental health problem of some nature, and to
the estimated 15% who have reported symptoms that
meet the accepted criteria for having a psychotic
disorder (estimates are based on the 2006 report of
the U. S. Bureau of Justice Statistics). Much the
same could also be said about former Director
Houston, who had the foresight to create the
Department’s new Inpatient Mental Health Unit, but
was neither a psychiatrist, nor a psychologist, and
thus had to rely upon others to make the system
work as he would have wished. Based on the way in
which Mr. Jenkins’ case was managed, both Dr. Kohl
and Director Houston have the right to wonder
whether they were well served by their subordinates
in this instance.
As for the DCS administrators generally,
particularly those at TSCI, their role in this case was
most prominent when it came to the decision to keep
Mr. Jenkins in a situation where he was locked up in
a segregation cell, and thus isolated from
258a

programming. By confining Mr. Jenkins to a
segregation cell for the last two years of his sentence,
from July 19, 2011, when he was returned to TSCI
from Douglas County, to July 30, 2013, when he was
discharged, we can say that they did make certain
that he would not harm anyone else who was living
in or working in the institution. However, their job of
managing Mr. Jenkins was not complete with that
accomplishment alone. Insofar as Mr. Jenkins was
concerned, making the institution safe was
necessary, but it was not sufficient, and if any of the
administrators at DCS thought otherwise, if they
somehow supposed that all they needed to do was
keep the employees and inmates in the facility safe
from Mr. Jenkins, then they were wrong to think
that...very wrong to think that.
“Treatment,” “therapy,” “rehabilitation,” call it
whatever you will, it is wrong, and, given the
possible consequences in Mr. Jenkins’ case,
grievously wrong, to separate those inmates placed
in segregation from access to programming and
treatment that will help them to have more selfcontrol, and to make better decisions when they are
eventually released into the community. Our
corrections administrators have a responsibility not
just to make their institutions safer, but to make our
streets safer as well. And this means that they have
a duty to see to it that the inmates assigned to
segregation, who are often our most seriously
troubled and dangerous individuals, are not thereby
isolated from the programming and mental health
treatment that might make them into better citizens
on the outside...in our communities and our
neighborhoods. The more that we learn about
criminal thinking and recidivism, the more clear it
259a

becomes that money spent on programming and
mental health services in our correctional facilities is
an investment. Hopefully, we will always have a
Department
of
Correctional
Services
that
understands the importance of this investment, and
that also understands that the Department’s basic
responsibility to promote “safety and security” does
not end at the prison gate.
Respectfully submitted,
Marshall Lux
Ombudsman

260a

DEPARTMENT OF CORRECTIONAL
SERVICES
SPECIAL INVESTIGATIVE COMMITTEE
(LR 424 - 2014)
REPORT TO THE LEGISLATURE
December 15, 2014
INTRODUCTION
The Department of Correctional Services
Special Investigative Committee (Committee) was
established by the Legislature in response to the
2013 murders committed by former inmate, Nikko
Jenkins (Jenkins). The murders occurred within a
month of Jenkins’ July 30, 2013, release. LR 424 was
introduced
to
examine
the
circumstances
surrounding Jenkins’ incarceration and release. The
investigation into the Jenkins matter included
gathering records and taking testimony concerning
the amount of time Jenkins spent in segregated
housing while incarcerated, what, if any, mental
health treatment and programming Jenkins
received, the amount of good time taken away and
restored, Jenkins’ transition from segregation to the
community and why he was not civilly committed
prior to his release.
The circumstances of Jenkins’ confinement
and release led the Committee into the broader
examination of the Department’s use of segregation
and the availability of mental health treatment
within the institutions that make up the Nebraska
Department of Correctional Services (NDCS).

261a

As the Committee prepared to look into the
Jenkins matter, the Omaha World-Herald broke a
story concerning the failure of the Department of
Correctional Services to follow the holding of the
Nebraska Supreme Court in the case of State v.
Castillas, 285 Neb. 284 (2013). Fortunately, LR 424
was broad enough to provide the Committee with
authority to investigate this and related issues
within the Nebraska Department of Correctional
Services.
The composition of the Committee was
established by the Executive Board of the Legislature
which appointed Senators Lathrop, Seiler, Mello,
Krist, Chambers, Schumacher and Bolz. The
Committee has been chaired by Senator Steve
Lathrop and Senator Les Seiler has served as Vice
Chair.
To aid in its investigation, the Committee,
pursuant to Neb. Rev. Stat. §50-406 and 407 (Reissue
2010), issued subpoenas to secure documents from
agencies including the Nebraska Department of
Correctional Services, the Governor, the Governor’s
Policy Research Office, and Douglas County
Corrections (DCC). The Committee received tens of
thousands of pages of documents in response to the
subpoenas, requiring countless hours of review by
the Committee and legislative staff. The Committee
conducted hearings throughout the interim during
which the current and former Directors of the
Nebraska Department of Correctional Services,
Governor Dave Heineman, Parole Board Chairperson
Esther Casmer and various experts and other
individuals testified before the Committee. With few
exceptions, each of the witnesses were subpoenaed to
testify pursuant to Neb. Rev. Stat. §50-406 and 407
262a

and with few exceptions, all were placed under oath.
By conducting this investigation, the
Legislature is discharging its responsibility to
provide oversight of the Executive Branch of
government. The Committee has, however, remained
mindful of the seriousness of the occasion where the
Legislature forms a Special Investigative Committee
to examine the inner workings of an agency under
the exclusive control of the Governor. In the end, it is
incumbent upon this Committee to provide a candid
and blunt report concerning the dysfunction at the
Nebraska Department of Correctional Services and
the Governor’s role in the specific problems
examined. This report is not intended to embarrass
the administration or any employee or former
employee of the Nebraska Department of
Correctional Services. Rather, the report provides a
candid assessment as a starting point for reforms
that must be undertaken to restore the public’s
confidence in the Nebraska Department of
Correctional Services. This report was adopted
unanimously by all members of the Committee.
NIKKO JENKINS
Nikko Jenkins’ murder spree provided the
initial reason the LR424 Special Investigative
Committee was established. His rampage was
followed by a report from the Ombudsman’s office
which provided the first hint to the Legislature that
something was amiss at the Department of
Correctional Services.
The Ombudsman’s report provided a
disturbing account of Jenkins’ confinement and
ultimate release. The report was dismissed by the
Governor as an example of the Ombudsman “being
263a

soft on crime.”
Notwithstanding the Governor’s comments,
public interest remained high in the Jenkins
murders and how this mentally disturbed inmate
was allowed to be released directly from a long
stretch of segregation1 with virtually no mental
health treatment, no rehabilitation programming
and bypassing obvious opportunities for civil
commitment.
Our understanding of Jenkins begins with his
early years and takes us through the unbelievable
circumstances of his confinement and release. What
follows is an account of one inmate’s experience
which ultimately documents a total failure of
leadership and a textbook example of the
administration of state government at its worst.
Pre-confinement History
Jenkins’ early years gave a preview of the
problems which followed. As Dr. Eugene Oliveto,
contract psychiatrist with DCC, testified: “My three
‘bads’ worked out for this guy perfectly: Bad genes,
bad environment, bad family, and bad environment
and bad culture. I mean he’s a product of all that...”2
Dr. Oliveto described Jenkins’ childhood in
this way:
He had a terrible childhood. He was
terribly abused and mistreated by an
alcoholic psychopathic father, so...and
his family history showed that. He also
For further explanation on segregated housing at NDCS, see
page 24

1

2

Exhibit D at 14͒

264a

had used...some street drugs when he
was younger, and he was in trouble
since age 7....His family is beyond
dysfunctional. Ok? In fact, his mother
and sister are both in jail, too, so. And if
you look at this history, it’s solidly antisocial and he had a psychosis of
childhood that evolved with his antisocial personality because he obviously
did anti-social things even in his
childhood
and
adolescence.
He
blossomed, which most anti-social
personalities do when testosterone kicks
in at 12 or 13. Then he became a
dangerous anti-social personality, a
street thug. He was in either the Crips
or Bloods. He was feared by everybody,
because I talked to people that knew
him on the streets. This guy was
considered
dangerous
by
people
3
that...on the streets.
The consequences of what Dr. Oliveto
described as Jenkins’ “three bads” were evident in
Jenkins’ early years. As the Ombudsman explained
in its report:
Nikko Jenkins has a history of
involvement in the criminal/juvenile
justice system that goes back at least to
when he was seven years old, and was
first placed in foster care by the State.
In fact, even before he was first sent to
prison in 2003, Nikko Jenkins had been
incarcerated in the Douglas County
3

Exhibit D at 10-12

265a

Juvenile Detention Center multiple
times. As a juvenile, Mr. Jenkins had
multiple placements in group homes,
and was also placed in the Youth
Rehabilitation and Treatment Center in
Kearney for about six months beginning
in August of 2001, when he was 14
years old.4
Jenkins’ first mental health evaluation was
done when he was very young. Dr. Jane Dahlke, a
psychiatrist, treated Jenkins in 1995 when he was 8
years
old.
Jenkins
was
evaluated
after
demonstrating increasingly aggressive behavior
towards people and making statements of self- harm.
Following eleven days of evaluation at the Access
Center at the Richard Young Hospital, Dr. Dahlke
diagnosed Jenkins with Oppositional Defiant
Disorder and Attention Deficit Hyperactive Disorder.
Dr. Dahlke also expressed the opinion that Jenkins
fit the current criteria for a diagnosis of childhood
Bipolar Disorder.5 The basis for this diagnosis was
his acts of aggression (taking a gun to school and
chasing his sister with a knife) and his suicidal and
homicidal threats.6

4

Exhibit A at 1

In 1995, mental health providers were not diagnosing children
with some mental illnesses, including bipolar disorder, because
it was believed that such illnesses did not appear until later in
teenage years. This belief has been abandoned by the
psychiatric profession. Accordingly, mental health providers are
now diagnosing young children with these mental illnesses,
including Bipolar Disorder. (Exhibit P at 30-56)

5

6

Exhibit P at 30-56

266a

Unfortunately, the recommendations and
placements imposed by juvenile court did not have a
rehabilitative effect. Instead, Jenkins continued his
criminal behaviors resulting in a prison sentence
beginning in 2003.
Confinement Circumstances
1.

Offenses and Sentences

In 2003 at age 17, Jenkins was convicted of
two counts of Robbery and one count of Use of a
Weapon to Commit a Felony. For these convictions,
Jenkins was sentenced to an indeterminate term of
14-15 years. He was initially placed at the Nebraska
Correctional Youth Facility (NCYF). While at NCYF,
Jenkins was involved in a “riot” and charged with
Assault in the Second Degree for assaulting another
inmate. In 2006, Jenkins was convicted of this
offense and sentenced to an additional two years.
This sentence would be served consecutive to his
prior sentence.
On June 8, 2007, Jenkins was transferred to
the Tecumseh State Correctional Institution (TSCI).
While under the custody of TSCI, Jenkins was
allowed to attend a family funeral in Omaha. He was
accompanied by a corrections officer whom he
assaulted in an escape attempt on December 17,
2009. As a result, Jenkins was charged, convicted
and sentenced to an additional two to four year
consecutive term for Assault of a Correctional
Employee in the Third Degree.
As a result of the various convictions, Jenkins’
cumulative sentences increased to 18-21 years.

267a

2.

Facility Placements and Time in
Administrative Segregation

Jenkins served approximately 60% of his
incarceration in 23 hour a day segregation.7 NDCS
transferred Jenkins to several facilities with varying
degrees of security levels. While Jenkins was placed
in segregation prior to 2007 for short periods of time
(five days and 40 days for example), the long
segregation stretches began when he was transferred
to TSCI on June 8, 2007. The timeline at right and
the chart below depicts Jenkins’ incarceration
placement and segregation history.

7

Exhibit A at 5

268a

269a

3.

Good Time Lost

Jenkins’ total sentence range was 18 to 21
years. Such a sentence range would have provided
Jenkins with 10 1⁄2 years or 126 months of available
good time. Jenkins lost 555 days of good time for
misconduct ranging from assault to tattoo activity.
Thirty days were later restored for a total of 525
days or 17 1⁄2 months of lost good time.
Notwithstanding a long list of misconduct activity
that might have provided the basis for additional
lost good time, Jenkins was discharged early with a
benefit of 108 1⁄2 months of good time awarded.
4.

Mental Health

The Committee reviewed thousands of mental
health related documents. The documentation
included Jenkins’ diagnoses, evaluations, mental
health notes, Jenkins’ numerous requests for
treatment, and emails concerning the same. While it
is impractical to detail each piece of documentation,
the Committee believes it is important that readers
have a clear picture of Jenkins’ diagnoses as well as
the treatment and services not offered to Jenkins.
Accordingly, the following pages outline the most
270a

relevant information concerning Jenkins’ mental
health status while incarcerated.
a)

Diagnoses, Evaluations
Health Notes

and

Mental

Jenkins received mental health evaluations
while incarcerated with NDCS and DCC. On July 30,
2009, Dr. Natalie Baker, a contract psychiatrist with
TSCI, met with Jenkins for the first time and
performed a psychiatric evaluation. Dr. Baker
diagnosed Jenkins with both Axis I and Axis II
diagnoses. An Axis I diagnosis refers to a primary
psychiatric disorder like Bipolar Disorder, while Axis
II refers to personality related disorders.8 Dr. Baker’s
diagnosis was an Axis I Psychosis NOS (not
otherwise specified, meaning that she believed he
had a mental illness, but it did not exactly fit the
criteria for a specified diagnosis), possible SchizoAffective Disorder, Bi-Polar Type, probable PTSD,
R/O Bipolar Affective Disorder, with significant Axis
II personality traits.9 Jenkins complained of auditory
hallucinations and expressed a desire for help.10 Dr.
Baker believed Jenkins was paranoid.11 Dr. Baker
referred Jenkins to mental health (NDCS
psychologists and therapists) for work on his trauma
and anger issues. However, Jenkins received no
treatment from mental health.12 Dr. Baker also
wanted a Mental Illness Review Team (MIRT)

8

Exhibit D at 11

9

Exhibit K at 18-19

10

Exhibit D at 109-110, 116-117 and Exhibit K at 18-19

11

Exhibit D at 111

12

Exhibit D at 299-300 & 410

271a

evaluation.13 Dr. Baker recommended medication
management; specifically, Risperdal. Jenkins was
initially compliant with the medication regimen but
expressed paranoia that the medications prescribed
would poison him.14
Dr. Baker next met with Jenkins on October 8,
2009. At that time, Jenkins was medication
compliant. Jenkins consistently complained of
auditory hallucinations. Jenkins seemed calmer on
medication, as he was less paranoid, and had fewer
racing thoughts.15 The medication appeared to have
a positive effect, which supported Dr. Baker’s
diagnosis, a diagnosis that Dr. Baker did not
change.16 Dr. Baker increased Jenkins’ medication
for Risperdal and continued the prescription for
Depakote.17
Jenkins transferred to DCC on February 13,
2010, following his attempted escape and assault of a
correctional employee. Dr. Baker did not treat
Jenkins again until after his July 19, 2011, return to
TSCI. While at DCC, Jenkins was treated by Dr.
Eugene Oliveto, psychiatrist, and Denise Gaines,
licensed therapist.
Dr. Oliveto first saw Jenkins on March 3,
2010. Jenkins described auditory hallucinations
starting at age seven. At the time of Dr. Oliveto’s
2010 evaluation, the hallucinations were telling
13

Exhibit D at 117

14

Exhibit D at 120

15

Exhibit D at 120-123

16

Exhibit D at 120-123

17

Exhibit D at 122 and Exhibit K at 24-25

272a

Jenkins to kill people. Dr. Oliveto believed these
statements. Dr. Oliveto diagnosed Jenkins with Axis
I diagnoses of Schizo-Affective Disorder or
Schizophrenia, Psychotic Disorder, PTSD, and Axis
II diagnoses of Antisocial Personality Disorder and
Sociopathic Personality Disorder. Dr. Oliveto noted
that Jenkins was a danger to others and ordered a
forensic evaluation and placement at LRC to
adequately treat his multiple psychiatric problems.
Like Dr. Baker, Dr. Oliveto prescribed Risperidone
and Depakote. Jenkins was not consistent with the
medication treatment.18
Dr. Oliveto continued to meet with Jenkins
during his incarceration at DCC. His diagnosis did
not change. He continued to recommend a forensic
evaluation and placement at LRC. Dr. Oliveto
believed Jenkins needed intensive long-term
treatment in a therapeutic environment like Lincoln
Regional Center (LRC). Jenkins neither received a
forensic evaluation, nor was placed at LRC.19
Denise Gaines, therapist with DCC, first met
with Jenkins on February 19, 2010. Gaines met with
Jenkins often, sometimes weekly, because his
symptoms appeared intense and he had difficulty
regulating his mood and behavior. Gaines described
her meetings with Jenkins as a “typical counseling
session.”20 Jenkins began discussing Apophis, an
Egyptian god, on February 27, 2010, and complained
that he heard voices. Jenkins stated to Gaines that
he would kill people when released, statements that
18

Exhibit D at 7-23

19

Exhibit D at 20-27

20

Exhibit D at 91

273a

Gaines believed Jenkins would act on. These
delusions remained consistent. Also consistent was
Jenkins’ paranoia about taking medications. Despite
this paranoia, Jenkins did appear less intense and
calmer when medicated. Had she believed that
Jenkins was feigning mental illness, she would have
discontinued therapy. Ultimately, Gaines agreed
with Dr. Oliveto’s diagnoses, and believed that
Jenkins wanted treatment for these illnesses, and
that Jenkins was afraid to return to NDCS.21
Because of her concerns, on December 1, 2010,
Gaines wrote the parole board. She shared Dr.
Oliveto’s diagnoses and recommendation that
Jenkins be treated at LRC. Gaines recommended
mental health treatment at a facility, and if paroled,
mental health treatment as a parole condition. This
was the only time in Gaines’ career that she had
written such a letter.22
After Jenkins’ return to TSCI following his
conviction in Douglas County for assault, Dr. Baker
made a referral for a psychological evaluation to
clarify whether Jenkins suffered from an Axis I
mental illness and/or Axis II personality disorders
and/or whether he was malingering (faking). Dr.
Melinda Pearson, TSCI Psychologist, responded to
the referral. She indicated that Jenkins presented in
a manner inconsistent with self-reported symptoms
and that he refused psychological testing.23

21

Exhibit D at 66-96

22

Exhibit D at 81-83

23

Exhibit K at 64

274a

A Mental Illness Review Team (MIRT) report
requested by Dr. Baker, was completed on February
8, 2012. MIRT found a lack of evidence for an Axis I
diagnosis, but a preponderance of evidence of Axis II
pathology. It noted that additional information
should be gathered. The report noted that transfer to
the mental health unit was not warranted. The
report recommended that Jenkins continue to work
through the segregation levels and to consider
Jenkins for the transition program at NSP prior to
discharge.24
Meanwhile, Dr. Baker continued to meet with
Jenkins until his transfer to NSP. Dr. Baker’s
diagnosis remained unchanged despite MIRT’s
findings.25 In fact, at the beginning of 2013, and at
the same time Jenkins’ pleas for help became more
desperate and his behavior more bizarre, Dr. Baker
became extremely concerned with Jenkins’ mental
health. On January 31, 2013, Dr. Baker noted that
Jenkins was a significant risk to others, and
currently appeared mentally ill. She additionally
cautioned that a civil commitment may be needed.26
Four days later Jenkins was once again seen
by Dr. Baker. Dr. Baker’s note from the February 4,
2013, meeting is remarkable in many respects. The
evaluation comes at a time when Jenkins is within
six months of his mandatory discharge date and the
evaluation would appear to be thorough including
not only the doctor’s observations but the
observations of Jenkins’ behavior by other TSCI
24

Exhibit L at 103-115

25

Exhibit D at 136

26

Exhibit D at 144-146 and Exhibit L at 174

275a

staff. Dr. Baker’s notes are also remarkable for the
fact that she once again makes specific findings
necessary to support a civil commitment.27
Dr. Baker’s notes from the February 4, 2013,
evaluation would ultimately be withheld by Dr. Mark
Weilage28 as he responded to requests for
information from both the Johnson County Attorney
who was contemplating a civil commitment of
Jenkins, as well as the Ombudsman’s office who was
concerned about Jenkins’ impending release.
Dr. Baker’s notes from the February 4, 2013,
evaluation indicate that Jenkins continued to report:
“difficulties with mental health issues, anger and
self-harm behaviors.”29 At the time of the evaluation,
he was on 15 minute checks for suicide. Jenkins had
cut himself in the face and refused to allow medical
staff to remove his sutures. He reported the cut to his
face was “a declaration to war.”30 He had reported to
medical staff that he intended to “eat the hearts of
women, men and children” upon his release.31 At the
time he was requesting emergency psychiatric
treatment on a daily basis. Ten days earlier he had
reported to a staff nurse that “he will drink his own
semen for neuro-stimulators to increase his serotonin
levels and to decrease his emotional rage.”32 Custody
staff were reporting that he was not sleeping. He was
27

Exhibit L at 175-177

28
29

Exhibit L at 175

30

Ibid

31

Ibid

32

Ibid

276a

also observed to be compulsively exercising while
naked. Staff also reported that he was loud and
agitated and verbally threatening others.33
At the time of the evaluation, Jenkins reported
racing and obsessive thoughts. He also reported
auditory hallucinations regarding Apophis where he
was instructed to attack people. He described himself
as “the alpha leader of Apophis.”34 He also described
night terrors “where he will sacrifice people and
dreams of cannibalism.”35 Dr. Baker’s assessment
and diagnosis on this occasion, as it was on previous
occasions, was as follows:
Psychosis NOS͒
Possible Bipolar Affective Disorder with
psychotic features vs. Delusional
Disorder
grandiose
type
vs.
Schizoaffective Disorder bipolar type vs.
malingering
Probable PTSD͒
Patient with strong anti-social and
narcissistic traits
Relational problems NOS
Polysubstance dependence (Cannabis;
“WET,” alcohol)
Adjustment Disorder36

33

Exhibit L at 175-177

34

Ibid

35

Ibid

36

Exhibit L at 176

277a

The doctor’s notes then reflect the following
concerns:
...However, patient does have a history
of Bipolar Affective Disorder as well as
a significant history of violence and
assaultive behaviors. This provider is
concerned regarding the patient being
released from this facility directly from
segregation into the community as he is
directly threatening harm to others once
he is released. He also has had recent
self-harm behaviors and is not allowing
Medical to remove the sutures. Again,
staff has also reported that the patient
does not appear to be sleeping as well at
night and is excessively exercising.
[Patient] also has appeared more
agitated overall, again, with continued
flight of ideas, grandiosity, verbally
threatening,
and
recent
plan
status....Patient
currently
appears
mentally ill as well as an imminent
danger to others. Patient will possibly
require civil commitment prior to being
released to ensure his safety as well as
the safety of others.37
Finally, Dr. Baker’s notes reflect that she had
expressed her concerns to Dr. Weilage who was “also
planning to see the patient soon and determine
further treatment and housing options.”38 She also
suggested a second opinion evaluation by a
37

Exhibit L at 176-177

38

Exhibit L at 177

278a

psychiatric nurse or psychiatrist.39 Notwithstanding
Dr. Weilage’s representation that he would conduct
an additional evaluation of Jenkins, no such
evaluation appears to have been done. This
represents the last evaluation of Jenkins by Dr.
Baker.
Jenkins was transferred to the Nebraska State
Penitentiary on March 14, 2013. One day prior to his
transfer to NSP, Jenkins was seen by NDCS
psychiatrist, Dr. Martin Wetzel. Dr. Wetzel’s
evaluation was completed pursuant to Dr. Baker’s
request for a second opinion. At the time of the
evaluation, Dr. Wetzel reported:
He states that he is maintaining his
purity by avoiding artificial laboratory
compounds (i.e., medication). He states
he is developing his own compounds.
Patient reports he has been snorting his
semen in his left nostril on a daily basis,
and drinking his own urine daily for the
last two weeks as his own method of
nutritional supplementation.40
The doctor also noted, “[p]atient reports that
he has nightmares every night. He states he jumps
up and checks the window eight times a night. He
denies napping, denies feeling sleepy. He says he
dreams about cannabis (sic), and human sacrifice.
Staff has reported the patient is indeed up in the
night much of the time.”41

39

Exhibit L at 175-177

40

Exhibit L at 221

41

Ibid

279a

He also reported by way of a past history that
he began hearing voices at age nine. He also reported
that at the time of the evaluation “he hears auditory
hallucinations that he is a prophet.”42 He also
reported to the doctor that he was due to be released
from prison in July and wanted to be placed in a
psychiatric hospital.43
Dr. Wetzel’s assessment:
Bipolar Disorder NOS,
Probable͒PTSD,
Probable͒Antisocial and Narcissistic PD
Traits͒
Polysubstance
Dependence
Controlled Environment

in

a

The doctor observed that Jenkins:
presents with a very dramatic flair, yet
there is enough objective evidence of
disruption in sleep cycle, mood and
behavior to suggest an element of major
mood disorder influencing the clinical
picture . . . . Long-term strategies
recommended for this patient include
development of a rapport and trust to
enhance participation in psychiatric
care, ongoing development of objective
evidence supporting -- or not supporting
-- the presence of major mental illness
and
the
possibility
of
further
psychological formal testing to help
42

Exhibit L at 222

43

Exhibit L at 223

280a

clarify diagnostic picture.44
During Jenkins’ time at NDCS, he received
wholly inadequate mental health treatment. He was
offered, at different times, medications which he,
more often than not, refused to take due to his
paranoid belief that he was going to be poisoned by
way of the medications.
The record reflects that there are a number of
occasions in which psychologists employed by NDCS
concluded that Jenkins had behavioral issues and a
personality disorder rather than a major mental
illness. These opinions appear to be in direct conflict
with the opinions of three psychiatrists (Oliveto,
Baker and Wetzel) who concluded Jenkins suffered
from mental illness.
b)

Jenkins’ Timeline of Appeals for Mental
Health Care and Treatment and
Threats to Harm Others

The timeline is not exhaustive. Rather, it is
intended to illustrate the volume and nature of
Jenkins’ pleas for mental health care and his threats
to harm others upon his release:
Timeline:45
x

44

January 5, 2006: Jenkins stated “that if the
admin want to trick off my time, I’ll give them
something to remember me by... I might be in seg,
but they will remember me.”46

Exhibit L at 224

45 See Exhibits K and L for documents detailing the timeline
events
46

Exhibit K at 3

281a

x

February 10, 2006: Jenkins stated that he has
anger toward people and will act on it once out of
prison. ͒

x

November 2, 2007: Jenkins claimed he will attack
innocent people when he returns to North Omaha.
Therapist
claimed
Jenkins
has
no
psychopathology and was a poor candidate for
mental health intervention. ͒

x

August 1, 2008: Jenkins claimed he will harm
others when released. ͒

x

September 26, 2008: Jenkins fantasized about
hurting others. He requested more contact with
mental health staff. The author noted antisocial
traits and that he was a possible psychopath. ͒

x

January 15, 2009: Jenkins stated that segregation
was making him worse. Jenkins stated that the
loudest sound is that of innocent blood and that
when someone innocent is killed, everyone stops
to listen. He claimed to be seeking vengeance and
change and that he wanted to be the one to
educate the world about the injustices of the
system and about the making of a criminal mind.
He stated that after he was done, he wanted
people to read his file and know how the system
had failed him. He did not have a chance at
rehabilitation. The system was broken and it was
the “worst thing possible for him to have been
thrown in the hole for two years.”47

x

February 9, 2009: Jenkins stated that segregation
was making him worse. ͒

47

Exhibit K at 7

282a

x

February 23, 2009: Jenkins reported fantasies of
killing once released. Jenkins stated that
segregation has made him feel rage and that
others would be responsible when he kills. ͒

x

March 27, 2009: Jenkins requested to be
rehabilitated and transferred to the mental
health unit. ͒

x

May 13, 2009: Jenkins stated that if anything
happened when he got out it would be the
administrations’ fault for not helping him. ͒

x

June 21, 2009: Jenkins requested medication.͒

x

August 2009: In a letter written when he was 23,
Jenkins stated that he believed he had a ͒mental
illness, that he heard voices, and that his mental
health was declining. He noted “the public always
asks, what could have been done.” He requested
help for rehabilitation and that the “hole” was not
the answer.48

x

September 21, 2009: Jenkins mentioned Apophis,
an Egyptian god, and that he cannot sleep. ͒

x

November 17, 2009: Jenkins said that the
Egyptian god was helping him plan the perfect
crime and that the evil was getting stronger while
in segregation. ͒

x

December 2, 2009: Jenkins discussed the
Egyptian god, lack of treatment, and his desire to
be transferred to the mental health unit. ͒

x

December 2, 2009: Jenkins requested transfer to
LCC’s mental health unit. ͒

48

Exhibit K at 20-21

283a

x

December 16, 2009: Jenkins discussed the
Egyptian god, lack of treatment, and his ͒desire
to be transferred to the mental health unit. ͒

x

December 17, 2009: Jenkins’ version of the
assault at his grandmother’s funeral and escape
attempt: stated Apophis took control.͒

x

December 18, 2009: Noted that Jenkins discussed
the Egyptian god and requested transfer to the
mental health unit. ͒

x

December
28,
medication. ͒

x

January 1, 2010: Jenkins requested medication. ͒

x

January 19, 2010:
Egyptian god. ͒

x

January 27, 2010: Jenkins requested help for his
mental health. ͒

x

February 3, 2010:
Egyptian god. ͒

x

February 4, 2010: Jenkins discussed the Egyptian
god and that he had been denied mental health
care. ͒

x

July 23, 2011: Jenkins requested transfer to the
mental health unit at LCC. ͒

x

August 31, 2011: Jenkins claimed he was
becoming more unstable, requested treatment, ͒
and had concerns with his release. ͒

x

September 28, 2011: Jenkins asked to be placed
at LRC. He also complained of hearing voices that
tell him to hurt others. ͒

2009:

Jenkins

Jenkins

Jenkins

284a

requested

mentioned

mentioned

the

the

x

October 31, 2011: Jenkins discussed the Egyptian
god. Discussed a “vague” harm to others and
stated he was not receiving treatment. ͒

x

November 27, 2011: Jenkins requested mental
health treatment. ͒

x

December 4, 2011: Jenkins claimed he had not
had a therapy session since returning to ͒TSCI
from DCC. ͒

x

December 26, 2011: Jenkins requested mental
health treatment before release. ͒

x

December 31, 2011, Baker psychiatric note:
Jenkins requested transfer to LRC and
complained of the lack of mental health
treatment. He claimed he would hurt others when
released.
He
complained
of
auditory
hallucinations (Egyptian god) and vague visual
hallucinations (sees spirits). ͒

x

On January 8, 2012: Jenkins requested mental
health treatment before release. ͒

x

January 22, 2012: Jenkins was worried about his
release and asked for treatment. ͒

x

January 27, 2012: Jenkins claimed that he was
slipping into psychosis. ͒

x

January 29, 2012: Jenkins requested mental
health treatment. ͒

x

March 22, 2012: Jenkins discussed the Egyptian
god and requested therapy.

x

March 23, 2012: Jenkins discussed the Egyptian
god. He claimed he suffered from auditory
hallucinations and requested treatment. The

285a

therapist provided
management. ͒

materials

on

distress

x

April 19, 2012: Jenkins asked for help and stated
he was deteriorating. ͒

x

April 19, 2012, Baker psychiatric note. He wanted
to be transferred to LRC. ͒

x

April 28, 2012: Jenkins threatened to harm
himself in the shower. He again stated that he
was not getting the help he needed. ͒

x

On May 2, 2012, Jenkins cut his face with a shelf
and stated to the guard “look what Apophis told
me to do.” Jenkins again stated that his mental
state is deteriorating, that medication does not
help and that he is not getting proper treatment.
It appears from a photo that Jenkins used his
blood to write "Apophis evil Nikko" on the wall. ͒

x

May 2, 2012: Jenkins stated that he was getting
worse and the Egyptian god told him to cut his
face. ͒

x

May 15, 2012: Jenkins requested treatment.

x

July 2, 2012, Baker psychiatric note. Jenkins
discussed Apophis and auditory hallucinations. ͒

x

August 22, 2012: Jenkins discussed ideas of an
Egyptian god. ͒

x

November 28, 2012: Jenkins discussed the
Egyptian god and stated that lives will be lost
upon his release. It was noted that Jenkins
expressed paranoia. It was also noted that
Jenkins proposed a possible safety risk. ͒

286a

x

December 3, 2012: Jenkins requested a therapy
session. The response is that he will get one the
following week if time and resources permit.

x

December 12, 2012: Jenkins stated that being in
segregation was causing further
mental
deterioration and he was not receiving proper
mental health treatment. ͒

x

January 13, 2013: Jenkins stated he will reach it
his mandatory release date (“jam out”) soon and
will eat the hearts of women and children. ͒

x

January 14, 2013: Jenkins stated that Apophis
wanted him to harm himself. ͒

x

January 15, 2013: Jenkins requested psychiatric
hospitalization. ͒

x

January 16, 2013: Jenkins requested psychiatric
hospitalization and therapy. Claimed he was
deteriorating. ͒

x

January 16, 2013: Jenkins requested to be
hospitalized. ͒

x

January 18, 2013: Jenkins requested to see
mental health. On this same date he used a floor
tile to cut his face. He claimed that he was having
a psychotic episode and had been requesting
treatment. He had also been in isolation for 18
months. Three inmates wrote reports regarding
the event. All three stated that Jenkins had been
requesting help for his mental illness. One stated
that Jenkins made requests throughout the day,
but was ignored. ͒

287a

x

January 19, 2013: Jenkins wanted psychiatric
help. He explained that he would get out in 5 1⁄2
months and if he does not get help he will rip
someone’s heart out of their chest when he is on
the outside. ͒

x

January 20, 2013: Jenkins wanted emergency
psychiatric treatment.

x

January 22, 2013: Jenkins wanted emergency
psychiatric treatment.

x

January 23, 2013: Jenkins wanted emergency
psychiatric treatment.

x

January 24, 2013: Jenkins wanted emergency
psychiatric treatment.

x

January
25,
2013:
Jenkins
requested
hospitalization so that he would not harm others.
He claimed that the Egyptian god wanted him to
kill a man, a woman and a child upon release. ͒

x

January 26, 2013: Jenkins wanted emergency
psychiatric treatment.

x

January 27, 2013: Jenkins wanted emergency
psychiatric treatment.

x

February 8, 2013: Jenkins claimed he was
deteriorating. ͒

x

February 11, 2013: Jenkins requested treatment.

x

February 12, 2013: Jenkins asked for mental
health treatment. ͒

x

February 14, 2013: Jenkins filed an informal
grievance and requested to go to LRC for ͒
treatment or a civil commitment. The response
was that his needs were being met.͒

288a

x

February 15, 2013: Jenkins stated that he was
declining and asked Dr. Pearson to help with a
civil commitment. ͒

x

February 16, 2013: Jenkins filed an informal
grievance and requested to go to LRC for
treatment. The response was that it did “not meet
the
criteria
which
governs
emergency
49
grievances.” This was one of many denials of
assistance based upon a failure to make his
request on the proper form. ͒

x

February 17, 2013: Jenkins filed an informal
grievance and requested a civil commitment. The
response was that it did not meet the criteria for
an emergency grievance. ͒

x

February 19, 2013: Jenkins requested therapy. ͒

x

March 5, 2013: Jenkins requested mental health
treatment and to be civilly committed.

x

March 7, 2013: Jenkins stated he does not want to
discharge because he will kill and cannibalize and
drink blood. He mentioned the Egyptian god and
requested treatment. ͒

x

March 8, 2013: Jenkins requested emergency
psychiatric treatment. ͒

x

March 14, 2013: Jenkins requested mental health
treatment. ͒

x

March 20, 2013: Jenkins requested help and
stated that his mental health was deteriorating. ͒

49

Exhibit L at 183

289a

x

March 23, 2013: Jenkins filed an informal
grievance stating that he was not getting the
proper mental health treatment. The response
was that his request did not meet the criteria for
an emergency grievance.

x

March 26, 2013: Jenkins requested to meet with
mental health to discuss his discharge. ͒

x

March 26, 2013: Jenkins requested to be put back
on medication. ͒

x

April 5, 2013: Jenkins requested mental health
treatment. ͒

x

April 10, 2013: Jenkins requested psychiatric
treatment. ͒

x

April 10, 2013: Jenkins commented that he was
concerned that he will harm others when
discharged. ͒

x

April 28, 2013: Jenkins requested mental health
treatment.
Dr.
Elizabeth
Geiger,
NSP
Psychologist, responded that he was being seen by
mental health. ͒

x

April 30, 2013: Jenkins stated that when he gets
out, “it will begin.” He made allusions to killing
without prejudice.50͒

x

May 7, 2013: Jenkins requested mental health
treatment. He stated he will bring death and
destruction. ͒



50

Exhibit L at 230

290a

x

May 23, 2013: Jenkins filed an informal grievance
stating that he was not getting the proper mental
health treatment. The response was that his
request did not meet the criteria for an emergency
grievance.

The Committee observes that Jenkins’ pleas
appeared to intensify in January 2013, six months
before his July 30, 2013, discharge date. Not only did
Jenkins request therapy, but he additionally made
the extreme appeal to be civilly committed, a process
normally reserved for involuntary treatment.51
The Committee cannot imagine a reason why
Jenkins would make such a request a mere six
months before freedom, unless he truly wanted
treatment. NDCS’ position that his request was
for secondary gain, is, in this Committee’s opinion,
absurd.52͒͒
Circumstances of Release ͒
The circumstances of Jenkins’ release is, in
many ways, a colossal failure related to the
circumstances of this confinement. Jenkins spent
60% of his incarceration in segregation. During the
time he was in segregation, he exhibited bizarre
behavior and threatened, upon his discharge, to go on
a murderous rampage. His pleas for mental health
care and even for his own civil commitment are well
documented. Notwithstanding all of this, NDCS
remained determined to keep Jenkins in segregation
where he was assured of receiving no programming
51 The Committee expresses concern that inmates seeking
mental health treatment are denied assistance for purely
technical reasons.
52

Exhibit D at 218-219

291a

and no meaningful mental health treatment.
On a number of occasions, staff psychologists
at TSCI papered Jenkins’ file with opinions that he
was Axis II, not Axis I. These opinions provided the
rationale for leaving Jenkins in segregation rather
than transferring him to the mental health unit
which required a diagnosis of mental illness as a
condition of placement.
As the calendar turned from 2012 to 2013, and
Jenkins mandatory discharge date appeared on the
horizon, concern began to mount over Jenkins’
discharge. At the very same time as Jenkins was
approaching his mandatory discharge date, his
threats and pleas for help began to intensify. These
threats and pleas ultimately led to the February 4,
2013, evaluation by Dr. Baker. Dr. Baker’s
evaluation, by almost any standard, provided the
necessary medical evidence to support a civil
commitment of Jenkins.
On February 25, 2013, the Johnson County
Attorney contacted NDCS for the purpose of
determining whether there was medical evidence to
support a civil commitment of Jenkins to the Lincoln
Regional Center.53 On the same day, the
Ombudsman’s office made contact with NDCS at the
behest of Senator Ernie Chambers who expressed
significant concerns about Jenkins’ release directly
from segregation to the public at large.54 In both
instances, management at NDCS tapped Dr. Mark
53 The Committee acknowledges the efforts made by Richard
Smith, Deputy Johnson County Attorney, to gather the
information necessary to file a civil commitment.
54

Exhibit L at 185-191

292a

Weilage to serve as the point man in dealing with the
Johnson County Attorney and the Ombudsman’s
office as it related to their respective concerns
regarding Jenkins.55
On February 25, 2013, at 2:55 p.m., Dr.
Cameron White, Behavioral Health Administrator at
NDCS e-mailed Dr. Mark Weilage. The subject of the
e-mail was “Nikko Jenkins’ Follow-Up”. White
indicated there were two things that came up
regarding Jenkins. First, Jerall Moreland [from the
Ombudsman’s office] phoned. Second, that Rick
Smith, Deputy County Attorney from Johnson
County phoned. “Apparently, Jenkins and his family
are trying to petition for Jenkins to be committed
post-incarceration...” The e-mail instructed Dr.
Weilage to contact Deputy County Attorney Smith to
discuss the efforts of Jenkins and his family to have
him committed.56 On February 27, 2013, Smith
forwarded to Dr. Weilage nine pages of documents
handwritten by Nikko Jenkins. Nearly half of the
documents are written in some geometrical form with
content that is indiscernible or nonsensical. There
are also pages which appear to be an attempt by
Jenkins to prepare a petition for his own civil
commitment.
The
petitions
include
his
representations that he is an elite warrior of the
great serpent Apophis and that he intends to wage
the War of Revelations upon the earth. At a very
minimum Jenkins communicated to the Johnson
County Attorney not only his interest but his
willingness to be civilly committed.57
55

Exhibit D at 21- & 216

56

Exhibit L at 185

57

Exhibit L at 191-200

293a

Rather than provide the County Attorney with
Dr. Baker’s report which would provide necessary
documentation for a civil commitment, Dr. Weilage
stated to Smith that NDCS staff would continue to
monitor, evaluate and treat Jenkins’ mental health.58
Smith never received a civil commitment
request for Jenkins from NDCS. Dr. Weilage was
aware of Jenkins’ pleas for help, his claims that he
would kill people and self-mutilation activities.59
This information was not provided to Smith. More
importantly, Dr. Weilage was also aware of Dr.
Baker’s February 4, 2013, report.60 Dr. Weilage never
provided Dr. Baker’s reports to Smith.61 In testimony
before the Committee, Dr. Weilage admitted that he
withheld Baker’s report.62
Dr. Cameron White testified that he was
troubled that Dr. Weilage did not find a mental
illness, especially considering Jenkins’ behaviors.63
Dr. White also testified that he would have expected
Dr. Weilage to provide relevant information to the
Johnson County Attorney from Jenkins’ mental
health file.64
A similarly disturbing sequence of events
unfolded in Dr. Weilage’s dealings with the
Ombudsman’s office who requested a meeting for the
58

Exhibit L at 255

59

Exhibit D at 203 & 212-214

60

Exhibit D at 212 & 215

61

Exhibit D at 220

62

Exhibit D at 312

63

Exhibit D at 397

64

Exhibit D at 344-346

294a

purpose of discussing a transition plan for Jenkins
and Nikko Jenkins’ mental health status.65 After
several e-mails and at least one meeting cancellation
by NDCS, the Ombudsmen, Jerall Moreland and
James Davis, finally met with NDCS staff on March
20, 2013. This meeting was set up by Larry Wayne,
NDCS Deputy Director and those present included
members from the Ombudsman’s office (Moreland
and Davis), Wayne, Dr. Weilage, Kathy Foster
(NDCS social worker), Sharon Lindgren (NDCS legal
counsel) and, for a brief period, then-Director Robert
Houston. The Ombudsman’s office expected to
discuss Jenkins’ mental health and a transition plan,
and Larry Wayne knew this to be the case. Even
though the Ombudsman’s office had a release from
Jenkins, Sharon Lindgren began the meeting by
advising the Ombudsmen that Jenkins’ mental
health was “off the table.”66 In retrospect, Wayne
testified that he believes Jenkins’ mental health
should have been discussed. Once again, Dr. Weilage
did not share any of Jenkins’ bizarre behaviors with
the Ombudsmen during this meeting, the bizarre
behavior to have included self-mutilation, writing on
his cell wall with his own blood, snorting his own
semen and drinking his own urine. He did not share
Dr. Baker’s February 4, 2013, report. As a
consequence, the Ombudsman’s office was not aware
of Dr. Baker’s February 4, 2013, report. Dr. Weilage
acknowledged in testimony that Dr. Baker’s report
should have been provided to the Ombudsman’s
office. Dr. White testified that Dr. Weilage should
have shared Dr. Baker’s report. White does not know
65

Exhibit L at 185-190

66

Exhibit E at 16

295a

why Dr. Weilage did not share the report.67
Both Jerall Moreland and James Davis, the
Ombudsman staff who attended the March 20, 2013,
meeting with Dr. Weilage and others, testified before
the Committee. They both believed that had they
been provided with a copy of Dr. Baker’s February 4,
2013, assessment, they would have advocated for
Jenkins’ civil commitment.68
It is the considered opinion of the Committee
that the decision by Dr. Mark Weilage to withhold
Dr. Natalie Baker’s February 4, 2013, report resulted
directly in the failure of Jenkins to be civilly
committed. Not only did Dr. Weilage admit to
withholding the report, Dr. Cameron White, testified
that the decision to withhold the report was wrong.69
The Committee struggles to understand why
Dr. Mark Weilage would withhold Natalie Baker’s
report from both the Johnson County Attorney and
the Ombudsman’s office. Dr. Weilage was aware of
Jenkins’ bizarre behaviors. He also understood that
the Johnson County Attorney was trying to make a
judgment as to whether or not Jenkins should be
civilly committed.
The simplest explanation is that there was a
turf war at the Department of Correctional Services
which had tragic consequences. The NCDS staff
psychologists at TSCI seemed determined to
discredit the opinions of Dr. Eugene Oliveto and Dr.
Natalie Baker, both contract psychiatrists. What is
Exhibit D at 240-242, 312, 357 & 367 and Exhibit E at 14, 1519, 22, 92, 98 & 103
67

68

Exhibit E at 23

69

Exhibit D at 312 & 356-357

296a

less clear to the Committee, but certainly a realistic
explanation, is that the Department of Correctional
Services did not facilitate or cooperate in Jenkins’
civil commitment because the Lincoln Regional
Center was not equipped to safely house and treat a
person demonstrating the dangerous propensities
that Nikko Jenkins was demonstrating during the
period of his confinement at TSCI. Regardless of the
reasons, Dr. Mark Weilage breached his professional
responsibility in not sharing Dr. Baker’s report with
the Johnson County Attorney and the Ombudsman’s
office, and he did so, in this Committee’s opinion,
deliberately. What’s more, the failure to provide the
information necessary to support a civil commitment
directly resulted in the tragic death of four
individuals in Omaha.
Conclusion
The Committee’s conclusions concerning Nikko
Jenkins should not be interpreted as a defense of his
behavior. As far as the Committee is concerned,
Jenkins should be held accountable through the
criminal justice system for his murderous rampage.
On the other hand, this Committee has been called
upon to determine to what extent did the
circumstances of Jenkins’ confinement and release
contribute to, or provide an opportunity for, Jenkins
to commit these tragic murders.
It is the conclusion of the Committee that both
the conditions of Jenkins’ confinement as well as the
withholding of Dr. Baker’s report set the stage for a
mentally ill Nikko Jenkins to be released into the
community to make good on his promise to murder.
Jenkins’
long-term
incarceration
in
segregation would appear to be based on NDCS’s
297a

concern for staff safety and for the general order of
the institution.70 While the Committee recognizes the
importance of keeping NDCS staff safe, Jenkins’
experience at the Douglas County Correction Center
suggests that he was capable of serving time in the
general population with appropriate mental and
behavioral health care.71 It was Jenkins’ long-term
confinement in segregation which exacerbated his
mental health problems, prevented him from
receiving mental health treatment and any form of
rehabilitative programming and, very simply, made
him more angry and disturbed.
By the time Jenkins approached his last six
months of incarceration, his behavior became more
threatening and bizarre and his pleas for mental
health treatment more desperate. It is particularly
troubling that Dr. Weilage, a psychologist employed
by the Department of Correctional Services, would
refuse to provide a psychiatric evaluation to the
Johnson County Attorney to facilitate the civil
commitment of a clearly dangerous but willing Nikko
Jenkins. The failure of Dr. Weilage to provide Dr.
Baker’s report to both the Ombudsman’s office and
the Johnson County Attorney is strongly condemned
by the Committee.
SEGREGATED CONFINEMENT AT NDCS
The use of segregation is one of those practices
in the Department of Correctional Services which, to
the lay person, sounds like a common sense tool for
maintaining order within a penal institution. In
practice, the use of segregation is problematic in
70

Exhibit E at 171

71

Exhibit A at 15

298a

many respects. The problems associated with the
overuse of segregation include inordinate expense, its
overuse for inmates generally and the mentally ill
inmates in particular.
Inmates who are incarcerated in segregation
often times find themselves there for long stretches
of time. Initially, they are placed in segregation for
one rule violation or another. Their terms are
frequently extended for violations of rules, some of
which are minor in comparison to the punishment of
additional time in isolation.
Defining Segregation
Segregated confinement is a broad category of
housing prisoners in a manner that separates them
either individually or in certain subgroups from other
members of the prison community. In its most
sweeping definition, it includes all inmates that are
not housed in “general population.” Given this broad
grouping of segregated confinement, the day-to-day
reality for prisoners in one type of segregation will be
very different from another type. In the more ‘locked
down’ types of segregated housing, inmates will
spend between 22 and 23 hours a day in a concrete
cell that may measure 9 by 18 foot in the newer
prison, to as small as the “Control Unit” at the
Nebraska State Penitentiary that measures 9 feet by
7 feet.72 This type of segregated housing, is also
referred to as “restrictive housing,” “special
management” and by inmates and others as “solitary
confinement” and “the hole.”
It is important to note that although the public
and inmates often refer to “solitary confinement,”
72

Exhibit P at 57

299a

according to the Audit Report “(s)olitary confinement,
as it is defined in DCS regulations, deprives an
inmate of any audio and visual contact with other
inmates or staff. . . Although allowed by law to use
solitary confinement for disciplinary purposes and for
purposes of institutional control, NDCS officials said
they no longer use solitary confinement under any
circumstances.”73
For inmates kept in the more locked down
forms of segregated confinement, inmates are
normally allowed one hour of out of cell exercise,
often in a small chain-link fence cage at least 5 days
a week, and one 15 minute shower at least three
times a week.74 For inmates in less restrictive forms
of segregated housing, particularly protective
custody, inmates may have communal meals, day
room and outdoor recreation.
Prison officials believe that segregated
confinement is an important tool for correctional
departments to maintain order and safety in secure
facilities such as prisons and jails. Experts agree that
some degree of segregation and isolation is necessary
for a prison to operate in a safe and secure manner,
but some experts and prisoner advocates believe that
administrative segregation is often overused, and can
be harmful for the mental wellness of inmates. There
is
a
changing
perspective
among
prison
administrators on the use of restrictive housing, as
Rich Raemisch, the Executive Director of the
Colorado Department of Correctional Services
testified before a US Senate subcommittee on
73

Exhibit R at 11-12

74

Exhibit P at 62-63

300a

February 25, 2014, that his “experiences in law
enforcement have led (Raemisch) to the conclusion
that Administrative Segregation has been overused,
misused, and abused for over 100 years. “The Steel
Door Solution” of segregation . . . either suspends the
problem or multiplies it, but definitely does not solve
it. If our goal is to decrease the number of victims
inside prison, and outside prison . . . then we must
rethink how we use Administrative Segregation,
especially when it comes to the mentally ill.”75
Different types of Segregation
There are different types of segregated
housing that are important to understand. The
various types have very different characteristics. For
example, in the case of protective custody, an
inmate’s experience should be relatively similar to an
inmate in general population, while an inmate in
intensive management almost never leaves his cell,
even showering and exercising in his cell space.
NDCS refers to inmates who are housed
separately from the general population as “special
management inmates.” Inmates may be placed in
segregation through two distinct processes: 1) as part
of the classification process, which determines where
inmates will be housed based on the level of security
required and other factors, and 2) through the
disciplinary process as a sanction for certain types of
offenses.
NDCS regulations identify five categories of
special management inmates: 1) Disciplinary
Segregation; 2) Death Row; 3) Court-Imposed
Segregation; 4) Immediate Segregation; and 5)
75

Exhibit P at 77-83

301a

Administrative Segregation, which includes four
subgroups (see table below).
Categories of Special Management Inmates
Types of Segregation for Special Management
Inmates
Disciplinary Segregation Temporary separation from the
general population due to violation of institution rules.
Death Row Separation of inmates from the general
population due to a sentence of death.
Court-Imposed Segregation Temporary separation from
the general population as ordered by a court; usually no
longer than 48 hours.
Immediate Segregation Temporary separation from the
general population pending another event, e.g., investigation
of a conduct violation, misconduct hearing, classification
hearing, inmate safety, etc.
Administrative Segregation (AS)
1) Administrative Confinement (AC) Inmates separated
from the general population because they are
considered a threat to other inmates and/or staff.
2) Intensive Management (IM) Most restrictive status, for
inmates considered to be an immediate threat to other
inmates and staff.
3) Protective Custody (PC) Confinement of an inmate for
an indefinite period of time to protect the inmate from
real or perceived threat of harm by others.
4) Transition Confinement Confinement of an inmate in a
structured transition program.
Source: AR201.05and DCS Staff76

76

Exhibit R at 12

302a

Disciplinary Segregation, Court Imposed
Segregation and Immediate Segregation are either
court or committee ordered, or are temporary
measures that are intended to be of short duration.
In general, these classifications have a finite time
period. Death Row is also a small population
(currently 11 in Nebraska), who are housed
separately from other inmates.
The administrative segregation classifications,
on the other hand, can be relatively open ended,
lasting for potentially the entirety of an inmate’s
sentence. Of the segregated population, those who
are classified under Administrative Segregation are
by far the largest portion. All of the Administrative
Segregation categories are recommended by a Unit
Classification Committee, which are reviewed and
referred to the Warden of the institution. The
Warden approves the assignments to, continuation
of, or removal from all administrative segregation.
According to testimony provided by Robert Houston,
the former Director of Nebraska’s Department of
Correctional Services, inmates held in AS are
reviewed every four months to determine whether or
not they should remain in this classification.77
The Unit Classification Committee is supposed
to conduct formal reviews of the status for each AS
inmate every seven days for the first 60 days. After
that, reviews are to take place every two weeks.
Written notice is to be provided for any classification
hearing on the inmate’s placement, continuation or
removal from administrative segregation. An initial
hearing shall be made after 45 days in IM, AC, or
involuntary PC. Additional hearings are to be held at
77

Exhibit B at 71-72

303a

least every four months after the inmate’s first 45
day review.
The Department of Correctional Services
shared the number of inmates in each type of
segregation on a single day. It should be noted that
some inmates may be classified in more than one
type of confinement, for example an inmate might be
on disciplinary segregation as well as protective
custody.
Total number of inmates in Restrictive
housing on November 17, 2014

629

Administrative Confinement (AC)

153

Immediate Segregation (IS)

118

Disciplinary Segregation (DS)

91

Protective Custody (PC)

310

Death Row (DR)

11

Intensive Management (IM)

4

Administrative Confinement: The second
largest
classification
within
Administrative
Segregation is AC. These inmates are kept in locked
cells alone for 22 to 23 hours a day, and for inmates
at the Special Management Unit housing block at
TSCI they are permitted one hour of recreation in a
separate cage that has one wall that is open to the
outdoors, otherwise the floor and ceiling are concrete
and the other chain link barrier faces inside the
facility. Additionally inmates are permitted one
fifteen minute shower at least three times a week.
All meals are consumed in their cell, alone. Recently,
TSCI began a program for inmates on AC status to
have group sessions with a psychologist and other
inmates while shackled to the floor, but otherwise in
304a

the same room with no barrier dividing the inmates
from each other or from the mental health
professional. Beyond this, very few programs are
offered for these inmates regardless of what their
individualized plans are. Inmates are seen by mental
health professionals occasionally at the door to their
cell, with little to no privacy for therapy. It should be
noted that Jenkins spent most of his time in
segregation
classified
as
Administrative
Confinement.
Intensive Management: The most extreme
form of segregation is intensive management. IM
inmates essentially never leave their cells, a small
recreational cage that has one chain link wall
exposed to the outdoors built into one side of their
cell, and they are permitted up to one hour of
exercise in that space, and a shower stall is included
on the other side of the cell. Intensive Management
inmates are housed at the Special Management Unit
at TSCI. As AC inmates are, IM inmates are seen by
mental health professionals occasionally at their cell
door.
Transition Confinement: Inmates who are
being transitioned out of segregated confinement
either to general population or protective custody are
normally placed on TC housing for the duration of
the program to re-socialize and prepare for the day to
day realities for inmates in general population.
Protective Custody: The largest group of
people in segregation are classified as Protective
Custody, it is also the classification most unlike the
others. Unlike other types of classification, many
inmates in protective custody choose to be there, as
they fear for their physical well-being. This can be

305a

due to the nature of their crime (for example, sex
offenders), if their crime was of a high profile nature,
or because they are leaving or refusing to join a gang.
PC is not intended to be a punishment, and it is not
uncommon for inmates to remain on PC for years.
Most PC inmates aren’t separated from every other
inmate, they are able to interact and socialize within
their smaller PC group, have outdoor yard time
together and dine together. PC inmates are in cells
with a cellmate, locked down for most of the day,
according to one inmate’s correspondence with
Senator Lathrop’s office, for 20 1⁄2 hours a day.
Problems Associated with Segregation
In some ways, Jenkins might serve as a case
study on the evils of segregation. As former Director
Houston observed, “we can’t continue to have
Administrative Confinement. That doesn’t mean that
there’s going to be a change tomorrow or the next day
or even the year. But it has to change. We have a
legal responsibility to separate the individuals from
the general population, but at the same time we have
a responsibility to that individual to attend to their
mental health issues, their substance abuse issues,
their social issues, and so forth, as best we can. And
although I can say very definitely that Nebraska is
doing as good as anybody in the country, it’s still not
good enough.”78
Former Director Houston is correct inasmuch
as he has called for change in the use of segregation.
On the other hand, Nebraska is not doing as “good as
anybody in the country”. There are certainly other
states that have recognized the need for reform. In
78

Exhibit B at 77

306a

that respect, Nebraska has yet to recognize the full
measure of the problems associated with segregation
as well as the necessity of joining the movement to
bring about reform to this form of punishment which
some regard as a form of torture.
While Jenkins may have served as an example
of one inmate’s experience with segregation, the
Committee took testimony from Rebecca Wallace to
understand a broader perspective on segregated
housing. Ms. Wallace is a staff attorney with the
American Civil Liberties Union (ACLU) of Colorado
and testified that Colorado is one of a handful of
states who chose to collaborate with advocacy groups
to take a fresh look at the practice of using
segregation and bring about necessary reforms.
As Ms. Wallace testified, segregation is often
justified as a form of punishment for the “worst of
the worst.”79 The general notion that the most violent
criminals who are too dangerous to be in general
population make up the entire population of the
segregation is not true. While segregation certainly
involves many of the most violent inmates who
cannot be safely placed into the general population,
the reality is that in those systems that rely heavily
on segregation, the cells are filled primarily with
prisoners who are mentally ill, those who are
cognitively disabled and the habitual minor rule
violator. In reality, Wallace testified that it is only a
very small percentage of the prisoners who are so
violent, dangerous and incorrigible that they must be
isolated long term from all other prisoners.

79

Exhibit G at 86

307a

The movement towards segregation grew in
the 1990s. That was a direct result of a philosophical
movement away from rehabilitation and towards
punishment. It developed as the tough on crime
movement swept the country.
The reality of the country’s experience with
segregation demonstrates that it is a failed approach
when applied to the greatest share of those confined
to segregation.
As Ms. Wallace observed, the number one goal
of the Department of Correctional Services should be
to protect the public. The reality is 97% of prisoners
incarcerated at NDSC are ultimately released to the
public.
Because
segregation
involves
no
rehabilitative purpose or effect, many of these
individuals will be released directly from segregation
to society without any rehabilitation whatsoever. The
result, all too often, is the exposure of the public to
individuals who are at least as dangerous, and in
most cases, more dangerous, than they were at the
time of their confinement.
Segregation is also an inefficient use of
taxpayer dollars. Placing an individual in
segregation is one of the most expensive ways to hold
a prisoner inasmuch as the prisoners occupy a single
cell by themselves and, when transported, require
the attention of two or more guards at a time.
There are also considerations regarding the
humane treatment of inmates. Segregation involves
the most severe form of punishment short of death. It
can not only exacerbate mental illness but often
times causes inmates who are otherwise healthy to
experience mental illness as a result of their
isolation. Finally, and perhaps more concerning, is
308a

that vulnerable populations are disproportionately
housed in segregation. Typically those inmates who
have a particularly difficult time conforming to
prison rules or who are at risk of mistreatment by
other prisoners find themselves in segregation.
Ms. Wallace also shared that the American
Psychiatric Association opposes the use of
segregation for more than fourteen days because of
its detrimental effects on mental health. Clinical
impacts of isolation, even on healthy people, include:
x

Hypersensitivity to stimuli ͒

x

Perceptual distortions ͒

x

Hallucinations ͒

x

Revenge fantasies ͒

x

Rage, irrational anger ͒

x

Lack of impulse control ͒

x

Severe and chronic depression ͒

x

Apathy ͒

x

Decreased brain function ͒

x

Self-mutilation ͒

x

Suicide ͒

In fact, the consequences of segregation on the
mentally ill can be devastating. Ms. Wallace noted
the obvious, that human beings need social
interaction and at least some productive activities to
ground themselves in reality. For prisoners with
mental illness in solitary confinement it’s not
uncommon to see bizarre and extreme acts of selfinjury and suicide to include compulsively eating

309a

flesh, smashing their heads against the wall,
swallowing razors, eating feces and attempting to
hang themselves. And in Nebraska, as we have
learned in the case of Jenkins, as with many other
states that utilize segregation, there is no
meaningful mental health care in segregation. It is,
very simply, an environment which makes
therapeutic treatment of mental illness nearly
impossible.
Finally, Ms. Wallace testified that every court
to consider the issue of segregation as a form of
punishment has found that placing inmates in long
term solitary confinement is cruel and unusual
punishment in violation of the United States
Constitution. In fact, one federal judge noted that
“placing prisoners in solitary was the mental
equivalent of putting an asthmatic in a place with
little air to breathe.”80
Nebraska’s experience has not been much
different than the experience described by Ms.
Wallace. In Nebraska, inmates in all types of
segregation are unable to participate in any regular
programs, except for GED and similar education
courses, even if they are required as part of an
inmate’s individualized plan. This includes protective
custody inmates, and is particularly concerning for
those individuals on that status. Programs and
treatments are available only to general population
inmates. This includes sex offender programs,
violence reduction programs and drug abuse
programming. As a result, protective custody
inmates cannot receive programs that would allow
Exhibit G at 92-93 and 83-113 for Ms. Wallace's entire
testimony
80

310a

for them to parole, and they thereafter have to choose
between risking grave injury by joining general
population or to remain in segregation, potentially
until they reach their mandatory discharge date.
Once these inmates reached their mandatory
discharge date, they will be released to society with
no supervision, and having had none of the
programming that is recommended to them.
In most cases, counseling services are, in
practice, an occasional stop at the door by a member
of the mental health staff. Regulations require that a
personal interview is to be made for any inmate in
segregation who has been there for more than 30
days, and if segregation continues for an extended
period, mental health assessments must be done at
least every three months.81 Inmates are expected to
discuss their mental health through cell doors, where
other inmates in the unit are often in earshot. Dr.
Stacey Miller, former TSCI Psychologist, who
testified before the Committee, shared her concern.
Dr. Miller testified that merely checking at the door
is not therapy, explaining that though she would
attempt to meet severely mentally ill inmates more
often, the practice was to meet with an inmate once a
month which, in her opinion, did not meet the
standard of care.82
Ms. Wallace shared the experience of Colorado
which, like Nebraska, found itself at a crossroads as
it relates to the use of segregation as a tool within
the Department of Correctional Services. Ms.
Wallace described the tragic homicide of the Director
81

Exhibit P at 142 & 152

82

Exhibit G at 57, 59-61 & 69-71

311a

of the Department of Correctional Services, Tom
Clement, in Colorado who was murdered on his own
front porch by an inmate who was discharged
directly from segregation into the community. After
the death of Director Clements, Colorado had, as Ms.
Wallace explained, a decision to make regarding the
use of segregation. Would Director Clements’
homicide be cause for Colorado to double down on the
use of segregation or make reforms with an eye
towards rehabilitation and improving public safety.
Colorado chose reform.
In many ways, Nebraska finds itself at the
same crossroads. Will Jenkins’ murderous rampage
be a call for the expanded use of segregation or will
policymakers use this experience as an opportunity
to reform the use of segregation.
Ms. Wallace testified concerning the reforms
in Colorado. The process of reforming the use of
segregation in Colorado has not been without its
setbacks. On the other hand, the experience in
Colorado demonstrates that many of those
committed to segregation are there unnecessarily
and with thoughtful reforms, Nebraska could
experience significant reductions in the numbers of
inmates committed to segregation, with the result
being a safer Department of Correctional Services
and improved public safety.
The first principle for Colorado in its reform
was to remove from isolation those prisoners who
suffered from mental illness. The reality is many of
the mentally ill once committed to segregation have a
difficult time “earning” their way back to the general
population. Most of them, because of their mental

312a

illness, behave in such a way that they continue to be
recommitted to segregation for minor rule violations.
Colorado examined their data as it relates to
the use of segregation. As the Legislative
Performance Audit Review Committee concluded,
Nebraska has not done well with data collection.83
Nebraska must necessarily begin collecting
meaningful data concerning those inmates assigned
to segregation so that policy decisions can be made
regarding reforms to the practice of using
segregation.
Wallace made some recommendations for
segregation reform in Nebraska. The first thing
suggested was an immediate assessment of NDCS’
segregated population. Wallace suggested a
determination of those with mental health needs and
an examination of the length of stay in solitary
confinement. Wallace also suggested that NDCS
bring in an outside consultant to evaluate the
classification policies.
Perhaps the one recommendation emphasized
the most by Wallace was the necessity of having
NDCS led by a reform minded director. The
Committee regards this as central to bringing about
reform in the use of segregation.
Finally, Wallace recognized the importance of
providing for a mental health unit for the mentally
ill. Too many of the inmates in NDCS suffer from
mental illness. Far too many are committed to some
form of segregation with little or no chance to receive
meaningful mental health care and little or no

83

See Exhibit R

313a

chance to return to the general population.84
The Committee is particularly appreciative to
Ms. Wallace for her insight into the problems caused
by the overuse of segregation and an overview of her
state’s thoughtful effort to reform the practice.
MENTAL HEALTH TREATMENT
The examination of Jenkins’ confinement has
brought into question the extent to which inmates
receive mental health treatment from NDCS.
The problem with mental health treatment at the
Department of Correctional Services necessarily
requires an understanding as to why the population
of mentally ill at NDCS is growing. That inquiry, in
turn, brings us to an overview of mental health
treatment in the State of Nebraska generally.
To fully understand the growth in the
population of mentally ill inmates at NDCS,
the Committee invited Dr. William Spaulding to
testify on November 25, 2014. Dr. Spaulding has
been a Psychology Professor with the University of
Nebraska since 1979 and, in that capacity, has been
involved with the policies and the implementation
of evidence-based practices in Nebraska. The history
of mental health treatment in Nebraska begins in
the 1970’s when the national movement to
deinstitutionalize mental health treatment reached
Nebraska. This movement resulted in patients
moving from state hospitals (regional facilities) to
community treatment facilities. Southeast Nebraska,
was, in many ways, better suited to deal with the
transition of patients from the regional centers as it
84

Exhibit G at 83-113 for Rebecca Wallace’s testimony

314a

had at its disposal the Lancaster County Mental
Health Center. In 1982, Dr. Spaulding assisted with
the development of a state of the art treatment and
rehabilitation unit at the Lincoln Regional Center
(LRC). LRC received grants which provided the
ability to do pioneering research. This, in turn,
allowed the LRC to keep up with new technologies
and treatment resulting in a successful rehabilitation
program that “[discharged] some of the most disabled
and chronically institutionalized patients...”85 This
pioneering treatment program continued from the
1990’s through 2004.
It
appeared
the
first
wave
of
deinstitutionalization was a success in Nebraska.
However, this mental health renaissance, if you will,
did not last.
In 2004, the Legislature passed LB 1083, a
mental health reform bill. LB 1083 was designed to
reduce dependence upon state hospitals and place
patients in the least restrictive environment. Beds
were reduced in these hospitals (regional centers) as
care was to be provided in community based settings.
Nationally, state hospitals were reducing beds by
40%. In Nebraska, a more aggressive approach was
adopted and beds were reduced by 60-70%. LB 1083
also delegated state-level mental health planning to
each of six regions. The intent was to transfer the
state resources from the state run facilities to the
communities in order to provide care that was once
available in the state institutions. While this was an
admirable goal, the resources devoted to community
based care proved inadequate.

85

Exhibit G at 5

315a

As an aside, a great deal of planning and
expert-professional resources went into planning the
successful
implementation
of
LB
1083.
Unfortunately, many of the best concepts to come out
of the planning were abandoned in the legislative
process that resulted in the final version of LB 1083.
Best treatment practices which once guided LRC’s
state of the art treatment, reverted back to 1960’s
standards. LRC’s rehabilitation program closed in
2009 resulting in the use of more restraints and
seclusions, and patients staying for longer periods of
time. Discharge rates decreased and waiting lists for
beds increased. Unhappy mental health professionals
left the state and the regions were left with minimal
resources to care for the mentally ill. The promise of
community based care did not occur as LB 1083
contemplated, and many of the mentally ill were left
untreated. Not surprisingly, those community based
providers who did serve the mentally ill were
unwilling or unable to serve the most chronically ill
who were in most need of help.
With insufficient community resources, many
of the mentally ill wind up in “mental health ghettos”
or in the corrections system.86 There are 10 times as
many mentally ill individuals in prison than in our
state hospitals. In fact, the largest mentally ill
population can be found in Douglas County
Corrections with 21% of its population identified as
mentally ill. According to Spaulding, we are “using
the correctional system as a reaction to the
degradation of the mental health system.”87 The
state now finds itself without the promised
86

Exhibit G at 9

87

Exhibit G at 20

316a

community resources and without a secure facility
(i.e. LRC) that has the capacity for and the evidencebased treatment available to care for the most
dangerous and mentally ill.88
Many of the mentally ill who are incarcerated
end up in segregation. Segregation, which should be
used as a method to incarcerate the most violent
inmates, has turned into a method of managing the
mentally ill.89 Mentally ill inmates account for 10 to
15% of TCSI’s segregation population, yet no
meaningful mental health treatment is provided.90
The segregation environment itself can cause a
mentally ill inmate to decompensate and a psychotic
illness to emerge in a healthy inmate.91 Mentally ill
inmates may lose touch with reality, engage in selfinjury, eat their own flesh and attempt to commit
suicide.92 Healthy inmates can experience a
hypersensitivity to stimuli, hallucinations, revenge
fantasies, rage, anger, depression, apathy, suicide
and/or suicide attempts, and self-mutilation.93
Dr. Stacey Miller testified to the problems
faced by the mentally ill once they are confined at
NDCS. Miller testified that 40% of the population at
TSCI suffer from a mental illness. Yet this
population of inmates is served by only five mental
health professionals.94 The result is predictable.
88

Exhibit G at 2-53 for William Spaulding’s testimony

89

Exhibit G at 86-89

90

Exhibit G at 58-59

91

Exhibit G at 67 & 91

92

Exhibit G at 91

93

Exhibit G at 90

94

Exhibit G at 64

317a

Those incarcerated at NDCS facilities such as TSCI
receive wholly inadequate mental health care. The
problem is even worse for those confined to
segregation. For inmates in isolation, they are
routinely deprived of meaningful mental health care.
What mental health care they receive takes the form
of conversations through the door which fail entirely
as a therapeutic environment.
Dr. Miller suggested that a lack of
programming played a role in the inadequacy of
mental health care.95 The result is that an individual
who might, for example, need anger management
programming, turned to the mental health care
system within TSCI when proper programming
alternatives are unavailable.
The Committee’s evaluation of mental health
care in Nebraska generally and within NDCS in
particular, was certainly not exhaustive. The
evidence received by the Committee, however,
suggests that much more needs to be done to provide
adequate levels of community based mental health
care. This care must be provided not just to prevent
the ultimate incarceration of the mentally ill, but to
provide for a significant portion of the state
population which suffers from some form of mental
illness.
The Committee is of the opinion that a more
exhaustive examination of the availability of mental
health care in Nebraska must be undertaken by the
Legislature. In the meantime, the Committee is
comfortable concluding that the state must have a
secure state of the art facility for the dangerously
95

Exhibit G at 54-82 for Dr. Stacey Miller’s testimony

318a

mentally ill. The inability of the Lincoln Regional
Center to accept Nikko Jenkins for a competency
evaluation is clear evidence that a facility capable of
providing care and treatment and conducting
forensic examination of the dangerously mentally ill
must be established and maintained by the State of
Nebraska.
It is also the judgment of the Committee that
the resources available to inmates within NDCS are
wholly inadequate. These resources include
programming and mental health treatment. The
NDCS must not only punish the incarcerated but
provide some measure of rehabilitation. This
rehabilitation cannot happen within NDCS until
adequate programming is available and mental
illnesses are appropriately treated. The failure to
devote adequate resources to programming and
mental health treatment will result in the
compromise of public safety and additional expense
as the unrehabilitated reoffend and return to NDCS.
OVERCROWDING
The Committee’s work was broadened as the
Committee became aware of the full extent of the
dysfunction at the Department of Correctional
Services. It is the Committee’s judgment that
overcrowding in the institutions of the Department of
Correctional Services and the lack of adequate
resources were central to most, if not all, of the
remaining scandals that plagued this agency of the
Executive Branch of the state government. As a
consequence, an understanding of the capacity issues
is an appropriate place to begin the balance of the
Committee’s report.

319a

The stage for overcrowding was set by a
generation of policymakers who responded to the
public’s call to get “tough on crime”. This resulted in
a wave of legislation which turned many
misdemeanors into felonies, increased sentence
lengths for offenders, saw the increased prevalence of
mandatory minimum sentences and habitual
offender statutes. This get “tough on crime”
legislation was responsible for an increased number
of convicted offenders being sentenced to a period of
confinement to NDCS, which ultimately led to the
increase in the corrections’ population that set the
stage for the overcrowding that followed.
In October 2006, a strategic capital facilities
master plan was completed for NDCS. This report
was prepared by Carter Goble Lee, an
internationally recognized expert in developing such
facility master plans. This plan followed a 1997 plan
that was a comprehensive assessment of the current
and future needs of NDCS. Historically, the state
had followed previous master plans, including
building the work ethic camp in McCook and a new
correctional facility in Tecumseh after the 1997 plan
recommended doing so. The 2006 Carter Goble Lee
report, like previous capital facility master plans,
projected the growth in inmate population, the
number of additional beds necessary to provide for
the growth in inmate population and estimates on
the cost of capital construction as well as the annual
operation costs. The report laid out two separate
scenarios. The more alarming set of numbers
assumed a significant increase in population
following sentencing changes in the law regarding
methamphetamine. The conservative approach
referred to in the report as the “natural growth
320a

estimates” projected the growth in population and
the need for additional capacity based upon historical
incarceration figures.
The projections under the more conservative
“natural growth” projections are as follows:

The projections and the recommendations of
the Carter Goble Lee report included the following
observation in the July 2006 draft regarding the
importance of developing additional capacity:
Clearly, the State cannot expect to
accommodate the level of growth
expected even under the Natural
Growth Model without a significant
expansion of bed spaces. For the past
ten years, the ADP has increased, on
average, 135 inmates per year. Simple
math indicates that if the 862 FY07-09
bed spaces recommended in this plan
are not occupied until 2009, the
population will have increased by at
least another 300 prisoners to be added
to the 700 that currently exceed the new
recommended “operational capacity” of
3,704. The need for funding the Phase I
plan
is
apparent.
The
State,
321a

unfortunately, does not have a history of
funding alternatives to incarceration,
but even if this trend was reversed
overnight, the current facilities are well
beyond the ability to offer reasonable
conditions of confinement, much less
treatment-focused incarceration.96
This report prepared for the Governor’s office
and the Department of Correctional Services proved
to be an underestimation of the actual NDCS inmate
population. Below is a chart of the historical
overcapacity of NDCS from 2005 to present.

The recommendations of the Carter Goble Lee
report were presented to the Governor’s office in
2006.97 The Governor elected to not follow the
96

Exhibit N at 20

97 When Director Houston was asked whether he had ever
presented the report to Governor Heineman, he told the
Committee “I did not present it to him,” never advocated for the
findings in the report and that he never had a conversation
with the Governor about the findings. (Exhibit B at 39-40)
When the Governor appeared before the Committee, he stated
that he remembered having a number of conversations with
Houston regarding the recommendations of the Carter Goble

322a

recommendations of the report. In fact, since the
report was presented to the Governor, the Executive
Branch never sought an appropriation to develop the
additional capacity recommended in the report. The
consequences of this decision were predictable.
While the 2006 Master Plan was never
implemented in the years that followed it is clear
that overcapacity led the Governor’s office to
reconsider the recommendations in the Carter Goble
Lee report on a number of occasions. Talking points
from a November 7, 2007, meeting, between Director
Bob Houston and the Governor’s Chief of Staff Larry
Bare show that severe overcrowding was discussed
and that an attachment to the talking points was the
2006 Master Plan.98
In May 2009 Robert Bell from the Governor’s
Policy Research Office sought “realistic cost
estimates related to prison construction” from
Director Houston. In the email Bell wrote, “I also
think that you have said in the past that your need is
at the lower custody levels, so I would like an
estimate of a new minimum/medium facility.” He
also asked for the costs of adding beds at TSCI and
any other facility construction costs.99 As a result, a
May 7, 2009, memorandum from Houston to Bell was
submitted and was “partly based on the 2006
Strategic Capital Facilities Plan, as prepared by
Carter Goble Lee.” The memorandum provided the
costs of adding 256 beds to the TSCI, adding a 250
bed housing unit at the Community Corrections
Lee report. (Exhibit F at 20-21)
98

Exhibit P at 6-7

99

Exhibit P at 1

323a

Center-Lincoln (CCC-Lincoln), and a new 900 bed
multiple custody facility. The total costs were
approximately $150 million.100
In the fall of 2009 through 2010, there was
activity by the Department of Correctional Services
to prepare a proposal to present to the Governor for
additional capital construction based upon the 2006
Carter Goble Lee report. Like all of the previous
attempts, this discussion concerning the need for
capital construction to address capacity issues did
not culminate in an appropriation request by the
Governor’s office. Nor did the Department of
Correctional Services or the Governor ever advocate
for resources to build additional capacity.
Finally, on March 14, 2012, a meeting between
Bob Houston and Governor Heineman took place
that addressed prison capacity and, once again,
updated figures on building the additional capacity
recommended in the 2006 Carter Goble Lee report.
Director Houston prepared an outline for the meeting
which included the obvious, but important
observation: “NDCS must reduce its population or
increase its capacity.” The outline proposed three
different options for the Governor’s consideration.
The options were labeled “No Cost Options”, “Low
Cost Options”, and “Build Capacity”. The “Build
Capacity” option presented the Governor with the
updated cost figures on adding 1,300 beds to the
capacity of NDCS. This “Build Capacity” option
involved capital construction proposed in the 2006
Master Plan by Carter Goble Lee. The “No Cost
Options” were a variety of strategies intended to
move inmates out of the Department of Correctional
100

Exhibit P at 2-5

324a

Services institutions in a shorter time span. The
“Low Cost Options” involved minimal expenditures
and
band-aid
approaches
to
deal
with
overcrowding.101
In his testimony before the Committee,
Governor Heineman acknowledged that all three
options were presented and he elected to go with the
“No Cost Options.”102 In reality, the administration
had already begun implementing many of the “No
Cost Options.” It is important, nevertheless, to
recognize that a deliberate decision was made by the
administration to not build additional capacity and,
instead, pursue “No Cost Options.”
It is the implementation of the various “No
Cost Options” that became the subject of the various
scandals investigated by this Committee.
At no time did the administration propose
building more capacity. No appropriation request
was ever made to the legislature by the Department
of Correctional Services nor the Governor’s office.
What’s more, the Director insisted in meetings with
Senators that the numbers were manageable. Clearly
that was not the case. In short, the decision to not
follow the recommendations of the Carter Goble Lee
report was the Governor’s alone and it follows that
the resulting overcrowding and its related
consequences were of his own making.
As will be evident in the sections that follow,
overcrowding began to drive the administration at
NDCS, like a principle of physics NDCS could not
escape. The Department of Correctional Services
101

Exhibit N at 41-42

102

Exhibit F at 43

325a

began to be controlled by two simple principles: First,
expedite the movement of inmates out the prison
gates and, second, keep those prisoners released from
returning to the Department of Correctional
Services.
The demands of these two principles were, in
the Committee’s judgment, the moving force in the
issues which will be the subject of the balance of this
report:
x

Parole ͒

x

Re-entry furlough program ͒

x

Temporary alternative placement ͒

x

Good time ͒

x

Good time not revoked to parole violators ͒

x

Administration’s
response
to
the
miscalculation of sentences that include a
mandatory ͒minimum. ͒

Reentry Furlough Program ͒
The
primary
tools
employed
by
the
administration to reduce overcrowding were parole
and the Reentry Furlough Program (RFP). Parole, of
course, is a long-standing tool available to the
Department of Correctional Services to move suitable
candidates from incarceration to the community
where they will be supervised to ensure their success
upon release. ͒
Esther Casmer, Chairperson of the Parole
Board, testified that historically, candidates were
presented to the Parole Board after completing their
recommended programming. However, in 2008 the
lack of sufficient resources, and the pressure from
326a

overcrowding began to change this traditional model
of parole. Instead of having inmates complete their
programming prior to being presented to the Parole
Board, inmates were presented to the Parole Board
for their consideration who had completed little or no
programming. Casmer attributed this to the lack of
available programming which was, obviously, a
resource issue. In around 2008, the model which
required inmates to “earn” their parole was replaced
with a model that called for inmates to secure their
programming once they had been released to the
community. As Casmer observed, we had people who
were sentenced for substance abuse who were
discharged without ever having received any
substance abuse treatment.103 ͒
As Casmer noted, this change in the “parole
model” was the direct result of insufficient resources
devoted to programming inside the Department of
Correctional Services as well as the demand to move
prisoners in an effort to alleviate overcrowding.104 ͒
The result was predictable. Many of the
inmates who had been paroled lacked sufficient
resources to secure the programming on the outside.
This reality led to a change in policy which was the
result of the second principle which controlled NDCS:
keep prisoners released from returning to the
Department of Correctional Services. The result was
a willingness to overlook parole violations and a
“leniency” characterized by a willingness to grant
second and third chances to parolees who were not in

103

Exhibit G at 120-124

104

Exhibit G at 122

327a

compliance with their post-release treatment plan.105
Like the changes in parole, the RFP program
was a product of overcrowding and a primary tool in
the “No Cost Options.” This program was developed
by the Department of Correctional Services through
a set of administrative procedures which were, in the
Committee’s opinion, developed outside the law with
no opportunity for the public or the Legislature to
weigh in.
Perhaps the first observation to be made about
the Reentry Furlough Program was that the
development of the regulations for this program
should have been in compliance with the
Administrative Procedures Act. Notwithstanding the
Attorney General’s remarks to the contrary, the
Committee feels strongly that the Administrative
Procedures Act governs the creation of this program
and the manner in which it was developed by the
Department of Correctional Services was outside of
the law.
Not only was the RFP program developed
outside of the law, but its implementation reflects
the pressures of overcrowding. Esther Casmer’s
testimony gave important insight to the development
of this program. Initially, the concept was developed
by Director Houston who, along with Ms. Casmer,
presented the concept to the District Court Judges in
Douglas County. The District Court Judges
apparently were skeptical of furlough programs after
a bad experience some years earlier. When the RFP
program was presented to the Douglas County
District Court Judges, both Houston and Casmer
105

Exhibit G at 146-147

328a

assured the District Court Judges that the program
would be available to “non-violent offenders” only.106
In fact, the initial administrative regulations
reflected this criteria.107
The first regulations intended to control the
RFP program were adopted in 2008. Those
regulations set forth generally the terms and
conditions of the RFP program and provided
specifically that the program would exclude “violent
offenders.”108 Inmates released on the RFP program
required Parole Board approval.
There were several iterations of the
administrative regulations issued on nearly an
annual basis. Each of those versions of the RFP
regulations provided for an exclusion of violent
offenders until 2012 when the exclusion was absent
from the administrative regulations for a period of
approximately six months.109
During the period of time that violent
offenders were excluded from the RFP program, no
less than 162 inmates convicted of violent offenses
106

Exhibit G at 150-153

107

Exhibit N at 56A and 56B

108

Exhibit N at 56A and 56B

Exhibit T at 30-31. After the Governor’s appearance before
the Committee, an employee of the Department of Correctional
Services presented to the Committee Chair a Director’s “Policy
Directive” purportedly issued in 2010 which removed the
exclusion of violent offenders from the RFP regulations. The
Committee observes that this information was not provided in
response to subpoenas. Furthermore, the “Policy Directive” was
never incorporated into subsequent versions of the regulation
except for a six month period in 2012. Moreover, the “Policy
Directive” was never shared with Casmer. (Exhibit G at 158)

109

329a

that included murder, first degree assault, terroristic
threats and the like were placed on the Reentry
Furlough Program.110
The Committee regards the creation of the
RFP program outside of the law as a clear response
to the pressures of overcrowding.
Once the Reentry Furlough Program was
established, the RFP program and parole became the
primary tool of the Department of Correctional
Services in its attempt to alleviate overcrowding
through “No Cost Options.”
The numbers provide, perhaps, the strongest
evidence of the influence of overcrowding on parole
and the RFP program. The graph below illustrates
the significant increase in the use of parole and the
RFP program as means of moving inmates out the
door and into the community and thereby providing
some measure of relief to the overcrowding crisis.

110

Exhibit O at 56K-56N

330a

While the graph shows the precipitous
increase in the use of parole and the RFP program,
the testimony of Ms. Casmer demonstrates that
pressure was applied to the Parole Board to make
these numbers a reality.
Casmer testified that at one point she was
provided with a quota of 168 inmates per month who
needed to be moved through the Parole Board and
placed into the community.111 She testified that this
was done in an effort to alleviate overcrowding.
Casmer testified that historically they had moved
approximately 100 people per month through parole,
and this quota would have significantly increased the
number of people discharged to the community.112
Casmer testified concerning the pressure. She
indicated that at one point she and fellow board
member Jim Pearson, had a meeting with Larry
Bare at which point in time Bare advised Ms.
Casmer “don’t be concerned about losing your jobs for
paroling people; be concerned about losing your jobs
for not paroling people.”113
Casmer also testified about conversations she
had with the then Director of the Department of
Correctional Services, Bob Houston. Casmer testified
that Houston would appear in her office two or three
times a week. These visits generally involved
Houston advising Casmer that he was having regular
Exhibit Q at 69-70 describes meeting minutes of NDCS
executive staff from July 19, 2011, where Houston stated “we
need to be recommending at least 191-200 to BOP (Board of
Parole) each month.”

111

112

Exhibit G at 132-135

113

Exhibit G at 142

331a

conversations
with
Mr.
Bare
concerning
overcrowding. Casmer felt that these visits by the
Director were direct pressure upon the Parole Board
to place more inmates into the community.114
Casmer felt uncomfortable with a number of
the placements that she approved. More concerning
for Ms. Casmer, however, was the fact that the lines
between Corrections and the Parole Board were
becoming blurred.115
The Parole Board was established to serve as
an independent gate keeper for public safety. As
established, the Parole Board is to take inmates
tendered by the Department of Correctional Services
and determine whether they are suitable candidates
for parole. This role can be performed only when the
Parole Board stands alone as a separate agency. In
contrast to the Parole Board’s role as an independent
gate keeper, Casmer felt that the lines between the
Department of Correctional Services and the Parole
Board were being blurred as a direct result of the
pressure from the administration to have the
Department of Correctional Services and the Parole
Board “cooperate” in moving inmates into the
community
as
a
means
of
alleviating
116
overcrowding.
It is the Committee’s considered opinion that
the establishment of the RFP program was a direct
result of overcrowding. Furthermore, that the
program was established outside of the law inasmuch
as NDCS failed to promulgate regulations in
114

Exhibit G at 132, 139-140

115

Exhibit G at 148

116

Exhibit G at 140

332a

compliance with the Administrative Procedures Act.
The Committee also concludes that the pressure
applied to the Parole Board, and the attempt to use
the Parole Board as a means of alleviating
overcrowding,
has
a
potentially
dangerous
consequence to public safety. Throughout the
exhibits received from the Department of
Correctional Services, there are a number of
references to paroling higher risk inmates in addition
to the number of inmates who were paroled with
little or no programming.117 The committee feels
strongly that the RFP program should be abandoned
and, to the extent it may have merit as a tool for the
Department of Correctional Services, should be reestablished through the legislative process. The
Committee also believes that the Parole Board must
be re- established as a truly independent gatekeeper
with public safety being its only consideration in the
evaluation of those presented for approval.
Good Time
Good time changes were listed among the “No
Cost Options” which were to be implemented rather
than develop additional capacity at NDCS.
To assist with moving more inmates into parole and the RFP
program a list of candidates for parole and the RFP program
was developed under the leadership of Rex Richard, who was in
charge of the Reentry Furlough Program and would later be
appointed to the Parole Board by Governor Heineman. The
Committee reviewed many documents that discussed the use of
the list to alleviate overcrowding and found that as part of
developing this list many treatment recommendations,
including substance abuse recommendations, Clinical Sex
Offender Review Team recommendations, and Clinical Violent
Offender Review Team recommendations, were changed which
then resulted in changes to Institutional Progress Reports (IPR)
for inmates. (Exhibit Q at 170-171)
117

333a

Since 1969, Nebraska has had some form of
good time law on the books. The intent of these laws
has been to create incentives for inmate good
behavior, on the assumption that inmates will want
to be released from prison as early as possible. The
primary good time law most inmates in the Nebraska
Department of Correctional Services are serving
under is a law from 1992 authored by Senator Ernie
Chambers, a member of this Committee. The law
provides for six months of good time per year granted
at the beginning of an inmate’s sentence. Inmates
can lose good time if they engage in rule violations,
but the act of losing the time must be done in a
manner that is consistent with due process, including
hearings and opportunities for the inmate to
challenge the decision to remove good time. See Neb.
Rev. Stat. §83-1,107 (Reissue 2014).
As Senator Chambers said during testimony in
front of the Committee on October 29, 2014:
You were convicted by a court, you were
sentenced here to pay a debt to society,
and if no place else you’re going to start
on the same footing here. And it
depends on how you conduct yourself as
to how it goes. So you have six months
of good time in your account. If you
want it to stay there, then you behave
yourself. And every time you do
something that you shouldn’t do,
understand you’re drawing down your
account. But that’s up to you. And by
starting out on a positive note where
you have something of value to hold
onto, if it’s improperly taken from you
then you can challenge or appeal it
334a

because there are standards by which
that’s to be done.118
Chambers said during the hearing that he
wrote the good time law because he was concerned
that creating an ‘earned’ good time structure would
necessarily make the distribution of such time
arbitrary.
But if you come there with nothing, it’s
like trying to prove a negative to say
that they should be granting me good
time but they won’t. How am I going to
prove it? Everything is arbitrary.
It’s based on the whim of whoever
the grantor is. So it’s fairer, it’s
less discriminatory, it places more
responsibility and control in the hands
of each of those persons who has been
sentenced and virtually thrown away by
society, to say you’re going to start here
with something of value and you
determine whether you keep it or not.119
While the discussion of whether or not to
change
the
existing
statutory
framework
surrounding good time was a frequently discussed
political issue for the election cycle, another related
issue is how much good time is regularly taken away
from inmates who misbehave. Legislative Bill 191
was passed in 2011 at the request of the Heineman
Administration and it liberalized the use of awarding
of good time. The Committee’s research and
subpoenaed documents revealed that between 2005
118

Exhibit F at 209

119

Ibid

335a

and 2012, the average number of good time days
taken away from inmates dropped drastically from
41.4 days in 2005 to 6 days in 2012. (See Good Time
Chart). This occurred despite no appreciable change
in the number of inmates earning misconduct reports
for poor behavior. The Heineman Administration
could have taken away good time from inmates but
chose other options. The decision to do so was
directly related to overcrowding according to former
Director Houston who testified that the decision by
the Department to not take away good time was done
to ease overcrowding.120
In a September 24, 2013, Omaha World
Herald article, it was reported that over a period of
five years, inmates had been punished for over
92,000 infractions, yet good time was removed in
only five percent of the cases.121 The article also
notes that “(f)rom 2005 to 2011, prison records show,
(Nikko) Jenkins was written up at least eight times,
for refusing to submit to a search, aggravated assault
on a corrections officer, three episodes of using
threatening language, two episodes of “tattoo
activities” and creating a weapon out of a toilet
brush. A judge sentenced him to four more years for
his assault. For all his transgressions, prison officials
took away just under 18 months of good time credit,
including three months for the assault.”122

120

Exhibit B at 162

Exhibit P at 124-128. Even after the Governor made good
time a public issue, NDCS still did not use all of its authority to
take away good time. (Exhibit F at 190-191)͒

121

122

Exhibit P at 124-128

336a

Good Time Chart123
With respect to the Governor’s proposal
regarding earned good time, the Committee finds
that while the notion of earned good time may sound
appealing, the proposal suffered from three separate
problems: 1) programming is not available for
inmates and they would be given credit for sitting on
waiting lists; 2) that if the goal of this approach was
to lengthen the stay of violent offenders the NDCS
does not have the physical capacity to do so; and, 3)
even individuals at the NDCS had specific concerns
about the proposal.124
It is the conclusion of the Committee that the
liberalization of the good time law, done at the
request of the administration was in direct response
to overcrowding. Similarly, the decision by NDCS to
take less good time away from inmates who have
violated rules within the institution was likewise
directly influenced by overcrowding. Such was the
123

Exhibit Q at 172

124

Exhibit O at 66

337a

testimony of Director Houston when he appeared
before the Committee. The conclusion is also
supported by common sense.
Good Time and Revoked Parole
For a period of time, good time was awarded
for time spent on parole to parolees who violated
their parole and were returned to the Department of
Correctional Services. This practice, which was
directly contrary to statutory law, presents yet
another example of the pressures created by
overcrowding and the willingness of individuals to
respond to that pressure by establishing policies
outside of the law.
Prior to October 2010, in those circumstances
in which a parolee violated their parole, the process
of revoking one’s parole also included revoking good
time earned (two days per month) while on parole.
This changed in 2010 in a process that required the
torturing of the statutory language to secure
additional good time credit for parole violators. The
process of making this change involved Larry Wayne,
Kyle Poppert, Records Administrator, as well as
Director Houston. The Committee has reviewed
various e-mails but we pick up the trail with an email Kyle Poppert sent to a group of NDCS
employees:
The Director and the Parole Board
reviewed the policy and statute
regarding the two days per month of
earned good time while on parole.
Traditionally this reduction has only
been
awarded
upon
successful
completion of parole. The Director and
the Parole Board have decided to grant
338a

the reduction for the number of months
on parole prior to revocation.125
Poppert included a spreadsheet with 110
inmates initially affected by this change. The
spreadsheet included their names, parole dates,
number of months between parole and revocation,
the new number of good time days they would get
under this policy change, their old tentative release
date and their new tentative release date. The total
number of good time days earned by these inmates as
a result of the new “interpretation” of the statute was
2,164 days, or an average of about 20 days per
inmate. One inmate received 140 good time days.126
In a January 20, 2011, e-mail to a number of
NDCS employees, Poppert shared the change in
policy: “Angela had a question regarding awarding
parole good time while an offender is on abscond
status. We will award good time while an inmate is
on abscond status.”͒He later wrote, “The director
wanted me to remind everyone that these time
calculations must be a top priority.”127
This tortured interpretation of statutory law
would not last long, but it was clearly motivated by
overcrowding. In an interview with Lieutenant
Frank of the Nebraska State Patrol, Angela FoltsOberle volunteered that this practice was due to
overcrowding. Folts-Oberle is a Records Manager
with the Department and when she discussed this
practice, she said: “...So what they decided to do, and
I know this was due to overcrowding, was well, even
125

Exhibit P at 8

126

Exhibit P at 9-12

127

Exhibit P at 26

339a

though they’re revoked, we’re going to go ahead and
give ‘em parole credit for the time they were out.”
She later said, “That was something all of us
disagreed with because we did not think that that
was what the law intended, but when your legal
team reviews it, your Director okays it, ya know, you
move and you give everybody parole...we went
through and gave everybody parole credit if they’d
been out on parole.” When asked by Lieutenant
Frank if that was “strictly an overcrowding issue”
she replied, “I truly do, yes.”128
In testimony before the Committee, Jeannene
Douglass, former NDCS Records Manager, discussed
the impact overcrowding had on decision making
within NDCS. Regarding this particular practice,
Douglass said, “...there was one instance where
they...I was directed to...I, we records managers were
directed to continue to give an inmate...a parolee,
once his parole was revoked, we were still supposed
to credit their sentence with the parole good time
which would bring their discharge date earlier. I
knew that was wrong by statute, but I was ordered to
do it so I had to do it.”129
Even Kyle Poppert had to acknowledge the
change in policy that contradicted the statute was
driven by the pressures from overcrowding. In his
interview with the Nebraska State Patrol, Kyle
Poppert was asked by Lieutenant Frank, “Has there
been any pressure on you or anybody else that you’re
aware of to try to eliminate the overcrowding by
doing some of this stuff or...?” Poppert responded by
128

Exhibit P at 21-22

129

Exhibit C at 155-157

340a

saying, “Well, yes. I mean I think that there have
been clear goals to do everything we can to eliminate
overcrowding, but all legal ways of doing things...For
example, we used to take, be pretty liberal about
taking away good time for parole violations and the
public’s perception is is we just stop taking away
parole good time, just to deal with temporary
overcrowding issue.”130
Ultimately the practice would be reversed as a
result of an Attorney General’s opinion. In August
2014, the Attorney General’s office reviewed the
practice and concluded that the interpretation by
individuals of the Department of Correctional
Services which permitted good time credit for those
who violated their parole was not authorized by law.
Thereafter, the practice terminated.131
Sentence Miscalculation and the PostCastillas Response
The miscalculation of the Tentative Release
Date (TRD) for inmates serving a sentence which
includes a mandatory minimum was ultimately
clarified in the Nebraska Supreme Court decision of
State v. Castillas, 285 Neb. 284 (2013). The failure of
the Department of Correctional Services to recognize
the importance of the Castillas opinion and to apply
its holding to the calculation of inmate sentences was
the subject of a great deal of testimony. The
Committee is tempted to conclude that the failure to
timely apply the Castillas opinion to calculations at
the Department of Correctional Services was yet
another symptom of overcrowding. In fact, it is hard
130

Exhibit P at 23

131

Exhibit P at 24-25

341a

to imagine how an opinion of such importance to the
Department of Correctional Services could be passed
around various players at NDCS without its holding
ultimately changing policy unless overcrowding
played a role. In the end, the Committee is unable to
state definitively that overcrowding was behind the
failure to timely implement the Castillas opinion
only because none of the witnesses who appeared
before the Committee were willing or able to offer
testimony that would lead directly to that conclusion.
The same, however, cannot be said for the response
by the administration and the Department of
Correctional Services to the ultimate discovery that
the failure to conform NDCS policy to Castillas led to
the early discharge of 306 inmates. The response, in
the Committee’s opinion, was directly related to
overcrowding as will be more fully explained below.
To fully understand the issue, some historical
background is in order.
On August 28, 1996, Assistant Attorney
General Laurie Smith-Camp (now Federal District
Court Judge in Omaha) authored an Attorney
General Opinion regarding the application of the
good time statute to mandatory minimum sentences.
Smith-Camp concluded that an inmate can neither
be paroled nor discharged prior to serving the
mandatory minimum portion of a sentence. This
opinion did not include a discussion as to how to
correctly calculate the TRD.132
The opinion from the Attorney General’s office
was followed by a memorandum authored by Ron
Riethmuller, former NDCS Records Administrator.
132

Exhibit I at 1-3

342a

The Committee generally regards Riethmuller as
credible and particularly competent on the subject of
sentence calculations. On September 28, 1996,
Riethmuller sent a memorandum to all records staff,
Harold Clarke, former Director of Corrections, Larry
Tewes, George Green, NDCS legal counsel, Laurie
Smith-Camp, and Manuel Gallardo. This was the
first pronouncement of how NDCS would calculate
the parole eligibility date (PED) and the TRD when
mandatory minimum sentences were involved. The
memorandum indicated the calculations were to
ensure compliance with the August 28, 1996,
Attorney General Opinion and to ensure that
inmates would serve their mandatory minimum
sentences before parole eligibility or discharge.133
For many years, the Attorney General Opinion
and the memorandum of Ron Riethmuller served as
the gold standard on the issue of the application of
good time statutes to mandatory minimum
sentences.
In the years between Riethmuller’s 1996
memorandum and the 2013 Castillas opinion, there
were a number of e-mails that passed among
individuals at the Department of Correctional
Services as well as from individuals outside the
Department of Correctional Services (for example,
District Court Judges) expressing some measure of
confusion relative to the application of the good time
statute to the tentative release date for inmates
serving a mandatory minimum sentence. There were
also two opinions from the Nebraska Supreme Court
which, arguably, might have led to a change in policy
had the Department of Correctional Services solicited
133

Exhibit I at 4

343a

an opinion from the Attorney General’s office. See
State v. Kenney, 265 Neb. 47 (2002) and State v.
Kinser, 283 Neb. 560 (2012).
In any case, clarification of the issue was
provided in the February 8, 2013, Nebraska Supreme
Court opinion of State v. Castillas, 285 Neb. 174
(2013). In Castillas the Court clarified how to
calculate the mandatory discharge date when a
mandatory minimum is part of the sentence. The
court concluded that the good time statute only
applied to that portion of the sentence served after
the mandatory minimum had been served. The Court
explained that once the mandatory minimum portion
of the sentence was served, an inmate must serve
one-half of the remaining maximum sentence.
What followed the Castillas opinion was the
subject of a good deal of testimony. The Castillas
opinion was handed down by the Nebraska Supreme
Court on February 8, 2013. On that date, Jim Smith
with the Nebraska Attorney General’s office
instructed Assistant Attorney General Linda Willard
to send the Castillas opinion to the Department of
Correctional Services.134
Thereafter, the Castillas opinion moved about
various offices of the Department of Correctional
Services, as best the Committee can determine, in
the following manner:
February 8, 2013, emails between Willard,
Douglass, Green, and Poppert. 9:41 AM, Willard
shared Castillas with Douglass. Willard stated that
she wanted to make sure the NDCS’ calculation

134

Exhibit C at 16

344a

method was in accordance with the opinion.135 11:48
AM, Douglass responded that the Court was correct
regarding PED calculation, but incorrect regarding
TRD.136 1:19 PM, Willard responded: “Note that the
Supreme Court said the district court was wrong in
how they calculated. If you are doing it differently
than what the Supreme Court said is the “correct”
way to calculate, do you decide to stay with the
“right” way or go with what the Supreme Court said
is the correct way?”137 1:41 PM, Douglass responded:
“wouldn’t the right thing to do be to continue the way
we have always done it because it, too, was tried and
tested. I don’t know. It would be a real mess to have
to go back in and recalculate everyone who has
mandatory minimum sentences. What do you
think??”138 There was no further email response from
Willard. 2:09 PM, Douglass then emailed Green and
copied Poppert and Willard. She attached the
previous emails between she and Willard along with
the Castillas opinion. There was handwriting on the
case, presumably Douglass’ writing, indicating a “no”
when the Court discussed how to calculate TRD.139
Douglass explained that Willard supported her
decision to continue with their calculation instead of
following the Court’s directive. She noted that the
inmate would serve less time under their calculation
and that “it would serve the Director’s desires, as
well, to not increase our population any more than

135

Exhibit J at 142

136

Exhibit J at 141

137

Ibid

138

Ibid

139

Exhibit J at 160

345a

we must.”140
Willard testified that she did not agree with
Douglass to continue NDCS’ practice.141 After
Douglass’ email, Willard attempted to call Green to
explain her position. Green was not available, so
Willard spoke with Sharon Lindgren and explained
that she did not agree to ignore Castillas.142 Willard
testified that, at some point, she spoke with Green
and explained the Castillas decision. Willard
explained to Green that NDCS’ TRD calculation was
wrong. After the phone call, Willard had the
impression that NDCS would “get on it.”143
February 17, 2013, email from Poppert to
Douglass and Ginger Shurter, NDCS Records
Manager. Specific to Castillas, Poppert requested an
explanation of the NDCS’ current TRD calculation
policy when mandatory minimums are involved to
provide to Green. Specifically, Poppert asked for the
current practice, the expected practice under
Castillas, and why Douglass believed the current
practice was the proper course. Poppert stated that
he believed the Court was misinterpreting the
previous cases. Poppert further stated in the last
sentence, “our current efforts to reduce our inmate
population has nothing to do with how we apply good
time laws. The law is the law and we will act
accordingly.”144 On February 19, 2013, Douglass
forwarded Poppert’s email to Mickie Baum, Records
140

Exhibit J at 140-162

141

Exhibit C at 31

142

Exhibit C at 31-32

143

Exhibit C at 33-36

144

Exhibit J at 164

346a

Manager, with the comment “thought you might get
a kick out of this email from KP. Specially the last
sentence!!!”145
February 19, 2013, John Freudenberg with the
Attorney General’s office, emailed the Castillas case
to Kathy Blum, NDCS legal counsel.146
March 11, 2013, email from Douglass to
Poppert and Green. Douglass was asked by Poppert
for something in writing explaining the NDCS’ policy
on sentencing calculation. See February 17, 2013,
email above. Douglass sent Riethmuller’s 1996 memo
in response.147
September 30, 2013, email from Takako
Johnson, Staff Assistant at NSP, to Kevin Wilken.
Johnson asked if a PED can be later than a TRD.
Wilken answered that a mandatory minimum was
involved and that the PED was later than the TRD
“to ensure that he serves the entire mandatory
minimum and is not paroled before he has served the
entire 15 year mandatory minimum.”148
October 22, 2013, email from Colby Hank,
Team Leader from the Diagnostic and Evaluation
Center, to Angela Folts-Oberle and Fred Britten,
TSCI Warden. Hank relayed that he had listened to
an inmate’s phone call and the inmate claimed that
his TRD was calculated incorrectly and he is getting
out 3 years earlier than he should. Folts-Oberle

145

Ibid

146

Exhibit J at 165

147

Exhibit J at 167-169

148

Exhibit J at 170-171

347a

responded that the calculation was correct.149 This
particular inmate was on the list of inmates that
needed their sentences recalculated after the June
15, 2014, Omaha World-Herald story.
October 31, 2013, email concerning a sentence
review meeting. Those in attendance were Poppert,
Blum, Jeff Beaty, Mickie Baum, Green, Lindgren,
Shurter, and Nikki Peterson. Several items were
discussed including Castillas. It is noted that NDCS’
practice was different than Castillas. The belief was
that there was a need to clarify what the Court’s
intention was before NDCS acted. The conclusion
was that NDCS had been “performing calculations
our current way for years. We are now aware of this
situation, we will act when we are specifically told
our current way is wrong and it needs to be
changed.”150
May 9, 2014, email from Dawn Renee Smith,
NDCS Legislative & Public Information Coordinator,
to Jen Rae Wang, Director of Communications with
the Governor, Robert Bell with the Policy Research
Office, and Sue Roush with the Governor’s Office.
Smith explained that she received a call from Todd
Cooper with the Omaha World Herald. An inmate in
community custody went to court on a pass. Based on
his sentence, the judge was surprised to see him.
Apparently, Cooper was in the courtroom. NDCS’
calculations resulted in a PED after the TRD. Cooper
told Smith that he believed all judges assumed the
mandatory minimum was subtracted from the
maximum term for calculating TRD.151 This is what
149

Exhibit J at 173-174

150

Exhibit J at 175-178

151

Exhibit J at 179-181

348a

started the paper’s investigation.
June 15, 2014, Omaha World-Herald publishes
its story concerning sentence miscalculation. The
Omaha World-Herald investigation revealed NDCS’
faulty TRD calculation method. A calculation
resulting in sentence breaks of anywhere from six
months to fifteen years, the early release of inmates
(some of whom were back in prison for new crimes)
and the release of inmates before parole eligibility.
The story reported that Director Kenney would
consult with the Attorney General to determine if
mistakenly released inmates would be brought
back.152
The Committee finds that Green and Poppert
were equally culpable for the miscalculation debacle.
A U.S. Department of Justice Report (DOJ),
commissioned by NDCS, found that Poppert did not
know how to calculate release dates, instead relying
on subordinates for guidance, and rarely attended
training sessions on how to properly calculate
sentence lengths.153 “This is perhaps the reason why
he failed to grasp the magnitude of [Castillas] and
waited for an answer instead of aggressively
pursuing a response from the legal department.”154
Poppert is only now receiving the proper training.
Instead of taking responsibility for his part of the
miscalculation debacle, Poppert instead blames
Douglass, a subordinate, who may have made illadvised remarks regarding Castillas, but was not
responsible for ensuring NDCS followed Castillas.
152

Exhibit P at 109-113

153

Exhibit S at 4, 5 & 8

154

Exhibit S at 8

349a

Poppert also points to Green as a primary culprit.
While the Committee agrees that Green is culpable,
it does not absolve Poppert. The DOJ report noted
that “an experienced record office person would have
questioned the directions and sought clarification.”155
Poppert did not do this. The Committee agrees with
DOJ’s conclusion: “[Poppert] has to be the strongest
advocate for all matters relating to sentence
computations. Sometimes that requires continuously
following up with the legal department on matters
relating to the record department. If needed follow
the chain of command to alert the Deputy Director
and Director of the situation. In this instance, he was
not an advocate nor did he fully understand the
magnitude of the highest court decision.....His lack of
understanding and follow-up is partially the blame
for the miscalculated sentences.”156
As to Green’s culpability, he admitted that he
never read Castillas when released in February
2013, even though it related to corrections and was
available to the public on the Nebraska Supreme
Court’s website.157 He did not read Castillas when
Douglass attached it to an email on the same day it
was released.158 He did not read Castillas after
receiving Douglass’ email that indicated NDCS
would ignore the holding. He did not read Castillas
after following up with Poppert after Douglass’
emails.159 Green continued his ignorance even after a
155

Exhibit S at 4

156

Exhibit S at 9

157

Exhibit C at 443

158

Exhibit C at 443-444

159

Exhibit C at 457

350a

October 31, 2013, sentencing review committee
meeting, where Castillas was discussed.160 Perhaps
most troubling, Green admitted that he only decided
to take the time to review Castillas after the June
2014, Omaha World Herald story.161 Clearly, Green
failed in his duties as NDCS legal counsel.
What is less clear to the Committee but is still
troubling is the involvement of Deputy Director
Larry Wayne. Poppert testified that he advised his
supervisor, Larry Wayne, of the Castillas opinion on
the day of its release.162 Larry Wayne, by contrast,
testified that Poppert did not inform him of the
Castillas opinion.163 Neither circumstance serves
Wayne’s interest well. If Poppert advised Wayne of
the Castillas opinion, Wayne’s failure to ensure that
the Castillas holding was incorporated into NDCS’
sentencing calculation policy is inexcusable. He was
the deputy director in charge of the records
administration department.164 As such, he was
Poppert’s immediate supervisor and the person
ultimately responsible for ensuring that NDCS policy
was responsive to case law developed by the
Nebraska Supreme Court. On the other hand, if as
Wayne suggests, Poppert never advised him of the
Castillas opinion, Wayne still shares some measure
of culpability for a management style that leaves him
isolated and ignorant of a supreme court case with
such serious consequences for NDCS.
160

Exhibit C at 460

161

Exhibit C at 454-455

162

Exhibit C at 206

163

Exhibit E at 84-86

164

Exhibit E at 84-86

351a

As a result of the failure to timely apply the
holding of Castillas to the TRD calculation for
inmates serving a mandatory minimum sentence,
306 inmates were released early. While the failure to
implement the holding in Castillas into NDCS policy
may not be clearly related to overcrowding, the plan
formulated to deal with the 306 mistakenly released
inmates is.
After the Omaha World-Herald’s story, the
Governor, along with members of his administration
and the Attorney General’s office crafted a plan to
address the mistakenly released inmates. The
Governor’s public comments suggest an appreciation
for the fact that any plan to address the mistakenly
released inmates will be controlled by the Nebraska
Supreme Court holding in Anderson v. Houston, 274
Neb. 916 (2008). In fact, the Governor made the
following remark which clearly demonstrates a
familiarity with the holding in Anderson and its
application to the circumstances of the 306 inmates
mistakenly released: “inmates who would have
completed their sentence by late-June “qualified” for
sentence credit under the Anderson ruling.”165
The Anderson opinion was a Nebraska Supreme
Court opinion by Chief Justice Heavican. In the
Anderson case, the court was faced with the question
of whether an inmate was entitled to day for day
credit for time spent at liberty following an inmate’s
mistaken release by the Department of Correctional
Services. In the opinion, the Chief Justice recognized
jurisdictions across the country have employed any
one of three different theories to determine under
what circumstances an inmate might receive credit
165

Exhibit P at 121

352a

for time spent at liberty following their mistaken
release. The Court settled on one theory known as
“the equitable doctrine.” As the Chief Justice
explained, under the “equitable doctrine,” an inmate
who was mistakenly released by the Department of
Correctional Services would receive day for day
credit provided two criteria were met. First, the
inmate must not have been aware of the mistake and
second, the inmate must not have broken the law
while at liberty. The opinion was straight forward
and its application to the 306 mistakenly released
inmates should have been a simple process.
In fact, the comments of the Governor and the
Attorney General suggest that both recognize that, at
a very minimum, Anderson required that before an
inmate would receive day for day credit for time
spent at liberty, the inmate must not have broken
any laws. In a June 26, 2014, press conference, the
Attorney General and the Governor stated:
Governor: “According to Anderson v. Houston
any individual who was released early and who has
not committed a crime since their release is entitled
to be credited with time served in the community
towards their release date...”166
Attorney General: “Remember there were 257
inmates who because of the Anderson court case they
were released early but they have been on the
outside and not committed additional crimes, they
get credit for being on the outside......We’re going to
give them credit for it, by the Anderson v. Houston
case. They’re going to get credit for that even though
they weren’t on the inside....The case law is clear,
166

Ibid

353a

they owe us time. The case law is clear that they get
credit for the time that they were on the outside, if
they didn’t screw up.”167
While the statements of both the Governor and
the Attorney General suggest an appreciation for the
fact that inmates that break the law should not
receive day for day credit, the pair seemed
determined to use the Anderson opinion as a means
to provide day for day credit for all 306 inmates
released including those who had broken the law.
This is best described in a September 29, 2014,
article in the Omaha World Herald:
As Heineman, Bruning and Kenney, the
Corrections director, determined whom
to round up, they had a pivotal
Nebraska Supreme Court ruling as
their guide. In a no-nonsense decision,
the high court ruled in 2008 that an
Omaha man, David Anderson, could
receive credit for the time spent out of
prison
after
officials
mistakenly
released him. But the high court made
one
condition
abundantly
and
redundantly clear. Five times, Chief
Justice Mike Heavican, who wrote the
court’s unanimous opinion, railed
against the notion that a prisoner
should get credit if he “misbehaves
while at liberty.” The Supreme Court’s
words: “Like a majority of courts, we
agree that no equitable relief is required
where a prisoner misbehaves while at
liberty. Prisoners who commit crimes
167

Exhibit P at 16-17

354a

while at liberty do not deserve sentence
credit. Sentence credit should not apply
in
cases
where
the
prisoner....
committed crimes while at liberty.” The
Governor himself cited the Anderson
ruling several times. On July 2 and
again on Aug. 15, Heineman said
inmates who would have completed
their sentence by late-June “qualified”
for sentence credit under the Anderson
ruling. Heineman even quoted the
ruling in a press release. “According to
Anderson....any individual who was
released early and who has not
committed a crime since their release is
entitled to be credited with the time
served in the community toward their
release date,” the Governor’s statement
began. But he skipped over the goodbehavior requirement as he continued:
“Therefore, any inmate who has been
back in his community longer than his
recalculated release date will have
completed his sentence requirement and
will
not
be
returned
to
incarceration....Heineman and Bruning
declined requests for interviews to
explain the state’s strategy for the
roundup. Instead, the Governor and
attorney general - whose terms expire at
the end of the year – issued a joint
statement: “Regarding the sentence
calculation errors made by the
Department of Correctional Services,
the State of Nebraska continues to
pursue a balanced and common sense
355a

legal strategy. For any criminal who
was released early and then rearrested,
those
convicted
felons
appeared in court, a judge conducted a
pre-sentence investigation and then
those individuals were sentenced for
their additional crimes.” What about the
time the prisoners owed on the original
sentence? The Governor and attorney
general declined comment, citing
“matters currently in litigation.” In
reality, none of those inmates has
sued.168
The plan ultimately developed by the Governor
and the Attorney General was to require the return
of 40 prisoners who owed time and not require the
return of 257 inmates who had been mistakenly
released into the community longer than their
recalculated sentence date.169 Of the 40 inmates, 20
were brought back on warrants. The remaining 20
inmates had less than six months to serve on their
sentence and placed on parole, the RFP program and
five were placed on the Temporary Alternative
Placement Program (TAPP explained below).170 How
the administration and the Attorney General
followed through with these inmates reflects, once
again, the second principle to control NDCS: “keep
those prisoners released from returning to the
Department of Correctional Services.”

168

Exhibit P at 114-123

169

Exhibit P at 28-29

170

Exhibit E at 236 and Exhibit P at 28-29

356a

The Omaha World-Herald article on September
29, 2014, disclosed that a number of the prisoners
who had been mistakenly released had, in fact,
committed felonies while at mistaken liberty.171 The
Anderson holding would require that these inmates
be returned to the Department of Correctional
Services to resume their sentence where they left off
on the date they were mistakenly released. These
individuals were never required to return to the
Department of Correctional Services to complete
their sentences, at least not before the Omaha WorldHerald did a story on the subject and the LR424
Committee questioned both Director Kenney and
Governor Heineman as to why those inmates that
have broken the law have not been required to return
to the Department of Correctional Services to resume
their sentence.
Once the Omaha World-Herald published their
September 29, 2014, story and the Committee
questioned both Director Kenney and Governor
Heineman, the Attorney General announced that it
had filed “a test case.” It is the considered opinion of
the Committee that even if a test case was necessary,
a delay of five months is suspicious at best and is
more likely a reflection of the fact that the
administration and the Attorney General had no
intention of requiring those inmates who broke the
law after they were mistakenly released to return to
Corrections to serve out the balance of their
sentences. The holding in Anderson is not as complex
as the remarks from the Attorney General would
have us believe. Anderson provided a process as well
as the criteria for evaluating which inmates were not
171

Exhibit P at 114-123

357a

entitled to day for day credit and, therefore, needed
to be returned to the Department of Correctional
Services. To suggest that a test case was necessary
was, in the Committee’s opinion, the “spin” that
followed the embarrassing revelation that both the
administration and the Attorney General were not
compelling those who committed serious criminal
offenses to return to the Department of Correctional
Services to resume their sentences.
The Committee cannot help but observe the
irony involved in the administration’s failure to
follow the Anderson opinion as it developed a plan for
dealing with the 306 mistakenly released inmates. In
the first instance, the inmates were released as a
result of the Department of Correctional Services
failure to implement and follow the Nebraska
Supreme Court opinion in Castillas. This failure was
the subject of harsh criticism and press conferences
by both the Governor and the Attorney General who
then developed a strategy for dealing with the
debacle that involved ignoring another Nebraska
Supreme Court opinion, Anderson v. Houston.
The plan to deal with the 306 mistakenly
released inmates involved not only a willingness to
ignore the Anderson opinion from the Nebraska
Supreme Court, it also involved the creation of a
program Director Kenney titled the Temporary
Alternative Placement Program. This program,
Kenney stated, was a creature of his own
imagination.172 Under the TAPP program, Kenney
selected five inmates to simply remain in the
community where the clock would run out on the
balance of the sentence they owed the sentencing
172

Exhibit P at 28-29

358a

judges and their victims. Kenney testified that he
created the TAPP program by taking a “lenient” view
of his statutory authority to place inmates in
“suitable residential facilities.”173 This “lenient
interpretation” did not square with the law.
For all of the criticism rightfully heaped upon
George Green, he did provide Director Kenney with a
legal opinion that the TAPP program was not
supported by the law.174 Green provided Kenney with
the legal authority for his opinion which included an
Attorney General opinion authored in 1991 which
opinion clearly stated that any individuals placed on
furlough require Parole Board approval.175 The TAPP
program had no such requirement.
The Committee concludes that the TAPP
program was developed, once again, in response to
the second principle driving NDCS policy in the wake
of the overcrowding crisis: “keep those prisoners
released from returning to the Department of
Correctional Services.”
What’s more remarkable, Director Kenney
would be advised by his legal counsel that his
“lenient view” of the statute was outside of the law
and that he would not, thereafter, secure an opinion
from the Attorney General’s office. Instead, Kenney’s
response to his legal counsel was “I don’t have the
luxury of statutory compliance.”176

173

Exhibit E at 246

174

Exhibit E at 240

175

Exhibit O at 110-112

176

Exhibit E at 249

359a

In the Committee’s judgment, Kenney’s
statement to his legal counsel is both a troubling
admission that he was creating a “program” outside
of the law and the clearest example of the decision
making process at NDCS once the consequences of
the overcrowding crisis settled upon NDCS. Judges
alone decide an appropriate sentence an offender
owes his or her victim. NDCS is not authorized by
law to unilaterally credit offenders with time not
lawfully spent in custody. Kenney’s decision to do so
was directly related to overcrowding and was, in the
Committee’s judgment, not supported by legal
authority.
The failure of NDCS to timely apply the
Castillas opinion to sentence calculation policy may
very well have been the result of little more than
standard bureaucratic incompetence. The same
cannot be said for the manner in which the
administration dealt with the 306 mistakenly
released inmates. Rather than conform the solution
to the law, a familiar course was followed in which
the law was set aside to accommodate the second
principle controlling NDCS in the midst of the
overcrowding crisis: “keep those prisoners released
from returning to the Department of Corrections.”
Not only did the plan developed to address the
306 mistakenly released inmates involve solutions
outside of the law, but the decision to do so was
deliberate as evidenced by Director Kenney’s
observation: “I don’t have the luxury of statutory
compliance.”
That comment, in the Committee’s judgment,
pretty much summed up the sentiment at NDCS and
in the administration when it came to the

360a

implementation of “no cost options” as a strategy for
addressing the overcrowding crisis.
The pressure to alleviate overcrowding
through “no cost options” began in the governor’s
office and was felt throughout the administration
down to the level of a records manager. As Jeannene
Douglass commented:
Jeannene Douglass: I know. I’m trying
to tell you. I think it was the overall
atmosphere of the whole division.
Senator Lathrop: Was the ....
Jeannene Douglass: Everybody was
getting pressure. And it just comes on
down. It’s kind of like when you’re
showing your dog in a dog show. How
you feel travels right down that leash to
that dog. The same thing is happening
here.
Senator Lathrop: I think that’s a perfect
analogy. Tell us about the atmosphere.
Jeannene Douglass: There was...it was
quite well known that we had to reduce
the population and that there was a lot
of pressure to find ways to do it. And I
think it was coming from the Governor
on down. That’s just an opinion.177
In many ways, the decision to employ “no cost
options” was a failure of leadership. Section 83- 962
of the Nebraska statutes provides a process for
addressing an overcrowding emergency. Under the
Correctional System Overcrowding Emergency Act,
177

Exhibit C at 165

361a

the governor may declare an emergency when the
“population is over 140% of design capacity.”178 Once
an emergency is declared the Parole Board must then
parole all suitable candidates until the “population is
at operational capacity.”179 This process, of course, is
transparent and the Governor’s involvement quite
obvious.
In contrast to the statutory process available
to the Governor in the Correctional System
Overcrowding Emergency Act, the administration
chose a course that involved working in the shadows
where pressure on NDCS and the Parole Board was
applied to move inmates to the community with
plausible deniability. All while maintaining that
overcrowding was not influencing decisions at NDCS.
The findings of this Committee suggest otherwise.
I.

COMMITTEE RECOMMENDATIONS

The
Committee
recommendations:

makes

the

following

1.
The Committee recommends that the
Department of Correctional Services Special
Investigative Committee should be reconstituted by
the next Legislature. The Committee should provide
oversight
in
the
implementation
of
the
recommendations made in this report, as well as the
recommendations provided in the report from the
Performance Audit Committee which report is found
in the Appendix and is incorporated in this report by
this reference as though set forth herein in its
entirety. Finally, the Committee should also be
178

Neb. Rev. Stat. §83-962 (Reissue 2014)

179

Ibid

362a

involved in the oversight process of the Council of
State Government’s recommendations.
2.
The Committee recommends that the
Reentry Furlough Program should be abolished. The
Committee acknowledges that there may be some
merit in programs that facilitate supervised release.
For that reason, the Committee offers no
recommendation as to whether the Reentry Furlough
Program or some other form of supervised release
should be available to the Department of
Correctional Services as a tool for reducing
recidivism. In the event there is to be a furlough
program or a supervised release program established
for the use of the Department of Correctional
Services, it should be created legislatively.
3.
The Committee recommends that the
Legislative Research Office and/or the Legislative
Performance
Audit
Committee
conduct
an
assessment/audit to determine which Administrative
Regulations were promulgated in violation of the
Administrative Procedures Act. The results of the
audit/assessment should be provided to each member
of the Legislature. If such an audit or assessment
discloses the need for clarification of the
Administrative Procedures Act, the Legislature
should act.
4.
The Committee recommends that the
Legislature establish the “Office of Inspector General
of the Nebraska Correctional System.” The Office
should conduct audits, inspections, reviews and other
activities as necessary to aid the Legislature in its
oversight of the Nebraska correctional system.
5.
The Committee recommends that
Director Kenney not be retained by the next
363a

administration. Likewise, the Committee believes
the actions or inaction of Kyle Poppert, Dr. Mark
Weilage and Larry Wayne warrant termination.
6.
The Committee recommends that
Section 83-962 be amended to mandate that the
Governor declare a correctional system overcrowding
emergency whenever the Director certifies the
population is over 140% of design capacity. The
Committee believes the procedure found in Section
83-962 is a far more transparent process and
provides for greater accountability when the
Administration undertakes to resolve overcrowding
by means other than developing additional capacity.
7.
The Committee adopts the opinion and
conclusions of the Ombudsman, Marshall Lux, in his
Memorandum to Senator Steve Lathrop dated
December 5, 2014. This Memorandum is found in the
Appendix. The insights of the Ombudsman
concerning the Department of Correctional Services
are particularly well thought out through and, in the
judgment of the Committee, provide particularly
good insight into the culture problems that exist at
NDCS. The Committee would also adopt the
recommendations of the Ombudsman in his
Memorandum specifically related to the following:
¾ The LR 424 Committee mandate be
renewed in the next Legislative session.͒
¾ Take steps necessary to ensure the Parole
Board is independent of the Department of
Correctional Services to include physically
removing them from the same office space
as the Department of Correctional Services
and providing them with their own
attorney.
364a

¾ Allowing the Parole Board the role of
developing standards for all reentry
programming going forward.͒
¾ That all regulations from NDCS be
examined
and
all
regulations
not
promulgated in compliance with the
Administrative
Procedures
Act
be
abandoned. Furthermore, a clarification of
the APA to ensure that any regulations of
the rights and interests of inmates are
regarded as “private rights” and “private
interests”
under
the
Administrative
Procedures Act”.
¾ That the Reentry Furlough Program be
abandoned and if it is to be established,
that it be established through the
legislative process.
¾ That the State should move forward a
proposal to establish a free standing
mental health facility for mentally ill
NDCS inmates at the Hastings Regional
Center.
¾ The State of Nebraska should consider the
privatization of mental health care inside
NDCS.
¾ This Committee share what it has learned
regarding mental health treatment with
the
Health
and
Human
Services
Committee.
¾ The State should consider developing a
computer program to calculate inmate
sentences, their parole-eligibility date, and
their tentative release date.
365a

¾ The Legislature should set standards for
which inmates can be placed in
Administrative Segregation and, perhaps,
the length of time they can remain in
Administrative Segregation.
¾ The Legislature should also require that
NDCS provide meaningful mental health
services to inmates in Administrative
Segregation
as
well
as
adequate
programming resources.
¾ The NDCS should be provided more in the
way of programming resources so that all
programming is offered in all institutions.͒
¾ The Legislature should pass legislation
permitting the Ombudsman’s office direct
access to NI-CAM system (the NDCS
computerized record system).
¾ Establish a permanent committee to serve
as an oversight body for the Department of
Correctional Services and for correctional
issues.
8.
The Committee endorses the remarks of
Governor-elect Ricketts regarding the need to
conduct a nationwide search for the next Director of
Correctional Services. The Committee believes that
the next Director of Corrections should be a “reform
minded” individual committed to carrying out not
only the recommendations of this Committee, but the
recommendations of the CSG working group and
such reforms as may be necessary to overhaul the
state’s use of segregated confinement. The
Committee believes the Governor-elect should
scrutinize each individual who works in the central
office at the Department of Correctional Services,
366a

those who work in the area of behavioral health and
each warden at a correctional facility, to determine
his/her qualifications to continue in that capacity.
9.
The Committee recommends that the
political branches of government undertake a reform
of the State’s use of segregation. Such reform should
begin by with an evaluation of the mentally ill and
cognitively impaired individuals confined to
segregation. The State should commit to a significant
reduction in the use of segregated confinement,
beginning with removing the mentally ill and the
cognitively impaired. While the Committee heard
testimony about the Colorado experience with reform
of segregated confinement, it is difficult to lay out a
step by step process. That said, the Committee
strongly urges that reforms be undertaken to
significantly reduce the State’s reliance on
segregated confinement and to provide, for those who
must be in segregated confinement, mental health
care as their circumstances may require. Such
mental health care should include allowing inmates
to have private conversations with mental health
professionals on a regular basis, aligning inmate to
licensed mental health staff member ratios with an
appropriate standard of care and requiring that all
mental health professionals utilize evidenced based
therapy models that include an evaluation
component to track the effectiveness of interventions.
10.
The Committee also recommends that
additional resources be devoted to mental health care
and adequate programming. Mental health services
and programming should be made appropriately
available across facilities and to individuals in
protective custody. Mental health care and
programming should be evidence based. Specifically,
367a

the availability of violence reduction programming
should be expanded. Clearly, these are two areas
that have been sacrificed to cost-saving measures. It
is the Committee’s opinion that providing
rehabilitation for inmates through programming and
mental health treatment is critical to public safety
inasmuch as 97% of the inmates will be returned to
the community upon completion of their sentence.
Additional resources should be invested in
community based mental health both in terms of
access to mental health treatment that can prevent
entry into the correctional system and in terms of the
availability of community based mental health for
inmates upon re-entry.
11.
The Committee recommends that the
NDCS issue a quarterly report to the Judiciary
Committee of the Nebraska Legislature that reports
how many inmates are in each type of confinement,
including enumerating the number of inmates with
any type of mental illness and their diagnosis who
are housed in segregation and the number of inmates
released directly to parole or the general public
directly from segregation, not including protective
custody.
12.
The Committee recommends that the
NDCS present to the Governor and the Nebraska
Legislature, a long-term plan for the usage of
segregation. The plan should include better oversight
from outside of NDCS, and explicit plans for reduced
usage.
13.
The Committee recommends that a
separate facility or portion of a facility be established
for those inmates in long-term protective custody
who are not being separated from others in

368a

protective custody. This facility should operate as
closely to a general population facility as is practical,
and all major programing, especially for sex
offenders, be available in this facility.
14.
The Committee recommends that
inmates not be released directly from segregation
(not including protective custody) to the general
public under nearly any circumstance, with the
possible exception of an inmate that has been
exonerated
and
released.
The
Committee
recommends that transition plans be established for
inmates who are housed in any type of segregation
(other than protective custody), and are nearing their
mandatory release date. Such transition planning
must be meaningful and re-establish socialization for
those inmates.
15.
The Committee recommends that the
discharge review team at NDCS should develop a
clear and transparent process to review inmates who
are mentally ill, sex offenders, violent offenders, and
other inmates who pose significant risk to the public
safety to ensure adequate programming has been
provided, that the opinions of multiple mental health
practitioners have been considered, and to assess for
possible referral to the Mental Health Board for
commitment if appropriate.
16.
The Committee recommends that the
Legislature examine whether the definition of
“mentally ill” as used in the Nebraska Mental Health
Commitment Act warrants an amendment to
comport with current diagnostic practices.
[END OF SELECTION]

369a

